<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2015

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION
                                ________

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman

  JOHN ABNEY CULBERSON, Texas          CHAKA FATTAH, Pennsylvania
  ROBERT B. ADERHOLT, Alabama          ADAM B. SCHIFF, California
  ANDY HARRIS, Maryland                MICHAEL M. HONDA, California
  JOHN R. CARTER, Texas                JOSE E. SERRANO, New York
  MARIO DIAZ-BALART, Florida
  MARK E. AMODEI, Nevada
  
  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                            Subcommittee Staff
                                  ________


                                  PART 6

                                                                   Page
The State of Efforts to Stop Human Trafficking..................     1
FBI's Budget Request and Post 9/11 Reform Efforts...............    37
DEA and State of Research on Drug Abuse in America..............   113
Department of Justice...........................................   185
Bureau of Prisons...............................................   317

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   ________

          Printed for the use of the Committee on Appropriations











   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2015

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION

                                  ________

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman

  JOHN ABNEY CULBERSON, Texas          CHAKA FATTAH, Pennsylvania
  ROBERT B. ADERHOLT, Alabama          ADAM B. SCHIFF, California
  ANDY HARRIS, Maryland                MICHAEL M. HONDA, California
  JOHN R. CARTER, Texas                JOSE E. SERRANO, New York
  MARIO DIAZ-BALART, Florida
  MARK E. AMODEI, Nevada

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                            Subcommittee Staff
                                
                                ________


                                  PART 6

                                                                   Page
The State of Efforts to Stop Human Trafficking..................     1
FBI's Budget Request and Post 9/11 Reform Efforts...............    37
DEA and State of Research on Drug Abuse in America..............   113
Department of Justice...........................................   185
Bureau of Prisons...............................................   317

                                 ________

          Printed for the use of the Committee on Appropriations
                                 ________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  93-183                    WASHINGTON : 2015













                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  FRANK R. WOLF, Virginia                NITA M. LOWEY, New York
  JACK KINGSTON, Georgia                 MARCY KAPTUR, Ohio
  RODNEY P. FRELINGHUYSEN, New Jersey    PETER J. VISCLOSKY, Indiana    
  TOM LATHAM, Iowa                       JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama            ROSA L. DeLAURO, Connecticut
  KAY GRANGER, Texas                     JAMES P. MORAN, Virginia 
  MICHAEL K. SIMPSON, Idaho              ED PASTOR, Arizona   
  JOHN ABNEY CULBERSON, Texas            DAVID E. PRICE, North Carolina   
  ANDER CRENSHAW, Florida                LUCILLE ROYBAL-ALLARD, California  
  JOHN R. CARTER, Texas                  SAM FARR, California  
  KEN CALVERT, California                CHAKA FATTAH, Pennsylvania  
  TOM COLE, Oklahoma                     SANFORD D. BISHOP, Jr., Georgia 
  MARIO DIAZ-BALART, Florida             BARBARA LEE, California     
  CHARLES W. DENT, Pennsylvania          ADAM B. SCHIFF, California        
  TOM GRAVES, Georgia                    MICHAEL M. HONDA, California    
  KEVIN YODER, Kansas                    BETTY McCOLLUM, Minnesota           
  STEVE WOMACK, Arkansas                 TIM RYAN, Ohio     
  ALAN NUNNELEE, Mississippi             DEBBIE WASSERMAN SCHULTZ, Florida           
  JEFF FORTENBERRY, Nebraska             HENRY CUELLAR, Texas 
  THOMAS J. ROONEY, Florida              CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee      MIKE QUIGLEY, Illinois        
  JAIME HERRERA BEUTLER, Washington      WILLIAM L. OWENS, New York        
  DAVID P. JOYCE, Ohio                          
  DAVID G. VALADAO, California                
  ANDY HARRIS, Maryland                     
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  
                William E. Smith, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2015

                            ________
                            
                                      Wednesday, February 26, 2014.

             THE STATE OF EFFORTS TO STOP HUMAN TRAFFICKING

                               WITNESSES

STEPHANIE VU, HUMAN TRAFFICKING SURVIVOR-ADVOCATE
WILLIAM WOOLF, DETECTIVE, FAIRFAX COUNTY POLICE DEPARTMENT
CINDY McCAIN, CO-CHAIRPERSON, ARIZONA GOVERNOR'S TASK FORCE ON HUMAN 
    TRAFFICKING
JOHN D. RYAN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL CENTER 
    FOR MISSING AND EXPLOITED CHILDREN
    Mr. Wolf. The hearing will begin. We want to thank 
everybody for coming here.
    I want to welcome all the subcommittee Members to this, our 
first meeting and hearing of the 113th Congress. We have many 
familiar faces returning to the subcommittee and we will have 
some new Members.
    Mr. Fattah returns as the ranking member and I look forward 
to our good working relationship together as we have had over 
the previous years.
    New Members are Judge Carter of Texas; Mr. Diaz-Balart of 
Florida. And the reason, some Members--there are so many other 
committees going on--are at other meetings; and Mr. Amodei of 
Nevada.
    Mr. Aderholt has been designated as our new vice chairman 
taking on the mantle from Mr. Bonner, who served in that 
capacity the last session, and great things come out of 
Alabama. We are sorry to see Mr. Bonner leave.
    We expect the President's budget for fiscal year 2015 to be 
released in March. The subcommittee will pursue an aggressive 
schedule of budget hearings in late March and April. We will 
have subcommittee hearings with the heads of major departments 
and agencies to justify their requests.
    While we await the President's budget, we will have two 
oversight hearings this week, today on combating human 
trafficking and tomorrow on federal investments in neuroscience 
research which has been a--really the driver behind that has 
been Mr. Fattah.
    A few years ago, a local church group, my church, actually, 
sought my assistance to help end human trafficking in Thailand 
and Albania. I was happy to lend my support, but pointed out 
that sex trafficking was not just occurring in far away places. 
It was happening just across the river in northern Virginia, in 
Annandale, rather than Albania, and Tysons Corner as well as in 
Thailand.
    We can and I think we must confront this injustice. I have 
personally long admired the abolitionist efforts of William 
Wilberforce. Many have called human trafficking the slavery 
issue of our time and ending this insidious criminal activity 
will require the same doggedness that Wilberforce exhibited.
    This committee has been very active on this issue for a 
number of years and I might say on a bipartisan basis. Most 
recently the CGS portion of the 2014 omnibus spending bill 
signed into law last month includes a number of provisions to 
help combat trafficking.
    The bill directs the FBI to increase the amount of 
resources dedicated to human trafficking. It also says they 
need to improve coordination with other law enforcement 
agencies to better address trafficking and regularly report to 
Congress on what it is doing to fight trafficking.
    The Attorney General under the law has passed and signed as 
required to go on and submit a comprehensive report on all DoJ 
anti-trafficking activities including legislative proposals to 
bolster anti-trafficking enforcement.
    The Justice Department under the law is required, required 
to detail action it has taken to investigate allegations of 
human trafficking or abuse of non-immigrant Visa holders, to 
enforce a policy of zero tolerance for sex and labor 
trafficking by federal contractors.
    The U.S. Attorneys under this law are expected to maintain 
their human trafficking task force. The year before that, we 
said every U.S. Attorney needs to have a task force.
    And let me just pay my tribute to Neil MacBride. He was a 
U.S. Attorney here in the eastern district. He since has left 
to go off to other things. But he probably was the best U.S. 
Attorney on this issue. So modeling after Neil's efforts, 
everyone has to also do this.
    We want to continue to undertake proactive investigations, 
not just wait, but work with groups like Polaris and other 
groups to proactive investigations including investigations of 
persons or entities facilitating trafficking of persons through 
the use of classified advertisement on the internet.
    Finally, under the law, the Justice Department must 
continue its outreach in the form of public notices with regard 
to the prevalence of human trafficking activities and report to 
the subcommittee on its efforts.
    The bill also provides nearly $14.25 million for grants to 
help victims of trafficking and $67 million for missing and 
exploited children programs.
    In addition, it should be noted that in addition to the 
language on trafficking, the bill provides out of this 
committee $417 million for the Office of Violence Against 
Women, which is higher than both the fiscal year 2013 level and 
higher than the President's 2014 budget request.
    Today we will hear from four witnesses to learn about the 
state of efforts to halt and prevent the trafficking of human 
beings and ask what more can be done, can this Congress do to 
deal with this issue.
    Just last week, a jury convicted an Indiana man for human 
trafficking. The man forced four women including a 16-year-old 
girl into prostitution. As DoJ noted in its press release 
announcing the conviction, quote, ``They did this in part by 
posting photographs of the females on backpage.com.'' 
Backpage.com is going to come up over and over and over. If you 
do not close down backpage.com, you can have all the hearings 
in the world. It is not going to--you can treat the symptoms, 
but you will not solve the problem.
    Unfortunately, this is all too common. Last March, an 
Atlanta man pleaded guilty in federal court in Alexandria to, 
quote, ``running a commercial sex business,'' and Neil MacBride 
brought this case, ``that prostituted multiple juvenile girls 
in Herndon.'' Herndon used to be in my district. I lived 
several miles from Herndon--``and other locations throughout 
Virginia, Maryland, North and South Carolina, Georgia, and 
Florida.''
    The FBI press release announcing the guilty plea 
specifically mentioned the Web site, quote, ``Daily,'' the 
Enterprise posted, this is FBI language, ``multiple 
advertisements on backpage.com.''
    How do the people who own backpage.com, how do they live 
with themselves? I mean, if you were in that business, how do 
they honestly live with themselves? How do they go out to their 
neighborhoods and their Little League games and if they have 
children, how do they say what do you do for a living? I run 
backpage.com which procures--I mean, how do they live with 
themselves?
    And now we see backpage.com being used in places like 
Winchester, Virginia in my district which is a city in the 
western part of my area and a beautiful, idyllic Shenandoah 
Valley. There have been two instances in recent weeks where 
arrests have been made in relation to ads on backpage.com.
    During the Super Bowl, the FBI conducted an operation 
targeting child sex trafficking which resulted in the rescue of 
16 children and the arrest of 45 pimps and their associates.
    According to the New York Star Ledger, some of the arrests 
were made by the FBI agents posing as johns and responding to 
ads on sites like backpage.com.
    At the recent MBA all-star weekend in New Orleans, 30 
people were arrested in connection with sex trafficking. 
According to law enforcement officials, women were brought in 
from across the county, California, Florida, Illinois, 
Missouri, Ohio, Tennessee, Texas to engage in sex-related 
crimes during the weekend.
    On this topic, I especially want to thank Cindy McCain who 
will be testifying today for helping to raise the awareness of 
the problem of sex trafficking at the Super Bowl and other 
large sporting events. You may have seen her recent op-ed in 
the Washington Post on the subject.
    And what happens outside this body that I work in is 
downstream from outside. If this institution does not hear from 
outside, this institution generally does not do anything. So I 
appreciate Ms. McCain doing this. And she did the op piece 
which sort of forced this institution and to motivate because 
if this institution, Rs and Ds, are hearing from people outside 
this institution, then hopefully the Administration will be 
driven to do something about it. The subcommittee has 
jurisdiction over funding for the Department of Justice.
    I personally want to thank the FBI agents. I want to thank 
Director Comey and former Director Mueller. Both of them have 
really been on board to deal with this.
    Bob Mueller, frankly, the new building that they built for 
the FBI, I think it ought to be called the Bob Mueller 
building. He and now Director Comey have really--they are into 
this. And since the rank and file see that their director is 
into it, they are into it.
    I want to thank them and also a lot of the U.S. Attorneys 
and, again, to pay particular tribute to Neil MacBride. Every 
U.S. Attorney should try to be a Neil MacBride because if every 
U.S. Attorney did what Neil did--at the same time, I am 
concerned about actions the Department of Justice has not, N-O-
T, have not, underlined not, N-O-T, taken.
    The subcommittee directed the department to report on the 
effectiveness of existing laws and authorities to go after Web 
sites such as backpage.com, not just traffickers that advertise 
on them. The report was due on April 25, 2013. The Dogwood was 
out when this was due. That was ten months ago. To date, the 
subcommittee has yet to hear.
    The subcommittee directed the department to report on the 
effectiveness of existing laws and authorities to go after Web 
sites such as backpage.com, not just the traffickers that 
advertise on them. That report was due April 25, 2013. Again, 
ten months ago. To date, the subcommittee has yet to see it.
    I have personally written the Attorney General over and 
over over the last two years urging the department to prosecute 
backpage.com. I think they are afraid of backpage.com. I mean, 
they won't even say the word. They won't even articulate the 
word.
    And we are going to submit for the record, so anybody that 
wants to see it, just call my office. We will give you all the 
letters that were sent to the Attorney General. In these 
letters, I repeatedly wrote that if the department was of the 
view that current law would not support such action, then 
provide a legal analysis and possible legislative language for 
how this could be remedied.
    Many of my letters went unanswered. And the responses I did 
receive failed to address my primary concern with respect to 
backpage.com. I have even urged without effect Attorney General 
Holder to publicly call out backpage.com and similar sites to 
at least add an element of shame in the public square. Just 
cannot get them to do it.
    There is much more that can be done to tackle this problem. 
And I am confident today's witnesses will shine even more light 
on the matter.
    And so first we will hear from Stephanie Vu, a human 
trafficking survivor and advocate. Stephanie frequently works 
in conjunction with two nonprofit organizations, Shared Hope, 
which has done an incredible job, and Youth For Tomorrow. If 
you recall, Youth For Tomorrow, the home was started by a 
former coach for the Washington Redskins, Joe Gibbs, which is a 
northern Virginia charity out in the Manassas area.
    These two nonprofits are involved in stopping human 
trafficking and also aiding survivors. You just cannot stop 
something. You have to have a place that the survivors can go 
to to aid them.
    After her, we will hear from Detective Bill Woolf of the 
Fairfax County Police Department who is on the front line of 
dealing with that problem. He and his colleagues in northern 
Virginia are making a difference and he had a major article in 
the Washingtonian Magazine. I would urge people to read it if 
they have not read it. And we will put that Washingtonian piece 
in the record at this time.
    After hearing from them, we will begin our second panel 
where we will hear from Cindy McCain who is a national leader 
in anti-trafficking efforts and is co-chairman of the Arizona 
Governor's Task Force on Human Trafficking.
    We will also hear from John Ryan who is the president and 
CEO of the National Center for Missing and Exploited Children.
    If any Member who has not been to NCMEC, I would urge you 
to go over there and see it. What they do is incredible and it 
is just across the river. You can be there in 10 or 15 minutes, 
but I think you ought to take the time, maybe bring your staff 
to go over and see it.
    Before we hear their testimony, we are going to recognize 
Mr. Fattah for any comments that he would make, then any other 
Members, and I will introduce one other Member who we will 
allow to sit here with the panel.
    But, Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    I will just associate myself with the remarks of the 
chairman. And I did visit the Center for Exploited and Missing 
Children over in Virginia and I do agree with you that other 
Members should visit.
    The problem that we are going to deal with today is 
worldwide, however it is also right here in America in both the 
Philadelphia area and in every other area of the country.
    So I want to welcome our witnesses and thank each and every 
one of them for their appearance here today and look forward to 
their testimony.
    Mr. Wolf. Thank you, Mr. Fattah.
    Any other Members? Mr. Aderholt, I introduced you as the 
new. I said great things come out of Alabama. And so any other 
Member want to make a comment or anything?
    [No response.]
    Mr. Wolf. Well, if I may, following the rules of the 
committee, Congresswoman Kristi Noem has arrived. She has 
represented South Dakota in the House since 2011 and has been 
passionate about the issue involved in human trafficking.
    Committee rules and longstanding practice stipulate that 
non-committee Members do not participate in committee hearings, 
but I wanted to invite her because of the work she has done. 
And I saw a report she had done, a conference on Monday to hear 
the testimony of her witnesses and as a matter of courtesy 
offer her the opportunity to say a few words.
    So with that, I ask unanimous consent that Ms. Noem be 
permitted to make a brief statement to the subcommittee if she 
wishes and that her remarks be entered into the record and she 
have the ability to sit up here. Any objection?
    Mr. Fattah. We concur on the minority.
    Mr. Wolf. Okay. Thank you, Mr. Fattah.
    Hearing none, we welcome Congresswoman Noem.
    And then with that, I think William is still in traffic. 
So, Stephanie, we will start with you. Bill Woolf is in 
traffic, so he came, I think, all the way from Manassas today.
    So why don't you begin. We want to, Stephanie, thank you 
for taking the time to come and be willing to come forward. And 
I think we are all very grateful that you are willing to speak 
out, but we turn the floor over to you.
    Ms. Vu. Thank you.
    Mr. Chairman and distinguished Members of the committee----
    Mr. Wolf. Your mike.
    Ms. Vu. Oh, pull it up? How is that? Is that good? Okay.
    Well, Mr. Chairman, distinguished Members of the committee, 
I thank you for the opportunity to testify today.
    I am a survivor of domestic minor sex trafficking. As a 
survivor, I provide advice to two anti-trafficking 
organizations that were critical to my escape from 
exploitation.
    Shared Hope International works to restore victims of sex 
trafficking and prevent the horror of what I endured.
    Youth For Tomorrow has developed specialized trauma center 
services and shelter for victims of domestic minor sex 
trafficking like I was.
    At the age of 12, I was chosen. I was invited to a party by 
a handsome older boy who took a lot of interest in me. Although 
flattered, I never thought I would see him again. Strangely, I 
did see him again and again at the grocery store, Starbucks, 
everywhere I went. In my 12-year-old mind, I was convinced that 
this was fate and I soon began intentionally meeting him every 
chance I had.
    My mother, a military wife, worked day and night to support 
our family while my father was deployed. My job was to watch my 
younger siblings, but I had little supervision. It left me free 
to see this charming older boy. I was searching for something 
and he looked like the answer, filling my loneliness and my 
young heart's desire for love and romance. But I soon learned 
he was a wolf in sheep's clothing who intended to turn me into 
a product to be devoured.
    For a while, I thought my dreams had come true. He said he 
loved me and he wanted to marry me. He bought nice things for 
me and took me out to clubs and places I could never go without 
him. However, in just a few months, he demanded a return and I 
was sent to perform in a strip club.
    I resisted, but he said he was in a financial jam and 
needed my help and so it began. I started skipping school and 
dancing in strip clubs. It was degrading, but he pressured me 
and convinced me I was doing it for us.
    At the age of 13, I was too naive to see what was really 
happening. Soon this boyfriend demanded something more than 
dancing. I was told I had to sell myself for sex and I will 
never forget that night as long as I live. I refused, but he 
threw me out of the house on a bitter cold night, telling me to 
make money or freeze.
    My clothes were skimpy. I shivered as I paced the streets. 
The buyers were flagging me down and after a few hours of 
misery, I could not feel my hands or feet. So in desperation, I 
finally climbed into a car.
    That moment changed my life forever. There were three men 
that night and at the end of it, I could not stop vomiting. 
After they were finished with me, I could not stop vomiting. So 
began endless nights of selling my body. I descended into 
depression. I drank and took drugs to dull the pain.
    I made the money my trafficker demanded and learned to live 
with his constant abuse and the abuse of buyers. At just 15 
years old, I wanted to die. The lifestyle I was living proved 
my worthlessness.
    Finally, one night, the police picked me up and recognized 
me as a reported missing child and took me home. But fearing 
what he would do to me if I did not return, I ran back to my 
trafficker.
    Later I was arrested again. This time, I was sent to 
juvenile detention where my probation officer seemed to suspect 
my victimization, but I strongly denied it and again I was sent 
home on probation.
    A few days later, my trafficker exacted the revenge I 
feared. I was brutally raped in front of my own house. I had to 
be hospitalized and while I was there, my probation officer 
reached out to Linda Smith of Shared Hope hoping she could find 
some place where I would be safe and where they had the skills 
to address my many needs.
    Finally, she located Youth For Tomorrow in Virginia 3,000 
miles away. I had to go that far for my frightened mother and 
siblings because there was no place closer to home that could 
give me the help I needed to heal.
    The day I was released from the hospital, Linda arranged 
for me to move into a beautiful hotel room until I could be 
safely relocated. The memory of that view from the room, the 
view of freedom still brings tears to my eyes.
    Sadly, my story of seduction and exploitation is not 
unique. Many girls go through what I did and much more. I saw 
victims younger than I was. One of the girls was ten years old 
and I knew girls much older who had been exploited since they 
were my age.
    Unfortunately for others, my story of restoration is 
unique. Shelters and services for the protection and 
restoration of child sex trafficking victims are scarce. Being 
sent home on probation did not address the trauma bonds and 
fear that caused me to return to my trafficker.
    My journey has made me strong, strong enough to be a voice 
for others. My faith in God and his remarkable way of making 
beauty from ashes has emboldened me to speak to you on their 
behalf. The funding of organizations like the ones I have 
mentioned is vital. Without them, I would not be sitting here.
    Congress has the power to make development of shelter 
services a priority. The journey from victim to survivor and 
advocate, the journey I was able to take depends on it.
    For my part, I have shared my story in a critical awareness 
video produced by Shared Hope International called Chosen. It 
is my hope that it will keep many from the ordeal I endured by 
alerting them to the techniques used by traffickers and the 
devastating result of believing their lies.
    Thank you.
    Mr. Wolf. Thank you, Stephanie. Thank you for your 
testimony.
    Next is Detective William Woolf from the Fairfax County 
Police Department who--you live in Manassas. I guess you had a 
little trouble coming in today.
    Mr. Woolf. Yes, sir. It was a little bit of traffic this 
morning. Sorry.
    Mr. Wolf. But thank you very much.
    And he has done an outstanding job out there in Fairfax 
County.
    We will just turn it over to you, Detective Woolf.
    Mr. Woolf. Thank you, Chairman, and thank you for the 
opportunity to speak before this committee this morning about 
the issues of human trafficking, specifically what we are 
seeing in the northern Virginia region.
    Recently some of the strides that we have made is we were 
recently awarded a grant from the Department of Justice to 
start a human trafficking task force in northern Virginia. And 
that is an enhanced collaborative task force in conjunction 
with Fairfax County Police Department, Polaris Project, as well 
as the U.S. Attorney's Office for the eastern district of 
Virginia.
    That was a direct result of the rise in issues that we saw 
in northern Virginia. We have had several notable cases in the 
northern Virginia area to include the underground gangster 
CRIPS case, which is a group of CRIPS gang members were 
exploiting young girls for over six years in the region.
    These girls were going to school every day in the same 
communities where they lived and in the same communities where 
they were being exploited as well.
    We know that that particular group exploited hundreds of 
girls over the six years that they were active. We have had 
cases like the black Italian family where Mr. Vargas and Dumas 
recruited underage girls from various states and trafficked 
them into Virginia for the purposes of commercial sex.
    At the time that we interdicted that enterprise, they had 
six juveniles that were actively working for them in northern 
Virginia.
    As a result of that and many other cases, we were able to--
Fairfax County Police Department established their first human 
trafficking unit which falls under the Northern Virginia Human 
Trafficking Task Force.
    That unit started in October 2013 and since that time, we 
have received over 70 tips and leads regarding human 
trafficking specific to the northern Virginia region. Fifty-two 
percent of those leads involved juvenile sex trafficking cases. 
So we are seeing a predominance of cases with underage girls 
that are being lured and induced into this lifestyle and being 
exploited by their traffickers.
    Part of the reason that we have seen such a rise in the 
number of cases, particularly in northern Virginia, is due to 
our enhanced ability to identify the victims, working with 
partners like Shared Hope International, the National Center 
for Missing and Exploited Children.
    We have received the training, law enforcement has received 
the training to be better equipped at identifying victims of 
trafficking that for so long were misidentified as troubled 
youth or other various traditional ideologies that we have had.
    Through the collaboration that we have had with the 
schools, community members, court services units, we have been 
able to educate them as well on how to identify and address 
trafficking scenarios.
    And so because of that, a lot more of the victims in 
northern Virginia are being identified as such, as victims, and 
we are in the process of enhancing our ability to provide them 
with the services that they need.
    It is important to note that as you all have heard this 
morning the amount of trauma that goes into the victimization 
piece of this particular crime is that which is beyond most 
other crimes that we see here in the United States.
    They are life altering for the victims. I have seen it 
firsthand in the young girls that I have had the opportunity to 
work with. And because of that, we have shifted our approach 
and we have taken on a very victim centered approach.
    Our number one priority is recovering and rescuing these 
young people from these terrible situations. The problem with 
that is it is extremely resource intensive both for law 
enforcement as well as the other individuals in the community, 
those that are taking on the treating those that are 
trafficking victims.
    But we also see an increase not just in our ability to 
identify the victims, but we are also seeing an increase in the 
activity itself. And the reason that that is is mostly because 
of the internet, the ability for these traffickers to not only 
operate or conduct their criminal operations behind closed 
doors through the mask of the internet, but also their ability 
to recruit these individuals as well.
    They commonly exploit social media sites such as Facebook, 
Twitter, and things of that nature to be able to target their 
recruitment efforts, making them a lot more effective and 
efficient. They are going on and finding young people that may 
have a particular vulnerability in their life at that time that 
the traffickers can exploit and draw them into a life of sexual 
servitude.
    We see other internet-based companies like backpage.com 
that is openly and in some sense is legally advertising 
commercial sex. It gives these traffickers the opportunity to 
advertise to the general public these sexual services and to 
advertise essentially our children online.
    And because of this increase in activity, we call for a 
much more comprehensive and robust approach to addressing these 
particular issues.
    The Northern Virginia Human Trafficking Task Force has 
taken on a model very similar to, as the chairman well knows, 
the Northern Virginia Regional Gang Task Force which has been 
extremely successful in addressing the gang issues in northern 
Virginia.
    And that model, the way that we approach those issues in 
northern Virginia seems to have a lot of merit in addressing 
the issues of human trafficking as well in the region. And so 
that approach is essentially a three-pronged approached.
    And the first thing that we are doing to address the issue 
and the first need that we have is education and awareness. We 
found that through educating the general public, most 
individuals here in the United States are unaware that 
trafficking is even going on. They are aware that their 
children are potentially at risk to be victims of trafficking.
    And so by raising awareness within the community, we feel 
that we will be a lot more effective at combating the issue. 
One thing that we feel is essential is an anti-trafficking 
campaign, something that should be on a national level because 
this particular crime is something that affects all 
communities.
    It is a crime that does not discriminate on race, 
ethnicity, gender, socioeconomic class. It is something that 
has the potential of touching each and every community and each 
and every state here in the United States. And so the need for 
a national anti-trafficking campaign that is focused on our 
young people, that draws the attention at educating parents and 
teenagers alike is critical to being able to ultimately prevent 
this heinous crime.
    We would ultimately, like I said, like to prevent the crime 
than have to intervene through law enforcement action later on 
once the victimization has already been done.
    The next phase to that is prevention. So we raise awareness 
in the community and then we institute programs within the 
community to prevent this type of victimization.
    Fairfax County Public Schools have developed a curriculum 
for all students that attend the public schools that begins in 
the sixth grade and extends all the way through the twelfth 
grade. And this curriculum is based on not just awareness of 
trafficking within the community but also gives our students, 
our teen population the skills and abilities to be able to 
recognize and get out of those bad situations that may 
eventually lead to trafficking.
    This type of curriculum is essential for our teens again 
across the country right now. It is education and awareness and 
a skill set that many of our teens lack today. That leaves them 
vulnerable to being drawn into this particular type of 
scenario.
    The necessity for after school programs and other types of 
programs that will help to support our children, we know that 
the majority of homes in the United States right now both 
parents are working. They are career parents, and so we need 
programs focused on better supporting our teenage population 
during those after school hours when they might otherwise be 
left to their own devices.
    And then also programs for at risk youth. There are some 
pretty innovative programs in Northern Virginia that we are 
enhancing based on our knowledge of trafficking. Arlington 
County's Girls Outreach program, which specifically targets at 
risk youth, particularly girls, and provides them with an after 
school program that mentors them, gives them counseling, and 
helps them learn how to make good choices and decisions in 
their lives. This particular program has been extremely 
successful in teaching our children and our youth how to avoid 
trafficking scenarios.
    And then finally the third prong is the intervention piece. 
If it gets to the piece where unfortunately a young boy or girl 
is drawn into this trafficking scenario, then law enforcement 
has to intervene and recover and assist in restoration of that 
particular victim. And as you all heard this morning, the need 
for residential treatment facilities is essential across the 
country right now. Some people are having to come 3,000 miles 
just to find a treatment center here in Virginia that can 
provide adequate treatment for the victim as well as providing 
for a safe location as well. And this is a challenge for law 
enforcement and social services alike. That once we recover 
that juvenile victim, where do we place them? What is an 
appropriate placement for them? So the need for these types of 
facilities and the specialized training is absolutely 
essential.
    The Northern Virginia Human Trafficking Task Force has 
responded in collaboration with Prince William County Court 
Services and a private counseling company in Northern Virginia 
called the Multicultural Clinical Center in developing a 
training that is unique for residential facilities to provide 
long term therapeutic support for victims of trafficking. There 
are very, very few facilities that have specialized training, 
specifically if we talk about gang controlled sex trafficking, 
that understand the dynamics at work with the level of sexual 
assault that occurs in these types of scenarios. So that is a 
program that we have taken on and responded to the need in 
Northern Virginia. But really it is a need that exists across 
the United States right now.
    Obviously enhancing laws and sentencing guidelines is a 
huge deterrent for this type of criminal behavior. One of the 
frustrations that we see in law enforcement and for prosecutors 
alike is the judges are consistent going below the federal 
sentencing guidelines. They are oftentimes just imposing the 
mandatory minimums as provided by the statute when the 
guidelines suggest much higher penalties for this type of 
criminal conduct.
    The need for increased task forces as well, and those task 
forces being able to operate more effectively, again drawing 
your attention to the successes of the Northern Virginia 
Regional Gang Task Force and the abilities that it had in 
combating and suppressing gang activity. Being able to model 
the human trafficking task forces off of the successes that 
they have had we feel is essential to combating this particular 
issue.
    Overall these are some of the major things that we are 
seeing with regards to trafficking in Northern Virginia. And it 
is also as we speak and coordinate with law enforcement across 
the country they are seeing the exact same scenarios.
    And also the last piece that I just wanted to address very 
briefly is the need for federal legislation addressing the 
demand side. There are individuals out there that are 
purchasing sex from our children and these individuals need to 
be punished, or we at least need to tools to be able to address 
that as well. Particularly when their actions are affecting 
interstate commerce. There are currently no federal statutes 
that are applicable to addressing the demand side of the issue.
    Thank you for your time, Mr. Chairman.
    Mr. Wolf. Well, thank you. I had promised Ms. Noem I was 
going to let her say something. I am not going to ask questions 
until the end so first I will go, Congresswoman, you wanted to 
make a statement?
    Ms. Noem. Well, thank you Mr. Chairman, and I want to thank 
the members of the committee for the honor of sitting at the 
dais today and being able to make a statement on this issue.
    While I am not a member of this committee I am certainly 
passionate about the issue. You know, I am a mother of three. I 
have got two daughters that I know that for most of their lives 
while they were young girls and teenagers I never would have 
dreamed that when I sent them out the door to go to school, or 
to the mall, or to a store that they were in jeopardy of being 
trafficked. I, like most moms in this country I think, and I 
know certainly in my State of South Dakota, when we think about 
human trafficking we think about the knowledge that we have 
experienced through the media or potentially through movies 
that we have seen and thought about it internationally and not 
so much at home in our day to day lives.
    It is not until the last few years where the more that I 
learn about this issue the more it keeps me up at night. And I 
have begun to learn and to realize over the last several years 
the issues that we have in my own State of South Dakota. How 
prevalent it is during hunting season, that we have a 
motorcycle bike rally in Sturgis, South Dakota that happens 
every year where it is a big operation. That we have issues on 
our reservations that have been going on for decades. But that 
also we have it going on at our schools. That we have kids that 
are being approached and brought in much like Stephanie's story 
that she told. It could start through Facebook or Twitter, 
where they start becoming attached to a stranger who says kind 
and nice things to them and draws them into this industry where 
they soon find that they are being used and utilized in ways 
that they never dreamed possible. So for me it breaks my heart, 
and I think we need to do all that we can to do, to stop this 
deplorable industry and those involved in it.
    I had on Monday an event called the Justice Against Slavery 
Summit. It was probably the most comprehensive summit that we 
have had in South Dakota that brought together law enforcement 
officials, it brought together school counselors, 
administrators, outside organizations, faith-based 
organizations, legislators, to talk about what we can do in our 
state and across the country to help stop human trafficking and 
sex trafficking that was going on. Some of the greatest needs 
that have been talked about here today already have not only 
been the tools that we need at the federal level with 
legislation to make sure we can prosecute those who not only 
perpetuate the industry by being the pimps that recruit and 
bring our young women and men into the industry, but also those 
johns who go out there and create the market. And we need all 
the tools we can possibly get to stop them and to prosecute 
them to the highest extent possible. But also I have been 
working with my state legislators to make sure that our state 
laws are as high as possible. And we need to work to make sure 
the awareness is out there.
    I guess two of the things that we identified were very key 
on Monday, and that we are going to continue to work together 
as a comprehensive group, is to make sure that the awareness 
level is high. And this hearing today will help with that. I 
think it has helped a lot already just in my conversations and 
the conversations that will happen after this hearing is long 
over on the information that we have been able to gather and 
how we can use that to go out and tell the story to the rest of 
America so all moms and dads and teachers and counselors and 
people that see individuals on the street can be aware and know 
what to look for to help prevent the trafficking before it ever 
starts.
    And then after that the biggest gap that I see is once we 
do have victims out there is that we have a lack of ability to 
restore them because of a lack of shelters, of centers that can 
bring them the help and hope that they need into the future. So 
we need to do all that we can to make sure we are cooperating 
together with nonprofit organizations, faith-based 
organizations, but also in our role as federal legislators and 
state legislators to work to make sure that we have facilities 
there so that when someone calls and they need help, when they 
can get out of this industry, that we know where we can send 
them so that they can get the help that they need to be whole 
and to be healed and to go forward as well.
    So you know, President Kennedy often said the only thing 
necessary for the triumph of evil is for good men to do 
nothing. And doing nothing is not acceptable in this industry. 
Each of you has been an advocate in this area, and I want to 
thank you for bringing attention to it. And I certainly want to 
be your partner in this war that we find ourselves engaged in. 
I look forward to all of the testimony that we hear today, and 
to working with you and all of the organizations to stop human 
trafficking, to stop sex trafficking, and certainly to make 
sure that this evil can be stopped. Thank you. Thank you, Mr. 
Chairman.
    Mr. Wolf. Thank you very much. Mr. Harris.
    Mr. Harris. I want to thank the chairman for calling the 
hearing. I just have one question for the detective. What is 
the role that drugs play in the sex trafficking?
    Mr. Woolf. So very commonly we see the use of illegal 
narcotics as a way to maintain control over the girls. One of 
the trends that we are seeing is a moving away from some of the 
more traditional drugs associated with prostitution, such as 
heroin and cocaine, and a move towards some of the more 
designer drugs like Molly and Ecstasy. The main reason is for 
the traffickers because it does not have the negative physical 
effects. In other words, the users do not appear as strung out, 
if you will, by using those drugs. And so again unfortunately 
the truth of the matter is, to the traffickers these girls are 
simply a product and so they want their product to look good, 
to look presentable so that they can make more money. So they 
use some of these other narcotics as a means of control.
    Mr. Harris. And these other drugs I take it also have 
addictive properties?
    Mr. Woolf. Yes, sir. Absolutely.
    Mr. Harris. So that addiction is part of the problem as 
well?
    Mr. Woolf. Absolutely. Typically we see that a lot of times 
these more intense drugs are introduced to the victims by the 
traffickers. Prior to their involvement in sex trafficking they 
had not had any exposure to those drugs.
    Mr. Harris. To those drugs. What about drugs in general?
    Mr. Woolf. Typically marijuana. They do have access to 
that, but again some of the more harder drugs they have not had 
exposure to.
    Mr. Harris. Okay, thank you very much. Thank you, Mr. 
Chairman.
    Mr. Wolf. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And let me also thank 
you for convening this hearing, and to our witnesses, and 
Stephanie, thank you for your words and sharing.
    Just a couple of things. I think that we historically 
center on prevention and then we look at institutions that look 
at intervention and try to do some correction. We know that all 
of those areas are really low on resources to be able to do 
full, full work. And there are some bills being brought through 
the process in Congress. But one of the things I have noticed 
is that besides schools and other institutions where we 
interact with youngsters, the word awareness was brought up. 
And it seems to me that there has to be a greater sense of 
awareness and vigilance of I think just about everybody in our 
society because this is so prevalent.
    And some of the things that raised my eyebrows when I 
started to look into this a little bit more deeply is there is 
a group called the Airline Ambassadors who take it upon 
themselves, because they see themselves interacting with a lot 
of folks. Not necessarily engaged in negative behavior, but 
they tend to be interacting or a part of that flow of folks. So 
when people are more aware of telltale signs they become more 
aware. So it seems to me there should be some training in the 
other industry, just beside the law enforcement, social 
services, schools. Awareness among, and I guess in the Airline 
Ambassadors their point is the other industries need to take 
some sort of oath or awareness that they are not going to put 
up with this kind of nonsense. And when they see these kinds of 
things, that there should be some reporting. And to make that 
reporting not a negative thing but a positive thing, and that 
so there are no repercussions.
    I was a classroom teacher, and then I was a principal and 
we were required to report what we thought might be abuse. But 
a lot of my teachers were reluctant because they did not want 
to get involved because it is a very sensitive situation. So I 
took it upon myself for them to report to me, and then I would 
take it over. But through that process we learn a lot and we 
save a lot of grief, and prevent a lot of grief. But we also 
address a lot of issues in families. So it seems like we need 
to expand our conversation beyond the typical institutions into 
the private industry and engage them.
    And one of the things that I have read is some of the 
lessons learned when folks are more in tune with what is going 
on in social events, such as Super Bowl. Super Bowl brings in 
all kinds of folks globally. And that seems to be an event that 
allows a lot of these kinds of activities to continue or to be 
pursued without a lot of, without a lot of oversight and 
sensitivity. So I would be interested in some of your comments. 
One, on whether you have, we have invited you to take part in 
writing some of these policies or looking at it so that we can 
look at gaps that you would see because you are involved in it. 
Two, Stephanie, you should be looking at it, too, as a person 
who is out there now looking at how you work with the community 
and young people, to look for gaps in our policy making. And 
the second, a comment on extending the network into the private 
industries, such as airlines and Super Bowl hosts, and 
communities like that. Thank you, Mr. Chairman.
    Mr. Woolf. Thank you, Mr. Honda. Some of the things that we 
are doing in Northern Virginia right now is we are working with 
Fairfax Connector, which is the public transportation system, 
as well as Metro in the Northern Virginia region to train, 
again speaking of kind of that larger industry of professionals 
that may come in contact with potential victims or traffickers 
and helping them to identify. So we are in the process of 
developing some protocol for bus drivers and other individuals 
to not just identify but also a reporting mechanism to report 
suspicious activity as well. And so I definitely feel that 
based on my experiences and my knowledge that expanding into 
the private sector, working with transportation services as 
well as hotels and other industries that we know that victims 
are coming in contact with the workers there, and educating 
them on the realities of trafficking, and as well as how to 
respond to those particular scenarios.
    We have, during the course of investigations we have spoken 
to staff at hotels and we have, in law enforcement, have 
learned quite a bit because the staff has been able to educate 
us on some of the red flags that they look for and that they 
are aware of when there is a potential trafficking or at 
minimum, you know, commercial sex going on in that particular 
location. And it is all about kind of enhancing the 
collaboration between law enforcement and the private industry 
when it comes to these types of cases that will ultimately 
enhance our ability to prevent and interdict in these types of 
situations.
    Raising awareness, like you said, sir, is extremely 
important. One of the other efforts that we have is we have 
launched a public awareness campaign in Northern Virginia. It 
is called the Just Ask Campaign. And the idea behind that is 
that we need to be out there asking questions. The cornerstone 
of that campaign is a Website, which is justaskva.org. That is 
aimed at the teen population. There is a section that is geared 
strictly for teens, a section that is geared towards parents, 
and a section that is geared towards community members. It 
provides them with awareness training as well as identifying 
red flags and reporting mechanisms and how to respond to those 
situations as well. So I think that you raise a very valid 
point in that those are essential steps as we move forward in 
this process.
    Mr. Honda. Thank you.
    Mr. Wolf. Either can answer the question. Stephanie, what 
message would you have for anyone who is currently in the grip 
of human trafficking now?
    Ms. Vu. Well basically my message would be like, you know, 
look for help. And if there is no help available just do not 
give up hope because help is coming. I mean, people now are 
getting more aware and things like that. I mean, when I was in 
trafficking I did not have hope because there was not much 
there. But now there is, so that is basically what I would say.
    Mr. Wolf. I take it you had to come 3,000 miles, I do not 
want to know where you came from, we will not say. But was 
there nothing near you? Or how did Linda Smith find you? Or did 
you find Linda?
    Ms. Vu. My probation officer reached out to Shared Hope 
with Linda Smith. There was no centers or anything like that 
near my home that was available.
    Mr. Wolf. Would it make sense for all of the churches in a 
community, for instance in Loudoun County and Prince William 
County and Fairfax County, to come together with the Joe Gibbs 
Home or something? Because I think you separate this, it is 
stopping it from taking place, education, then when you find 
someone in, where do they go? So should all the churches, 
should this be something that the churches come together, that 
there are a series of homes? Not only in Northern Virginia. 
This is not just a Northern Virginia hearing, it is for the 
country.
    Mr. Woolf. I think that tapping into our faith-based 
communities as a way to kind of provide resources and housing 
and treatment for trafficking victims would be a very good 
idea. A lot of them are very motivated. As you are well aware, 
in Northern Virginia there is the Northern Virginia Human 
Trafficking Initiative, which is a consortium of Christian 
churches in the area that are providing victim services. The 
key is being able to provide the appropriate training for these 
facilities. Trafficking is a very unique set of complex trauma 
issues that need to be addressed. And so we need to ensure that 
we are not just placing victims in a location where they may 
not receive proper treatment because that may actually do more 
harm than it does good in certain circumstances.
    Places like Youth for Tomorrow have an excellent model, an 
excellent treatment model. They very much understand the issues 
regarding trafficking. Of course the problem with those 
particular facilities is as soon as a bed opens up, I fill it 
with another victim.
    Mr. Wolf. Right.
    Mr. Woolf. So the space is just not available right now 
throughout the country to place some of these girls. The other 
thing, just for the committee to be aware of, one of the issues 
that we consider when addressing the issue of placement is 
safety. So is it safe to put a Northern Virginia girl in a 
treatment center that is in Northern Virginia? Or do we need to 
move them to another location for their safety? But then 
finding an appropriate location that is trained and has the 
adequate abilities to address those issues is very difficult.
    Mr. Wolf. Is there a coalition of treatment centers that 
you can go online to find in Delaware, in California, in 
wherever, here is the place to go? Is there a list, if you 
will?
    Mr. Woolf. There is no formal list.
    Mr. Wolf. Should there not be? Should this not, I mean, 
maybe Polaris working with others could put together a place 
that if this is impacting on your community, here is where you 
go for training, and here is where you go for rescue. Should 
there not be? Has anyone looked at putting together a 
nationwide----
    Mr. Woolf. So the National Human Trafficking Resource 
Center, which is commonly referred to as the Human Trafficking 
Hotline, does have a comprehensive list of places throughout 
the United States. I think the issue is that that list is very 
short, particularly when it comes to juveniles or adults and 
sex trafficking when we talk about long term treatment. And 
that is the biggest deficiency. There are quite a few quick 
fixes to situations to respond to a situation of crisis, or 
short term treatment or placement. But when it comes to more 
long term care, which I am by no means a counselor or a 
therapist, but in working with these programs it is my 
understanding and experience that the program should be six 
months at minimum. Most programs should be closer to a year, if 
not longer, to adequately address those particular issues.
    Mr. Wolf. Do the hotels know? When I looked at the case 
that Neil brought, I looked at some of those hotels. I drive by 
some of those hotels. I mean, if anyone wants to see the hotel, 
frankly I do not think anybody ought to go to those hotels, 
just look at the indictments and see. Did those hotel owners, 
did the people know? I have even approached and said, well, why 
do you not put a conference on it. They have not responded. Do 
you think a hotel knows that this is going on in their hotel?
    Mr. Woolf. I believe some of the workers are aware, 
particularly the cleaning services that are going into the 
rooms and seeing what is there. I think that we have the 
ability to educate the hotels and the staff there as far as 
what some of the warning signs are.
    Mr. Wolf. Well what we will do, we will write the Hotel 
Association for Northern Virginia and challenge them to call 
you to put a conference on for all the hotel owners. But you 
think some of the people in the hotels know what is going on?
    Mr. Woolf. I think they know that there is commercial sex 
going on. I do not think they particularly understand that it 
is sex trafficking.
    Mr. Wolf. What do you tell, what is the message both of you 
would have for a parent? Congresswoman Noem talked about, I 
have 16 grandkids. I have eight granddaughters. What is the 
message out there to a parent? I mean, the media is listening. 
What should a parent be looking for? What should a parent know?
    Ms. Vu. Basically the fact that if their child is not being 
very social with them or their friends anymore. A change in 
their clothing, the way they walk, the way they talk. Staying 
the night at friends' houses more often than they usually do. 
Not coming home when they said they are going to. I cannot 
really think of anything else. But skipping school is one of 
them, yeah.
    Mr. Wolf. I think what we tell parents is be engaged in 
your child's life. I think there is a fine line between giving 
a teenager freedom and respecting their right to privacy, and 
protecting them from potential predators that are out there on 
the street. One thing that we have asked parents through the 
Police Department in Fairfax County is to do something we call 
friend checking. So go onto your child's social media site, 
their Facebook site, their Twitter, and ask them how do you 
know this individual? Why are you friends with them? If you 
have a 16-year-old daughter and she is friends with a 30-year-
old male, there should be some questions being asked as to why 
they are friends on that social media site. So really it is all 
about parents and caretakers and other individuals in that 
child's life being engaged and being aware of their activities.
    What do you think the trends are with regard to human 
trafficking both in Northern Virginia and around the country? 
At this moment, the trend. Is it going up? Going down?
    Mr. Woolf. That is a hard question to ask because 
statistics are scarce. We are just getting to the point where 
we are able to accurately collect statistics. I think that on a 
measurable level we are going to see the numbers rise over the 
next several years as we become better at being able to track 
and identify instances of tracking throughout the U.S. Whether 
or not trafficking itself is on the rise, I do not know for 
sure. I would feel comfortable saying that it is an issue that 
needs to be addressed. I do not think that it is declining.
    Mr. Wolf. Tell us about the gang involvement, MS-13, 
violent gangs like that.
    Mr. Woolf. So what we are seeing across the country right 
now is trending towards most criminal street gangs getting into 
the business of sex trafficking. The FBI reports that over 35 
states say that their gangs are involved in trafficking at this 
point. The reality is is the gangs are realizing that it is low 
risk, high yield for them. They need to fund their gang 
operations whether it is purchasing weapons, whether it is 
funding operations abroad, or whatever need the gang has, they 
are gaining their financial resources through illegal means. 
And sex trafficking is a lot less risky than narcotics 
trafficking with a similar yield as far as profit.
    Mr. Wolf. Why is it not a federal crime, I mean, to move 
people. The Mann Act, we were talking earlier, why is it not a 
crime? The group that came to Northern Virginia, moved them 
across, they went from South Carolina, North Carolina, Georgia, 
Northern Virginia. Why was that not a violation? And we will 
look at it and see. We will put something in. I will talk to 
Bob Goodlatte. You know, frankly if this Congress does not kind 
of deal with this issue aggressively now and it gets out of 
there, so we will drop something in. And I want you to know 
what the criminal penalty should be. And I am going to ask 
Cindy McCain the same thing. What is the best state law? What 
is the penalty?
    I sent, the video that you referenced, I sent that to every 
Supreme Court Justice. And what we will do is we will send that 
to every Court of Appeals Justice. Because, and we will say we 
had some witnesses here talking and they said the judges are 
sort of wimping out. And maybe the judges do not quite 
understand. So we will try to send that video. And we have had 
a good response from the Supreme Court Justices. I have been 
very impressed. So what we will do is we will send that to each 
Court of Appeals to make sure. But what should the penalty be? 
And why was that not a criminal act to take somebody across the 
line to Virginia from North Carolina or South Carolina?
    Mr. Woolf. So it is a criminal act to transport somebody 
across state lines for the purposes of commercial sex or really 
any illegal sexual conduct. The issue, particularly with the 
Mann Act, 18 U.S.C. 24, 21, and 22 is that if the victim is 18 
years of age or older, there are no mandatory minimums. So the 
average sentence that we would get for that type of prosecution 
would be zero to maybe five years for that type of conduct.
    Mr. Wolf. Really? What did Neil MacBride get in that case? 
What was the penalty?
    Mr. Woolf. There were juveniles involved in that case. The 
particular case that you are referencing was unique in that the 
statute that we used in prosecuting the two main players was 18 
U.S.C. 2252A(g), which is a child exploitation enterprise. It 
is the first time to our knowledge that that Code section has 
ever been used to prosecute a case of that nature. That has a 
20-year mandatory minimum.
    Mr. Wolf. Now that is really because of Neil, is it not? I 
mean, he got the, he kind of felt it and did it. Are other U.S. 
attorneys not using that around the country?
    Mr. Woolf. I feel very fortunate for being able to 
prosecute the majority of my cases through the Eastern District 
of Virginia. Mr. MacBride was extremely supportive of our 
investigations and went after them very aggressively. I'm not 
sure what a lot of the other districts are seeing right now. 
But I do know that I think that the Eastern District of 
Virginia is one of the top districts in the United States for 
prosecuting sex trafficking right now.
    Mr. Wolf. All right. The next last two questions we go to 
Mr. Fattah. In your written testimony you mention that 
traffickers are--your service uses a Greyhound bus to move 
victims from one location to another, in part because they 
recognize proper identification is not required to purchase or 
obtain a bus ticket. Therefore they can transport minors and 
evade law enforcement.
    Are there monosteps that could be taken by bus companies 
and the like to make it more difficult for the services to be 
misused, and to your knowledge, have any of these companies 
been officially approached by law enforcement with this 
request?
    Mr. Woolf. So it would seem that it would be a logical step 
for any transportation service, particularly one that is 
transporting persons through interstate commerce from state-to-
state could require some form of identification to be able to 
purchase that ticket. If not, a parent or guardian to purchase 
the ticket for them.
    What we commonly see is, I could go today over to Union 
Station and purchase a bus ticket in the name of Frank Wolf and 
get on a bus and go wherever I wanted to go, and provide 
absolutely no sort of identification.
    Additionally, traffickers are able to recruit juveniles 
from out of state. So, for example, we are currently working a 
case where the trafficker will send a bus ticket to Florida in 
the name of the juvenile--her proper name--but she requires no 
identification to purchase that ticket. All she has to do when 
she goes to the ticket counter is provide a password that the 
trafficker has set up. So they are even able to purchase these 
tickets on-line and not even be present where the victim is and 
then bring the victim to them.
    Mr. Wolf. Okay. The last question, we go to Mr. Fattah. 
Tell us something about backpage.com and some of these. Can you 
actually solve this if you don't deal with backpage.com and 
groups like that?
    Mr. Woolf. The truth is, is that these traffickers are very 
savvy, very much like when craigslist was able to shut down 
their escort. The traffickers just moved to another site. So 
really it's about addressing the issue of them actually 
advertising on-line, and not so much backpage in and of itself.
    There are other sites that exist throughout the United 
States, particularly on the West Coast. There is redbook.com, 
which is another on-line site. There is adultfriendfinder.com, 
and several other internet sites that are being used by the 
traffickers. Backpage gets the most attention because it is 
probably the most commonly used site for advertising commercial 
sex.
    Mr. Wolf. How would you deal with that? If you were the 
Attorney General of the United States, how would you deal with 
backpage and some of the others?
    Mr. Woolf. I think that by enhancing the penalties for 
using things like backpage.com and on-line resources, you know, 
enhancing the penalties for the traffickers--when they use 
things like that would discourage them from actually using it. 
And by doing so, it's going to really cut into their ability to 
make a profit.
    When there is very minimal ramifications for a trafficker 
to hide behind a computer screen right now, it makes our job 
more difficult because the paper trail in investigating those 
types of cases is immense and it really bogs down the speed of 
our investigations. So just making the penalties equal to the 
criminal conduct itself.
    Mr. Wolf. I am going to go to Mr. Fattah. One last 
question. What percentage of the cases of individuals, God 
bless them, who are involved in this activity are we actually 
dealing with now? Are we dealing with 87 percent, 37 percent, 
five percent? Of the realm of the world here in the United 
States, what percentage are we really--and Stephanie, you have 
any--are we really kind of dealing with that we're helping and 
impacting and shutting down and--nationwide. Not just----
    Mr. Woolf. I think that is a--it is a hard question because 
we don't have hard statistics.
    Mr. Wolf. What do you think?
    Mr. Woolf. The generally accepted number is less than one 
percent of victims are being identified.
    Mr. Wolf. There is less, and so 99 percent are not?
    Mr. Woolf. That is correct.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. I am probably not 
going to get into a lot of questions, because I know we want to 
hear from Mrs. McCain and from John. I want to thank you for 
the work that you are doing. The Chairman knows I was in Tel 
Aviv a few months ago, and I was there on some other business, 
but a friend of mine, Sammy Segall, and his wife were doing a 
major project to help young women who had been trafficked 
sexually there.
    And it is a worldwide problem that the United States has--
we have to focus on this. And the only question I would ask of 
Stephanie is, do you have a number for the interventions that 
did not initially work and then you got some help and your 
people got relocated. Is there anything in these earlier 
interventions that we can learn from? Find something that 
probation officers or others--police officers on the street, 
could do a better job at that might have gotten you help 
sooner?
    Ms. Vu. Well, the thing that kept making me return to my 
trafficker was fear of what he might do. So as long as there's 
that fear installed in the girls who are being trafficked, they 
are going to keep returning, or the use of drugs and their 
addiction to it. So, really, there is not much you can do about 
that, unless you relocate them into a center further away from 
their trafficker where they are being trafficked, where they 
can be--their needs can be addressed.
    Mr. Fattah. Thank you very much. Again, I am going to yield 
to questions so that we can hear from our other witnesses. So, 
thank you, Mr. Chairman.
    Mr. Wolf. I want to thank both of you for your testimony. 
We appreciate it very, very much. Thank you, Stephanie. Thanks. 
Thanks, Bob.
    Our next two witnesses, they will appear together, will be 
first, Cindy McCain, who is the Co-Chairman of the Arizona 
Governor's Task Force on Human Trafficking and has done a lot 
of work in this area. The other is John Ryan, CEO of the 
National Center for Missing and Exploited Children.
    I welcome you both. Ms. McCain, you can go first, and then 
we will go to the next one.
    Ms. McCain. Thank you. I have submitted a formal statement 
to all of you that includes much more of the data and the 
research we have found, but I did want to give you a few brief 
statements about why and what we are doing in Arizona, and how 
this applies to the rest of the Nation.
    Mr. Wolf. Now, your full statement will appear on the 
record.
    Ms. McCain. Yes. First of all, I would like to thank you, 
Congressman Wolf, Mr. Chairman, and the rest of you for doing 
this, for paying attention to this issue, for being a part of a 
solution to a problem that is infesting our youth.
    Let's be clear that this is not a humanitarian issue. I 
come to you as a humanitarian. It is a human rights issue. It 
is a basic human rights issue that these children are being 
denied.
    I am encouraged by the increased attention to human 
trafficking solutions that I am seeing in Arizona and across 
the Nation and, of course, internationally where I work. I am 
encouraged, but there is a great deal more to do. There is a 
great deal more awareness to be had and a great deal more of us 
need to fight this to the bitter end.
    I have been a lifelong humanitarian and I was introduced to 
human trafficking strictly by chance. I saw it. I was in 
Calcutta. I happened to be in a small shop. Bottom line was I 
realized that there were children being kept below the 
floorboards of this shop. I could see them. I could hear them. 
It clicked with me, but not really. But the bad news is I got 
up and walked out, and I never did anything.
    The estimates on numbers of trafficked persons are 
horrifying, but just as horrifying as each survivor's story as 
you heard earlier. And the realization that there were many 
likely people along their path that could have done something 
and didn't, just like me. It is all of our responsibilities as 
citizens to pay attention and act when things are clearly 
wrong.
    We heard from the FBI. According to the FBI 2011 report, 
there are 293,000 U.S. children at risk right now. The average 
age for a girl or little boy to be trafficked is 13. Ambassador 
Luis CdeBaca, Ambassador--at-Large for the State Department's 
Office to Monitor and Combat Trafficking in Persons recently 
estimated it's 27 million men, women, and children being 
victimized worldwide. NCMEC also estimates that a pimp can make 
between $150,000 and $200,000 per child per year. The average 
pimp has four to six little girls. It is low risk and a very 
high reward business. Drugs or weapons are sold once. Human 
beings can be sold over and over and over again.
    Through my role as Co-Chair of the Arizona Task Force on 
Human Trafficking, and with the partnership between the McCain 
Institute for International Leadership and Polaris Project, we 
have sought to strengthen anti-trafficking legislation in 
Arizona and the greater mountain states. I am witnessing 
firsthand just how important it is that we work with local 
state and national stakeholders to effectively combat human 
trafficking, awareness being number one.
    I have also been involved with working with Clear Channel 
and the Polaris Project to advertise the National Human 
Trafficking Hotline in Arizona. Clear Channel very generously 
donated 50 digital billboards for the entire year of 2014. In 
any given month it's going to reach 27,000,000 viewers or 
blasts or whatever they call it. Twenty seven million people 
are going to see that. The National Hotline number and other 
methods of help are being shown on these billboards. Our hope 
is that someone who needs help will be able to get help through 
this public awareness campaign.
    The Task Force heard recommendations from many who have 
given--who have been involved in the fight against human 
trafficking for years. We have presented 27 specific 
recommendations to our governor, and I am pleased to say that 
the legislation is pending right now in the Arizona State 
Legislature. It toughens the sentencing structure for 
traffickers, adds sex and labor trafficking to the list of acts 
that constitute racketeering, increases penalties if the victim 
is taken from foster care or a shelter situation, and requires 
an escort service to include their license number in any ad as 
well as to keep on file the proof of age of anyone that is 
depicted in our ad.
    In addition, our recommendations regarding specific human 
trafficking training for first responders, and changes to 
administrative practice to increase protection for these 
vulnerable victims are being implemented in my home state right 
now.
    Training and awareness. Training and awareness. We keep 
hearing that over and over today. We right now are training 
other businesses in a city and state such as Uber, cab 
companies, bars, hotels, motels, airline industry, mall 
security, and hospital ER personnel. Some of these people don't 
even believe human trafficking exists. I met recently with a 
very large and serious newspaper--the editorial board--and they 
literally said to me, ``We don't believe this exists.'' We have 
a problem in this country.
    Let me be clear. Our recommendations are not just for the 
Super Bowl that are being held in Arizona in 2015, but they are 
long-reaching. Together we Arizonans intend to make our stay, 
as I like to say, a flyover state. Our message to traffickers--
if you traffic in Arizona, you will go to jail for a very long 
time.
    In a recent study by the McCain Institute, which will be 
released in early March, we endeavored to explore the impact of 
a large sporting event such as the Super Bowl, using scientific 
research which has been lacking in a lot of the examples that 
we use. This is in conjunction with Arizona State University. 
Our preliminary findings are disturbing. They are terrifying.
    Researching prostitution ads placed on backpage.com, we 
found sex trafficking to be very organized and very traceable. 
It shows a clear spider web effect that criss--crosses our 
country and spreads offshore. Nearly 75 percent of the phone 
numbers used in flagged minor sex ads were linked to another 
girl or woman, indicating some sort of networking and 
organization. Make no mistake. This is organized crime at its 
best.
    The movement of girls for the Super Bowl was obvious, as 
our research found that 20 percent of the ads had been placed 
in other cities, prior to or after the Super Bowl. One ad 
linked ads prior to the Super Bowl from Boston to Worcester to 
northern New Jersey, south New Jersey; Richmond, Virginia, 
Manhattan. But on Super Bowl Sunday, the ads were all listed in 
Boston for some reason.
    Another ad was linked to prior ads in North Bay, 
California--San Jose, San Francisco area. And then north New 
Jersey during the Super Bowl weekend, and back to Oakland and 
San Francisco the following week.
    What we learned from this study so far includes the 
networks and circuits that facilitate the victimization of 
minors in sex trafficking are more pervasive than previously 
known. These networks keep these victims on the move, perhaps 
to avoid law enforcement detection, but more importantly to 
find new customers. It is unlikely that they are avoiding law 
enforcement as there simply is not enough law enforcement, and 
law enforcement eyes on this issue.
    We need to create a national training for law enforcement 
specific to the complexities of sex trafficking, support the 
hiring and specialization of new law enforcement units around 
the country, and create a national tool that assists law 
enforcement in tracking the traffickers, and allows the 
intelligence from these communities to transfer to one another 
and not be lost as it leaves one state--as a trafficker leaves 
one state and heads to another area.
    Networks also include gangs, as was mentioned earlier, 
which have become increasingly a strong part of sex trafficking 
of minors in this country, as well as the small organized sex 
trafficking groups. This research shows that sex trafficking as 
a part of a network is found in three-quarters of the ads on 
backpage.com.
    I am grateful for the interest and work of the Federal 
Government, and what you have done on this issue so far. 
Together we need to increase and broaden the training for our 
first responders, toughen the penalties for traffickers, fund 
awareness campaigns, and erase the word ``prostitution'' as it 
deals with children who are victims of sex trafficking. They 
are not prostitutes. They are victims. Lastly, we'd like to 
treat customers for what they are--child abusers.
    Thank you for inviting me today, and thank you for all the 
work that you are and will be doing on this issue. We look to 
you for great help on this. It is a critical time in our 
country and we have an opportunity to take hold of this issue 
and really make a difference.
    Thank you, and I look forward to your questions.
    Mr. Wolf. Well, thank you. I am going to go to Mr. Ryan, 
but I just had a lot of thoughts when you were speaking. One, 
and I will go to Mr. Harris and others before we ask the 
questions, if we can get the Arizona law we will send a copy of 
that--and I assume you all have vetted that law.
    Ms. McCain. Oh, yeah.
    Mr. Wolf. And we will send it to every governor, including 
my own. Secondly, we will look at it and we will introduce it 
at the Federal level to make it the Federal law and maybe a 
change. You know, this place works different, and see if we can 
kind of institutionalize that up here pretty, pretty early. So 
if you can get us the law----
    Ms. McCain. I will have it to you.
    Mr. Wolf. That we can go to the governors and then--so we 
can then put it in at the Federal level to see, and then also 
this Committee, working with the following, we fund the 
National Gang Intelligence Center. It is in Northern Virginia. 
We may change that and give them the responsibility for 
tracking national gangs, based on what Detective Woolf said, to 
track gangs and also this issue, too, to sort of do the 
combination. So we can get that from you and we can do it.
    Ms. McCain. Absolutely.
    Mr. Wolf. And Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman and distinguished members 
of this Subcommittee. Thank you for the opportunity to appear 
before you today, along with my partners who have testified 
today. This is a battle in which we have joined together. This 
is a true partnership. This is not the first time that we have 
met before you in this room. As we leave here today we will 
continue our efforts in a joint manner.
    With your permission I will abbreviate my testimony because 
I think this Subcommittee in particular has been engaged in 
this problem for some time, has an awareness of the nature of 
the problem, and by some of the questions that have already 
been asked, I think it would be very helpful to continue with 
the Q and A process.
    But let me talk to you about what the role of the National 
Center has been and what we are seeing in this area. As you 
know, we received a grant from the Department of Justice, the 
Office of Juvenile Justice and Delinquency Prevention, and in 
April of this year we are about to celebrate our 30th 
anniversary of operation. We were founded in 1984.
    In those 30 years we have answered 4 million calls. We have 
distributed over 8 million posters. We have helped resolve over 
193,000 cases of missing children. That is a resolution rate of 
almost 98 percent. When we were founded in 1984, the rate was 
less than 63 percent. So as a result of the creation of this 
Center and the support of Congress, and our partners, I can 
report to you today we are making a difference, but we need to 
do more.
    We know what happens in your district, Mr. Chairman. We 
have worked with Detective Woolf. We have worked with you and 
your office, and your community as you have addressed this 
problem. You found firsthand that in one of the most affluent 
counties in this country there was a systemic problem of child 
sex trafficking, which was based in one of the highest rated 
school systems in the country. So the message we learned, and I 
hope the rest of the country has learned, if it can happen 
outside our doors here, it can and is happening everywhere.
    We don't have an exact count of the number of victims of 
this pernicious activity. But I can tell you what we have 
observed firsthand at the National Center. As the clearing 
house for the reports from both the public, law enforcement, as 
well as what we refer to as ``electronic service provider 
community'' who own and operate the platforms, whereupon a lot 
of this activity is now occurring. The reports are escalating. 
The number of arrests is rising, and most importantly, the 
number of minors, of children like Stephanie, are being 
rescued.
    So to those who challenge us in this battle, that we cannot 
put an exact figure on this, I tell you that if I go to your 
community, I can assure you that there are at that very time a 
high number of children being trafficked while we are engaged 
in that discussion.
    Under a grant from the Justice Department we recently 
established a training curriculum which has been recommended by 
prior witnesses here. We call it the Child Sex Trafficking 
Awareness and Response Program. We just launched our first in-
person training conference in Los Angeles. We launched it there 
for a number of reasons. First and foremost, we did not have 
the Federal funding in our budget, but we still have the 
critical need and the demand.
    We had private businessman from the Los Angeles area step 
up, who I can now say is on our Board because he has such a 
passion for these issues. He paid out of his own pocket for 
that training conference, and has told us that he will continue 
to do that as long as there is an engaged audience. We trained 
over 50 investigators, prosecutors, members from the medical 
profession, NGOs. We know, as has been pointed out earlier, 
this is a battle that cannot be solved by law enforcement; it 
cannot be solved by the NGOs. We have to engage all the 
stakeholders, and we are doing that in our strategy at the 
National Center.
    We have also developed what we call a Critical and Runaway 
Unit which handles these cases of missing children who become 
victims of sex trafficking. We have identified, Mr. Chairman, 
that in 2013, one out of seven reported endangered runaways 
were also the victims of sexual exploitation. One out of seven. 
That is real. That is alarming.
    We also found that out of that community that 67 percent of 
those victims are runaways from foster care. The challenge is 
enhanced because most states do not have a reporting 
requirement when a child goes missing from foster care. There 
is no current Federal law that requires reporting to law 
enforcement, let alone the National Center.
    So what happens? We heard from Stephanie. She is an example 
of that problem. These children, for various reasons, are not 
getting the care and the security that they are owed and 
promised in many of these homes, so they are lured away by what 
they hope to be a more promising future and they then become a 
victim of a pimp and a predator. Many of them will return at 
some point to these homes, and the homes are not aware of what 
has happened. So their problem is not being addressed, let 
alone reported.
    I can report to you that we have instituted a program with 
two states--Illinois and Florida. They are reporting to law 
enforcement. They are reporting to the National Center. As a 
result of that, our analysts are able to support the efforts of 
the first responders, identify who these children are, where 
they are likely to be, who they may be associated with, because 
we have the benefit of all the data from all these reports that 
I referred to earlier.
    We have the support of the technology community--the 
Googles, the Facebooks, the Microsofts. They give us the 
analytical tools to make sense out of this mass of publicly 
available data that law enforcement doesn't either have the 
training or the opportunity to utilize. But we do, and we share 
that with law enforcement. Let me give you some other examples.
    In Operation Cross Country, which as you know is the FBI's 
nationwide endeavor with state and local law enforcement 
agencies, this past August 230 agencies were involved. What 
many people don't realize, over that three-day period, the 
National Center is staffing up the Command Center here in 
Alexandria--their headquarters, which I know you have visited, 
sir, and they are providing information to the boots on the 
ground who these children may be, based on our analysis of all 
the reports we receive.
    You referenced, sir, that 105 minors were saved in August. 
We helped identify 20 of those, based on reports that we had 
and we could share with law enforcement. That is critical.
    One case stood out. We were able not only to identify one 
of these victims for law enforcement, but we knew that child 
had a critical medical issue, that if left unattended she would 
be seriously impaired or in jeopardy. Not only could law 
enforcement identify her, treat her as a victim, but they were 
able when she went into a seizure, get her the immediate 
medical care that she required.
    So there are partnerships that work. We need to build on 
those partnerships. And we point to this Committee, frankly, 
sir, as being our champion in these efforts. Let me talk about 
some of the other results of our work with the ICACs, the state 
and local task forces, along with the FBI.
    Since these initiatives targeting minors who are being 
commercially sex trafficked were launched they have recovered 
over 3100 victims, convicted over 1400 pimps, 11 of them have 
received life sentences. So that suggests to us the nature of 
their long criminal history. This is not an isolated crime, 
they are in the industry, an organized industry and they are 
violent.
    Our role again is to provide that analytical support to 
these agencies. We have found a 32 percent increase in the 
number of children recovered, a 43 percent increase in the 
number of pimps arrested. So to those who want to challenge the 
statistics, those statistics are real. We stand behind those.
    We have learned also from the reports we are getting that 
in the foster children environment that when a child is not 
reported missing when they turn 18 they literally are off the 
radar. Nobody was looking for them when they were a minor, and 
no one is looking for them or aware of what is happening to 
them once they reach the age of 18.
    So what is happening to these young girls? Well when they 
are being trafficked as minors and not getting the help that 
they need, when they become adults they don't automatically 
walk away from that, you know, that trade. The same symptoms, 
the same threats of violence intimidation are continuing, and 
what is the life they have ahead of them if they don't get that 
intervention?
    So we are working here with your colleagues, sir, to make 
sure that there is federal legislation mandating the report 
when these children go missing to law enforcement and then to 
the national center. We can and will make a difference.
    Let me close by giving you one real case. We were receiving 
reports of a missing Florida girl. By the time she was 15 we 
knew that we had over 13 reports--separate reports of her going 
missing. We didn't know who she was, law enforcement didn't 
know who she was. But while we are scouring these websites that 
you have identified, particularly Backpage, we are developing 
databases, in this case information that could help lead to the 
identification of these minors.
    We have a database of tattoos, unique marks. And what we 
found when a young girl was actually arrested the police wisely 
took pictures of the tattoo she had. They sent those into our 
analyst. We were then able to review our database and make a 
match. It matched a 15-year-old girl, who we still didn't know 
who she was, but we knew she was still being trafficked.
    We also had a phone number that was a common link through 
these reports on Backpage. So we alerted law enforcement to not 
only look for this girl but you may want to use this phone 
number in your investigation.
    They posed as a John, they called that number. Lo and 
behold they were offered a visit at a hotel and they were able 
to rescue this now 15-year-old girl who when she was saved 
reported that she had been trafficked since she was 13 across 
the country a minimum of 5 times a day.
    Where would she be without the law enforcement 
intervention? Where would she be without the national center 
and all our partners here today?
    So we make a commitment to this committee and you, sir, who 
have been truly our champion. I wish you were not retiring.
    We will keep up this fight, we will work with you, we will 
challenge those who need to do more. Resources are part of it, 
but it is not an excuse to do more. We will do more with less, 
the battle will continue, but we do seek your help so we can 
work and do this more nationally and in a more comprehensive 
way.
    Thank you.
    Mr. Wolf. Well, thank you, Mr. Ryan.
    I am going to go to Mr. Harris, but Mr. Fattah and I we 
have always--I mean we don't really have differences on very 
much at all, but on these issues we have been together, and I 
want to thank you and Ernie Allen and all your staff and any 
member that has not gone over there. You ought to just go over 
or send your staff over to see it. It is pretty incredible what 
they are actually doing.
    But I want to thank you and all of your people, and the 
commitment that I think Mr. Fattah and I, we will be there even 
on these days that they were due, and this was one thing that 
we were not going to have any negative impact on you. So you 
have our word here.
    Mr. Harris.
    Mr. Harris. Thank you very much. And I want to thank you 
Mr. Chairman again for bringing this to the attention of the 
committee and to help bring it to the attention of the country, 
and maybe that newspaper editorial board.
    I am going to follow up with what I asked the detective 
before. How prevalent is the involvement of drugs in the human 
trafficking of underage individuals?
    Mr. Ryan. Well the feedback we get primarily from law 
enforcement echos what Detective Woolf has testified to. It is 
(a) a tool that is used by the predators to maintain a control 
over these minors, because once they have that chemical 
dependency that predator becomes their supplier, so it is a 
very difficult cycle to break. And some of them frankly enter 
into that, you know, behavior because they have a challenge to 
begin with. So it just complicates things.
    So it is a prevalent part of that cycle of behavior.
    Mr. Harris. Ms. McCain.
    Ms. McCain. I completely agree, but I would also like to 
add something. The drug element in this, these are the same 
guys that are trafficking these kids they are trafficking 
drugs, they are trafficking guns, they are trafficking poached 
animals out of Africa. These networks are all one on the same 
in what they do.
    So all too often, you know, the drug guys have become very 
good at hiding what they are doing and it is very difficult for 
us to be able sometimes to find them or find what they are 
doing. Follow the girls you are going to find the drugs too, 
and the guns and the poached animals.
    Mr. Harris. And I take it that legalizing some of these 
drugs is not going to solve this problem at all?
    Mr. Ryan. I would not--well, I am not an expert in that 
field but I would not recommend that.
    Ms. McCain. No.
    Mr. Harris. Do you think that using enhanced penalties 
since it is so prevalent, the coexistence, and clearly 
trafficking is involved when these, you call them pimps, 
whatever you want to call them, traffic to the underage that 
federal penalty enhancements under drug laws could be used as a 
tool for law enforcement? Just like, you know, if you use a gun 
in the commission of a crime there is an enhanced penalty that 
is very useful to law enforcement. How about drug trafficking 
as a----
    Ms. McCain. Yes. Yes. I think any penalty that is not only 
on the books now but that can be defined specifically as human 
trafficking along with the drug element is--we need this, this 
is exactly what we need to be able to stop this.
    Mr. Harris. Thank you.
    Yeah, Mr. Chairman, I would suggest that that be part of, 
you know, anything coming out of the commitment is use our 
controlled substances act in conjunction with our trafficking 
laws to enhance penalties since these so frequently coexist.
    Thank you. Thank you very much.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you.
    Mrs. McCain, you said in your opening statement trafficking 
for sex and labor, so this--and sometimes when we are dealing 
with minors they are being forced into child labor situations 
also, and so I just want you to elaborate a little bit on that.
    Ms. McCain. Uh-huh.
    Mr. Fattah. For the record.
    Ms. McCain. The trafficking aspect with regards to Arizona 
is exactly the same, I mean we are going to get these guys. 
They will be handled as victims perhaps differently and that is 
something for the victim services and for the folks that do 
that on a daily basis to determine.
    But let me say in victim services, which is something we 
have talked about in here, it is not only just funding for 
victim services, which is the no-brainer in this whole thing, 
but it is also about the ability for these traffickers--I have 
a woman at home that runs an organization called Street Light, 
she said, I have got them in there, I can keep them safe within 
the building, but the traffickers are outside peeking in the 
windows, what do I do?
    These are, you know, consequences of what occurs, and as 
was mentioned, she was afraid of the traffickers.
    So that is a whole element in this that has to be a 
specific part and how we deal with the victims.
    Mr. Fattah. Now you also said that the customer should be 
treated as what they are, child abusers, right?
    Ms. McCain. Absolutely.
    Mr. Fattah. So--we have focused a lot on what to do about 
the trafficker.
    Ms. McCain. Uh-huh.
    Mr. Fattah. What about the person who is calling this 
number, right?
    Ms. McCain. Yeah.
    Mr. Fattah. Who is visiting the hotel.
    Ms. McCain. Yeah.
    Mr. Fattah. Do you have some sense, given all of the 
complexities here about how, if anything, our country might 
think about in trying to deal with the demand side on this 
question.
    Ms. McCain. Well in Arizona--I have lived out there my 
entire life--10, 20 years ago we used to publish the pictures 
of the Johns or child abusers, as I like to call them.
    Mr. Fattah. See I don't think they are known as Johns. I 
mean----
    Ms. McCain. I don't like the word John.
    Mr. Fattah [continuing]. Some guy who wants to have----
    Ms. McCain. Yeah.
    Mr. Fattah [continuing]. Sex with a child----
    Ms. McCain. A child, yeah.
    Mr. Fattah [continuing]. I agree with you is a child 
abuser, right? So I am trying to figure out what we----
    Ms. McCain. Well we used to publish their picture in the 
paper, and that is one tiny portion of this, but until we get 
serious about number one prosecuting these guys and shaming 
them, because it is what it is, it is child abuse. If we were 
to have a child abuser of another kind, someone that beat a 
child we would go after him with all force. But yet somebody 
who services a child sexually we seem to kind of shove it under 
the rug.
    I was told by one person, well, why should we prosecute 
these guys, you know, or publish their picture, they are going 
go home and someone is going to abuse them. Well why not? Why 
not I say? You know, well their wives will get after them. Good 
thing, let them get after them. These are bad guys.
    Mr. Fattah. John, now the numbers you went through are 
substantial. If you could talk about this in a daily matter, 
the fact that I don't think the country has a good 
understanding of the number of young people who go missing each 
day in our country.
    Mr. Ryan. Sure. There are approximately 1500 children that 
go missing every day, and those include runaways, those who are 
missing with unexplained absences, includes those who are 
abducted, but the one thing I commend the center for doing 
before I came on board was to treat every child runaway as an 
endangered runaway because they don't know the risk, they don't 
know----
    Mr. Fattah. You don't know what you don't know, right?
    Mr. Ryan. Exactly. And we see that in the child sex 
trafficking, you know, landscape. They think they may be going 
to a better place or for the right reasons and then these 
predators, as has been pointed out, are extremely astute at 
identifying vulnerable victims for a variety of reasons.
    Mr. Fattah. We have gotten a lot better at this reporting 
with the Amber alerts and everything.
    Mr. Ryan. Yes.
    Mr. Fattah. Where is this loophole for kids in foster care? 
And why is it that states or how is it that someone doesn't 
have the responsibility to report a child missing?
    Mr. Ryan. Unfortunately there is a lack of regulations or 
laws that mandate the reporting, so it is really based on a 
voluntary system, and some would argue that there is a 
financial interest at stake if a facility were to report a 
problem of recurring children under their care going missing 
let alone being abused.
    Mr. Fattah. So if I can go through the numbers of the 
children who go missing, a majority, you said equal to some 60 
some percent of those found in these circumstances are from 
foster care.
    Mr. Ryan. Yes.
    Mr. Fattah. Is that accurate?
    Mr. Ryan. Yes. That is based on the reports that we 
receive.
    Mr. Fattah. So this loophole here or this missing link in 
the reporting chain its very important that we close it.
    Mr. Ryan. It is alarming. I think that until reporting is 
made mandatory we will not not only know how many children are 
missing, but more importantly no one is looking for them, they 
are not going to have an opportunity for the intervention that 
they need, and the life cycle that they are in----
    Mr. Fattah. Right.
    Mr. Ryan [continuing]. It is not going to change.
    Mr. Fattah. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. That is a good point, Mr. Fattah. Thank you very 
much.
    I appreciate, I have a couple questions and then a comment, 
but I think it has been a good hearing and we have had a lot of 
ideas.
    What are the rates of arrest for those who are doing this? 
Does 50 percent of them get arrested, or 33 percent, 1 percent? 
What do you think the rate of arrest is?
    Mr. Ryan. You know we could only speculate. I think the 
detective mentioned maybe one percent. I certainly would not 
dispute that.
    We know that it is the most under reported crime to begin 
with, so even if we had, you know, the arrest reports as a 
criteria, that would only be a snapshot.
    So, you know, we can only base it on the reports that we 
are getting of suspected trafficking, and they have increased 
exponentially ever since we established this child sex 
trafficking unit approximately three years ago, and we know law 
enforcement is seeing the same.
    Mr. Wolf. Ms. McCain, the task force that you are a co-
chairman of, was it appointed by the governor, was it a state 
legislature? How many states have a task force like this? Do 
you have any idea?
    Ms. McCain. I am not sure. I don't know.
    Mr. Wolf. Okay. Well if you can give us the--kind of--is it 
a bipartisan? Maybe Mr. Fattah and I could send a letter to 
every governor saying that the State of Arizona has put this 
together and this is a model; would you consider doing that so 
we can--so every state is kind of uniformly kind of doing it?
    Secondly, if we can get the Arizona State law from you, and 
maybe we can ask NCMEC to look at----
    Mr. Ryan. Absolutely.
    Mr. Wolf [continuing]. To see, you know, there may be 
something else that you think and I think Mr. Fattah's thing on 
the foster child issue is something that others may not so we 
can kind of make the very best law and we will drop the bill in 
and ask people to co-sponsor it and do that.
    And then we will also, assuming the committee members 
agree, try to change to language for the national gang 
intelligent center. To have gang intelligence and a category 
with regard to this issue so they are tracking not only MS13 or 
Bloods or the Crips, but also any activity like this.
    And then if you could tell us about the penalties of I 
guess your--what the penalties are that you think that we 
should change at the federal level.
    And then also too I think that Congress has to deal with 
the Backpage.com and the other one of two that he mentioned. I 
think if we fail to deal with that then I think we will be 
pontificating that we care deeply about an issue but we are 
given the presentation of what solved the issue when we are 
saying we are not going to go there because, you know, we are 
going to take on the high tech community.
    I mean frankly I think people ought to go to Arizona and 
just pick at the home or wherever the guy or Texas or wherever 
it is, whoever is running them everywhere and if they go I will 
go to one of them, but just go outside and say, you know, with 
the idea the operator on the premises maybe they don't know and 
so now they know and maybe they will be able to get them to 
stop it.
    One last question if you both have any thoughts on it, 
which takes a little bit differently, but we have focused on 
sexual trafficking, but it is larger than that. Often times we 
have seen people forced into domestic servitude or sweatshops.
    Earlier this year in northern Virginia, unfortunately in my 
congressional district, we saw two workers who were freed from 
a possible domestic servitude situation, meaning they were held 
frankly by the Saudis, the diplomatic resident of the Saudis. 
And so we hear stories of people that work at the World Bank, 
people who work for this embassy or that embassy. How prevalent 
do you think it is that different embassies, because we know 
the Saudis were involved, we know there was a big local news 
story covering it, what are your thoughts about that issue 
whereby an embassy or a World Bank brings someone over, takes 
their passports away, they don't speak the language? It is a 
form of labor trafficking, if you will, you know, you are in a 
strange country, you are working 12, 15 hours a day.
    Do you both have any comments about that?
    Ms. McCain. Number one, the woman that was just outed in 
New York City, the Indian diplomatic, and then she fled the 
country, that is unacceptable. I mean clearly there were laws 
being broken, there was human laws being broken within her 
house or whatever it was and she just skipped.
    I mean, you know, I don't know how you handle that from a 
government standpoint or whether you can handle it.
    But on the southern border where we are in Arizona it is 
the same thing but a little different. They bring them in, they 
take their passports, even if they have passports, smuggle them 
over the border, and sometimes leave them to die in the desert 
because they can't get them any farther or the coyotes come in 
to move them.
    The whole issue of labor trafficking not only has to be 
dealt with, but it has to be considered--the labor trafficking 
that took place in the home and the labor trafficking that is 
taking place on the Arizona border is the same thing but it is 
different.
    So there are different kinds of things that we need to 
address with regards to labor trafficking around the country.
    The diplomatic thing is much different from Arizona and 
from what happens in California with some of the Koreans and 
Vietnamese that are smuggled in.
    So I think that is a bigger issue that needs to be dealt 
with, and I do believe it needs to be dealt with on the federal 
level.
    Mr. Wolf. Mr. Ryan.
    Mr. Ryan. Well what we see is there is a correlation for 
those, and again, we are talking about minors at the National 
Center, those who are reported as being victims of sexual 
exploitation. There is also frequently a component that they 
are also subjected to, you know, slave labor.
    So unfortunately it is part and parcel, many times even 
when we are dealing with minors.
    So there is no tracking per se of, you know, that, but that 
would be something frankly that might be worthy of a more 
empirical study, because we do see some parallel activity 
there.
    Mr. Wolf. So you would not include in a bill dealing with--
maybe we could write the Justice Department and ask them to do 
an in-depth analysis to come back in six months or something.
    Mr. Ryan. I think that would be a wise suggestion or 
recommendation.
    Mr. Wolf. Okay. And I think what we will do, assuming Mr. 
Fattah agrees too.
    Mr. Fattah. I am a yes.
    Mr. Wolf. Okay, Mr. Fattah is a yes. We are both from the 
City of Philadelphia and so maybe that is why we agree so well.
    Maybe what we can also do is years ago we put language in 
asking the State Department, and Secretary Powell did it, to 
have a major conference internationally on this issue. Maybe we 
should put language in directing the Attorney General or the 
administration, whoever they think is appropriate, to put on a 
major conference. Would that make sense? To bring in every 
state, I mean sort of one big, would that make sense?
    Mr. Ryan. I think it is a great suggestion. We deal with 
this from different platforms sometimes, so I don't think any 
one of us has the full scope of the problem, or more 
importantly what the trends and patterns are and how we can 
come up with a comprehensive strategy, so I think that would be 
an important step to get us there.
    Mr. Wolf. Okay. Do you have any thoughts on that?
    Ms. McCain. I completely agree. And if nothing more in that 
conference to address the inability for our first responders 
particularly to communicate with each other across state lines.
    It was brought to my attention that what they really needed 
was this guy in South Dakota in the squad car can pull up this 
house or whatever it is to see if there is anything noted about 
it or see if there is somebody, you know, from another state. 
They have no way to talk to each other, and that is a large 
part as we talk about the law enforcement aspect of this that 
would be very helpful.
    Mr. Fattah. Yeah, I think more and more we have got to 
rattle the troops.
    Mr. Wolf. Well maybe what we will be is we will write a 
letter to the Attorney General asking him to do it this year, 
and if he does it then we would just put a line in and set 
aside the money to do that. Maybe we would ask him to work with 
NCMEC.
    Mr. Ryan. That would be wonderful. You know, we would be 
happy to, you know, be the convener and make sure there are all 
the stakeholders.
    Mr. Wolf. Yeah, that may be a good idea.
    Any other members have any questions?
    Mr. Harris. Dr. Harris is a yes too.
    Mr. Wolf. Well, I want to thank both of you and also 
Stephanie and Detective Woolf, I guess she has left, for your 
testimony, we thank you both.
    And with that the hearing is adjourned. Thank you.
    Mr. Ryan. Thank you.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                         Wednesday, March 26, 2014.

 FEDERAL BUREAU OF INVESTIGATION'S BUDGET REQUEST AND POST 9/11 REFORM 
                                EFFORTS 

                               WITNESSES

JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
TIMOTHY J. ROEMER, EXPERT WITNESS ON FBI REFORM EFFORTS
BRUCE R. HOFFMAN, EXPERT WITNESS ON FBI REFORM EFFORTS
EDWIN MEESE III, EXPERT WITNESS ON FBI REFORM EFFORTS
    Mr. Wolf. The hearing will come to order.
    I am pleased to welcome FBI Director James Comey in his 
first appearance before the committee, and let me also please 
thank the men and women of the FBI for the great job that they 
have done. They really do an incredible job, and on behalf of 
the American people and the Congress I just want to thank them.
    Also if you would give my best to former Director Mueller. 
I met with him when he first came in and watched and he did an 
incredible job, so if you would just pass on my regards to him 
I would appreciate it.
    Let me add that immediately following the Director's 
testimony the committee will hear from the three commissioners 
leading the congressionally directed review of the FBI's 
implementation of the 9/11 Commission recommendations.
    Director Comey, the seventh director, is a good man, a good 
choice to lead the bureau following a very distinguished 
government and private career.
    As Assistant U.S. Attorney he led prosecutions of the 
Gambino crime family and the terrorists responsible for the 
1996 Kohbar Towers bombing.
    Following the 9/11 attacks he became the U.S. Attorney for 
the Southern District of New York. He then served as Deputy 
U.S. Attorney General during the challenging early years of the 
war on terrorism, gaining experience that was critically 
relevant in his job. He indicated that he will do what is right 
no matter what people tell him to do.
    In the private sector, Director Comey served as senior vice 
president and general counsel of Lockheed Martin, general 
counsel of Bridgewater Associates, and on the faculty of 
Columbia Law School where he was a fellow in the National 
Security of Law.
    Director Comey, today we want to hear about your 2015 
budget request, and in particular how it will support the 
rebuilding or retooling the FBI is undergoing as it recovers 
from sequestration and a long hiring freeze.
    You have inherited a very proud and very extended 
organization. With its national security mission and charged to 
defend the Nation from terrorist attacks, the FBI needs a 
sophisticated and global presence.
    We want to hear about how the FBI is leading efforts to 
protect against international terrorism, whether from overseas 
or from efforts operated on our shores, and to pursue domestic 
terrorists, including those who have become radicalized or 
inciting criminal or terrorist activities.
    The FBI must operate in the aftermath of the Snowden leaks, 
which I think will require new approaches and new resources, 
different operational models, and in general may demand 
creativity and new resources to a more constrained approach to 
some of your traditional security missions.
    In addition to dealing with the security missions, you are 
facing an ever growing work load associated with investigating 
major fraud cases, growing intellectual property crime, and 
continuing priorities that have led the violent gangs, which 
seem to be increasing, and major crime organizations.
    And the growing problem of cyber threats, either from a 
criminal or a national security perspective, requires the FBI 
to exercise leadership in a field that demands a sophisticated 
and proficient workforce.
    I am looking forward to hearing how the FBI is juggling all 
these critical efforts while keeping as streamlined as 
management efficiency will permit to be ready for the next 
generation of challenges to national and homeland security, and 
to sustain its role as the premier federal investigative 
agency.
    After you have given your statement we will open the 
hearing up for members' questions, but first we would like to 
recognize Mr. Fattah for any comments he may wish to make.
    Mr. Fattah. Thank you, Mr. Chairman, and thank you 
director.
    Welcome to the committee and congratulations for an 
extraordinary career to date, and we wish you well.
    You know, we are at a point in which you have made public 
comments about the sequestration process that Congress went 
through, we have come somewhat to a better result from that 
process, and I know Attorney General Holder thanked Chairman 
Wolf and myself in an agency-wide video, but more important 
than the pat on the back I think the issue really is we want to 
make sure that we are funding the needed priorities.
    You say that the FBI is now a threat-driven intelligence 
focused agency and the country faces a great deal of threats, 
and--you stand in the breach, so we want to make sure that you 
have the resources that you need.
    We know the hiring freeze has been lifted, but we are 
interested today in the appropriations request, and there is a 
mention in the request about some unspecified reductions, well 
over 160 million. I will be interested in how you arrive at 
that amount.
    As the chairman mentioned, we are in sync on the way we 
view these threats, obviously terrorism is important, we are 
very interested in human trafficking and sex issues, sex 
trafficking issues and intellectual property, which really 
steals American jobs in many respects when people steal our 
intellectual property.
    So there are a lot of issues and we want to make sure that 
the one issue that you are not focused on is money. Now our job 
is to appropriate the money, so we need to hear from you today 
about what it is that you feel that you need so that we can 
find a way to provide it.
    So thank you and welcome to the committee.
    Mr. Wolf. Thank you, Mr. Fattah.
    Pursuant to the authority granted in Section 191 of Title 
II of the United States Code and clause 2(m)(2) of House Rule 
11 today's witnesses as we have for every government witness 
will be sworn in before testifying.
    Please rise and raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect that the witness answered 
in the affirmative.
    And, Director Comey, you may proceed. You can summarize 
your remarks or you can proceed as you see is appropriate.
    Mr. Comey. Yes, thank you, Mr. Chairman, Mr. Fattah, and 
members of the committee. It is an honor to be here for my 
first time representing the great people of the FBI. I have an 
amazing job because I represent an amazing workforce.
    I have spent the last seven months traveling around the 
country and the world to meet my folks and to hear their 
concerns and to learn about their work, and I have learned that 
they are indeed a remarkable group of people.
    When I started, as Mr. Fattah alluded to, I discovered a 
workforce that was extremely stressed by the impact of the 
sequestration reductions on them. When a colleague left, the 
position wasn't filled, they were facing the rationing of gas 
money and had to decide who to go interview, who to surveil, 
and to triage things they shouldn't have been triaging. Thanks 
to you, Mr. Chairman, Mr. Fattah, members of this committee, 
the FBI is now in a very different place today.
    We are in the process of turning back on our training 
facility at Quantico, and my goal is to hire about 1,000 people 
between now and October 1st. This would be hundreds of special 
agents and intelligence analysts to begin to fill the gaps that 
were created by the impact of sequestration, and we are again 
funding those critical operations.
    We are investing in training, we are investing in 
technology, and people are no longer having to make choices 
about how far they can drive to conduct an essential interview 
or surveillance, and I thank you so much for that on behalf of 
the men and women of the FBI.
    We are hiring those people because we need them. What is on 
our plate is enormous and challenging, most importantly 
counter-terrorism. It remains our number one priority.
    In eight years out of government, I discovered as I came 
back that the threat from terrorism had metastasized in ways 
that I had not understood until I took this job.
    What I mean by metastasis is, we have had great success 
against Core Al Qaeda, sort of the primary tumor in this 
challenge, and reduced it, thanks in large part to the work of 
the men and women in uniform and in our intelligence services, 
but at the same time the poorly governed or lightly governed 
spaces around the world have allowed a growth of a 
metastasizing tumor in places like the Arabian Peninsula and 
around North Africa and other places around the Mediterranean. 
So, we face a threat that is weaker in the core, but disparate 
and virulent in a lot of different places.
    We also face a new threat that was not on the front of my 
screen when I was Deputy Attorney General eight years ago, and 
that is the people we call home-grown violent extremists. I 
don't like the term lone wolf because it conveys a dignity that 
these characters don't deserve, but these are the people who, 
thanks to the ready availability of information on the 
internet, can be inspired, even if not directed by Al Qaeda, 
and can be in their basement convincing themselves they need to 
engage in some Jihad and kill Americans. They emerge from that 
basement with very little time for us to find them and to stop 
them.
    So counterterrorism in those many different ways remains 
our number one priority for reasons that make good sense to me.
    Second, counterintelligence remains the top priority of the 
FBI because the enemies of this country are every bit as 
aggressive at trying to steal our secrets as they were when I 
last left government and have many more ways to do it, again, 
thanks to the proliferation of the internet and the 
vulnerabilities we face in cyberspace.
    And I mention cyber. It touches everything that I do, 
everything the FBI is responsible for, for reasons that make 
sense to me.
    We as a country and as individuals have connected our 
entire lives to the internet. It is where our secrets are, it 
is where our infrastructure is, it is where our children play, 
it is where our money is, it is where our health care is, so 
that is where bad people come for our children, for our money, 
for our private information, for our state secrets, for our key 
infrastructure. It cuts across everything I am responsible for.
    And so, one piece of the FBI's mission is to make sure that 
our workforce is trained, deployed, and equipped to respond to 
that threat which touches our counterterrorism, our 
counterintelligence, and all of our criminal responsibilities.
    With respect to criminal responsibilities, there is no 
doubt there is terrific news over the last decade and that is 
that crime is dropping in the United States. But there remains 
far too much abuse of children, human trafficking, gangs 
dominating neighborhoods, far too much in the way of fraudsters 
and tricksters stealing money of all sorts, far too much public 
corruption remains throughout our country, and so those things 
are still on the FBI's plate and we are still waking up every 
morning worrying about them and trying to make a difference in 
those areas.
    And a couple other things I would mention before closing.
    We still have, I think, an important responsibility to our 
brothers and sisters in law enforcement around the country and 
around the world in our allied nations to offer them training, 
which we do now thanks to the funding that you have given us, 
and to offer them our world-class laboratory and our technical 
support to help them get the job done.
    I mentioned our partners around the world a couple 
different times, the other thing I am struck by coming back to 
government is the internationalization of the challenges we 
face. There is almost nothing the FBI does that doesn't have 
some international component to it. Whether it is someone 
trying to traffic human beings, to exploit children, to steal 
secrets, to attack our nation, it all requires an effective 
response outside the United States, which is why I am so proud 
of the offices that my predecessors, the great Bob Mueller and 
my friend Louis Freeh built over the last 20 years in over 60 
different countries. That is something I am looking to increase 
to make sure is effective and is meeting the challenges we face 
at home, where they start in many instances, which is overseas.
    So we have a full plate. I am extraordinarily grateful and 
I am here to thank you on behalf of the people of the FBI for 
the support you have given us.
    My goal is to obtain the resources for 2015 that allow us 
to continue that progress, to refill the thousands of positions 
that were empty, and to give my folks the ability to accomplish 
the job that they are out there every day accomplishing.
    So thank you very much, I look forward to our conversation.
    Mr. Wolf. Thank you, Mr. Director.

                            STAFFING LEVELS

    How many spots were not filled? I mean you say you are 
going to bring 1,000 on by October 1, so what did the country 
lose during this period of time?
    Mr. Comey. I think we lost over 2,000 positions, I think 
2300, I may have the number off a little bit, but not much. So 
we were over 2,000 positions down, close to two and a half 
thousand.
    Mr. Wolf. So even if you add this 1,000 you are still going 
to be down.
    Mr. Comey. Yeah, we are still going to be down at least 
another 1,000 and more, which is why I said I hope for the next 
year to be able to continue the momentum to hire talent.
    Mr. Chairman, as you know better than anyone, the FBI is 
people. My talent is the essence and the magic of the FBI, and 
so getting great people in to fill those slots is what I hope 
to do this year and next.
    Mr. Wolf. And is the interest still high? I mean years ago 
everyone was applying. Is it still high, is there a lot of 
interest, quality of applicants very high?
    Mr. Comey. Very, very high. Great young people of all 
sorts, don't even have to be young, great people of all sorts 
want to be part of the mission that this great group is 
dedicated to achieving.
    Mr. Wolf. I had wanted to be an FBI agent but when I went 
down--I lived next to an FBI agent, a guy named Bob Franks, he 
was their congressional relations guy in Parkfairfax, he said, 
you can't put a bumper sticker on the back of your car though. 
And I had a Goldwater bumper sticker on the back of my car, so 
I took a different approach.

                             CYBER THREATS

    In your February speech at the cyber conference you 
underscored the seriousness of the cyber threats from state-
sponsored hackers and hackers for hire, organized cyber 
syndicates and terrorists.
    I know that Director of National Intelligence Clapper--and 
I think Director Mueller said the same thing too--has placed 
them above the global threats of terrorism, espionage, and even 
weapons of mass destruction.
    What resources does the FBI devote to this threat? What 
rough percentage of your eight billion budget and 35,000 
employees are applied in this effort?
    Mr. Comey. Mr. Chairman, as you said, this is something my 
predecessor Bob Mueller predicted would come to dominate my 
term of ten years the way counterterrorism had his, and I can 
see already after just half a year or so that that is going to 
be true.
    Because it touches everything I am responsible for. You 
could fairly say everybody in the FBI has to be educated in 
cyber, be effective at responding to cyber. I have a cyber 
division which is made up of hundreds of people that focuses on 
this every day, I have cyber squads in all of our field 
offices, cyber task forces all over our field offices, so I can 
get you the exact number, but there are hundreds and hundreds 
of people who are designated as cyber folks, intelligence 
analysts, and agents. But I don't want to miss the fact that 
everybody needs to be aware, because this evil layer cake from 
organized state actors and terrorists at the top all the way 
down to the individual fraudsters touches everybody I am 
responsible for. So cyber is everything.
    Mr. Wolf. What is the solution then? Is there something the 
Committee could do, is there a new structure that we need? I 
know the funding. Is there anything unique that people know 
that we have to do but there is no legislation up there? Is 
there anything special or any ideas that you have that we could 
do better with regard to cyber from the Committee point of 
view?
    Mr. Comey. Yes, Mr. Chairman, two things.
    One you have already done, which is to support us so I 
could hire that talent, those people who are digitally literate 
that can help me address these attacks.
    But the second thing is we need clear rules, lanes in the 
road to explain to the private sector how to cooperate with the 
government, because that is the key to this.
    The internet is almost entirely in private hands, so 
without the ability to cooperate effectively with private 
companies and private individuals I am left almost like 
paroling a street with 40-foot high solid walls on either side. 
I can say that the street looks safe, but if I can't speak to 
the folks in the neighborhoods, I can't help them make the 
neighborhoods safer.
    So we have to find a way to more effectively and 
efficiently have private companies and people to be able to 
tell us what is happening on their systems and for us to be 
able to tell them what we see, and do it at machine speed, in a 
way that addresses the concerns of the private sector.
    I was the general counsel of two different companies, as 
you said, Mr. Chairman, and private companies want to 
understand if we cooperate with the government, do we have 
liability issues, are there privacy issues? What are the rules 
that govern that sharing?
    So we could really use some guidance from Congress for the 
private sector in how to work better with us.
    Mr. Wolf. Industry leaders such as CEO of Visa have 
advocated adoption of an embedded microchip standard for U.S. 
credit cards, pin and chip, to replace the current easily 
compromised magnetic--and we all know about the Target case. 
They expect this technology would provide a deterrent and 
result in a more consistent and real-time reporting of the tax 
crime to law enforcement.
    What is the FBI doing to address the current security gaps 
that make credit card crime so easy to commit yet so difficult 
to prosecute or to prevent?
    Mr. Comey. I don't know enough, Mr. Chairman, about that 
particular technology to comment. From your brief description 
it sounds like a smart thing to do.
    We work very closely, as do our partners at the Secret 
Service with private enterprise and especially the credit card 
companies to try and come up with better ways, especially to 
share information when we see attacks coming from the outside 
and so they can tell us about the bad things they are seeing in 
a way that allows us to respond.
    Mr. Wolf. Well do we need a cyber summit? Like do you have 
universities, do you have contracts with--I won't mention the 
university--different universities that are looking at the 
most--is DARPA working with you?
    Sometimes you can get so involved in doing the day-to-day 
task and it is so overwhelming that it is hard to kind of step 
aside and see is there some research being done, do we need to 
bring all of the top minds together on cyber and do we need to 
have DARPA do something and do we need to have MIT, X, Y, or 
some of the labs?
    Are you working with any of them to see if there is 
something new and different that we can be doing?
    Mr. Comey. Mr. Chairman, there are a lot of good things 
going on by a lot of different people on the cyber threat that 
show how we might evolve the technology to deal with it. A lot 
of people smarter than me are working on it and are talking to 
my smart folks.
    Really on the law enforcement side and the intelligence 
side the most important thing we have done in the last couple 
years was to set up the National Cyber Investigative Joint Task 
Force, the NCIJTF, to bring together everybody who cares about 
these issues on the government side to make sure we are all 
coordinating with each other well, because in the absence of 
that, we end up with what looks like a four-year-old soccer 
game, everybody chasing the ball in a clump.
    I have a bunch of children, as I know you do, sir, and have 
watched that soccer game. Very inefficient. We have evolved to 
a place now where we are spreading out on the field and passing 
to each other and deciding who can take the best shot. That is 
a great thing.
    The missing piece is an ability to cooperate effectively 
and at machine speed, that is very, very quickly, with the 
private sector who sees things we don't see, who are worried 
about things they may not be able to tell us about because of 
their concerns about who should they share with and what are 
their liability exposures. That is why I think it is so 
important to give them that clear description of what are the 
rules of the road for cooperating with the government.
    Mr. Wolf. Well, I understand, but do we need to bring in, 
you know, a Rand and an MIT and DARPA to see? Sometimes you can 
get so bogged down doing what you are doing that there may be 
something out there.
    Do you have the ability to go to MIT or DARPA or Rand to 
say here is what we are thinking? I mean is there some formal 
structure that brings in the best minds on a constant basis, 
not on investigating cases, but on like a resource? Like DARPA 
for the DoD, do you have something like that in this area?
    Mr. Comey. You know, I guess I can't say specifically as I 
sit here. It is always a good idea to have smart people poking 
at you and looking at you from a different vantage point.
    I know my folks who focus on cyber intelligence communicate 
a lot with great minds in the private sector, but I will have 
to get back to you and explain who we are working with 
particularly. But more is always good because people see things 
that we may not be able to see.
    Mr. Wolf. Well maybe if you can--maybe the Committee could 
do something to put together. I know Director Mueller brought 
in people from outside. Bring in some of the best minds. And 
again, when I mentioned a company, Mandiant, you know, where 
they go out to China and different groups like that; maybe you 
could invite a select handful of them to see what you are 
seeing. The problem is you are enforcing, prosecuting, tracking 
down, while they are in the process--let us if we can----
    Mr. Comey. Okay.
    Mr. Wolf [continuing]. Maybe get your cyber people to come 
up to the Committee and we can----
    Mr. Comey. I will.
    Mr. Wolf [continuing]. We can sit down.
    I am going to go to Mr. Fattah, but let me just cover one 
or two more questions.

                              GANG THREAT

    In fiscal year 2014 omnibus appropriations we sustained FBI 
funding, which presumably includes Safe Streets task forces. It 
also maintained funding for the National Gang Intelligence 
Center, notwithstanding the President's proposal to terminate 
it. When I saw that they wanted to terminate it I could not 
understand.
    I am pleased the fiscal year 2015 requests funds for that 
task force; it is important in tracking and developing 
intelligence about gangs and their operations.
    What is the latest FBI assessment of a gang threat in the 
U.S. and what FBI resources to address gangs and the criminal 
activities are included in fiscal year 2015?
    You know, you could be in a neighborhood and if there are 
gangs that control that neighborhood, that can be as bad for 
the people that live there as if it is an organized crime 
operation or if it is a terrorist, Al Qaeda, from outside.
    So can you sort of lay out the gang effort in the country 
and what you see taking place? Mexican gangs and things like 
that.
    Mr. Comey. Yes. You mentioned the National Gang 
Intelligence Center, a very important resource for us and for 
our partners in state and local law enforcement, because the 
intelligence effort focuses on gangs and collects information 
from all police departments around the country, and aggregates 
it so it can then be shared. They run a database that is 
available to law enforcement, which is an encyclopedia of 
something that seems so ordinary as gang symbols and signs, so 
that if a police officer in Upstate New York encounters 
something he can query the database and see that this is 
actually a gang signal from the southwest and there has been 
some sort of migration. Very important work.
    I hear about violent street gangs everywhere I have 
traveled. I have now been to almost 30 of our field offices, 
and the local sheriffs and chiefs tell me crime is down across 
the country, but there remain these pockets that are dominated 
by these criminal groups. And it is a problem that most people 
can just drive around, but the people who live in that 
neighborhood can't drive around if they are dominated by these 
characters.
    And so we have a safe streets task force and a gang task 
force in all of our field offices. I think we have something 
like 100 different task forces that are focused on just that, 
addressing these gangs that are dominating particular 
neighborhoods.
    And as you said, Mr. Chairman, we also focus on the 
international gangs, especially those that are straddling the 
Mexican-American border. So there are a lot of resources that 
we devote to it, hundreds and hundreds of agents already.
    I would have to get you the particular number that is in 
the proposed budget for 2015, but this is something that we are 
going to continue to try and make a contribution on.
    Mr. Wolf. Well your material indicates that gangs, ``are 
becoming more violent and establishing strong alliance with 
drug trafficking organizations.''
    When the DEA was here last year they said all of the 
marijuana and cocaine is all being operated throughout the 
country, even around here, everywhere, northern Virginia, by 
gangs coming out of Mexico. We also have the human trafficking 
which I want to ask you a little bit about.
    Do we need the same effort that the bureau did before? I 
mean you prosecuted the Gambino family. Do we need the same 
effort as when the bureau under Louis Freeh and others went 
after organized crime? Do we need a major effort? I mean not, 
``yeah, we have a task force here, we have this here, okay the 
Congress puts language in so we set this up''; do we need a 
major, major effort?
    I mean I come from an inner city neighborhood, I mean a mom 
or dad that has kids that are in that, I mean that is like Al 
Qaeda to them and the fact that they are afraid to send their 
kids to school, they are afraid of MS-13, they are afraid of 
the Bloods, they are afraid of the Crips.
    Of course with your background you have a unique 
perspective. Do we need a major effort almost like we do on the 
war on terror? This is terror for the person that lives in the 
inner city. This is terror. Do we need one person working under 
you to really deal with the gang issue? Coordinate, bring 
everything together, just for the two, three, four years until 
you basically--I mean what the bureau under Louis Freeh and 
others did on organized crime, which really broke its back in 
some respects. Do we need the same type of effort for gangs?
    Mr. Comey. That is a great question.
    There is an enormous amount going on right now. I think if 
you, as I know you do, talk to chiefs and sheriffs they will 
tell you they see it exactly that way and are devoting those 
kinds of resources to it. But whether we need or we could give 
it more prominence as the FBI is a really good question. Maybe 
is my answer.
    Mr. Wolf. Would you look at it and get back to us?
    Mr. Comey. Yeah.
    Mr. Wolf. Because we had a major problem of MS-13 in 
northern Virginia. You had the hacking off of hands, you had 
machetes, you had the killing of Brenda Paz down in the 
Shenandoah Valley where nothing of violence takes place, now 
you are finding MS-13 gangs in the Shenandoah Valley.
    And so I believe, you know--and when we talk to our local 
law enforcement there is a gang task force that your people run 
based out in Prince William County at your place, we have FBI, 
DEA, ATF, Marshals Service that have basically broken the back 
in northern Virginia. I mean we had gangs in McLean, had gangs 
in Arlington.
    And so I think personally it would be helpful to have 
basically someone, particularly again with your background, I 
mean you are unique, you know, you are the Esther for such a 
time like this on the gang issue so that we have one person 
focused solely on the gangs.
    So if you would look at it and maybe get back to us. We 
don't want to go off on a tangent that you don't really think 
is that great, but with that I will just save the rest, I will 
go to Mr. Fattah?
    Thank you.
    Mr. Fattah. Mr. Chairman, thank you. Because the ranking 
member from the full committee is here I am going to Nita Lowey 
at this time, Mr. Chairman.
    Mrs. Lowey. Thank you very much, and welcome, and thank you 
Mr. Chair, Mr. Ranking Member, we are trying to expedite the 
process so there are about three hearings at the same time. 
Thank you for your consideration.
    As we all know and the chairman stressed, the FBI is in the 
midst of a sea change.
    For much of the 20th Century the FBI was the world's best 
law enforcement agency, now as cyber attacks, which we have 
been discussing, become more frequent the global war on 
terrorism continues, the FBI is leading the charge on cyber 
security and counter-terrorism, and I certainly wish you the 
best of luck.
    And as the chairman and ranking member have made clear, we 
really want to work with you, because we know the challenge, we 
want to make sure that you have the tools, the resources, and 
the staffing to insure that the job is done.

                                 CYBER

    Following up on the cyber issue. Cyber criminals, including 
hackers for profit, seem to be finding vulnerabilities in cyber 
security faster than we can protect against it.
    I can remember a very in-depth briefing I had in New York 
City with Ray Kelly's team, and it seems to me at every 
briefing an event happened and they were figuring out how to do 
it, and then the cyber criminals were way ahead and they were 
trying to catch up. They seem to be finding vulnerabilities in 
cyber security faster than we can protect against it.
    So in terms of personnel how has the FBI prioritized the 
hiring of individuals with cyber security backgrounds and how 
does the FBI compete for the best and the brightest in the 
field with the financial benefits of the private sector?
    Mr. Comey. That is a great question. Thank you for that. A 
great question.
    One I worry about an awful lot, as did Bob Mueller. 
Director Mueller started something called the Next Generation 
Cyber Initiative at the FBI, a key part of which is to hire 
somewhere close to 100 computer scientists who are Ph.D. level 
types, the big brains in the cyber world and also to hire and 
train the bright people who are digitally literate.
    You press on an interesting challenge. I came from the 
private sector, I know the amount of money that the private 
sector offers to these bright young people to help them with 
their cyber protection, so I see two answers to that.
    One is I offer a mission and, frankly, moral content to the 
work that the private sector can't offer. So my pitch to these 
bright young men and woman is, come in here and make a 
difference, and maybe you won't make much of a living, but you 
will make a remarkable life for yourselves and the people you 
protect. So that is my pitch to the young people of America, 
and it resonates.
    As the chairman said, I have got thousands of people who 
want to come work for the FBI because they care about public 
service the way all of us do, but the second piece is this.
    We are smarter in aggregate than the bad guys, it is just 
getting the aggregate right.
    So there are brilliant people in the private sector, I 
worked with them at the companies I worked at. Being able to 
latch their brains up to ours is the key to addressing this 
problem.
    So I have come to the information sharing. They are 
worrying about zero day exploits, I am worrying about zero day 
exploits. They are worrying about sophisticated malware as am 
I. We have got to be able to share information at machine speed 
so I can harness the great brains in the private sector and 
connect them into that aggregate that makes us smarter.
    Mrs. Lowey. Well, I appreciate that answer.

                            FEDERAL SALARIES

    And one other comment, if you would like to respond, is the 
salaries of federal employees has not kept up with inflation in 
recent years.
    Do you worry that recurring pay freezes will make it more 
difficult for the FBI to recruit in the future? Do you have any 
message you want to deliver to us with regard to the pay 
freezes?
    Mr. Comey. Oh, I worry very much about that, and I hear 
about that from my folks all over the country. They will say, 
Mr. Director, we get it, you are right, we didn't join the FBI 
for the money, but we have spouses and partners and families, 
all of whom are asking us what are we doing in a job where our 
pay is flat for years. We can speak to them about the moral 
content of the work a lot but it doesn't quite deliver the 
bacon. So, my people aren't in it for the money, but they need 
the money to live, and so they do care about the modest pay 
increases that they otherwise would have gotten.
    Mrs. Lowey. And one other question.

                         TERRORIST RECRUITMENT

    As you have noted the internet can serve as a recruitment 
tool for terrorists. This past December as we remember, Terry 
Loewen, a 58-year-old avionics technician from Wichita was 
arrested as he took steps to detonate explosives at the Wichita 
Mid-Continental Airport. Luckily the FBI was on the case with 
the help of undercover agents, were able to arrest Mr. Loewen 
before he could harm the public.
    How does a middle-aged westerner with no history of ties to 
terrorism end up trying to detonate bombs and kill Americans? 
And what trends are you seeing in cases of homegrown terrorism? 
What tools can Congress give you to monitor and prevent these 
kinds of evil plans from becoming reality?
    Mr. Comey. Yeah, great question. And this touches on the 
homegrown violent extremist threat that I talked about earlier 
and that is part of the growing and changing threat that I see 
as I start this job.
    I guess I don't want to talk about Loewen's case in 
particular because he is still being prosecuted, but I will 
talk generally.
    There are troubled people looking for some source of 
meaning in their lives all over the world and we have them here 
in the United States. What is happening is these folks are 
finding the literature that Al Qaeda in the Arabian Peninsula 
or Al Qaeda core puts out and are convincing themselves that 
this is the source of meaning in their life, that if I go on a 
Jihad and I kill people I will be somebody. And so they are not 
directed, they are inspired, and so how do we deal with that?
    In a lot of different ways, but most of it is devoting the 
people, which I am trying to do, to watching those spaces. We 
catch a lot of them when we see in an online forum someone 
asking, hey, how do you figure out how to blow up a car? When 
we see that we jump on that and try to respond.
    But the other way is by connecting to state and local law 
enforcement. And one of the things I have done is I have 
traveled around the country, I am speaking to cops and sheriffs 
and saying, you are likely to know more than a federal agent 
about that troubled person and hear about them before I will, 
that is why we have to stay closely connected.
    And also asking neighborhoods and friends, if you see 
something or hear something that seems weird, just tell 
somebody. It may be nothing, but if we check it out we may stop 
the next person who wants to blow up a car bomb at an airport.
    Mrs. Lowey. Thank you very much, we appreciate your service 
and I look forward to continuing to work with you as partners.
    Thank you.
    Mr. Comey. Thank you very much.
    Mr. Wolf. I think Mrs. Lowey used to represent Yonkers, so 
where you come from.
    I want to second what Mrs. Lowey said, and I think you 
should speak out about it too, we cannot continue to freeze the 
pay of these people. I mean we can't bring the Bureau up and we 
can't ask Dr. Collins to find a cure for prostate cancer, 
breast cancer, pancreatic cancer and say we are going to freeze 
your salary though. When a wealthy guy down in Boca Raton is 
using his cost of living adjustment from his social security to 
buy fishing tackle or for his boat dock, I mean we really 
cannot--and I will just say that the whole Congress, both 
sides, you can't do this anymore. I mean I have a large number 
of agents who live far out. I mean these guys are getting up at 
4:30, 5 o'clock in the morning and coming in, and you have 
agents up in New York City that are living in the Pocono 
Mountains in Pennsylvania, and so we can't freeze it.
    And so I think it is important for you, because you are not 
a political person in the sense of to say, you know, we just 
can't freeze this anymore, we cannot freeze three years 
straight, we can't do it. Pretty soon you are going to drive 
people out because they have to go simply to take care of their 
families.
    So the Congress ought not be freezing the federal salaries 
for three years straight, but I think for the head of the FBI 
to say we cannot afford to do that, would really be very, very 
helpful to say to both sides of the aisle no more pay freezes 
because you are going to drive these people out.
    Literally--you want to help Al Qaeda, drive the best people 
out of the bureau? You want to stop cancer cures then drive the 
best people out of NIH?
    But you speak and that I think would send a message.
    Dr. Harris.
    Mr. Harris. Thank you very much and thanks for appearing 
before the committee today.

           NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM

    First I just want to thank the FBI for doing the job. I 
know I asked Mr. Mueller about this last year, with the NICS 
background check system. I have to tell you it is one of the 
smoothest functioning parts of the federal government.
    And just as a question, what was the number of background 
checks conducted last year? I mean I know it was increased over 
the year before. Do you have any idea, have we got the figures?
    Mr. Comey. I don't, but I can get it very quickly.
    Mr. Harris. Okay. And my understanding is it has come back 
down a little bit now, the number of checks.
    Mr. Comey. Yeah.
    Mr. Harris. Okay. But again, I just want to congratulate 
you, because you know, in Maryland we had a horrendous problem 
with our state police who ran our state background checks who 
had a six-month backlog.
    Mr. Comey. Yeah.
    Mr. Harris. Six months and you guys can do it in frequently 
one minute.
    Mr. Comey. Yeah.
    Mr. Harris. The background checks.
    Mr. Comey. And the governor called me about the problem 
Maryland was having and I think we were able to help them.
    Mr. Harris. Well if you helped them it wasn't much help, 
because they are just clearing backlogs now from October.
    But I just want to congratulate, it is one of the smoothest 
things the federal government does.

                    IG REPORT--OCDETF FUSION CENTER

    Now the other thing I just want to spend some time on is 
the IG report about the organized crime drug enforcement task 
force, this fusion center that was released this month. Are you 
aware of the report?
    Mr. Comey. Generally.
    Mr. Harris. Have you seen it, sir? Generally, okay.
    One of the most disturbing things, because I think you know 
the inspectors general have to be--their job is incredibly 
important and can never be interfered with by the agency they 
are investigating, and one of the most troubling parts of the 
report was their description of two FBI detailees to the 
function center who spoke with--who the IG interviewed and then 
claimed retaliatory measures taken against them for speaking 
candidly to the IGs, which the IG said had basis. So it wasn't 
just they were claiming retaliation, there was basis for those 
claims of retaliation.
    And I have got to ask, since one of the deputy directors at 
the time of the investigation was an FBI detailee, the director 
was not, it was a DEA director, FBI detailee deputy director 
along with someone from ICES, deputy directors, obviously the 
FBI had someone high up in the oversight and management of this 
fusion center.
    Have you determined whether that person was involved in the 
decision to retaliate against two people who frankly and 
honestly discussed problems with an inspector general?
    I mean this is very worrisome to me. A claim of retaliation 
that the inspector general found had basis should worry every 
member of Congress that depends upon the inspector generals to 
go into the departments and get an objective view.
    So I just want to know, did your detailee, who was deputy 
director at the time, know about the retaliation or participate 
in the retaliation in any way? Because that is the only person 
you are responsible for, your detailees, you know, however many 
you have over in the fusion center.
    Mr. Comey. Right. Thank you, Dr. Harris.
    The answer is I don't know, but I will find out. I don't 
think I read the report itself, I read a summary of it. I 
remember the bit about two of our folks saying they were 
retaliated against, which is very worrisome, but I don't know 
the rest of the story and I should, and so I----
    Mr. Harris. I would ask you to get back to me as soon as 
possible specifically with the question of whether one of the 
people in your organization, the deputy director--I mean I am 
going to assume the deputy director should know what goes on at 
least at the equivalent level to the director.
    This is not a big operation as you know, it is only a few 
hundred people, it is not a huge operation, and I just find it 
hard to believe that retaliatory efforts could be taken against 
an individual without a deputy director knowing. I mean I just 
find it hard to believe.
    So I am going ask you two things. One is, was that person 
involved? And two, what disciplinary action are you going to 
take against that person?
    Mr. Comey. Uh-huh.
    Mr. Harris. The third thing is I am just going to ask you 
to comment, because their report was a little bit scathing, the 
IG report, because again, this fusion center is set up exactly 
along the lines that you suggested, you know, we have to share 
information, we have to share intelligence among agencies, it 
is important, and to deal with international drug syndicates, 
which particularly this is, you know, the organized crime 
enforcement.
    Are you worried that in fact this is the way the federal 
government is conducting business within a center that is 
supposed to have cooperation among various agencies? I mean it 
sounds like this was cats and dogs fights going on. I mean you 
know the FBI sending people in, they claim, well we are not 
getting as much product as we are putting into it so we are not 
going to, you know, we want everything detailed. Our people in 
the allegation in the IG report is that it is not an 
allegation, it is true, the FBI was shut out of the data access 
for six weeks while this fight continued.
    Did this really go on? I mean do you know this? Were you 
detailees shut out from access to data for six weeks, because 
they were claiming that they weren't getting enough back and 
this was, you know, not a personal retaliation, but a 
retaliation at the agency? Is that true?
    Mr. Comey. I don't know enough to say whether that is true 
or not, but there are two parts of it that are worrisome. One 
is the most worrisome to me.
    When an IG finds problems in an operation it is concerning 
to me, but that is what an IG is supposed to do and that makes 
us better.
    The retaliation bit concerns me a great deal for the 
reasons you said.
    The IGs make us better, and if people can't talk to them in 
a way that helps them do their job, that is a disaster.
    But I don't know sitting here, and I will get back to you 
on that.
    Mr. Harris. So I am also going to ask you if your deputy 
director assigned there what knowledge that deputy director had 
agent the shutting off for six weeks----
    Mr. Comey. Uh-huh.
    Mr. Harris [continuing]. Of access of FBI detailees to this 
fusion center, to the database of this fusion center. I mean 
that is extremely worrisome to me.
    I mean we send a lot of money into agencies and it sounds 
like, you know, we put this group together on paper that sounds 
great and then they just fight like cats and dogs, and you 
know, to counter purposes.
    I mean for six weeks FBI agents did not have access to 
data, shut off. So I hope you could shed a little more light.
    But again, I am just going to thank you for the agency and 
the work it does, and you know, the men and women who put their 
lives on the line to do things that to be honest with you a lot 
of us are very happy someone else is willing to do.
    Mr. Comey. Yeah.
    Mr. Harris. So thank you very much.
    Mr. Comey. Thank you, sir.
    Mr. Harris. I yield back.
    Mr. Wolf. I thank you, Mr. Harris.
    That fusion center I have been to. I didn't know this, the 
IG report just came out this morning, we will give you a copy. 
But I agree with Dr. Harris, everything he said I completely, 
absolutely agree. And so let me know when they come back.
    And Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Director, I am going to take a winding road here, but 
Ron Noble was the head of Interpol, with a great law 
enforcement career, is from the United States, a friend, is 
doing a great job.
    You mentioned in your opening statement how almost 
everything you do now has an international connection.
    I was in Brussels a few years back meeting with all of the 
law enforcement, your counterparts in the European Union and 
they have a range for circumstances where no matter which 
country one is arrested in you don't have to go through an 
extradition process. It is just a seamless system they set up 
between now some 28 nations. We don't have that same 
cooperation state to state in the United States.
    So I was wondering as you see these international parallels 
are there ways in which we can improve our systems here?
    The real question underneath all of this is as the chairman 
mentioned Target, Target is one of my favorite operations, they 
have done a billion dollars in library refurbishments, and Mr. 
Chairman a number of them--well they have done them in every 
state--but a number of them in Philadelphia that I have 
witnessed are doing great work in our schools and they were the 
victims of a criminal attack around the holidays. This outfit 
that seemed to have been involved was from Ukraine. We were not 
getting the cooperation we need from the government of Ukraine.
    I know that Senator Warner from Virginia came out a couple 
days ago and said, well, if we are going to do an aid package, 
this loan guarantee deal, that we should get some assurances 
from the new government that we would get assistance on cyber 
criminal activities out of Ukraine.

                CYBER ISSUES--INTERNATIONAL COOPERATION

    So, I am interested in your cyber issue and how it relates 
internationally and whether there are ways in which, as the 
Congress is considering other items like a package or loan 
guarantee in this instance for Ukraine, whether or not there 
are ways that we can improve upon your leverage in the level of 
cooperation you get from other nations in the cyber activities.
    Mr. Comey. It is a great question, Mr. Fattah.
    There is no doubt that we see a lot of the hacker activity, 
people building the botnets and engaged in these huge financial 
skimming and theft activities, are based in Russia and the 
former Soviet bloc countries, some of which we have great 
cooperation with, some of them less so.
    I can't think off the top of my head of ways in which 
Congress might assist me in obtaining leverage, but I will 
think about that and get back to you, because I am always 
interested in creative ways to do that.
    One of the ways we have tried to do it is embed our folks 
in those countries. You know, we have one in Kiev, and the 
purpose of those offices is to build relationships with the 
local law enforcement, maybe get them to come to the United 
States.
    We run something called the National Academy at Quantico 
where we train people on how to do great law enforcement, send 
them back, and by doing those investments in people, build the 
relationships where we will get cooperation.
    But I will give thought to whether there are other ways in 
which we might improve it.
    Mr. Fattah. And my next question and my last one for this 
series is related to--and Dr. Harris raised this about the IG, 
and I--you know, I support the IG's work, but I have some 
concerns at times when we create circumstances in which we get 
less support from the public for public governmental activities 
because we point out problems, right?
    So in today's news, you know, we have got three Secret 
Service agents who had an incident overseas with drinking and 
much of the country's attention will be focused on that rather 
than the Secret Service agents who are risking their lives 
today.
    Mr. Comey. Yeah.
    Mr. Fattah. In fact the President is prepared to do 
anything that is necessary. They won't get much attention.
    I know there have been issues inside the bureau over the 
years. I am not asking you to go through that at this point, 
but I am interested in as you formulate your budget and your 
appropriations request if there are areas that you need 
additional help to make sure that the bureau itself is policing 
itself versus the IG. We want to make sure that you have those 
resources.
    Mr. Comey. And I appreciate that, Mr. Fattah.
    There is no doubt that our problems get bigger headlines 
than our successes; that comes with the territory. I always say 
to people, look, I run an organization of human beings, human 
beings, as am I, are flawed.
    Mr. Fattah. Right.
    Mr. Comey. And there are going to be problems.
    I agree with you the key is that we root them out----
    Mr. Fattah. Right.
    Mr. Comey [continuing]. And try and put in place remedies 
so we don't just repeat the same problem over and over again. I 
think I should be doing that internally, but I like the IG as 
an external set of eyes on me. I have told them that you are a 
pain in the rear but you are my pain in the rear, and I like 
that very much.
    Mr. Fattah. Thank you, Mr. Director.
    Thank you, Mr. Chairman.
    Mr. Wolf. All right, thank you.

                        IG REPORT FUSION CENTER

    I want to just follow up with what Mr. Fattah said, the 
conclusion, and I appreciate Dr. Harris, the IG report said the 
fusion center management took actions--and I am quoting from 
the IG--during this review that ``created difficulties for the 
OIG in obtaining information directly from employees and 
insuring that interview responses were candid and complete.'' 
If they are not candid and complete why even have it?
    ``We had issues in obtaining documents directly from OFC 
personnel.
    ``Furthermore, and of great concern to us, two FBI 
employees detailed to the OFC reported to us that they were 
subjected to retaliation by the OFC Director after they met 
with OIG inspectors during this review to describe their 
concerns about the OFC's operations.
    ``The OIG recently completed its review of these 
retaliation allegations and concluded that there were 
reasonable grounds to believe that Personnel actions were taken 
against these employees in reprisal for their protected 
disclosures.''
    So I mean to whom much is given much is required, and of 
course with the repetition of the Bureau if that is the case 
then I think what Dr. Harris said, by disciplining here you 
keep it from actually happening again later on.
    Did Mr. Carter leave?
    Okay, next Mr. Culberson.
    Mr. Culberson. Thank you very much, Director Comey for your 
service to the country and all of the men and women that work 
with you. We are immensely proud of you and it is a privilege 
for us on the subcommittee; you have got a whole group of fans 
here that love you and care about you and want to support you 
and help you in any way that we can.
    And I want to reiterate, as I know the chairman and other 
members have said, the questions or concerns that we have 
whether it be about the fusion center, the concerns about 
retaliation against the inspector general, the work that the 
chairman has initiated with the review of the 9/11 
recommendations to make sure the FBI is implementing those, all 
of these are not intended as criticisms or nobody is picking on 
you.
    It is almost as though I feel about the FBI as I do about 
Texas, it is genetic to defend and love Texas without question, 
but you always do your best to improve her, and always are 
looking, and if there is a problem we always--as Texans as all 
of us do whether it be Virginia, any of us, California, 
Pennsylvania, Maryland, who Dr. Harris just left, we all love 
our--we just love you dearly and I just want you to know--we 
are all devoted to you, and all of these questions or concerns 
that we raise are not intended as criticisms or intended in any 
way to be hostile.
    It is as truly as though, I certainly feel--actual I got on 
appropriations so I could be on the subcommittee. It was the 
only reason I accepted the assignment to be on appropriations 
so that I could be here to help support the law enforcement 
community, to help the sciences, and everyone on this committee 
knows how passionate I am about the sciences and NASA and the 
FBI.
    So the questions we raise, the work that you do we want to 
help you pursue that, and I do want to encourage you and all of 
the folks that work with you to do everything you can to work 
with Chairman Wolf's commission to review the 9/11----
    Mr. Comey. Uh-huh.
    Mr. Culberson [continuing]. Recommendations to see how you 
all are implementing those and to be as forthright as you can 
and do your best to encourage your folks internally to overcome 
the instinctive reaction they have; don't criticize the bureau, 
don't be negative. It really is a lot like don't mess with 
Texas, don't mess with the FBI.
    We do it out of love and support, and so I hope that you 
will not ever, none of you would ever take any of this the 
wrong way, but there are thing that worry us.
    Judge John Carter who had to leave who represents central 
Texas is, deeply concerned about what happened at Fort Hood, 
and Judge Carter, who is chairing a FEMA subcommittee hearing 
on Homeland Security at 10 o'clock, asked if I could ask about 
Nidal Hasan who was brought initially to the FBI's attention in 
2008, but for whatever reason I would like to ask what in your 
opinion what happened? Communication breakdowns or what, the 
FBI failed to pursue a number of leads about this guy's views.

                               FORT HOOD

    And what in the after math of the shooting has the FBI done 
to be sure that something like this doesn't happen again and 
someone like this isn't neglected and allowed to fall through 
the cracks?
    Mr. Comey. Okay. Thank you, Mr. Culberson.
    And I like the criticism. I have been dating and married to 
my wife since I was 19 and in all that time she has been trying 
to improve me.
    Mr. Culberson. That is a great analogy.
    Mr. Comey. And I don't doubt that she loves me dearly, but 
I am a work in process. And all human organizations are a work 
in progress as are all humans.
    Mr. Culberson. Absolutely.
    Mr. Comey. And so I appreciate it.
    I told Chairman Wolf, I love the idea of the commission to 
look at us, especially as the new director.
    Mr. Culberson. Yeah, terrific.
    Mr. Comey. It is a great opportunity for me to get a fresh 
set of eyes from some gifted people on the work that we do.
    Mr. Culberson. Well what a privilege to work with Ed Meese, 
all these great----
    Mr. Comey. Oh, yeah.
    Mr. Culberson [continuing]. Americans, and I hope you will 
truly swing the door open wide for these three gentlemen and 
make sure that top to bottom the FBI is making themselves 
available. Anything and everything these gentlemen need----
    Mr. Comey. Yeah.
    Mr. Culberson [continuing]. So we don't ever get a report 
like that one about the inspector general.
    Mr. Comey. Well, I will do everything in my power to do 
that. I have told them that, as I have told my folks behind 
their backs. This means a lot to me. I want this, I want a 
fresh aggressive inspection, I want candid views, because that 
is how we get better and especially at the beginning of a ten-
year term, that is a gift for me. So I will do everything in my 
power to make that happen.
    Mr. Culberson. Marvelous. And Nidal Hasan is a good 
example.
    Mr. Comey. Right. With respect to Fort Hood I am no expert, 
I have read Judge Webster's report, and I have asked--it may 
have already been scheduled for a meeting with Judge Webster so 
he can take me through it, of the lessons learned, so that I 
can better understand what did we miss.
    Because I understand from the report there were failures of 
communication, people in one office didn't understand the 
priority of a lead from another office on the west coast and so 
things were dropped.
    I want to understand that better so I can understand what 
are the lessons we have learned and what have we fixed as a 
result. I don't know enough sitting here yet to be able to 
answer your question well, but I will.
    Mr. Culberson. Is there jurisdictional problems because it 
is an army base and army personnel, does the FBI have full 
jurisdiction to go in and investigate, interrogate, talk to 
anybody you need to on an army base?
    Mr. Comey. I think so, and there shouldn't be a problem 
there.
    I think one of the things that came out of that case was 
better information sharing, better coordination with our 
brothers and sisters on base.
    But again, through I have read the report, I need to sit 
with Judge Webster and learn better about it so I can answer it 
better.
    Mr. Culberson. I wouldn't imagine there would be a 
jurisdiction problem. I know there is with the state 
authorities that there have been examples of assaults before 
where this local DA has wanted to go in and prosecute somebody 
in the army of course because it is state district attorney and 
law enforcement. They just don't have the jurisdiction inside 
the base. But you guys have full access, full jurisdiction to 
go in and pursue anybody you want on any U.S. military or 
government installation, correct?
    Mr. Comey. That is my understanding. And we have Army CID 
people who sit on our joint terrorism task forces. We have air 
force OSI people to make sure that there aren't gaps or cracks 
into which information can fall.
    Mr. Culberson. The 18 recommendations that the Webster 
commission made, can you talk about what progress the FBI has 
made in implementing those 18 recommendations from the Webster 
commission?
    For example, policy guidance, technology information, 
review protocol, training?
    Mr. Comey. I can't except at the highest level at this 
point. My understanding is that we took them seriously, agreed 
with them. I think our Inspector General is tracking us on 
this, but I think we have adopted or are in the process of 
adopting all of them. I will be able to give you a better 
answer probably in just a couple of short weeks.
    Mr. Culberson. Okay, thank you. Mr. Chairman.
    Mr. Wolf. I will go to Mr. Honda.
    I think Judge Carter is right though, it basically was 
political correctness. Hasan lived in my district for a while, 
lived in Arlington.
    Mr. Comey. Uh-huh.
    Mr. Wolf. If you go look at the reports coming out of 
Walter Reed the doctors there all knew. I spoke to doctors down 
at Fort Hood. He had been gone and meeting with people coming 
back from Afghanistan saying certain things.
    No one wanted to say because it was political correctness, 
and so I think Judge Carter is right on target there, and I 
just think it is important that there not be political 
correctness in the FBI in the judiciary. So I think that was 
the problem. And he was in touch with Al-Awlaki, they were at 
the same mosque which used to be in my district, but I just 
think it was a question of political correctness and nobody 
wanted to say anything so therefore they didn't say anything, 
and yet the families of those who were killed have come by my 
office, one wife moved to Manassas, and the pain and suffering 
and the agony that they have experienced and never been 
adequately compensated, but I think it was a question of 
political correctness.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And I appreciate you 
having this hearing. And to Director Comey, thank you very much 
for being here, and members of the commission.

                       COMBINED DNA INDEX SYSTEM

    Today in your testimony you discussed violent crimes like 
sexual assault and the connection to the FBI laboratory 
services. I would like to look at particularly on the Combined 
DNA Index System, or CODIS, which you know blends forensic 
science and computer technology into a highly effective tool 
for linking crimes. This issue if of particular concern to me 
because I understand that there is as many as 500,000 rape kits 
sitting on the shelves in evidence rooms and property rooms of 
law enforcement. And this backlog is across the country and 
that have not been processed as of yet. And these victims are 
all waiting for their justice.
    In my congressional district in Alameda County District 
Attorney Nancy O'Malley, who is here with us today, has taken 
the lead in the effort to eliminate this backlog, this backlog 
of forensic sexual assault examination kits within the county. 
And the DA is working with other colleagues statewide and 
nationally to create protocols and policies to eliminate this 
backlog of all the rape kits that are sitting out there.
    The federal government does provide grants to local law 
enforcement I understand to expand the capacity through the 
Debbie Smith Grant Program. But we could be doing more. You 
know, there is a sense that we could do much more. I wrote a 
letter to you along with my colleagues Swalwell and 
Congresswoman Barbara Lee earlier this year and we suggested to 
address that backlog by utilizing the private sector 
laboratories in DNA testing and by employing new technology 
that allows testing samples from arrestees at the time of the 
booking.
    The first question I would like to ask you, there is two 
questions that I have, first is I would like to ask you about 
the use of the private sector laboratories for testing. And 
does the FBI have the authority to initiate a review of 
existing policies, standards, and protocols related to the 
requirements for 100 percent technical review of outsourced DNA 
testing for profiles to be included in the National DNA Index, 
the NDIS. So if so, what has been done so far? And if not, what 
kinds of obstacles seem to be remaining?
    Mr. Comey. Thank you, Mr. Honda. As fate would have it 
District O'Malley and I met a few weeks ago in San Francisco 
and she raised this question with me, which I had not focused 
on to that point, and immediately started focusing on it. 
Because she more eloquently than I can make the case that this 
is about saving people from indescribable pain and bringing to 
justice people who would visit that pain on innocent victims. 
So we share the sense of mission.
    I am no expert. Which is why when I returned from San 
Francisco I asked my experts to engage on it immediately, 
because I said I met this passionate prosecutor in San 
Francisco and you have got to figure out what is going on here 
and see if there is a way to help. My understanding is that the 
people who know better than I have serious concerns about 
allowing private sector labs to upload directly to CODIS 
because of the potential impacts on that vital national 
resource. But there are ways to improve our ability to leverage 
the private sector with state labs to get that information to 
CODIS. I understand that the head of my lab is meeting with the 
District Attorney. I do not know when but very soon I hope, to 
discuss whether we can figure out creative ways to address that 
problem without having private sector labs connect directly to 
the CODIS database.
    I realize I am out of my expertise here. So I share the 
passion. I share the sense of concern that we not do anything 
to jeopardize that national resource which is the CODIS 
database. But there has got to be a way to abide both concerns 
and achieve the goal.
    Mr. Honda. Well we have met with her, too. And we share the 
same concerns that you have. And I suspect that the DA has an 
idea about putting together a pilot program. So I guess the 
question really is with your interest and the kinds of things 
that need to be done, would your office be allowing the Alameda 
County to serve as a pilot project where the FBI could help 
eliminate some of the steps that, I guess the steps of 
technical review so that we can come out with some sort of a 
process and a solution to this backlog?
    Mr. Comey. Well the concept attracts me. I do not know the 
details well enough to say yea or nay sitting here, which is 
why I am glad she is meeting with the head of our lab. Because 
my view is there has got to be a way to accommodate both of 
those interests. But I do not know the details well enough to 
commit sitting here.
    Mr. Honda. Do you think that there will be a timeline that 
you could be looking at that you could get back to us and so we 
could be tracking this? Because 500,000 evidence DNA kits 
sitting in an evidence room is a bit much.
    Mr. Comey. Oh, I agree. I agree totally. If I can just find 
out when the meeting is I will get back to you with an update 
within two weeks of that meeting. It is Friday. Okay. So in the 
next, what is today? So within two weeks from Friday I should 
be able to give your staff an update on where we stand.
    Mr. Honda. It sounds like before Easter, right?
    Mr. Comey. Yes. I see the head of the lab or his boss every 
single morning and I have asked about this a number of times. 
They know of my interest. So it should be pretty easy for me to 
find out what is going on.
    Mr. Honda. Okay. I appreciate that position, too. And I 
just want to say thank you for your efforts. And another one is 
the rapid DNA technology. And I understand that there are 
delays in the rapid DNA technology adoption which could result 
in a proliferation of independent or local DNA databases which 
would not prove as effective or as secure as CODIS, or the 
FBI's database. So it is my understanding that the current turn 
around time for police agencies to receive the DNA hit matching 
results for arrestees and convicted offenders stands about 90 
days, or even more, due to the DNA processing backlog. So it 
makes the backlog even more important to address. So the FBI 
now green light a rapid DNA pilot study? And it sounds like you 
may need a couple of weeks to look at this, also. But do the 
rapid DNA pilot studies, accessing CODIS, and from the non-
public laboratory settings. So it is like the police booking 
stations and other similar stations. And is the FBI supportive 
of both the DNA profile hit matching and DNA profile uploading 
from the rapid DNA instruments in police booking stations? And 
I guess the border checkpoint type settings that are outside of 
the normal process?
    Mr. Comey. I know enough to tell you I find the idea of 
rapid DNA very exciting, that this could be in police stations 
and people could be processed and the results obtained very, 
very quickly. So exciting that I went to the lab and they 
showed me two machines that we are piloting right now to test 
to see how well they work, is it repeatable, is it reasonably 
error proof? Because those are all the dangers of having these 
machines proliferating around the country. I do not know 
exactly the timeline on those evaluations. But I know it is 
something we feel a sense of urgency on, and that is why the 
lab is piloting these machines right now.
    Mr. Honda. Okay. I would be very interested in keeping up 
on that information. Because I think trying to bring some 
justice to those who are victims in our, in sexual assault, and 
it is going to be based on DNA outcomes, seems to me to be very 
important in getting rid of the backlog. So we will be working 
with you closely on this. And I appreciate your sense of 
cooperation on this matter.
    Mr. Comey. Great.
    Mr. Honda. And I think all of the DAs across this country 
are probably watching this, too.
    Mr. Comey. Good.
    Mr. Honda. Thank you.
    Mr. Comey. Thank you, Mr. Honda.
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. And I know it may be a 
bit early to begin the tributes. But I just want to tell you 
what a great pleasure it has been to serve with you as 
chairman. And I cannot imagine this committee or this Congress 
without Chairman Wolf. You have been an extraordinary chair and 
a champion of human rights from the first day you came to 
Congress. And it has been a great privilege to serve with you.
    Mr. Director, thank you for sharing that anecdote about 
your wife trying to prove you. I will have you know I have been 
married for almost 20 years and in that time we have never had 
a single fight--that I have won. But to give credit where 
credit is due, that is a Ralph Hall joke which I have 
appropriated because it was so good.

                                MALAYSIA

    I wanted to ask you quite a few things. But let me start 
with Malaysia. I do not know if you are able to give us an 
update at all. I know we are helping them look at the hard 
drive. Do you have a sense of when that analysis will be 
concluded or how that analysis is proceeding?
    There also have been some claims that we were not getting 
adequate cooperation or we were not adequately invited into the 
investigation. I have heard to the contrary, that actually they 
invited us in from the beginning and that the Malaysian 
authorities were quite upset when there was speculation that 
they had not been welcoming of our assistance. And I wonder if 
you could comment on that as well?
    Mr. Comey. Thank you, Mr. Schiff. Our Legat from the very 
beginning was closely in contact with the Malaysian law 
enforcement authorities with whom we have established a great 
relationship and we offered any assistance that we might be 
able to provide. And they took us up on our technical 
abilities, which involves the exploitation of certain computer 
forensic materials that they have given to us. That work is 
ongoing. I get briefed on it every morning. I have teams 
working literally around the clock to try and exploit that. I 
do not want to say more about that in an open setting but I 
expect it to be done fairly shortly, within a day or two, to 
finish that work.
    Mr. Schiff. And have we been keeping the Malaysian 
authorities abreast of what we have been learning as we go 
forward?
    Mr. Comey. Yes. Our Legat, and we actually have additional 
resources there, speak to their counterparts every single day, 
update them, and get new information from them if they have it.
    Mr. Schiff. So have you been then pleased with the level of 
cooperation? Or do you feel that there is other assistance we 
could be providing that they have not been open to?
    Mr. Comey. No, I am pleased with the level of cooperation. 
We have a good relationship with them, again, law enforcement 
to law enforcement, and we have been taking advantage of that.

                            STOLEN PASSPORTS

    Mr. Schiff. One of the issues that has come up, even though 
it looks like it is unrelated to the disappearance of the 
plane, is that fact that two of the passengers were flying with 
stolen passports. This seems to me a fairly gaping hole in the 
international air travel system, security system, that so many 
thousands of people evidently fly throughout the course of any 
given year with stolen identification. How confident are you, 
and I know we do a lot better job interfacing with the Interpol 
database, how confident are you that people that are flying 
within the United States, or to or from the Unites States, are 
who they purport to be on those flights? And apart from the 
risk of Americans traveling on these foreign carriers, are 
there risks, other risks to other aircraft coming into our air 
space due to this gap in airline security?
    Mr. Comey. Mr. Fattah mentioned Ron Noble and I know Ron 
spoke out about this particular hole in folks around the world 
not querying the lost or stolen passport database that Interpol 
maintains. That is something that is routinely queried on all 
flights in the United States, into, and out of the United 
States. So I am confident that that information is being 
checked on anybody who wants to come into the U.S. or leave the 
U.S. So I do not see that as a vulnerability for us in the 
United States. I see it as a vulnerability, obviously, around 
the world if folks are not checking that database. So my 
concerns about airline safety with regard to flights in and out 
of the United States do not focus on identity.
    Mr. Schiff. When you say routinely does that mean that the 
database is checked for all domestic flights, or flights 
originating to or from the United States?
    Mr. Comey. My understanding is that it is checked in every 
circumstance involving a flight into or out of the United 
States. I do not know the answer, or I could find it out 
quickly, with respect to purely domestic flights in the U.S. 
But I think if someone uses a passport for ID, that is checked. 
I guess I should get you that answer. I know on the 
international flights, that is the case. But I cannot sit here 
and say it is on the domestics just yet.
    Mr. Schiff. Is it worth considering in the same way that 
the State Department issues a travel advisory when conditions 
in a country are hazardous, should we consider issuing travel 
advisories about flying on certain airlines that do not 
maintain good security practices? That do not check the 
Interpol database as a way of using the pressure of public 
knowledge on those airlines to invest in the computer systems 
necessary to check with Interpol?
    Mr. Comey. That is a great question. It is certainly worth 
considering. I have not thought about it longer than just these 
few moments, to think about what the knock on effects might be. 
But it is certainly something that my friend John Pistole at 
TSA I am sure is thinking about.
    Mr. Schiff. I mean I would imagine a downside is you are 
also telling your adversaries what airlines do not use proper 
security. But my guess is they probably know better than the 
general public, those that wish to exploit it. And it may help 
travelers decide where they want to fly, and help use economic 
pressure to get some of the international partners to use 
better practices. Well, I would love to follow up with you on 
that and with TSA as well.
    Turning if I could to the Boston bombing, lessons learned. 
The error in the TECS system in the spelling, has that error 
been corrected in the sense that if a name is misspelled do we 
have a better capacity now to catch that misspelling so that if 
there are warnings to detain someone flying in or out of the 
country that we have confidence that those will be acted upon?
    Mr. Comey. The answer is I think so. I think TSA, I am 
trying to remember what I have been told about that. I think so 
is the answer, but I would have to get back to you on the 
particulars of it. Because I know obviously that was called out 
as a problem but I cannot, sitting here, remember exactly what 
I have been told about how it was fixed.

                    BOSTON BOMBING--LESSONS LEARNED

    Mr. Schiff. Are there any changes in the FBI practice or 
protocol that have been brought about as a result of Boston? 
Anything that you felt should have been, well, was not 
necessary a causal factor in the sense that if it had been done 
differently this could have been stopped, but nonetheless have 
there been changes in FBI practices brought about as a result 
of Boston?
    Mr. Comey. Yes. And I view, as I know Bob Mueller did, 
every incident is an opportunity to look for things to improve 
even if it would not have changed the result. So I can think of 
a couple with respect to Boston that we have put into place. We 
have made clear to our Joint Terrorism Task Forces that there 
is no prior approval requirement if an officer who is on the 
task force wants to share information with appropriately 
cleared folks in his department. There was some concern that 
that may have been misunderstood as it required prior approval. 
And the second thing is we have spoken to chiefs and sheriffs 
and what we are doing is developing a protocol in each of our 
Joint Terrorism Task Forces. So we review on a regular basis 
with executive participation from the local chiefs and the 
sheriffs, the cases we are closing. Because in case they have 
an interest or a question about why we are closing a particular 
thing, that is a protocol. The timing may be different in each 
jurisdiction. In New York it may be a weekly meeting, in 
smaller jurisdictions it may be a monthly meeting. But we want 
to make sure that the participants in the Joint Terrorism Task 
Force have a chance to look at the work we have done and ask 
questions before we close a case. So those are two process 
improvements that came out of the Boston case.

                                 SYRIA

    Mr. Schiff. If I can turn to an international challenge, 
that is Americans coming back from Syria that may have been 
radicalized. Do you have the resources that you need to in some 
cases conduct surveillance or do whatever necessary, follow up 
investigation when we have people returning from Syria? Those 
are very manpower intensive requirements. And is that 
adequately covered in the President's budget? How will you 
handle those new demands in light of the fact that so many 
other areas of your workload like cyber are already 
dramatically increasing?
    Mr. Comey. The answer is yes. With the funding that you all 
have given us, and that I hope I will receive for 2015, and 
filling all those vacant positions, we will have the resources 
to address that threat. One of the things you have funded for 
us is our mobile surveillance team effort, which I now have 
mobile surveillance teams all over the country. And as we 
speak, we are using those resources to address just that 
problem. So the answer is, yes, if I maintain the current 
course and speed and continue to hire back all those vacancies.
    Mr. Schiff. Finally, I know there is a bump in the 
President's budget to accelerate our handling of the MLATs and 
I just want to acknowledge that I think that would be money 
very well invested given the delays that accompany our seeking 
information from our allied governments and the frustrations 
they have and the degree to which that is driving an effort to 
localize data centers and otherwise, use otherwise 
protectionist policies. So hopefully we can help with the MLAT 
request.
    And finally I want to second what Mr. Honda said, of a 
great interest in DNA and trying to accelerate the opportunity, 
use rapid DNA, as well as follow up on the work that one of the 
DOJ task forces have done on our request on familial DNA which 
has proved very powerful in places like California in unsolved 
cases.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wolf. I am going to go ahead to Mr. Serrano next, but 
just to follow up on the thing that Mr. Schiff raised if I can. 
Because we hear reports that there may be as many as 7,500 
foreign fighters in Syria of whom at least 50 are Americans. We 
have also heard the National Intelligence Director Clapper 
point to this as a real threat. Last month the British arrested 
Moazzam Begg, a former Guantanamo detainee and one of four 
arrested on terrorism offenses related to the War in Syria. 
According to news reports British authorities are increasingly 
concerned about the threat posed by Britons returning who have 
been radicalized by their engagement in fighting. They arrested 
24 related to Syria in 2013, and 14 in January alone of this 
year.
    We want to be sure that we are not at risk of having those 
with training contacts with terrorists coming back into the 
U.S. and threatening our communities. I introduced before the 
recess H.R. 4223 on March 12th, the International Conflicts of 
Concern Act, which would authorize the President to restrict 
travel and material support to countries like Syria where 
foreign terrorist organizations are active in fighting and may 
be working with government or anti-government forces. This 
would require licenses in order to travel or provide material 
support to such countries and establish criminal penalties if 
such restrictions were not followed. I introduced the bill in 
response to concerns noted by the intelligence and law 
enforcement communities with regard to radicalization of those 
who traveled to fight in such countries. How large of a problem 
for security does the FBI believe such foreign fighters 
represent? And have you had a chance to look at the legislation 
that we put in dealing with this issue? But I appreciate Mr. 
Schiff raising this. And I think it is important. And we did 
speak to some people in different agencies about this. But do 
you want to comment?
    Mr. Comey. I agree with Mr. Schiff and you, Mr. Chairman. A 
serious challenge for us. It is one of the things I meant by 
the metastasizing threat. We are very worried about people who 
travel there, travel out to the EU, and then can come to the 
U.S. without a visa, or our citizens who travel back and forth 
directly. I hear about it from all of my colleagues in the EU 
in law enforcement and intelligence. So it is an enormous 
challenge. And I like very much the idea behind the 
legislation.
    Mr. Wolf. Okay, great. Thank you very much. Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman. I am sorry I am late, 
but as you know this time of the year we have quite a few 
meetings going on. Thank you, Mr. Director, and congratulations 
on your appointment, I think. We will find out as time goes on.
    Mr. Comey. Right, what could go wrong?
    Mr. Serrano. Yes, nothing. You have a very friendly 
committee. I remember the days when this committee took good, 
good, good care of the FBI when everything else was not 
happening right after 9/11.

                        FBI TRADITIONAL MISSION

    Let me ask you a couple of questions. First of all, the 
Department of Justice IG report that found that the FBI ranked 
mortgage fraud as its lowest priority even after the fiscal 
crisis, and even after significant funds were given to the 
agency to investigate this type of crime. Your fiscal year 2015 
budget does not include additional funding for work in this 
area. What are you doing to ensure that the FBI is still 
engaging in its traditional missions in things like mortgage 
fraud and civil rights?
    Mr. Comey. What I am doing is asking about it constantly 
because white collar enforcement in general is something I am 
passionate about. And so what I know from asking about it is we 
have about 200 agents who do nothing but that work focused on 
mortgage fraud. Obviously the number of cases is coming down 
the farther we get from 2008. But it remains something that I 
have got lots of folks working on out in the field. And civil 
rights separately remains something that is uniquely the 
province of the FBI. As a national independent force it is 
something we have to do and will remain a priority of ours.
    Mr. Serrano. Well, we hope so. Because this was a little 
troubling, that the issue of mortgage fraud and therefore other 
issues could fall down as we continue to pay attention. And to 
me that was the one thing that I told Chairman Wolf and 
Chairman Rogers after 9/11, which was that we need to pay 
attention to terrorism. Absolutely. Absolutely. That is number 
one priority. But in the process we cannot throw away those 
other issues that the FBI has been working on, and been so good 
and effective at resolving if you will.
    Mr. Comey. I agree very much. When I was U.S. Attorney in 
New York a huge part of my docket was white collar crime, 
frauds of all sorts. And those are crimes that you can actually 
clearly deter. You can be effective with enforcement there. And 
so it is something I believe we should continue to do.

                         NYC POLICE DEPARTMENT

    Mr. Serrano. Right. Which brings me to my next question, 
which is without telling us anything that you are not allowed 
to tell us, nor that we want to hear in public, what is the 
continuing relationship with the New York City Police 
Department? Since I think it is pretty clear to everyone on the 
committee, notwithstanding how some people in Congress feel 
about New York, that New York continues to be the number one 
target because it makes the largest statement for terrorists. 
What is the ongoing relationship? And do you have one now that 
you are a new director, and we have a new police commissioner?
    Mr. Comey. Yes. No one picks on New York in my presence, 
because they know I am from there. The relationship is 
excellent. Although sometimes it is like two brothers, right? 
We love each other but sometimes we wrestle on the floor. But 
we get up. No one wants to stab anybody. We get up and we love 
each other again. Particularly on counterterrorism it is highly 
effective. Really, really good. We do great stuff together. I 
had a great relationship with Ray Kelly, as Bob Mueller did. 
And I think it will continue with Bill Bratton. I note that his 
Chief of Intelligence John Miller is an alum of the FBI. So I 
think we know each other. I think the brotherhood/sisterhood is 
going to get even tighter given some of those connections. So 
despite what people may have heard about us bumping with the 
NYPD, I do not see it. I see us doing lots of good stuff 
together.
    Mr. Serrano. Thank you. Well, I appreciate that. And like I 
said, that is, we have different issues, as you know, in New 
York City with the Police Department, stop and frisk and other 
issues. But when it comes to fighting terrorism and being able 
to single out a car that had a car bomb or something like that, 
that has been very effective. And people are still suffering 
the effects of 9/11 and we are hoping that that continues to be 
something that you work on.

                              PUERTO RICO

    Let me ask you a question. As some of you, as everyone on 
this committee knows, and you should know also, I was born in 
Puerto Rico so I take great interest in what happens between 
the FBI and the Commonwealth of Puerto Rico. And sitting in 
that chair some years ago I asked a question which could have 
been considered by some sort of a throwaway question. I asked 
Director Freeh about the history of the relations between 
Puerto Rico and the FBI. And he opened up and he said there is 
a part of that history that is nothing we should be proud of. 
And he quickly agreed to begin to release files, over a million 
files of that relationship that went after basically a group of 
people that wanted independent for Puerto Rico. But as it 
turned out later they went after a lot of folks and hurt a lot 
of people in the process. And those files have been coming to 
the Senate in Puerto Rico and to, they have got a Web site at 
Hunter College and so on. I would hope that that relationship 
continues with your office and your leadership. That we 
continue to open up those files and find out what went wrong so 
that that kind of behavior does not take place again.
    And for members of the committee that may not remember, it 
was a time when there was a very serious persecution. He 
admitted to it, so did Mueller after that. It was the counter--
--
    Mr. Comey. Yes, COINTELPRO.
    Mr. Serrano. Yes, COINTELPRO, program. And I hope that we 
continue. There has been sort of a lapse now. We continue to 
get those files available. I understand how the files have to 
show up. Some of them have things blacked out, and that is 
probably because some of those folks that were giving 
information are still alive. I understand how that works. But 
that has been a very important point.
    So in speaking to that, when you respond to that, also 
respond to the fact that in the last appropriations bill when 
we gave the FBI, or GSA, $85 million to build a new facility in 
Puerto Rico.
    Mr. Comey. Mm-hmm.
    Mr. Serrano. And the other $10 million would come directly 
from GSA. So how would that help things? And then going back to 
will you continue to release the files?
    Mr. Comey. Okay, thank you. I will start with the file 
question first. Although I do not know the particulars on the 
file issue, I will get smarter on that after I leave here, the 
principle is one I support very much. The sense of openness and 
recognition of past mistakes and wrongs. In fact my concern for 
that was embedded in something I announced to the entire FBI 
workforce when I started. You may know Louis Freeh required all 
new agents to go to the Holocaust Museum to remind them of the 
dangers of abusive power in a gut-wrenching way. I have added 
to that. I am going to require all new agents to visit the 
Martin Luther King Memorial as a reminder closer to the 
Bureau's own history of the dangers of getting away from 
oversight and accountability. And I see the King abuses as of a 
piece with the COINTELPRO issues that you are talking about. 
And so that, I will continue that commitment to recognizing we 
are a great institution but we are a human institution. And so 
we cannot forget our history. And if we do, we risk repeating 
our history. So that is something I feel very strongly about.
    With respect to Puerto Rico, it is a major focus, as you 
know. Crime and public corruption, violent crime, drug 
trafficking in Puerto Rico, are some of the FBI's priorities. I 
got briefed on it my first week, I think, as I stood in the 
command center and watched our hostage rescue team execute 
arrest warrants against a dangerous violent gang in San Juan. 
And so it is a priority of the FBI's.
    We have over 300 agents, as you know, assigned in Puerto 
Rico. I am informed that GSA has the site for the new building 
and it is on track to be built. I asked my staff if it will be 
done in a couple, three years? They said, have you ever built a 
new building before? And so it is coming. Not fast enough for 
my troops who are not in adequate facilities there, but it is 
coming.
    So that focus on Puerto Rico remains a big part of our 
work, as I said, especially on the public corruption and the 
violent crime front.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.

                        GANG INTELLIGENCE CENTER

    Mr. Wolf. Thank you, Mr. Serrano. On human trafficking, we 
have a National Gang Intelligence Center. Do you think given 
the connection between gangs and human trafficking it would 
make sense that the Center also gather and develop intelligence 
related to gang trafficking activity? Do you think that is a 
good idea, to have the Gang Intelligence Center also track the 
gang trafficking of young girls and sexual trafficking?
    Mr. Comey. I do. That makes good sense to me. Because so 
often we see, as you said, the organized criminal groups who 
might have trafficked drugs or guns also trafficking people 
now. And it would be great to get smart people thinking in a 
holistic way about that problem of human trafficking.

                  UNDERGROUND COMMERCIAL SEX INDUSTRY

    Mr. Wolf. The Urban Institute recently published an 
analysis of the underground commercial sex industry and 
identified some important recommendations even if they seem 
obvious, such as better training on evidence, interviewing, 
better information sharing between jurisdictions to coordinate 
efforts. In addition they recommended attacking this ``black 
market where it lives on line,'' which might involved 
strengthening laws. What is your experience and recommendation 
for dealing with forums such as Backpage.com? If we cannot shut 
down Backpage.com then we really cannot deal with the problem. 
And in Northern Virginia, where I know you know well, we had a 
group called Polaris look at places in Northern Virginia where 
there was trafficking, sexual trafficking. And they came back 
with 81 locations, Arlington, Fairfax, Loudoun, Prince William. 
But Backpage we are now finding in the Shenandoah Valley, 
Backpage. So what are your thoughts about how do we deal with 
the online, Backpage problem?
    Mr. Comey. Thank you, Mr. Chairman. Just as I said earlier 
that our entire lives have now been connected to the internet, 
the lives of those who would exploit children and engage in 
human trafficking are also connected in the same way to the 
Internet. So we see people finding pimps and pimps finding 
customers through these online forums. I have not thought 
through in a good way whether there are First Amendment issues 
associated with shutting down particular forums. But I know 
when we do Operation Cross Country to try and stop trafficking 
and when we do some of these operations like we did just around 
the Super Bowl, we did it in the tri-state area in New York, 
these online forums, like the one you mentioned, are the places 
where we see people going to find these, both for pimps to find 
people and for customers to find people. So it is a big 
problem. As I said, I have not thought through whether there 
are legal wrinkles to shutting down particular outfits but it 
is a big concern.
    Mr. Wolf. Well, it is really a big one. We have had young 
high school students in the Fairfax County system involved. And 
the Committee has put language in in a bipartisan way that 
every FBI agent, every field office is involved and we 
appreciate it, and every U.S. Attorney. Neil McBride, who I am 
sorry left, did an incredible job. In fact, Neil probably set 
the tone or the style for every U.S. Attorney. But we have got 
to deal with this issue.
    And there are going to be two things. One, you have to go 
after the pimps. Now we understand the IRS does not want to do 
that. I think you need a major effort here to break the back. 
If you go after the pimps insofar as tracking their income, hit 
them, and hit them, and hit them, and hit them, and hit them, 
and hit them. Because you are dealing with, some people, I 
said, 13-and 14-year old girls. You are dealing with from all 
levels and all families. And some locations even punish the 
young girls, if you will. We need places they can go for 
rehabilitation. The Joe Gibbs House is doing some things. But I 
would like your best people to look how do we break the back of 
this insofar as go after the pimps? Have the IRS put together a 
team, see, working with others.
    Now we years ago when we had a different committee with a 
different jurisdiction, we had a national conference, 
international conference, Secretary Powell spoke, bringing all 
of the people together around the world on international sexual 
trafficking. I had a group from my church come in and say, you 
know, Mr. Wolf, we would like you to deal with this issue of 
Albania. Do you know what is going on, Mr. Wolf, in Albania? Do 
you know what is going on in Thailand? But what about Tyson's 
Corner? What about Annandale? What about Yonkers? And so maybe 
we need a national conference whereby the FBI, to bring all the 
law enforcement together, maybe do it, you know, with Skype, in 
different ways, to really kind of see if we can break the back. 
Because this thing is growing. So if you would look at the 
possibility of a national conference, and also how do we deal 
with the pimps to directly go after the pimps? You do not have 
to comment, but if you would look at that and get back, I would 
appreciate it.
    Mr. Comey. I will.

                            9/11 COMMISSION

    Mr. Wolf. The 9/11 Commission, the external review of FBI 
implementation. And you have got a good group there, I mean, 
with Ed Meese, and Congressman Roemer, and Bruce Hoffman. One, 
Attorney General when he was in the White House with I think 
the finest President in modern times, President Reagan. 
Congressman Roemer was on the 9/11 Commission. Professor 
Hoffman teaches this at Georgetown. Fresh eyes on the target. 
What would you like them to look at? And apparently you have 
met with them. What would you like them to do? I think this is 
a great opportunity, as you said, for you. But what would you 
like them to look at? Or are you in communication making sure 
that they know?
    Mr. Comey. Oh, yes. As you said, it is definitely an all-
star team. I told General Meese, who I cannot stop calling 
General Meese because he was the Attorney General when I was 
first appointed. His name is on my appointment certificate. I 
think I make both of us feel old when I do that. But it is an 
all-star team.
    Anything they want to offer a view on is going to be of 
interest to me. I am particularly interested in how do they 
assess our effort to transform the organization into an 
intelligence driven organization? It is something that I 
believe is a generational change that requires a cultural 
change. A generation is 20 years, so I think I have got to 
continue to push on it for my ten-year term. But I would love 
their advice on how that is going. What could make it better? 
What is not working well? Because that is fundamental to the 
future of this organization. And there are a number of other 
things I know they are looking at that I will be interested in. 
But that one in particular, as a new director, really interests 
me.
    Mr. Wolf. Thank you. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. And I will make this 
brief because I know we have a number of other things that we 
have to get to. But I was out at the Joint Terrorism Center and 
I saw a great operation. I was out there for actually the 
launch of it. And your team is doing a great job working with 
other people. I also visited the Center for Missing and 
Exploited Children in which this coordination really is 
critical on all fronts. Which plays out in local jurisdictions. 
We had a challenge a few years ago with a significant uptick in 
shootings and murders in the Philadelphia area. In working with 
the chairman we got some additional focus through task forces 
there working with our local police. And now we are at a 50-
year low. So there is a connection to coordinated activities 
and working together in ways that really do make a difference. 
I want to thank you for that.
    As you go forward, is there information that you can 
provide to the committee. You do not have to provide it in this 
setting. That you know, as we consider the appropriations 
process, and also, the spend plan and other things that come 
up. We want to be available to you as you go forward. And I 
want to thank you in particular in your work.
    And you mentioned white collar, the Toyota settlement is of 
interest to me. Today I am asking is this a big settlement?
    Mr. Comey. Mm-hmm.
    Mr. Fattah. I am sending a letter to the Attorney General 
and to Toyota, to ask that some of those dollars go into 
medical research and into youth mentoring, and not just into a 
hole somewhere. Because I think that the work that you are 
doing is great but that we also need to be focused on trying to 
make sure a lot of our young people do not end up on these side 
roads and trying to divert them a lot earlier on.
    So I thank the chairman for the hearing. And I know we are 
going to hear from General Meese and our great colleague Tim 
Roemer. So I look forward to that.
    Mr. Wolf. Mr. Culberson.
    Mr. Culberson. Thank you very much, Mr. Chairman. I want to 
reiterate my colleagues' concern about and support for your 
work to help local jurisdictions clean up the DNA rape kit 
backlog; it is extraordinarily important. And also to follow up 
on my good friend Mr. Fattah's question about encouraging 
cooperation with Ukraine, he is exactly right. The best place 
to do that is through the money. And to the extent they are not 
cooperating I really hope you will ask your folks to contact 
Chairman Wolf, Mr. Fattah and let them know to what extent 
Ukraine is refusing to cooperate. Because that would be I think 
a great point of leverage that Congress could use to help you 
and ensure that those folks are cooperating.

                             CYBER SECURITY

    And the area of cybersecurity is something near and dear to 
my heart. And Congressman Wolf, my dearest good friend in 
Congress, took me out to see your Cyber Center out near Dulles 
Airport.
    Mr. Comey. Yes.
    Mr. Culberson. And I cannot thank you enough for the work 
you are doing. It is extraordinarily impressive. And I know 
that we will do everything we can to help you in that effort. I 
know there has been a tremendous problem that is out there, the 
public is aware of it, that the Chinese penetrating and 
stealing intellectual property on a scale that I do not think 
the world has ever seen before. I used to think the sack of 
Constantinople, or perhaps Alexander the Great's sack of 
Persepolis was maybe the greatest looting and pillaging ever 
done. It looks like the Chinese have virtually stolen every, 
almost all the intellectual property out there. That, as far as 
you know that is a pretty fair assessment? They have stolen it 
all, other than maybe Colonel Sanders' recipe, which is in 
writing, and the Coca-Cola recipe which is not on a computer.
    Mr. Comey. I hope neither of them are connected to the 
internet.
    Mr. Culberson. Yes.
    Mr. Comey. It remains an enormous challenge.
    Mr. Culberson. Particularly the Chinese.
    Mr. Comey. Yes, the Chinese in particular. We devote 
tremendous resources to try and address that problem, which 
cuts across all industries in the United States, all 
businesses.
    Mr. Culberson. Looking at the scale of cybertheft, the 
attacks, Chinese government, Chinese affiliated companies that 
are affiliated with the People's Liberation Army, they are the 
worst in the world?
    Mr. Comey. It remains, as I said, an enormous challenge for 
us. That particular set of intrusions coming from China is a 
huge focus of the FBI.
    Mr. Culberson. Would you rank them as the worst in the 
world?
    Mr. Comey. I would rank them as the most aggressive and 
prolific practicers of that particular----
    Mr. Culberson [continuing]. World. Have you been able, how 
are you able to, and I understand there is a, you all have done 
a marvelous job in helping private companies discover when they 
have been penetrated and thefts have occurred. How do you 
pursue that? Does a company have to initiate a contact with 
you? If you spot something that has happened, can you, do you, 
and I hope you do, initiate contact with them? Houston, Texas 
is to the oil and gas industry what Silicon Valley is to the 
computer industry. And the oil and gas companies that I 
represent, are good folks and they have got tremendously 
valuable intellectual property that they have spent millions of 
dollars to be sure they are finding the right places to drill. 
When you spot an intrusion, something happens to a private 
company, do you all initiate a contact with them and let them 
know? Hey, you have had a break in.
    Mr. Comey. Yes. It runs both ways. If we see something 
coming, we are working to make sure we get it to the company, 
get it fast, and give them information that they can do 
something with. A lot of them have expressed frustration to us, 
it is not good enough to tell me someone is about to break into 
your building. Well, where? And how might we protect it? So we 
are getting better there. And we are trying to get companies to 
be better at telling us when they see something. Because as we 
talked about earlier, they have a lot of smart people and good 
equipment. So they may see something that we do not. We have 
got to share together to create that aggregate brain we talked 
about. But yes, it goes in both directions.
    And we are creating a national malware database which----
    Mr. Culberson. Malware?
    Mr. Comey. Malware.
    Mr. Culberson. Malware.
    Mr. Comey. A malicious software database, which we hope to 
be like our fingerprint database. A national resource so that 
if a company encounters something that looks bad they can send 
us that code, we will run it against the database, and tell 
them, yes, we have seen this in this place or that. Here is how 
you might address that. And if we can create a big enough 
database and share information quick enough we can do better 
against this problem.
    Mr. Culberson. Did the legislation, and my colleagues 
perhaps can help me with this as well, that Mike Rogers, 
Chairman of the Intelligence Committee, members, was it last 
year? I think he had a piece of legislation that was designed 
to do that so the federal government would be able to 
essentially create a database of malware. Like whenever you log 
on with your computer, I use Norton on my miserable Windows 
system. And I love Macintosh. And I use another one for my 
Windows system. But whenever I turn the computer on the first 
thing I do is update the operating system and the virus 
programs. And if I remember correctly Chairman Rogers' 
legislation was designed to do essentially what you just said 
for the FBI so that businesses would be able to log on to this 
central database of the federal government and essentially 
update the federal government's awareness of malware attacks on 
them, and then the company could download protection against 
malware. Does that ring a bell? Did that legislation ever pass, 
Adam, do you know? It passed the House. I do not----
    Mr. Schiff. I think you are referring to, there is some 
broad cyber legislation that would expand a pilot that allows 
private companies to share data about how they have been 
attacked with the federal government, and the federal 
government to share data----
    Mr. Culberson. Right.
    Mr. Schiff [continuing]. What they need to look for so that 
one company can benefit and the government can benefit from 
looking for the signatures----
    Mr. Culberson. Exactly. Just like we do when we update our 
own personal computers.
    Mr. Schiff. It has not passed yet. There are some----
    Mr. Culberson. It has not passed the Senate. It passed the 
House, though, did it not? Remember, we did that last year, I 
think.
    Mr. Schiff. You know, I think that may be right. The Senate 
was----
    Mr. Culberson. As usual.
    Mr. Schiff [continuing]. I think the big sticking point was 
how to deal with critical infrastructure.
    Mr. Culberson. Yes.
    Mr. Schiff. And there are a few remaining issues about 
minimization of personal data that may be entwined with the 
malware. So that is still something that needs to be worked 
out.

                                PRIVACY

    Mr. Culberson. Bingo. Which is what I wanted to follow up 
on. And the chairman is very generous for the time. But one 
thing that I know my colleagues, our constituents, are deeply 
concerned about is privacy. And you know, a law abiding 
American has an absolute right to privacy. I know it is 
something Texans are particularly passionate about, is privacy, 
leave us alone, let Texans run Texas. How do you do that? I 
mean, how is it in this era of the internet and picking up a 
cell phone and using it, how is the, just in your opinion, sir, 
how should the FBI approach this problem in order to protect 
the privacy rights of law abiding Americans who are not the 
problem yet still be able to identify folks who are using, for 
example, like Hasan did. He was using that Web site and talking 
to this psycho overseas. Talk to us a little bit about what the 
FBI is doing and what this subcommittee can do to help you do 
your job to identify the bad guys yet protect the absolute 
privacy rights of law abiding Americans when they are using 
their cell phones.
    By the way, just a quick side story, it is astonishing to 
me that the cell phones have become so ubiquitous that the 
other night I happened to see my wife taped Bette Midler, who 
was on one of the late night shows, and Bette Midler said she 
remembered years ago she used to resent all the autograph 
seekers. She was coming in to see Jay Leno that night and she 
said for the first time in my life I walked past a long line of 
people that were waiting to get into the Jay Leno show and most 
of them never looked at me because they were all doing this 
with their phone. And they did not want autographs. The ones 
that did spot her wanted selfies. Everybody is using these. How 
do we protect our privacy as law abiding Americans yet still 
allow you to spot when you have got a psycho like Hasan 
communicating with these nuts overseas? Or these people in 
Syria that are Americans coming back? It is a tough challenge, 
but how do you do it?
    Mr. Comey. It is a very tough challenge. And it is a great 
and hard issue. Those devices are ubiquitous.
    Mr. Culberson. Yes.
    Mr. Comey. Except not in my office because they can be used 
by other nation states to try to listen to my conversations. 
So----
    Mr. Culberson. You do not even use one?
    Mr. Comey. Well I do not use one in connection with 
anything related to my office, which makes life harder.
    Mr. Culberson. Yes.
    Mr. Comey. Because my kids cannot text me during the day. I 
think the answer is just to talk about it. I mean, I think all, 
not just Texans, but all Americans should be suspicious of 
government power.
    Mr. Culberson. Yes----
    Mr. Comey. This country was founded by people who were 
suspicious of government power. I hate to break it to my 
British friends but we built this country into three branches 
because we worry about humans and power. So I think it is great 
to ask questions. And we, as government leaders, should explain 
how we are using our authorities.
    I do not like the framework of trade-offs of liberty versus 
security. I think we are best----
    Mr. Culberson. Thank you.
    Mr. Comey [continuing]. When we do both, right? A dangerous 
neighborhood with a bad park where parents cannot go and kids 
cannot go play in the park, when the police department puts 
officers on that park, liberty and security are enhanced at the 
same time.
    Mr. Culberson. Absolutely.
    Mr. Comey. Right? Because people can play in that 
neighborhood because they are watched. So the internet is a 
very dangerous playground right now. But we can enhance both 
liberty and security. We have just to talk about it. I mean, we 
in law enforcement have to have a presence. We have to be able 
to see the bad guys. But we also have to make sure we are 
explaining to people what we are doing with the innocent 
information we see and how we are protecting their right to be 
private.
    Now how they protect their privacy dealing with all the 
social media and everything, where they put everything out 
there, is really not my focus on privacy. But I can explain how 
the government uses our authorities, how we are overseeing the 
role that all the checks and balances that our founders built 
into the government play. And that is my duty and I should be 
talking about that. I think if folks understand us, the angel 
is in those details. Not a devil, the angel is in those details 
because I think we are doing it right.
    Mr. Culberson. It is marvelous to hear you say it. You 
would agree, then, with Benjamin Franklin who said those who 
would trade a little liberty for a little safety are going to 
wind up with neither?
    Mr. Comey. Yes. I do not like the trade-off framework.
    Mr. Culberson. Sure. Marvelous to hear you say so. It is a 
great challenge and one that I think all of us are committed to 
protect our constituents' privacy. One way I have often thought 
about it, Director, is that if you think about it Patrick Henry 
and the founders never surrendered their right of self-defense. 
To any level of government. And that is really kind of the 
fundamental premise of our entire system of government. And I 
am delighted to hear you say it. But that is really, I think as 
law enforcement officers that all of us need to remember as 
elected officials, that we are servants and we are here to 
ensure to the best of our ability to preserve and protect that 
individual privacy and those individual freedoms that were 
passed on to us by our ancestors and I am delighted to hear you 
say that. And it is something I want to work with you, I know 
the subcommittee does, in finding ways to spot the bad guys but 
protect the absolute right of privacy of individual Americans.

                                 DRONES

    And if the chairman will permit me, if I could ask quickly 
about drones? When you are using drones for example, flying 
over the United States, and I know you do, you have to. How do 
you protect the privacy of a law abiding American in the 
privacy of their home?
    Mr. Comey. Well, the answer there is we apply the same 
standards we apply when we are flying helicopters or planes 
conducting surveillance, right? We abide by the Supreme Court's 
teaching of where there is a reasonable expectation of privacy, 
where the Fourth Amendment line is. We are very, very careful 
about that. And as you said, the FBI has a very small number of 
drones and they are sort of model aircraft size things that we 
use only in the most dangerous circumstances where I cannot 
send a pilot up because the bad guy might shoot at them, to be 
able to see where a kid is being held captive, or whether there 
is a situation where we are going to go in and try and rescue 
somebody.
    But yes, we apply the same standards. There are rules, and 
they are extensive. The one thing we have in the FBI is rules 
that govern our conduct, extensive, about when we can fly one 
of these little things, what the rules are, all of those kinds 
of things. It is boring, but as I said, the angel is in those 
details. Because we are constrained, as we should be.
    Mr. Culberson. Thank you, sir. Thank you for the extra 
time, too, Mr. Chairman.
    Mr. Wolf. I have some, I am going to end but I am going to 
go to Mr. Schiff to see if he has anything else? Or Mr. Fattah? 
Go ahead, if you do. And then, this is important. I mean, the 
Bureau does not come up very much. I think that Congress at 
times did not. So anything you have, just go ahead. And then I 
will go through some things that will say yes or noes, and I 
want to raise some things. But go ahead.

                        TERRORISM INVESTIGATIONS

    Mr. Schiff. Thank you, Mr. Chairman. And I will be brief. 
Just two other areas I wanted to ask you about, Director. The 
first is whether you think there are any changes to law 
necessary in the context of arrests made in a terrorism 
investigation? Did the situation involving the arrest of one of 
the Tsarnaev brothers reveal any changes that ought to be made? 
Some years ago I worked on legislation that might give 
investigators a longer period of time prior to presentation 
before the magistrate in terrorism investigations, a 
codification of the public safety exception and its breadth in 
terrorism investigations as well as perhaps a change in the 
time required before presentment. Is that something that we 
ought to consider that has come to your attention either 
through the Tsarnaev case or the case of Aliby? If you could 
share your thoughts on that?
    Mr. Comey. Thank you, Mr. Schiff. When I was at Columbia 
briefly on the faculty and trying to think deep thoughts, this 
was one of the things that I read a lot about. My folks and I 
believe we have the flexibility under the Quarles public safety 
exception to conduct interviews and interrogations in terrorism 
cases. Obviously, more clarity and more flexibility there would 
be better. But we do run into the speedy presentment problem 
that you have identified. That even if we have the flexibility 
under Quarles to conduct investigations to try and address 
public safety, we may run up against a hard deadline because 
the person has to be presented under the Federal Rules of 
Criminal Procedure.
    So I know that is something the Department of Justice is 
thinking about. I know that it is something you have thought 
about. And so I do think it is worthy of discussion.
    Mr. Schiff. Well I would be happy to continue working with 
any of your folks on it. What I tried to do earlier I thought 
might thread the difficult political needle here, between those 
who do not want the criminal justice system used at all in 
terrorism cases and those that do not want any lengthier delay 
before presentment. And I did manage to thread the needle and 
then I managed to get no support from either side. I found a 
perfect sweet spot of no support. But anyway, I think that the 
presentment clause bears reexamination in light of some of the 
changes threats that we face and perhaps the greater need to be 
able to interview suspects in terrorism investigations to 
protect not only people here at home but our troops overseas as 
well.

                         INTELLECTUAL PROPERTY

    The final thing I just wanted to bring to your attention, 
this was a priority of your predecessor and I hope it will 
remain one under your leadership as well, I represent a great 
many constituents that are working in the film, music, and 
television business who struggle with the massive theft of 
their intellectual property online. And I want to tell you that 
the enforcement work done by FBI and DOJ has really helped.
    Mr. Comey. Good.
    Mr. Schiff. And let me give you one example. A recent peer 
reviewed academic study published by two economists looked at 
the period fall and the seizure or Megaupload in 2012 and the 
indictment of its founder and several employees on charges of 
criminal copyright infringement. Prior to the indictment this 
had been the 13th most popular site on the internet. 
Researchers studied movie sales in 12 countries before and 
after the indictment and found that the sales of movies through 
legitimate sources increased ten percent following that 
closure. That is huge for one case. As the authors write, 
``Even though shutting down Megaupload did not stop all piracy, 
it was successful in making piracy sufficiently less reliable, 
less easy to use, and less convenient than it was before with 
some consumers willing to switch from piracy to legal channels 
as a result.''
    That indictment was the direct work of agents that the 
Bureau has dedicated to IP crimes with the support of the 
committee and your cooperation with the IPR Center at ICE. I 
hope we can continue building these type of cases. They are 
complex and require a lot of resources. But as shown by this 
study and others, they have a real payoff which means a lot to 
my constituents who work in the copyright and content 
industries. And I hope you can work to make sure that the 
agents that are dedicated to IP enforcement with the support of 
the subcommittee in fact continue to focus and work on IP 
related cases and not other matters.
    Mr. Comey. Yes. And I can commit to that. I agree with Bob 
Mueller, that this work is very, very important. The engine of 
America is our creativity and you can make a difference in 
protecting the roots of that creativity through locking some of 
these people up. So that work is going to continue.
    Mr. Schiff. Thank you, Director. Thank you, Mr. Chairman. I 
yield back.
    Mr. Fattah. If the gentleman would just yield for one 
second? My colleague admitted that he had some difficulty 
getting either side to agree. When we are talking about United 
States citizens no matter what the circumstances, there are 
certain rights that apply to how they can be questioned and 
under what circumstances. So the public safety exception is 
true throughout. But there is a differential in an American 
citizen rights. Different from people who are not American 
citizens, that is a different circumstance. But all of us have 
a responsibility to uphold the Constitution and the rules 
therein.
    I know that you didn't mean that, I think infer, that we 
should loosen any of that in any way, so I just want to make 
clear for the record on that point.
    Mr. Culberson. Well, an American citizen captured on the 
battlefield by an American is a completely different point.
    Mr. Fattah. Absolutely, absolutely. I'm saying he mentioned 
the Boston bombing suspects. So I just want the record to be 
clear, at least for my own statement on this matter. I want to 
get all the bad guys, but as the director said a moment before, 
we need to not give up any of our liberties in the process of 
doing that.
    Mr. Schiff. Can I just state real quickly, and I thank my 
colleague for his comments. The presented issue is an issue 
both for American citizens and foreigners that may be brought 
into U.S. custody on criminal charges, so it extends--it is a 
challenge to both.
    Mr. Fattah. There is a difference for the shoe bomber 
suspect who is not an American citizen and for someone who is.
    Mr. Schiff. On a constitutional question, there is the 
statutory requirement of presentment within a certain number of 
hours, and then the Supreme Court has held there is a 
constitutional dimension that there be, you know, some alacrity 
to present before a magistrate, but I don't think that the 
statutory six hours or whatever it may be is the constitutional 
standard. So I would never suggest that we should do anything 
contrary to the Constitution, but it is ambiguous what the 
Constitution requires in terms of how fast we have to present 
something to the magistrate.
    I favor us moving more to use of the criminal justice 
system which has proven its capacity to prosecute people on 
terrors and crimes. And to the degree that this presents an 
obstacle to doing that, I think within our constitutional 
limits we ought to examine how we can make this feasible.
    Thank you. I yield back.
    Mr. Culberson. I agree with Mr. Fattah's statement.
    Mr. Wolf. I have a series that will go fast. Some of them I 
just want to get on the record. We will submit others for you 
to answer, but I feel that just not to cover some of these 
would just be a neglect.

                      AL-AWLAKI--INSPIRE MAGAZINE

    So one, on the internet, Al-Awlaki, Inspire, the magazine, 
I think I heard you say four of the five came out from Al-
Awlaki. Al-Awlaki inspired Hassan, thirteen people killed. Al-
Awlaki, I think inspired Chesser, a kid from Oakton. Oakton, 
Virginia? Have you ever been to Oakton?
    Mr. Comey. I have.
    Mr. Wolf. After the Oakton, he was inspired, I think maybe 
by--I think somehow the Bureau has to address this thing.
    Some tell me, ``we don't want to shut down Inspire because, 
you know, we want to get this information, we want to track, we 
want to follow, we want to watch.''
    Well, maybe, not certainly, but maybe had it been shut 
down, the people from the Boston Marathon wouldn't have been 
killed. Those people who lost legs would not have lost legs. 
And so it is a balancing there and I think sometimes you got to 
shut the system down when it is an Al-Awlaki when it is coming 
out from the outside.
    He is still radicalizing people from the grave, and we have 
the ability to shut those things down, and so it is a tradeoff. 
What do you say to a mom? Well, you know, we didn't shut it 
down because we wanted to get the information to track X and Y, 
but yet, but had we shut it down, your son, your daughter--so 
it is a tough issue.
    But I think Inspire, from my own, speaking for myself, 
where they are radicalizing people like that coming from 
outside, the system ought to be shut down because I don't know 
how you can look at the Boston Marathon victims, and so----
    You don't have to comment really, but I think we got to 
start making decisions and not always say, well, you know, we 
got an FBI agent that is working a case and he is following 
this thing and if we shut it down, we are not going to know, 
but if he could have shut it down, some of these down coming 
from Yemen or coming from places, we may have saved some lives.
    You and I talked about the IG investigation of CAIR, but 
can you confirm that the policy prohibiting non-investigating 
cooperation with CAIR remains in place?
    Mr. Comey. Yes.
    Mr. Wolf. And the secure work environment, we will just 
submit that for the record. The new headquarters, I understand 
the initial solicitation process is in, that GSA has received 
37 proposals and established a board to review the offers and 
come up with a shorter list. Who is on the board? Do we know 
who is on the board?
    Mr. Comey. I don't know. I think it is five people, three 
from GSA, two from FBI.
    Mr. Wolf. Well, I think their names ought to be made public 
because I think this ought to be honest--I mean, so when 
history looks back at it, wherever it goes, people say, hey, 
clearly, these were five people, nobody had any influence on 
them, this was not a political.
    So I think if you can just submit for the record the five 
names so they will go down in history, that we can watch and 
see because I don't--you know, where it ought to go, obviously 
I favor Virginia for a lot of different reasons, but I think it 
has to be done in a way that there is so much integrity to it, 
so if we can get the five names that we can put in the record, 
would be helpful.
    A central records complex, I understand your staff is 
meeting with GSA and the CRC and that the prospectus from the 
site is up for approval by the authorizers. Could you update us 
on the plans of the central records center out in the 
Winchester area?
    Mr. Comey. It is probably not beyond saying it is on track. 
Thanks to this committee and Congress, it has been funded. It 
is vital.
    Another thing that seems kind of boring to people when you 
talk about records, vital to our work. But I can't say more 
beyond that except I know it is on track.
    Mr. Wolf. Okay.
    Mr. Comey. I am sure we can get you the details.
    Mr. Wolf. Okay, if you would. The Quantico, do you have any 
comments you want to make about the Quantico facility there? Is 
there anything--it is old.
    Mr. Comey. No, we need a new one. It is one of the world's 
most important institutions and it is 42 years old. It is the 
1970s at its best, but we need a new college there. We are 
refurbishing it.
    Mr. Wolf. What can the Committee do?
    Mr. Comey. Well, I have told my folks, we need at some 
point to go back to Congress, and I know times are tight, but 
this is the kind of restructure we have to invest in. As I 
said, this is a national university, international. So we will 
be coming back to you to talk about that. We are refurbishing a 
little bit, but it is rearranging deck chairs on an old ship. 
We need at some point to build a new ship there.
    Mr. Wolf. Okay. If you can get something to us, I mean we 
are going to be marking up here really soon. There may be some 
language that we could carry that would push this thing, you 
know, forward.
    The espionage by China, I think, you know, I think Mr. 
Culberson and others covered it, and I think it is important 
that people realize, like I am seeing all these trips that 
people are taking to China. I am seeing some of the business 
community just like China. Every time you hear about this 
thing, though, you got to understand some things, and this 
committee has pretty tough language on China. If you are 
Catholic, there are 25 Catholic bishops that are on house 
arrest, being tracked and in prison. The Cardinal Kung 
Foundation, that number was up at Christmas, took holy 
communion from Bishop Su. He has never been seen again. This is 
from the Chinese government.
    The former president of China that everyone went ga-ga 
about, he is the guy that put together the policy of the 
crackdown in Tibet. I snuck into Tibet a number of years ago. 
One-hundred-nineteen Tibetan monks and nuns last year set 
themselves aflame because of this guy's policy, this guy that 
business communities went over there and just went ga-ga-ga to 
be with the guy.
    The Chinese people are wonderful people. More Chinese come 
through my office, I think, than maybe any other office up here 
on Capitol Hill. The Chinese people, they want freedom, and so 
don't forget the Uyghurs, the Uyghurs are having a heck of a 
time in China. Rebiya Kadeer, who lives out in Northern 
Virginia, I mean, the Chinese Public Security Police went out 
to Northern Virginia--your people, to their credit, tracked it 
down--followed her and were photographing her in Fairfax 
County; the Chinese government.
    Well, they stripped my computer. They took everything off 
of my computers, the Chinese government.
    You know, until there is some sort of retaliation whereby 
they say, guys, from hereon in, you do this, this is what is 
going to happen.
    But there are evangelical pastors in jail. They plundered 
Tibet. And I understand, and I am not going to ask you comment, 
but their spying efforts make the KGB look like it was an 
elementary class. I mean, they are doing things.
    So when people think in terms of China, Catholic priests in 
jail, Catholic bishops in jail, Protestant pastors in jail, 
they are executing people and I can show you the film, and 
shooting them and taking their corneas out and kidneys out and 
selling them for $50,000, $60,000. So you have to have a clear 
thought when you are thinking in terms of China, but we won't 
get----
    The Boston Marathon: for the record, what lessons have we 
learned from those experiences that have changed the way the 
FBI--and I appreciate Mr. Schiff bringing it up and his 
partners--might prevent or respond to such an attack, if you 
can do that for the record.
    Also, the terrorist explosive device analytical center is 
being established in Redstone. Their budget calls for a $15 
million increase, which will, if it is appropriate, become part 
of the base. Are you on schedule for that facility?
    Mr. Comey. Yes. To be open next year. And the request is 
the operation and maintenance of the facility because it will 
be up and running. A very, very important thing.
    Mr. Wolf. The lab, I think Mr. Schiff's taken the lead on 
the DNA samples issue discussed by Mr. Honda, so we will just 
submit that question. It is a little bit different for the 
record. We will submit the unmanned aircraft question, the 
drones, one on the terrorist screening center, the OIG report, 
and then the one on mutual legal assistance treaty.
    And then the last one on Benghazi, it has now been a year 
and a half since the terrorist attack on the U.S. Consulate and 
the CIA Annex in Benghazi. To date, not a single terrorist has 
been apprehended or killed by the U.S.
    In limited cases when foreign countries detain suspects, 
the FBI was, I think, denied, according--you were not there--to 
the people like Harzi and into Tunisia or Jamal and Egypt. Why 
has it been so difficult for the U.S. to bring any of the 
scores of terrorists involved to justice?
    Mr. Comey. I think the answer is mostly because Libya is a 
very difficult environment in which, both, to investigate and 
to apprehend people responsible. We have devoted, as you know, 
Mr. Chairman, a tremendous amount of work to this. We are still 
devoting a tremendous amount of work to this. We have made 
great progress, but laying hands on people outside the United 
States, especially in a challenging environment like that, is 
very difficult.
    Mr. Wolf. The FBI did a great job. Remember Khanzi? Khanzi 
killed people in my district and from the CIA. Your people went 
out, eventually tracked them down. I think maybe Joyce was 
involved in it.
    Mr. Comey. Eventually is the key.

                                 EGYPT

    Mr. Wolf. To pick up a couple and bring them back and do--
and it has been, what, eighteen months now? What was the time? 
I think eighteen months.
    When I went to Egypt, I gave a letter to the Egyptian 
government. There is a guy named Mohammed Jamal, J-A-M-A-L. Is 
he still in Egyptian custody and has the FBI had access to him? 
We have been told he has information with regard to the 
attacks.
    Mr. Comey. My understanding is he is still in custody in 
Egypt and as of now I don't think we have gotten access to him. 
We have requested it, and in general, we have good cooperation 
from the Egyptians, but I think that is where that stands right 
now.
    Mr. Wolf. Well, could I ask you to please--I mean, we are 
going to be voting on a billion-dollar-plus aid to the Egyptian 
government. Now, I am not surprised that Morsi didn't give us 
access to him, but the current government?
    You have a legal attache there. I actually met with him and 
it has been months since I was there. Could you tell us, could 
you have the State Department or your legal attache ask the 
current government and say the question came from the Committee 
that it is going to be, I think Mr. Schiff is on the Foreign 
Operations, and I am as well. I am going to be voting on 
whether we should give aid to Egypt. I want the FBI to get in 
there and talk to this guy, Jamal. You ought to be able to talk 
to him. I understand he had information.
    Now, are you aware of the problem that the Bureau had on 
Harzi? The Tunisians picked him up. You had a team go out there 
for 25 days. They sat. Tunisia wouldn't allow us to--and they 
are a millennium challenge country. We give them millions 
because they are so wonderful, they won't let the FBI talk to 
him. Finally, I think through some efforts of different people, 
they said, the FBI team came back three hours later and they 
had let that guy loose. I saw him on television celebrating.
    We should insist, and I would have a hard time frankly 
voting for aid to Egypt, but can you ask the State Department, 
Secretary Kerry--because we want to get to the bottom of what 
took place and if this guy Jamal has information and if they 
want aid from us, you know--if he could just talk to him. Could 
you make that request that you can talk to him?
    Mr. Comey. I will.
    Mr. Wolf. Okay. And then, I think the secure work 
environment, we will do that, too, and I think that is all.
    Mr. Schiff or Mr. Culberson--you can go ahead.
    Mr. Culberson. Mr. Chairman, to follow up on that because I 
hope that the Egyptians, the Chinese, the Ukrainians are paying 
attention to this hearing. I want to reiterate complete support 
for what the Chairman just mentioned and Mr. Schiff on the 
Foreign Operations Committee.
    When that aid package is put together, you all remember 
when Chairman Wolf and the subcommittee very successfully 
persuaded NASA to finally build a heavy lift rocket with a 
manned capsule. They were ignoring the statutory language. The 
authorization bill said that NASA had to build a heavy lift 
rocket to go beyond low earth orbit. I really think we should 
pursue, and I would certainly support your efforts with 
Chairman Granger to make the second part of, set aside some--
because I think you did that, Mr. Chairman, to the NASA. You 
said you don't get the second half of your money for commercial 
until you comply with the statute.
    I think you ought to think about putting contingencies on 
the aid to Ukraine and the aid to Egypt until they give you 
access.
    Mr. Fattah. Will the gentlemen yield for a second?
    Mr. Culberson. Yeah. That is what I am talking about.
    Mr. Fattah. I don't want to delay the record. I agree with 
you, not so much on this particular part of it. Egypt just 
decided the other day, the new regime, to sentence to death 528 
people who supported the previous president that got ran out.
    I mean, so the whole situation there is----
    Mr. Culberson. Exactly.
    Mr. Fattah [continuing]. Is evolving in the wrong 
direction.
    Mr. Culberson. Right.
    Mr. Fattah. Right? Let alone whether or not we can get some 
basic level of cooperation on the Benghazi incident. But I 
think the director's point in response to the chairman is our 
country is eventually going to get these people, just like we 
got Bin Laden.
    Mr. Culberson. Right.
    Mr. Fattah. There are thousands of people killed. It took a 
period of time for justice to finally work.
    Mr. Culberson. Right.
    Mr. Fattah. If we are a great nation, we want to be patient 
and we are not going after innocent people. We are trying to 
get the people who did this.
    Mr. Culberson. Exactly.
    Mr. Fattah. But in terms of Egypt, there's plenty of 
reasons, especially at this day and age, to take 500 people and 
sentence them to death because they were on the wrong side of a 
political question about who should be president. This is not 
something that we should be supporting.
    Mr. Culberson. They got bigger problems than just 
cooperating----
    That is true and Mr. Fattah is exactly right. You quite 
correctly, Mr. Fattah, put your finger on it earlier with 
Ukraine. It is about the money. And if you could please tell 
the chairman, Mr. Fattah and the subcommittee, for example, in 
Tunisia who is not cooperating with you? What countries are 
denying you access to these critical witnesses and individuals 
that have been involved in whether it be Benghazi or elsewhere? 
What is Ukraine blocking? How is Ukraine being uncooperative? 
Because Mr. Fattah is exactly right. Mr. Wolf is exactly right, 
and I hope Mr. Schiff will work with Chairman Granger to find 
ways to make some of that foreign aid contingent on their 
ability, on their cooperation. Will the FBI?
    The human rights violations are appalling. You are exactly 
right, Mr. Fattah. And if I could also follow up so you get, if 
you could, that information to the subcommittee as quickly as 
possible, who is not cooperating if you could.
    Mr. Comey. I will. I need to think about both what I know 
and what I can say and what form I can say it.
    Mr. Culberson. I mean, do so privately, but I mean 
communicate that to Mr. Fattah and the Chairman because you are 
exactly right. I am always astonished. Mike Rogers, who I think 
the world of, from Michigan, told me that the first day--he is 
an FBI agent, and you can confirm this story, it is one of my 
favorites--that the first day at the FBI Academy, the first 
words out of the first professor's mouth to the students, just 
remember if the Defendant says it is not about the money, it is 
about the money because it is always about the money because it 
is only about the money. And as long as you remember it is 
about the money, you will be a good FBI agent. Now get to 
class. Is my memory correct?
    Mr. Comey. I can't confirm because we haven't trained 
anybody because of sequstration we are about to start. I will 
find out June 3rd what the first words are.
    Mr. Culberson. Mike said that is what they did.
    Mr. Comey. That is exactly right.
    Mr. Culberson. Well, let me tell you, we really want to 
help you guys. We want to make sure we are getting access to 
these individuals that Chairman Wolf mentioned. And I also 
would like to, if I could, ask is there anything that Chairman 
Wolf said in his characterization of the horrors that has been 
the Chinese, Communist Chinese government, not the people, have 
been inflicting on the human rights violations? Anything that 
he said about their human rights violations, their address of 
intentions against the United States in cyber warfare that you 
have any disagreement with?
    This characterization is accurate, isn't it?
    Mr. Comey. Well, he said a lot of things, most of which I 
am not expert enough to be able to confirm, although I have 
read the same things. What I know about is cyber and especially 
with regard to cyber, I stand by what I said earlier. There is 
significant glare and a significant challenge for us.
    Mr. Culberson. And to the extent that you consider cyber 
attacks as a modern form of warfare, I mean it seems to me the 
Chinese, Communist Chinese government is in a way at war with 
the United States, the level of attacks, the level of theft, 
the level of aggressive intent, essentially attacking us in the 
cyber environment.
    Mr. Comey. Well, I leave the characterization to others. 
The facts are what we talked about earlier. They are very 
aggressive and a significant presence in cyber attacks of all 
kinds.
    Mr. Culberson. Two other quick things, Mr. Chairman. You 
have been very gracious with the time and I really appreciate 
it. These terrible websites like Chairman Wolf mentioned, the 
Jihadee websites to incite people, these horrible human-
trafficking websites, don't we have the ability to essentially 
infect those sites. I mean, if you can't shut them down, why 
not just infect them with malware so that anybody that touches 
them, their computer is fried?
    Mr. Comey. Something I really wouldn't want to talk about 
in an open forum.
    Mr. Culberson. I am just throwing it out there.
    Mr. Comey. Yeah.
    Mr. Culberson. And it would serve them right. I mean, you 
literally ought to toast up anybody's computer that would even 
touch one of those websites.
    And then finally, and I hope you have the ability and 
please don't comment one way or the other.
    Mr. Comey. I am not.
    Mr. Culberson. They deserve whatever they get and their 
computers ought to burn as they should.
    Finally, Rick Crawford, a congressman from Arkansas, 
wonderful good man who served in Iraq and the United States 
Army as a demolitions expert, talked to us on the floor last 
year about the work he did disarming bombs. He told us that he 
was aware that there were other bombs in Boston, other backpack 
bombs that did not go off because everybody flipped on their 
cell phones and started making phone calls and the effect of 
all those cell phones going off had the effect of jamming the 
other backpacks. Is that correct?
    Mr. Comey. No. You might imagine the resources we have 
devoted to that investigation and there is no evidence of that.
    Mr. Culberson. No evidence of other bombs?
    Mr. Comey. No.
    Mr. Culberson. Okay. He also mentioned to us that the FBI 
has a number of jammers that could jam or remotely detonate 
bombs that were intended to be detonated with cell phones and 
that local law enforcement is having difficulty in getting 
access to those. It may not be something you are familiar with, 
but I want to bring it to your attention and I would ask if you 
could, please, follow up with Mr. Crawford and the subcommittee 
to do whatever you can to help the local law enforcement where 
it is needed. Like in Boston, for example, that they have 
jammers available, that the FBI, if we are aware of a threat, 
they knew it was coming and the local law enforcement or the 
FBI could simply have had jammers out there that might have 
prevented those two backpacks from going off. It is worth 
pursuing. And I thank you for your time, Mr. Chairman.
    Mr. Wolf. Mr. Director, thank you very much for your 
testimony, and I want to again thank the men and women of the 
FBI and thank you for your service and also, if you would, give 
my best to Director Mueller, but with that, the hearing is 
adjourned.
    Mr. Comey. Thank you, sir.
    Mr. Wolf. Thank you.
    We are going to bring the second panel in now.
    I would like to welcome the distinguished bipartisan panel 
that is conducting a review of the FBI's progress in addressing 
recommendations of the 9/11 Commission. They are former 
Attorney General Edwin Meese, III, who was the Chief of Staff 
in the Reagan Administration and also the Attorney General; 
also former Congressman and Ambassador and 9/11 Commissioner, 
Congressman Roemer; and also Professor Bruce Hoffman, Director 
of the Center for Security Studies at Georgetown University and 
a widely recognized expert on terrorism.
    The legislation to create this commission was first 
proposed in 2011 at the time of the ten-year anniversary of the 
9/11 attacks and was signed into law last year as part of the 
fiscal year 2013. It will conduct an independent external 
review of the FBI's implementation of the recommendation from 
the 9/11 Commission, as well as consider how the Bureau is 
addressing the evolving threat of terrorism today.
    I believe this review is necessary and timely, especially 
as we mark a decade since the release of the 9/11 Commission 
recommendations this year. It is important that we continue to 
keep our eye on the evolving terrorist threat, especially given 
trends in domestic radicalization in the growth of Al Qaeda's 
affiliates in the Middle East and in North Africa.
    I believe this commission will also be a great asset as 
Director Comey acknowledged, as he starts his term as the FBI 
Director. The men and women of the FBI have done an outstanding 
job preventing terrorist attacks over the last 13 years and the 
Committee and the American people are grateful to them, and I 
believe this review will ensure we are able to focus resources 
to continue this important work.
    I recognize that the panel is just beginning its efforts, 
so I expect this session to be one of laying out a roadmap 
rather than a presentation of findings. We look forward to 
hearing your plans.
    After you have given your statement, we will take members 
first before, so I would like to recognize Mr. Fattah for any 
comments.
    Mr. Fattah. I want to thank the chairman for holding this 
hearing because I think it is appropriate for us to take a 
minute and pause to hear from you about where we are in this 
process. Oftentimes we are just focused on the numbers, but I 
think the commission did an extraordinary public service that 
the least we can do is to follow up and to make sure that the 
recommendations are appropriately being acted on. So welcome, 
and we look forward to your testimony.
    Mr. Wolf. Thank you. You may proceed as you see 
appropriate.
    Mr. Meese. Thank you, Mr. Chairman.
    First of all, we have a joint statement, the formal 
statement which has been provided, I believe, to the committee.
    Mr. Wolf. Yes, sir.
    Mr. Meese. Thank you. Secondly, we each have a brief 
summary of that statement which if agreeable with the 
committee, we will give and then be open to your questions.
    Mr. Wolf. That is fine.
    Mr. Meese. Well, we appreciate this opportunity to appear 
here with my fellow commissioners, Ambassador Tim Roemer and 
Professor Bruce Hoffman, to inform you of our progress and our 
plans to carry out the Commission's work as you have given it 
to us and to speak about, specifically, the response to the 9/
11 Commission, what they have done, and then other things 
related to that.
    I think we, as you have mentioned earlier, have a very high 
regard for the FBI. In my own case I have worked with them on a 
number of things over a period of fifty years. But like any law 
enforcement or intelligence agency, the FBI, while it labors 
every day to counter or mitigate a complicated array of 
threats, this is a dangerous world.
    At the same time, as Director Comey mentioned this morning, 
it is in fact a work in progress and a great deal is happening 
in terms of the transformation from an investigative into an 
intelligence led agency and that is one of the principle areas 
in which we also will be conducting our work.
    As you know, this subcommittee was instrumental in 
establishing this commission on the review of the FBI in 
relation to counter terrorism with four specific missions as 
stated. The objectives are, first, an assessment of the 
progress made and the challenges that Mr. Fattah mentioned, in 
implementing the recommendations of the 9/11 Commission that 
are related to the FBI; secondly, an analysis of the FBI's 
response to the trends of domestic terror attacks since the 
11th of September, 2001; third, an assessment of any evidence 
now known to the FBI that was not considered by the 9/11 
Commission related to any factors that contributed in any 
manner to the terrorist attacks of 9/11.
    And finally, any additional recommendations with regard to 
the FBI intelligence sharing and counter-terrorism policy that 
have come to light, either since that time or may come to light 
in the course of our investigations.
    The congressional guidance constitutes, we believe, a broad 
mandate to provide a balanced assessment of the FBI's progress 
in its transformation in implementing the 9/11 Commission 
recommendations. But unlike the 9/11 Commission's mandate which 
was much broader, ours is not a charge to investigate 
catastrophic terrorist attacks or major intelligence failures. 
Our work will involve an intensive examination of the Bureau's 
structure, organization, programs and policies related to 
counter-terrorism, intelligence and cyber security since 9/11.
    We will render findings that commend what is working and 
point out where improvement is indicated. We will make every 
effort to recommend practical steps to improve performance. We 
are in the process of building a competent staff that while 
relatively few in number, will be particularly rich in counter-
terrorism and intelligence experience, including people who 
have worked with the 9/11 Commission. And we are developing a 
baseline of findings and recommendations from a number of 
multiple investigation studies, assessments and reports on the 
FBI's progress as some of them having been referred to earlier 
this morning, like the Webster Commission and other groups like 
that, so we don't want to reinvent the wheel. We want to build 
on what has already been done.
    We will assess the performance of the new programs since 9/
11 including those related to home grown violent terrorism, 
online radicalization, and the need to counter violent 
extremism.
    We will also be going to FBI training facilities to visit 
selective joint terrorism task forces around the country of 
various sizes because there is considerable difference in terms 
of the programs and the availability of resources at the large, 
middle and small counter-terrorism locations.
    We specifically will be working through an intensive study 
on several terrorism cases, again some of which were referred 
to earlier in your questions today, as giving us an opportunity 
to look at where the FBI was, what happened in those cases, 
what was successful, what was not successful and where 
improvement is needed.
    We would also take a particular look at how closely and 
effectively the FBI is collaborating with other intelligence 
agencies and with strategic partners at the state and local 
levels and abroad. We will study the procedures in place to 
facilitate information sharing, both within the United States 
and with international resources, and we feel this topic of 
information sharing will be a consistent theme as we process 
these case studies that I mentioned.
    I think, Mr. Chairman, that is my summary. I will turn to 
my colleagues. Ambassador Roemer.
    Mr. Roemer. I think Bruce is going to go.
    Mr. Meese. Oh, okay. Good.
    Mr. Hoffman. Thank you Chairman Wolf, Ranking Member 
Fattah, Mr. Culberson and Mr. Schiff, for the opportunity to 
appear before you this morning with my fellow commissioners, 
Ambassador Tim Roemer and former Attorney General, Ed Meese.
    It is a pleasure to serve with them and an honor to work 
with the FBI on the important tasks that this subcommittee has 
laid out for our commission.
    As you know, I have dedicated my academic career, which now 
spans nearly forty years, to the study of terrorism and more 
recently to the dynamics of radicalization, foreign and 
domestic, that can lead to violent extremism. This is a high 
priority national security issue that I know is of interest to 
you as it is to the FBI. The FBI indeed is working hard today 
on programs related to home grown violent extremism, online 
radicalization and countering violent extremism.
    Let me share with you briefly some observations from my own 
academic study of radicalization. The variety of terrorists who 
have surfaced over the years evidences that there is no one 
path to radicalization. The reason why someone picks up a gun 
or blows themselves up are ineluctably personal, born variously 
of grievance and frustration, religious piety for the desire 
for systemic socio-economic change, irridentist conviction or 
commitment to revolution.
    And yet, though there is no universal terrorist 
personality, nor has a single broadly applicable profile ever 
been produced, there are things that we do know. Terrorists are 
generally motivated by a profound sense of, albeit misguided 
altruism, deep feelings of self defense, and if they are 
religiously observant or devout an abiding even unswerving 
commitment to their faith and the conviction that their 
violence is not only theologically justified but divinely 
commanded.
    Theological arguments in this context are invoked both by 
the organizations responsible for the attacks and by the 
communities from which these terrorists are recruited. In the 
case of Muslims follow the Koran promotes both suicide and the 
infliction of wanton violence, pronouncements have been made by 
radical Muslim clerics and in some instances have been 
promulgated as fatwas, religious edicts.
    Affirming the legitimacy of violence and defense of 
defenseless peoples and to resist the invasion of Muslim lands, 
radical Islamist terrorist movements have thus created a 
recruitment and support mechanism of compelling theological 
incentives that sustain their violence campaigns and seeks 
vengeance, despite America's withdraw from Iraq and impending 
departure from Afghanistan.
    Individuals will always be attracted to violence in 
different ways. Just look at the people who have gravitated 
towards terrorism in the United States in recent years. We have 
seen terrorists from South Asia and North as well as East 
African decent, as well as those hailing from the Middle East 
and the Carribean.
    We have seen lifelong devout Muslims as well as recent 
converts, including one Philadelphia suburban housewife who 
touted her petite stature and blonde hair and blue eyes as 
being so atypical of the stereotypical terrorist so as to defy 
any efforts of profiling.
    Radicalized over the internet, she sought to use her self-
described ability to avoid detection to assassinate a Swedish 
artist who drew an offensive cartoon of the prophet Mohammed. 
These radicalized persons come from every walk of life, from 
marginalized people working in menial jobs, some with long 
criminal records or histories of juvenile delinquency, from 
persons from solidly middle and upper middle class backgrounds 
with university and perhaps even graduate degrees and prior 
passions for cars, sports, rock music and other completely 
secular and material interests.
    Relationships formed at work, at school, on sports teams 
and other recreational and religious activities as well as over 
the internet can prey upon the already susceptible. In some 
instances, first generation sons and daughters of immigrants 
embrace an interpretation of their religion and heritage that 
is more political, more extreme and more austere and, 
therefore, demands greater personal sacrifices than that 
practiced by their parents.
    Indeed, the common element in the radicalization process 
reflects these individuals' deep commitment to their faith, 
often newly rediscovered, their admiration of terrorist 
movements or leading terrorist figures who they see as having 
struck a cathartic blow for their creed's enemies wherever they 
are and whomever they might be, hatred of their adopted homes, 
especially if in the United States and the West, and a 
profoundly shared sense of alienation from their host 
countries.
    At the start of the war on terrorism a dozen years ago, the 
enemy was clear and plainly in sight. It was a large terrorist 
organization situated mostly in one geographic location and it 
was led by an identifiable leader. Today, when the borders 
between domestic and international terrorism have blurred, when 
our adversaries are not only identifiable organizations but 
enigmatic individuals, a complete rethinking of our counter-
terrorism policies and architecture is needed.
    We built an effective defense against the previous threat. 
Our challenge today is to develop new defenses against this new 
more amorphous, diffuse and individualized threat, while at the 
same time to continue to destroy and offend Al Qaeda, its 
affiliates and associates and most especially the etiology that 
sustains them.
    Thank you, Mr. Chairman and members of the subcommittee. I 
will be happy to take any questions or comments you might have 
on radicalization or on subjects related to terrorism and the 
commission's mandate following Ambassador Roemer's 
presentation.
    Mr. Roemer. Thank you. Mr. Chairman, I would just like to 
begin by saluting and thanking my colleagues here. You can see 
why it is an honor to meet with and work with General Meese and 
Dr. Hoffman. I am learning from them every day and we have got 
great chemistry and I think, hopefully, through the course of 
this commission, we will produce a product you are proud of.
    I am delighted to be back up in Congress, Mr. Chairman, 
seeing Ranking Member Fattah, and Mr. Culberson and Mr. Schiff, 
all friends of mine from before. It is great to see you doing 
your oversight work up here and hopefully we will be the 
recipient of friendly questions today, and we look forward to 
issuing a report when we are finished with this.
    I would want to start, Mr. Chairman, by calling Mr. Schiff 
and saluting you. I know that you have made a decision to 
retire from politics, something I voluntarily did a few years 
ago. You have made a significant difference, not just in 
Fairfax County and the United States, but around the globe, in 
carving out hard work and effective efforts on trafficking 
issues, religious freedom and human rights and I think your 
constituents in the country are proud of those efforts, so we 
all thank you for that hard work.
    I would ask, Mr. Chairman, that my formal statement be 
entered into the record and I would just make some informal 
statements and comments, first of all, about my colleague's 
comments and then maybe a comment or two about Mr. Comey's very 
good presentation and then talk for a minute or two about what 
makes a commission successful.
    As you have seen from the front page of the New York Times 
this morning our intelligence community is talking about their 
concern about the extremists carving out new territory and 
Syria and potentially learning skills and trade craft and 
training there and coming back to the United States. This is 
oxygen for Al Qaeda. Safe havens and possession of and access 
to territory and safe havens make them more effective and 
dangerous and deadly in the future and as Mr. Comey said, I 
think this is an area where this commission can work with him 
as the new director of the FBI, and look at what this threat 
might be for the world and for the United States and make 
recommendations accordingly.
    Second, in our testimony, Mr. Chairman, as you read through 
it carefully, we talk about three revolutions that have taken 
place over a series of the last several decades, one of them a 
technological revolution. Cell phones, Mr. Culberson, are 
opening up liberty and freedom and economic opportunity and 
elevating many people out of, you know, out of poverty and 
developing countries. We also see what they are doing to 
potentially radicalize on the internet through chat rooms and 
Inspire magazines, what they can do to shorten the fuse of 
radicalization for would-be terrorists.
    That is a challenge for the FBI. Is the FBI hiring the 
right people? Are they fast and innovative enough to keep pace 
and counter this threat around the world, are they going to be 
able to compete with this flat dynamic and decentralized 
network of Al Qaeda? That is something that I think our 
commission will be looking at and making recommendations on.
    Mr. Chairman, you have, in your career you have probably 
created many commissions. I have served on four commissions 
since I have left Congress. I highly recommend them for you 
that do leave Congress at some point. I have served on the 9/11 
Commission. I have served on a commission on radicalization. I 
have served on a commission on the national parks and now the 
FBI. These commissions are created for many, many different 
reasons.
    As Mr. Fattah knows, there are commissions created for 
civil rights, higher education, assassinations, tragedies like 
the 9/11 attacks, some created by the executive branch, some by 
Congress, some much more effective than others in terms of 
their outcome and in getting the recommendations through 
Congress.
    A few things that probably made the 9/11 Commission 
particularly effective, one was the unity of purpose and unity 
of effort that we worked on together. We saw 2,977 human beings 
killed in a matter of hours and that motivation, that attack by 
Al Qaeda, that devastation and death really motivated the ten 
members of the Commission every day to work toward bipartisan 
solutions.
    Secondly, the American people were intimately involved in 
the public hearings in tasking us and encouraging us to get to 
the bottom of things, to try to find out factually what went 
wrong, not to point fingers or blame games and politics, but to 
try to come up with sophisticated recommendations to reorganize 
our government and reform things so that we wouldn't make the 
same mistakes again, but we would better share intelligence 
across agencies, that we would fund new technology efforts like 
cyber security.
    Thirdly, I can't give enough credit to the 9/11 families 
who participated in the birth of the 9/11 Commission and how it 
got through Congress. It was a bill that John McCain and I 
worked on in the Senate and the House. We never would have 
gotten it through Congress if it hadn't been for the tenacity 
and the loyalty and the hard work and the love of those 9/11 
families for their lost one's children, family members. They 
worked tirelessly to try to make sure that something was done 
constructively about their losses.
    Another reason that the 9/11 Commission and other 
commissions succeed is about the clarity of the mission, the 
statutory mandate, so to speak. I think this committee, this 
staff has given us a very clear mandate. It is broad. It is 
aggressive, but I think it is clear to us what we need to do 
over the next several months and hopefully with your help and 
the FBI's cooperation, we are going to be able to get to the 
bottom of the facts and give you and the American people a good 
report.
    Another important issue is leadership, leadership both on 
the Commission. We had leadership from Tom Cain, a Republican, 
and Lee Hamilton, a Democrat, where they wouldn't do a press 
conference apart from one another. There was no Democrat or 
Republican pride in authorship. They appeared together every 
time they did any kind of press so that they would be on 
message together, and that was a message to the five Democrats 
and five Republicans that politics should be put aside and 
facts and recommendations and success should be our ultimate 
mission and goal.
    Another area of huge cooperation for getting to your end 
mission is the cooperation of the agencies involved. The 9/11 
Commission ultimately we had pretty good cooperation across the 
agencies to get access to documents and to get their support 
for briefings and follow up, and that helped us within 
timelines to succeed at the end of the day.
    And finally, we had a talented staff, an expert in a host 
of different areas that helped us on the 9/11 Commission. John 
Gannon we have hired as our executive director who has thirty 
years of experience in the intel community. We are in the 
process of trying to hire more staff and that will be a key 
issue, I think, in terms of our long-term success.
    So with that, Mr. Chairman, I remember the lesson of my 
fifth grade Catholic school teacher. She taught us that we have 
two ears and one mouth. We should use the two ears more than we 
use the one mouth, just numerically there is a lot more for us 
to learn in class than to speak in class. And as Ed and Bruce 
and I came up here, we want to get your collective wisdom as to 
what your concerns are about the FBI, where you would like us 
to go within the mandate specifically, and we are honored and 
privileged to work with you in this effort to make America 
safer.
    So with that, I yield back the balance of my time, Mr. 
Chairman, and look forward to your questions.
    Mr. Wolf. Well, thank you very much. I appreciate the 
testimony. And I supported the 9/11 Commission. There were a 
number of people from my district who died in the attack on the 
Pentagon, and I think the fact that the three of you are, 
again, bipartisan, is really important. And so, one, the 
subcommittee will do whatever you ask us to, and I was 
appreciative of Director Comey, both yesterday in a 
conversation I had with him and again today on the record. I 
think he is really open and enthusiastic about doing this and I 
think that is very important.
    I don't have a lot of questions because I know you are in a 
early stage. Can you just tell us, I mean, where is the staff 
or how far along are you in getting kind of set up?
    Mr. Meese. Of course, the most important part initially was 
getting John Gannon to be our executive director and that has 
been a major step. He is working very hard with the FBI. There 
are a number of bureaucratic and you might say procedural steps 
in hiring federal employees. And so we have had some, let us 
say, inhibition perhaps in getting these staff members rapidly 
on board and that is one thing we are working on very quickly 
here to get that accomplished.
    We trust that is being remedied over at the present time, 
but that is the only, how would I say, inhibition that we have 
had so far. But other than that, we have had some excellent 
briefings already from FBI staff. We have talked to people on 
the outside and so, I think we are moving along, provided we 
can get over that particular hurdle.
    Mr. Roemer. Mr. Chairman, if I could just support my 
colleague and his answer. I think any time you work with a big 
government organization, that cooperation is a work in 
progress. We hope to accelerate it. We hope to gain more 
flexibility in terms of our hiring procedures. We hope 
government across the board can be more flexible in this in the 
future, especially in the intel community when you're fighting 
a foe like Al Qaeda that can be flat and dynamic and 
entrepreneurial. We need to be quick in terms of how we are 
proactive in those efforts, so we are hopeful.
    Mr. Wolf. The 9/11 Commission distinguished the 
recommendation between those that could be implemented to 
administrative action and those requiring statutory steps to 
implement. Will you be looking at both sets of efforts?
    Mr. Meese. Yes, we certainly will and Professor Hoffman 
here is an expert and already has studied this as a part of his 
work at Georgetown and so we have a pretty good fix on what has 
happened already in some of the work and we will be looking at 
both the administrative and the things that might require 
legislation.
    Mr. Wolf. Roughly, do you have any idea of how many 
recommendations were made? And it could be the fault of the 
Congress, too, but how many recommendations were made by 9/11 
in a percentage basis that were implemented, and how many 
recommendations were made that were never implemented?
    Mr. Meese. Ambassador Roemer probably is the best source as 
to how many were made.
    Mr. Roemer. Mr. Chairman, we take great pride in working 
with Congress and the White House on precisely the answer to 
your question. I believe about 41 recommendations were made by 
the 9/11 Commission. About 39 of those recommendations were 
enacted into law. As John Adams said, ``It's not just acting on 
legislation, it's executing and implementing them once they are 
passed.'' So there have been varying degrees of success on that 
implementation and execution, both by Congress and by the 
agencies.
    Of course, Mr. Chairman, I would be remiss if I didn't 
bring it up in my old body of Congress, so one of the remaining 
recommendations has to do with Congress. It was the 
reorganization of the jurisdiction for Homeland Security, which 
is varied and spread out to about 100 different committees and 
subcommittees, and we recommend that be narrowed. That still 
has not been acted on and we hope that at some point that can 
be.
    Mr. Meese. Bruce, you might want to add from your 
standpoint of studying these things for ten years.
    Mr. Hoffman. Nothing from----
    Mr. Wolf. Now, budget and travel. $1.5 million was 
appropriated by in the FBI's salaries and expenses for `13 and 
`14 to cover the costs. Could you provide the Committee with 
some estimates of your various costs to include staffing, 
travel, and facility costs associated--I mean, is this enough, 
because I want to--if we are going to be marking up relatively 
soon, we want to know if there's additional things that now 
that you are working on it that maybe we didn't think of that 
we should be doing.
    So, you do not have to have an answer here but if there is 
more, tell us within the next couple of weeks so we can make 
sure that we address them.
    Mr. Meese. We will do that.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. The thing that 
interests me is the big decision. The big decision after 9/11 
was there was this tension about whether--I kind of think about 
it like what we are doing with NASA. We have got this 
commercialization because you have got some people who want to 
defend all of NASA and you have got others like myself who 
believe in the commercial competition of having different 
companies involved in space exploration.
    In the decision about whether or not we were going to 
have--given 9/11 the old FBI. You know, chasing the bank 
robber, or whether the FBI was going to have to transform 
itself into being the premier agency focused on preventing 
terrorist attacks, which was not about catching bad guys after 
they did things, but really about preventing these types of 
very severe attacks on Americans, which would change the entire 
mind set of how the FBI had been constructed as an institution.
    As you heard from the Director, we still have some of this 
tension between very important issues. Human trafficking, white 
collar crime, and so forth and so on. But at the front of the 
reader board for the agency in terms of what it is supposed to 
be doing is terrorism, right? And so you have got this--this 
big decision is still kind of, in my mind, still kind of 
hanging out there about whether or not you can serve as many 
masters or have as many priorities and be effective.
    So, on the airplane side we said, we're going to create a 
whole new agency--the TSA. Their only job is to make sure 
people don't get on planes and have an ability to take them 
over. No matter whatever the inconvenience to people--they have 
got to take their shoes off, their belts. They cannot take a 
bottle of water, they got--whatever the process is, that is 
that.
    But in this bigger space, the question of whether or not 
the first decision about whether or not the agency itself--the 
institution of the FBI--needed to be full-throttle with one 
priority, or whether this multi-focus but terrorism at the 
front will work for the country is something I would love to 
hear you comment on.
    Mr. Meese. Well, I think maybe each of us might give our 
own views in what I would call summary fashion because, again, 
we are starting off. Bruce, why don't you start?
    Mr. Hoffman. Well, the most important criteria I think is, 
has the FBI kept a safe United States in the dozen plus years 
since 9/11--certainly against a major terrorist attack, and I 
think the proof is in the pudding. I do not think in the, you 
know, the dark days following the September 11, 2001 attacks 
that anyone would imagine that we would go this long without a 
major terrorist attack.
    Mr. Fattah. Well, you can take that logic and say that 
prior to 9/11, it had done the same, right?
    Mr. Hoffman. Well----
    Mr. Fattah. My real question is just about whether or not--
and I understand there is no way to know which is the right way 
to go, but just this question about the agency itself that you 
are going to be looking at and whether or not multiple 
priorities that span a range of items, or just this principle 
issue whether that first decision was something that you should 
look at again.
    Mr. Hoffman. Well, no, I understand and you raise very good 
points. I mean, my response was only to say that I think that 
the FBI has changed enormously but it has adopted a much more 
intelligence-driven approach, and that I think the problem is 
that the types of threats that we face are constantly changing 
and evolving.
    So an FBI that is very good at preventing a very big 
terrorist attack from a 9/11 stature, or for the terrorist 
organization, we can see how the threat now is devolved to a 
lone individual like Nidal Hasan--successful incident that 
unfortunately was not prevented, or the Boston Marathon 
bombing. You have got, you know, two idiot teenagers to put a--
frankly--who were on their radar, at least the older brother 
was on their radar but then for some reason fell from their 
radar.
    And I think that is, you know, one of the things we want to 
look at is both study the successes and the lessons learned 
from the successes, but study the work in progress or some of 
the problems that have occurred and identify them and help the 
FBI to remedy them.
    I think that I was involved in this debate, as well, a 
decade ago, is whether we needed an American MI5 security 
service. I think we went in the right direction by preserving 
the FBI's structure and by taking at his word and I think 
Director Mueller did do a lot to transform the agency. I think 
it is an incomplete transformation as it has to be, because as 
I said a moment ago, the threat is constantly changing and 
evolving. And I think one of the challenges is to make sure, as 
I think we heard from Director Comey that the FBI is well 
positioned to respond to those trends, to take advantage of new 
technologies and new approaches to stay ahead of the bad guys.
    But I think one of the FBI's strengths has always been its 
investigative powers. There are now, I think their intelligence 
capabilities are being built up. Hopefully that, eventually, 
will be at the same level.
    Mr. Roemer. This is the great big question that you ask, 
and we had weeks, if not months of debate on this on the 9/11 
Commission. We had three choices--do you recommend that the FBI 
can fiddle around the edges and fix itself from the errors or 
mistakes or challenges pre-9/11 and post-9/11? That was once 
choice. Secondly, would we go outside the box and recommend the 
creation of an MI5 which would remove that capacity directly 
out of the FBI and put it someplace else? Thirdly, would we 
make a recommendation that was somewhere in the middle and 
recommend it to the FBI that they create a National Security 
Bureau, with a path for analysts and Intel-driven expectations 
within the Bureau.
    We decided to go on the third option, and Mr. Fattah, to 
your very good question, it is a work in progress. It is--the 
FBI has cultural barriers, bureaucratic barriers, rural 
barriers that sometimes make this a difficult transition for 
them.
    At the same time I think all of us have to get to the 
second part of your question, and that is, as they are making 
this transformation to an Intel-driven National Security Agency 
to protect the United States and its people against terrorism, 
they have to be able to do other things. They must be able to 
go after the counter-intelligence, cyber threats. They must be 
able to go after people who violate civil rights and civil 
liberties. That history for the United States of America is 
very important. And that mission is key. White collar crime--
they have to be able to help protect our cities.
    And so some of this is mutually beneficial, and some of it 
is going to be a big challenge for the FBI to get to.
    Mr. Meese. I think--I agree it is an excellent question and 
one which we are considering as a Commission. The decision has 
been made, and quite frankly, I personally agree with it. I 
agreed to it at the time. But how that is implemented is going 
to be one of our major concerns and major areas of inquiry.
    Let me say, though, I think we recognize in terms of this 
that the FBI has the resources, they have the field operation 
structure, they have the long history of excellent 
investigation, the kinds of resources you really need for 
something like this. Also, they have an ongoing relationship 
with State and local law enforcement, which is a valuable asset 
for them that no other agency could really approach.
    And this is already--these joint terrorists, the task 
forces have shown that this provides the best way to bring 
together through the FBI the information that is so valuable 
from a lot of sources within the United States. But they also 
have the connections overseas. The LGATS are better than any 
other agency in the government working with the police forces 
of the various states--nations around the country.
    There is another thing about the FBI and that is they have 
long existed and carried on their activities, particularly in 
the last couple of decades with an appreciation and an 
allegiance to the Constitutional rights of people. And this 
also, as you pursue these kinds of investigations, is an 
important aspect.
    And so, it is basically their ability to transform the 
organization into an intelligence lead investigative agency, 
which we will be looking at very closely.
    Mr. Fattah. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you. And I think a lot of credit goes to 
Director Mueller, too. Go ahead.
    Mr. Culberson. Absolutely. Director Mueller was terrific in 
this, and I just want to thank each one of you for serving in 
this vitally important Commission. Thank you, Chairman Wolf, 
for putting this in the bill, and General Meese, what a 
privilege to have you with us and your time as Attorney General 
in the decades you have seen the FBI evolve.
    I wanted to ask you to take a minute and each one of you 
talk a little bit about that critical, critical, critical 
change in the fundamental culture of the FBI from a law 
enforcement agency protecting the Constitutional rights of 
those people that they are investigating, to an intelligence 
aspect, a change in culture that you just mentioned, General 
Meese. I just wanted to explore that a little more.
    Talk to us to about how from what you have seen so far in 
your initial inquiries, has the FBI has been able to adapt--
integrate that intelligence capturing capability with their 
traditional mission of strictly as a law enforcement entity 
looking to preserve evidence that would succeed in a 
prosecution in court. They are different missions, and how do 
you see them overlapping so far?
    Mr. Meese. Well, I think each of us will present our own 
views on it. In my own case I think they have done a very 
good--they have made a very good start, let's say, in a 
transformation of, as you point out, a very different culture 
from getting evidence that will be acceptable in court to 
having investigations and having an investigative sense of 
going beyond what the evidence in court is, and to what the 
significance is of what they are learning, and to have the 
imagination and the broader picture which is necessary for 
intelligence work, and I think they have made a start of this.
    One evidence of that is the fact that they have already 
started, and I say that advisedly in raising the importance of 
analysts who are not FBI agents. And there is still a long ways 
to go, I think, in changing the culture where agents did the 
hard work and support people did a lesser magnitude of work. We 
realize that intelligence analysts, in many ways, are as 
important as agents in getting the big picture of intelligence.
    But the fact is that structurally they are changing the 
role of intelligence analysts. They are certainly changing the 
number. There is a much higher percentage of the force than 
ever before. So I think that that is something in which 
certainly Director Comey is very interested in following 
personally, and the way in which he has interacted with the 
structural changes, organizational changes in the FBI, the 
creation of the National Security Bureau at the highest level, 
the attention given to the Counter-Terrorism Division, to the 
Directorate of Intelligence, I think these are all signs that 
there is a commitment at the level of the Director and below 
that.
    Mr. Culberson. Yes, sir.
    Mr. Meese. But any change in culture always is going to 
take time.
    Mr. Culberson. Always difficult----
    Mr. Hoffman. Well, you know, we are still at very early 
days. We have only started briefing in the past few weeks from 
the FBI. But I have to say personally I have been extremely 
impressed by the intelligence analysts who have participated in 
those briefings, who really I think are outstanding 
individuals, some of the best in the entire intelligence 
community. Now, whether there are issues such as you have 
described, sir, about a culturalization and integration that we 
are not going to find in our investigations, I cannot say. But 
thus far, some of the people there have been extraordinarily 
impressive.
    To go to your question, too, about sort of the FBI is a, 
you know, an intelligence versus a security service, you know, 
one of the problems in the United Kingdom with MI5 is that not 
all the surveillance they do is necessarily admissible in 
court. This is very different for the FBI. I mean, their 
investigations are done so rigorously it leads to prosecution, 
which is a big advantage.
    Mr. Culberson. Right. That is what I was driving at, 
exactly what I was driving at.
    Mr. Hoffman. The other thing, I think, in the United 
Kingdom is, first there is only 52, I think, or 50 plus 
constabularies, whereas there is 18,000 jurisdictions here. So 
it is a little apples and oranges.
    But I think the real key is many of those constabularies 
have Special Branch, which is to say like an Intelligence 
Division. That's why the challenges in the United States and 
the NYPD, of course, as we heard earlier in Director Comey's 
discussion, has an excellent Intelligence Unit. Los Angeles, 
for instance, certainly has an excellent Intelligence Unit, but 
not every police department in this country has an Intelligence 
Unit, and that is often who MI5 works very closely with, the 
Special Branch.
    So you can see why the transition to have gone purely to an 
Intelligence Agency probably would not have even really suited 
the United States, even if it was desirable. And in that 
respect I think where we are really looking very hard is at the 
integration of the intelligence analysts--the people who are 
not special agents--what their place in the FBI is. And 
Director Comey has certainly made a very firm commitment to 
ensuring that they have an active role.
    Mr. Culberson. It is a brand new mission.
    Mr. Hoffman. This is what we are looking at.
    Mr. Roemer. I would say, Congressman, to your point a few 
follow-ups. One, now that the FBI has been asked to create this 
National Security Bureau and we have already been briefed. We 
probably had a half-dozen to a dozen different briefings by 
very, very talented and exceptional people. Are they the 
exception to the rule, or is this National Security Bureau 
being pushed down from Mr. Mueller and Mr. Comey, and there are 
career paths for people, successful career paths on the 
analytical side. That will be something that we are going to be 
looking at very carefully.
    Secondly, one of the metrics that we will probably being, 
you know, analyzing and evaluating is we often hear from the 
FBI Special Agents. They will look at clues and they will look 
at cases and try to determine is there a prosecution in this 
case, can we put somebody in jail as a result of this case. The 
analysts are asking an entirely different question. The 
analysts should be asking questions, is this to Mr. Chairman's 
point? Is this person in the process of radicalizing? Are they 
radicalizing others? Are they trying to radicalize through the 
Internet and how do we follow them? What intelligence do we 
gather for a broader strategic strategy to understand what is 
going on and gather against even more people to understand the 
threat abroad or in the United States? So, I think that is 
going to be very important.
    Thirdly, you mentioned a couple of cases this morning, and 
I think Ed and Bruce and I will be looking at these cases. The 
Zazi case in New York on the subway bombing, the Fort Hood case 
with Hasan. How did the JTTFs that generally work well together 
and share information--did they work well in all these cases? 
Preliminarily what we see that they may have worked well 
together in the Zazi case but not worked as closely together 
and shared information in the Fort Hood case. Why is that? How 
do we try to ensure better consistent efforts between the 
JTTFs?
    So, these are some of the things that we will be looking at 
and we will probably be looking at these on some key case-by-
case methodologies.
    Mr. Culberson. Thank you. Mr. Chairman, I will follow-up if 
I could afterwards, when you finish particularly with General 
Meese to talk about the privacy rights of individual Americans, 
and after you finish with yours, sir. Thank you.
    Mr. Wolf. Okay. I just have a few last--are you going to 
meet with Director Mueller and Associate Director Joyce?
    Mr. Meese. We will, yes.
    Mr. Wolf. Okay. I think that is a good idea. One of the key 
elements to look at the threat of domestic radicalization, 
according to a Congressional Research Service, there have been 
74 homegrown jihadist plots since 9/11, and 53 have occurred in 
the last five years alone, including at Fort Hood, Times 
Square, and the Boston Marathon.
    How will the Commission be studying this threat and do you 
have any initial thoughts or comments on this trend? That's the 
first question, and then, well, why don't you just end and I'll 
come to it in a second. Do you have any thoughts?
    Mr. Roemer. Bruce, do you want to go first on that?
    Mr. Hoffman. Sure.
    Mr. Roemer. Your testimony for the thought.
    Mr. Hoffman. Well, and this goes back to my point about how 
the threats are rapidly evolving and changing. You know, I 
think, you know, common sense dictates that that may just be 
the tip of the iceberg, given what's going on in Syria and your 
excellent work, I think, in focusing attention on Americans 
going to Syria. I mean, this has become, I think, an enormous 
issue. It is firstly a much bigger rowling cry than even 
Afghanistan was in the 1980s. It is not geographically as 
distant as Afghanistan is. It is much easier to get to Syria. 
You actually can fly into NATO allies and just cross Europe to 
get there.
    Syria is in the heart of the Middle East and of the Arab 
world. It is viewed by Al-Qaeda but other groups as sacred 
Islamic territory. And what I think is so consequential is it 
is in Syria we are seeing this transition from top-down driven 
propaganda, websites, inspire magazines, being now matched by 
social media. Twitter accounts, Facebook, What's Up, I mean, 
some things that I have never heard of but that my kids use, is 
very common. And this is being used to radicalize and recruit, 
and I think it has an enormously worrisome potential because 
now you have got, much like Amoro Alacki. He was so effective 
because he could communicate with people in their own 
vernacular.
    He was born in the United States, then came back to the 
United States. Went to University, lived here, could 
communicate very effectively in English, using all the slang 
and argo. And that's what we are seeing from, at least thus 
far, British jihadis, who have gone off to Syria, who are 
using--I mean, I follow them on Twitter. So, the FBI is 
probably following me as well, but on Twitter you see on a 
daily basis guys with literally thousands of followers. There 
is one jihadi who has 24,000 followers but it is typical to 
have anywhere between one and 4,000 followers. They are posting 
photographs of morning physical training. They post photographs 
of one another eating together, of praying together, and they 
are directing messages to others in the Western world, saying, 
``Come on. You know, it is easy. Here is how we got here. This 
what you can find. Here is what our lives are like. You can see 
they are good. We are making the sacrifice. You are staying 
behind and not participating.''
    And on an individual level we are going to see, I think, an 
explosion in this radicalization and recruitment, and that is 
exactly one of the things we are looking at and working with 
the FBI, is that we have had briefings from the FBI, for 
instance, on Internet radicalizations and engaging them in 
discussions. Well, what about the next thing over the horizon, 
which is the social media, which they are gearing up to respond 
to and we hope to be to assist in that.
    Mr. Roemer. This is an excellent question, as well. You 
know, Bruce, I think, covered in his testimony how interesting 
people like Alacki are. Here is somebody that was somehow 
meeting with some of the terrorists back in 9/11. We are not 
still sure exactly what role he played and whether he was a co-
conspirator or whether he was just meeting on the margins with 
Hazni and Nedhar. He then ends up getting involved in jihadi 
practices and going to teach that over in the United Kingdom. 
He comes back to that--I believe he goes back over to Yemen 
then and starts radicalizing people on the Internet and in chat 
rooms. Four out of five successful post-9/11 attacks taken on 
by lone wolves are inspired by Alacki. He dies by a drone 
attack and then still inspires attacks from the grave.
    The interesting question is not only understanding how he 
is able to radicalize people, but what is the FBI doing to 
understand that threat. Who are they hiring? Are they getting 
access to the best and the brightest to bring in people who can 
anticipate where Al-Qaeda and terrorist groups go with these 
kinds of technologies in the future?
    As Mr. Comey said in his testimony a couple of hours ago, 
you know, are they able to have the resources from Congress to 
train people and educate people to this threat? Are they 
bringing in people from MIT? I think, Mr. Chairman, you talked 
about DARPA and MIT and getting the best minds together in the 
United States to understand where these people are coming from.
    I remember on the 9/11 Commission Tom Clancy had written a 
novel before 9/11 about an airplane that was going to crash 
into the United States Capitol. We need to make sure that our 
folks at the CIA and the FBI are road teaming and are thinking 
ten years ahead of the terrorists, are hiring the people that 
help us think ahead of them, and have organizations that are 
not bureaucratic and hierarchical but flat and entrepreneurial 
and dynamic that can stay ahead of this.
    Mr. Meese. My colleagues have said it very well. I just add 
one thing. That is the fact that we have had 53 cases or 
threats in the last five years indicates that the threat of 
terrorism continues. There was a feeling, particularly when Bin 
Laden was killed, that somehow terrorism was no longer as great 
a threat. And as we have seen, it does continue to be a very 
serious threat to us and the onset of homegrown radicalization, 
if anything, has continued to grow in this country.
    So, I think the main lesson we have to learn from that as a 
Nation is that you cannot allow your guard to be let down, and 
that you have to be very cognizant of what a real threat this 
is and continues to be.
    One of the things that has happened, of course, on an 
international basis is the fact that Al-Qaeda, for example, 
which was pretty centralized at one time, and as we know if you 
have a centralized enemy it is a lot easier to fight than a 
decentralized enemy. And today we have a decentralized enemy 
internationally, as well as a decentralized terrorist threat 
within our own country. So, if anything, the type of work the 
FBI is doing is more important today, perhaps, or certainly as 
important as it was before 9/11.
    Mr. Wolf. Well, I am going to end and go to Mr. Culberson, 
but I have a whole series of questions but I think you really 
kind of covered--I was going to ask you about the Internet, the 
radicalization. I am really glad that you are looking at this 
and that you are there. You just triggered Al Shabab. All the 
Bureau tells us--and there have been other American citizens 
that have been killed in Somalia. They were all Somalians who 
returned to Somalia, but when I asked some of the people, the 
Bureau, on those who have gone to Syria--and there may be an 
exception--almost none of them are Syrians who are going to 
Syria.
    They are all from other places, and I think the FBI is so 
busy doing these things, I think to have the three of you kind 
of reflecting on these and thinking, if there are any we mark 
up relatively soon, but if on the interim just pick up the 
phone and say, we think, preliminary at this time if you were 
to do this, let us know, just the same way we were with 
Director Comey. If he had something obviously we are not going 
to break the budget if there is anybody here from a long day, 
we are not going to be looking at--but if there is something we 
can shift around or do because the guy at OMB is looking at it 
from a green eye shade you are thinking if we can say we will 
take some of here and put it there and do it.
    So if you have any ideas between now and next month, call 
us on the phone and tell us. I am going to just end by I am 
very, very grateful that the three of you were willing to do 
this bipartisan, I mean, frankly, I do not think you could have 
three better people, you know, to kind of look at this from an 
experienced point of view. So--and it is kind of interesting. I 
probably shouldn't say this but the media did not even pick you 
guys up for the longest period of time. It was like, you know, 
and fresh eyes on the target to always come and take with fresh 
eyes.
    And lastly, I do not know if there is anybody here from the 
FBI, but I appreciate the fact that Director Comey has been 
very open, as Bob Mueller has always been really open to say, 
``Hey, we want this done.'' And so I want to thank the Director 
for sort of having this open attitude and thank the three of 
you for your service.
    And with that, I will just for the day and you can go, Mr. 
Culberson.
    Mr. Culberson. If I could, and thank you, Mr. Chairman. 
Again, I want to thank you all for the extraordinary service 
that you already rendered to the country and that you are 
willing to do through this Commission, and with your 
permission, Mr. Chairman, because we have got just a little bit 
of time and I do not want to go too long, but if I could.
    I hope that you will keep in the forefront of your mind as 
you go forward--and, Mr. Chairman, I hope this is agreeable 
with you--remember Ben Franklin's admonition that those who 
would trade a little freedom for a little safety, you are going 
to wind up with neither. And it is a real source of concern for 
me, as I know it is for you, Mr. Chairman, and all of us as 
Americans that the importance of identifying who our enemy is, 
we have got to be very careful. We are protecting the privacy 
of individual Americans that has really never been surrendered 
from the beginning of a Nation. And, General Meese, when you 
said we are facing a decentralized enemy in the an era of the 
Internet.
    I am delighted to hear the FBI Director does not even use 
one. That gives you an idea how dangerous these things are. But 
as you go forward and you look at this, I hope you will keep 
that in the forefront of your mind in efforts of the FBI to 
gather intelligence on who the enemy is, but at the same time, 
talk to us if you could a little bit during this time that we 
have got together here today.
    Help guide us as policymakers and keep it in the forefront 
of your mind, is how do we in this new--whole new era of 
incredible access to information and invasion--and we know, Mr. 
Chairman, that the FBI has told us that the Chinese are able to 
actually turn on cameras remotely and watch and hear everything 
that you are doing.
    How do we protect the individual privacy rights of 
Americans, who are law-abiding Americans and, for example, Dr. 
Hoffman, you say you follow this guy, some nutcase on Twitter 
to see what he is up to. I mean, does the FBI then have the 
right to come in and invade your privacy--does any government 
entity have the right to come in and--as they did with Frank. 
They broke into your computer. They literally--the Communist 
Chinese government broke into this good man's computer--your 
official computer, right? Sucked it dry, because he was helping 
Chinese dissidents, I believe, wasn't it, Mr. Chairman? And 
stripped it and then I think actually put a virus or something 
on there, did they?
    Does the government have that right, Dr. Hoffman? I mean, 
how do you--once you--yeah, you have got a professional 
interest. I am not too worried about you from committing any 
kind of terrorist acts against the United States, but what does 
that do to you and your privacy rights?
    Mr. Hoffman. Well, I think as long as no laws are being 
broken, which they haven't been. But, you know, this goes back 
to----
    Mr. Culberson. But you have knocked on the guy's door, 
basically. You basically knocked on this guy's door and 
accessed him and already opened----
    Mr. Hoffman. But, of course, it is going to already be 
opened because I am listed as his follower. You know, so there 
is no secret.
    Mr. Culberson. Does the FBI then have the right to go in 
and search your computers and see what you are doing?
    Mr. Hoffman. I do not think they have the right to go in 
and search my computer but I certainly hope they are monitoring 
the fact that I am monitoring them and at least trying to 
figure out am I someone who should be of interest to them or 
not.
    Mr. Culberson. Exactly. Exactly.
    Mr. Hoffman. And I think that we, you know, count on--and 
this is why I think having an agency that is not strictly an 
intelligence agency that is very conscious of privacy rights 
and of Constitutional rights is extremely important.
    Mr. Culberson. I would suggest that it is not just that the 
agency is conscious of it, but that I hope you will also think 
as a part of your recommendations in your work is what can we 
do as policymakers to ensure that Americans are keenly aware of 
when they--for example, if you communicate by an email with 
somebody like this that I think of it in terms of consent. 
Because whenever you download a new program or access any kind 
of an update, you know, you get that consent thing, ``I hereby 
agree to all the terms and conditions.'' I think that one way 
to deal with it might be just to make sure that in the event 
that you are communicating with, accessing, I mean, one of 
these vile websites that Frank was talking about earlier, 
frankly, I think the FBI ought to just infect guy's computer 
and fry it up. But at a minimum we ought to be able to--I just 
want you to know that you are accessing a website, you are 
talking to somebody that is being monitored by the Federal 
government, and this--is there a way, perhaps there?
    Mr. Hoffman. Well, I think we are truly partially giving 
the devolution of the threat and its individualization is, I 
think, the U.S. government and its agencies are constantly 
finding and striving to strike a balance between the two. But 
the Hasan case that we talked about earlier is precisely right 
on point because the FBI was very reluctant to intervene very 
aggressively because they thought that initially he was only 
soliciting Anwar Al-Awlaki's views on theological arguments.
    Mr. Culberson. And there was also political correctness on 
the part of the Army, as the Chairman said.
    Mr. Hoffman. But I think this is why these things--my 
personal view and that is all it is is that I think we have to 
look to those who protect and defend us that hopefully they are 
watching and monitoring these things and then making a 
determination.
    If there is both a genuine and a legal threat, then that 
triggers additional investigation.
    Mr. Culberson. There is a general discussion because it is 
difficult. This is brand new. This is the 21st century, 
something we have never seen before. And in my mind, correct me 
if I am wrong, but isn't it correct that there are certain 
individual liberties and rights that were never surrendered to 
any level of government? And I always think of the example I 
gave earlier, for example, Patrick Henry and the founders never 
surrendered--is it accurate to say, General Meese, I mean, from 
my reading of the Constitution, of the Revolutionary War era, 
the whole intent of the Constitution to preserve our liberty, 
provide for the common defense and the general welfare is to 
fundamentally the Federal government was created to protect our 
liberty. And correct me if I am wrong, my reading is Patrick 
Henry and the founders never surrendered, for example, the 
right of self defense. That is accurate, isn't it? Any level of 
government.
    Mr. Meese. Well, that is true and that is reflected in our 
laws. As a matter of fact, the Constitution itself was designed 
to be a protection against the invasion of people's liberties 
and that was one of the major concerns of the founders.
    Mr. Culberson. Right.
    Mr. Meese. And in 1787 when they conceived, and the anti-
federalists were concerned about the fact that this might be 
giving up our liberties to the central government. That is why 
they were concerned about the central government.
    Mr. Culberson. George Mason refused to sign the 
Constitution, I believe, for that reason.
    Mr. Meese. Right. But I would say if you look at what the 
government is doing today in terms of intrusion in people's 
lives, it is not coming from the law enforcement communities.
    Mr. Culberson. Yeah. As a part of your thought process, I 
hope as you go forward you will think about this and recommend 
to us what we can do to help ensure that we are protecting 
those fundamental liberties and right to privacy that all 
Americans have.
    Mr. Meese. I think that will be a concern that all of us on 
this Commission certainly have.
    Mr. Roemer. Congressman, if I could. You have been eloquent 
in your quotations. One of my favorite quotations is from 
Abraham Lincoln, and paraphrasing him, he talked about ``We 
will never be destroyed from an enemy on the outside. The only 
way we will destroy America would be by removing freedoms and 
liberties from ourselves.'' And we must protect those 
Constitutional rights and freedoms.
    And I think that is something that Bruce and Ed and I will 
ask in our briefings, and we do ask. How does the FBI continue 
to stay, you know, on the right side of the First Amendment in 
the Constitution, but also be aggressive in going after 
terrorists? We have mentioned the Zazi case to you several 
times. There is an Intelligence Bureau up in New York City with 
the NYPD that has negotiated, according to the book, enemies 
within. Some different rules where they can, you know, be a 
little bit more aggressive in going after suspects and looking 
into cases. The FBI assures us that they stay within the 
Constitution and within the First Amendment when they are doing 
these investigations.
    Mr. Culberson. We will confirm that.
    Mr. Roemer. And we will keep asking those questions. I 
would say though, Congressman, you know, we talked about this 
on the 9/11 Commission, Congress has the opportunity and your 
oversight now to look at the NSA issue and the mega data 
collection issues, the drone policy, and eavesdropping, and 
other things. It is much better for Congress to debate these 
issues with clarity, with due diligence, hopefully in a 
bipartisan way and get it right, rather than waiting for the 
next terrorist attack, and that we stampede toward ill thought 
through laws that may not balance our Constitution.
    Mr. Culberson. That is why I am asking these broad, open-
ended questions and appreciate it, because you are perfectly 
positioned to help guide us in that effort as we go forward 
because it is so vital, and I think also to remember, as you 
said, General Meese, that we are facing a decentralized enemy. 
Our greatest strength as a Nation is that not only is our 
individual right to privacy decentralized, but frankly, we just 
trust the good judgment of individual Americans who never gave 
up the right of self defense, who never surrendered the right 
of freedom of thought or religion. There are so many of these 
fundamental freedoms.
    Frankly, my memory is that most of these terrorist attacks, 
for example, the one in Kentucky. So many of the FBI has 
certainly spotted people on the Internet, but it has been local 
police officers and individual Americans who have stopped a lot 
of this--passengers on United Flight 93, but for their 
individual initiative and courage, the Capitol building would 
not be here.
    Mr. Roemer. I agree.
    Mr. Culberson. It would be smoking ruins.
    Mr. Roemer. We have got a lot to be grateful for.
    Mr. Culberson. Remember, as you put it together, talk to 
us, guide us, advise us on what we can do as policymakers to 
make sure that we are doing all that we can, not only to help 
the FBI to do their job, but also to protect and reinforce and 
reaffirm our faith, and the individual good judgment of average 
Americans to do the right thing for the right reasons in 
protecting themselves and their families and their communities 
and their states.
    Because that is our greatest strength. That is the one that 
the enemy will never crack that. As long as we have faith and 
the good judgment of individual Americans to protect themselves 
and their freedoms, they will never conquer us.
    Mr. Meese. That will certainly be an important 
consideration that we will give to our work and also to the 
fact that the most important thing, really, is making sure that 
the public gets the truth about what is going on, and this with 
the transparency and that sort of thing.
    Mr. Culberson. Absolutely.
    Mr. Meese. And I have been very much impressed with 
Director Comey. But we will certainly be very cognizant of that 
as a major part.
    Mr. Culberson. Thank you. Thank you, Mr. Chairman, for 
allowing me to be so broad about that. I was thinking a 
terrorist is a lot less likely to attack Texas than he is 
perhaps other places because he won't last long.
    Mr. Roemer. Mr. Chairman, if I may just thank you and your 
Committee for creating this Commission. I have four children. 
One of them is 13, Grace, and she goes to school in your 
district. She was born right before 9/11 and you all 
passionately talked about 9/11. You talk about it like it 
happened yesterday. But we have a lot of constituents 
throughout the country that do not remember it quite so well. 
We heard a comment from a Congressman the other day that said, 
``9/11 is a little bit like Gettysburg.'' It happened a long 
time ago and some people tragically are forgetting about it. I 
think this Committee's hard work to put this Commission to work 
to try to make sure that the American people do not forget, 
never forget about the 2,977 people who died on 9/11 that it 
never happen again, that our agencies keep changing, keep 
reforming and transforming. We are very grateful to you for 
putting us to work and we are going to need your help in the 
months ahead to do it the right way.
    Mr. Meese. I would like to join in thanking the Committee 
and also particularly thanking the Chairman. His tremendous 
leadership in the Congress and the causes that you have taken 
under your wing and brought to the attention of the public, 
brought to the attention of this body, the Congress, and all 
that you have done for human rights, for civil rights, and for 
the betterment of the country as a whole.
    I think this being kind of a champion of this whole issue 
of taking a look at the FBI and making sure that they are doing 
their best to take care of the country is an example of your 
interests and where you put your personal energies and your 
personal position on the line to make sure that things are 
being done properly. And so I just want to join in thanking you 
for your service and appreciate very much being one of your 
constituents particularly, I am very grateful to you.
    Mr. Wolf. Thank you all. I thank the Commission. Let us 
know if there is anything we have to do, and with that the 
hearing is adjourned. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                          Wednesday, April 2, 2014.

DRUG ENFORCEMENT ADMINISTRATION AND STATE OF RESEARCH ON DRUG ABUSE IN 
                                AMERICA

                               WITNESSES

MICHELE M. LEONHART, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION
NORA D. VOLKOW, M.D., DIRECTOR, NATIONAL INSTITUTE ON DRUG ABUSE
    Mr. Wolf. We are pleased to welcome the DEA Administrator 
this morning to testify. Following the Administrator's 
testimony we will hear from Dr. Volkow, Director of the 
National Institute of Drug Abuse about the current trends and 
research on drug abuse in the United States.
    Administrator Leonhart, it has been a challenging year for 
the DEA. Let me just personally thank you, and I want to thank 
all of your employees. You have done an outstanding job in a 
very difficult, difficult environment. You have had to cope 
with the uncertain funding and hiring freezes, reductions in 
efforts by key partners, and the prospect of managing your 
force while there are significant and ambiguous changes in 
policy with regard to enforcement of the federal laws for 
marijuana trafficking and possession.
    At the same time, illicit narcotic production and 
trafficking continues to grow, spread, and evolve despite 
generations of spending billions of dollars to counter these 
narcotics. A new report by the Rand Corporation published this 
February for ONDCP estimated the number of users, expenditures, 
and consumption of the four major illicit drugs from 2000 to 
2010 and found that users spend on the order of $100 billion 
annually on cocaine, heroin, marijuana, and methamphetamines. 
This does not begin to count the human and economic toll on our 
communities of drug trafficking and abuse with the rise of 
prescription and designer drugs. Where progress is made in 
reducing abuse in one instance, new drugs arise or in the case 
of heroin seem to have a resurgence.
    Sometimes we have good news in this struggle. For instance, 
last month the arrest of El Chapo Guzman, possibly the world's 
most infamous and powerful drug lord. We congratulate you on 
this arrest. You have had success in getting Viktor Bout from 
the other end of the country and the world and I hope you did 
not do it too well with the understanding that he played an 
essential role. At the same time we hope this will result in a 
meaningful disruption of the Mexican cartel and their 
operations, at least for a time.
    Then there is the troubling news that heroin use is growing 
and it is growing particularly in the Shenandoah Valley and I 
am going to ask you some questions about that. And reaching 
some new markets, some of them users initially hooked on 
prescription drugs. Meth use appears to be growing and 
increasingly used worldwide as a poor man's cocaine. And there 
is reason to fear that legitimate interests in finding balanced 
sentencing for drug use may tilt too far in relaxing criminal 
sanctions. We will have to see. This could create a public 
health and safety issue for children and communities, and 
damage our international interests as well.
    The fiscal year 2015 request is $2.018 billion in 
discretionary budget authority, a flat budget that is 
effectively a decrease under which DEA will absorb $75 million 
in inflationary costs. To do this DEA may need to cut in half 
its planned hiring despite the need to fill vacancies due to 
sequestration and a long DOJ hiring freeze. We hope to learn 
more today about the tangible impact of this level of hiring on 
DEA's ability to sustain its efforts let alone adapt to new 
demand.
    I will have questions regarding the trends in drug 
trafficking and prospects near Afghanistan, particularly in the 
north and what is taking place now, and how DEA will deal with 
different imported substitute marijuana. We also want to learn 
about the state of your efforts to counter prescription drug 
abuse that is funded by user fees and the possible impact of 
sequestration on efforts.
    Finally to help us assess the science behind the headlines 
we will hear from NIDA Director Dr. Nora Volkow. It is 
essential that the committee be aware of the current knowledge 
regarding the health and social impacts of controlled substance 
and trends in their use and abuse and the real costs and 
benefits associated with the recent changes in counter drug 
policy and enforcement.
    Before that I would like to recognize Mr. Fattah.
    Mr. Fattah. Thank you and welcome again before the 
committee. And I would look forward to your testimony. I want 
to thank you again for your extraordinary career. And you have 
had a remarkable career and you are doing a tremendous job. 
There is a great deal of concern at the moment in the country 
around a particular issue, which is this opiate use and 
overdose deaths related to heroin. I know that Attorney General 
Holder has talked about this recently. I would be very 
interested in what you could share. And I know many of the 
local police departments up in Philadelphia and others are 
trying to make sure that their first responders are prepared 
with a response that is available that can intervene and save 
people's lives. And I know that there is remarkable focus when, 
you know, a very famous actor ended up in an overdose. But this 
is an everyday occurrence throughout the country. And so I 
would be interested in talking about this matter in particular 
in light of the issue and your expertise. So thank you.
    Mr. Wolf. Thank you. Mr. Rogers, Chairman of the full 
committee.
    Mr. Rogers. Mr. Chairman, thank you for the recognition. 
Welcome to the subcommittee. Chairman, thank you for yielding a 
few minutes here.
    Administrator Leonhart and Dr. Volkow, thank you both for 
taking the time to be here with us to talk about your 
respective leadership roles in our country's fight against the 
terrible scourge of drug use. While your backgrounds are 
certainly very different, your jobs are equally important in 
employment a multifaceted anti-drug strategy at the national 
level that incorporates law enforcement, treatment, education, 
and research.
    DEA of course has the critical task of implementing the 
country's federal response to illicit drug use. Your budget 
request for fiscal year 2015 is $2.018 billion. While the 
request is essentially flat from last year, I am concerned that 
you have proposed to absorb some $75 million in mandatory pay 
and retirement increases and foreign operations expenses with 
unspecific amorphous ``administrative reductions.'' I certainly 
understand that we have to make all difficult decisions in this 
tough budgetary environment but the reality is that you have 
sent your budget to us with a $75 million hole that the 
committee will have to fill. This is gravely important as we 
strive to provide the men and women on the front lines with the 
tools, training, equipment, and support necessary to carry out 
vital anti-drug missions domestically and abroad.
    This is particularly important as we continue to fight 
against the abuse of prescription medications. Chairman Wolf 
and I have discussed with you and your agency on many occasions 
the truly devastating impact of prescription abuse in small 
town America. Where I live it is hard to find anyone who has 
not been left in the wake of this scourge. When OxyContin first 
came to the market in the late nineties, our towns were 
completely overrun by pills that had been marketed to doctors 
as completely safe and resistant to abuse. Pills that were 
supposed to treat pain were creating pain in the form of 
addiction and abuse and tragically the untimely overdose deaths 
of too many mothers and fathers I have met in emergency rooms 
distraught at the death of a young son or daughter.
    Unfortunately what once was sequestered in small towns of 
Appalachian Kentucky and West Virginia has now been 
characterized by the CDC as a national epidemic. Whether it is 
rural Vermont, the beaches of South Florida, or the glamorous 
streets of Hollywood, this crisis knows no socioeconomic, 
gender, or racial bounds. It is indiscriminate in its path of 
destruction and it will require a coordinated multipronged 
approach to finally put a dent in the problem. DEA has been a 
valued partner and leader in this endeavor, rooting out 
unscrupulous and bad acting doctors and drug dealers while 
sponsoring national take back days that provide a safe, 
convenient, and responsible means of disposing of unused 
prescription drugs. However, challenges persist and I look 
forward to hearing from both of you today about DEA's efforts 
to combat the illicit diversion of prescription medications and 
whether you feel these efforts are making a measurable impact 
in reducing abuse.
    In particular, despite some meaningful reforms on the 
regulatory front, including the up-scheduling of Hydrocodone 
combination products for which the DEA has staunchly advocated 
for a long time, the FDA has recently taken a major step 
backwards in my view by approving a pure Hydrocodone painkiller 
without any protections against abuse. The FDA's justifications 
for defying the recommendation of its own advisory panel 
against approving Zohydro are incredibly weak in my estimation 
and I would like to hear how you anticipate Zohydro's entrance 
into the market and how that might impact the law enforcement 
community. My region in Southern and Eastern Kentucky is 
bracing for a wave of abuse and addiction and I can only pray 
that the fears of so many in my community do not come to 
fruition once this drug becomes a household name. I have a stay 
up at night fear, awake at night fear, that Zohydro will be the 
new OxyContin scourge that killed so many American kids.
    The approval of Zohydro is particularly egregious because 
with certain regulatory changes at the federal level and a 
number of statutory changes at the state level, some regions 
have experienced some much needed relief from the challenges 
associated with prescription drug use. In Kentucky for example 
we saw overdose deaths plateau in 2012 for the first time in a 
decade. The FDA risks reversing this hard fought progress by 
allowing this new crushable pill, injectable pill into our 
streets and causing deaths.
    It is important to note, however, that though we have made 
some meaningful progress in beating back on prescription drug 
abuse and misuse, we have seen deaths related to heroin now 
increase by 450 percent in Kentucky. And I know that you have 
been seeing similar trends on the national scale and this 
uptick in heroin abuse is incredibly alarming. It raises 
important questions about the availability of treatment for 
those that are struggling with addiction and also about the 
strain on our law enforcement officers who must now grapple 
with a different type of challenge. Operation UNITE in my 
congressional district has always approached this problem from 
the perspective of investigations, treatment, and education, a 
multipronged attack. And so I look forward to hearing from you 
about how DEA is addressing these important concerns at the 
federal level.
    On that note I would like to thank DEA for its strong 
representation at the National Prescription Drug Abuse Summit 
which will take place in Atlanta in a few short weeks. As Dr. 
Volkow can surely attest, that conference will bring together 
our country's best, brightest, and most passionate policy 
makers, scientists, law enforcement officials, and advocates. 
And I am grateful that the DEA and NIDA have lent their voices 
and expertise to the cause and I look forward to seeing both of 
you there in Atlanta very soon. There will be around 1,000 to 
1,500 people across the country that are zeroed in on this 
problem that will be joining their voices and souls together to 
try to beat back the scourge.
    Before I conclude, Mr. Chairman, I would be remiss if I did 
not register my strong concern that the administration has 
completely abdicated one of its chief responsibilities under 
the Controlled Substances Act. Earlier this month your deputy 
administrator noted that there is no sound scientific, 
economic, or social reason to change our nation's marijuana 
policies. He further stated that the administration should send 
a clear message to the American people and ensure our public 
safety by not abandoning the science I am sure Dr. Volkow can 
discuss ad nauseam. And yet we have seen the exact opposite: 
the Department of Justice turning a blind eye to state laws 
legalizing a Schedule I drug and instructing federal 
prosecutors to deemphasize marijuana prosecutions. That is just 
not acceptable. I am pleased that we will have the opportunity 
this morning to hear from leaders in both the scientific and 
law enforcement communities about that wrong-headed approach to 
drug enforcement.
    Thank you for being here. Thanks for your hard work. I 
yield.
    Mr. Wolf. Thank you, Mr. Chairman. I share the chairman's 
views and I know we are going to talk a lot about that today. 
But what the administration is doing on that issue is just 
absolutely crazy. If you could stand, we are going to swear you 
in as we swear in all the witnesses from the federal 
government.
    [Witness sworn.]
    Mr. Wolf. Thank you very much. Let the record reflect that 
the witness answered in the affirmative. We thank you and we 
have your full statement in the record. You can summarize as 
you see fit.
    Ms. Leonhart. Thank you, Chairman. Good morning, Chairman 
Wolf, Chairman Rogers, Ranking Member Fattah, and members of 
the subcommittee. Because this may be the last time that I see 
you, Chairman Wolf, before you retire at the end of the year, I 
wanted to start by saying thank you. Thanking you for your 
years of dedicated service to our country and I wish you the 
best in the future. I would also like to say as a 33-year civil 
servant of this federal government, thank you for what you have 
done for all federal workers, not only the men and women of the 
DEA.
    Through your leadership this subcommittee has provided DEA 
the resources we need to successfully combat the world's 
largest drug traffickers. And we are celebrating the recent 
arrest of Joaquin El Chapo Guzman by the Mexican authorities. 
As the head of the Sinaloa Cartel, Guzman contributed to the 
death and the destruction of millions of lives all around the 
world and the arrest of the world's most wanted international 
drug trafficker is a major step forward in our shared fight 
against drug trafficking and violence.
    In the past year ten more of the most wanted drug 
traffickers, known as CPOTs by the Department of Justice, 
otherwise known as kingpins, have been arrested and six were 
extradited to the United States. And among them were Daniel El 
Loco Barrera, who for over 20 years led an organization that 
distributed hundreds of tons of cocaine around the world 
leaving a trail of violence in his wake. Barrera is considered 
one of the last true drug kingpins in Colombia in the Andean 
Region.
    Since we started tracking CPOTs in 2003, a total of 179 
CPOTs have been identified, and of those through our efforts 75 
percent of them have been indicted; 55 percent of them have 
been arrested around the world; and 31 percent have actually 
been extradited to the United States. That is a record that we 
are very proud of. We are proud not only of DEA's enforcement 
successes but together with the nation's drug education, 
treatment, and prevention folks, we are making a difference.
    The overall rate of drug abuse in America has declined by 
35 percent since its peak in 1979. Drug abuse by high school 
seniors is also down by nearly 35 percent since 1979. And since 
2006 the number of current users of any form of illicit drug 
other than marijuana dropped eight percent. Regular cocaine use 
has dropped 32 percent between 2006 and 2012. And at the same 
time methamphetamine use is down by 40 percent.
    But we still have areas of concern. Prescription drug abuse 
remains the nation's fastest growing drug problem. An estimated 
6.8 million Americans regularly use prescription drugs for non-
medical reasons. And we are hearing reports that many 
prescription drug users are turning to heroin. A recent survey 
found that 80 percent of the recent heroin initiates abused 
prescription pain relievers before they started using heroin. 
Increases in heroin purity and availability, the low street 
cost of heroin, and the lack of public awareness of the risks 
of heroin and prescription drug abuse are also important 
contributing factors. And from 2007 through 2012 the number of 
regular heroin users in this country more than doubled. Not 
surprisingly overdose deaths have also increased.
    Marijuana use also remains a very serious problem in this 
country. Marijuana related emergency visits increased by 48 
percent between 2007 and 2011. And although methamphetamine use 
is actually down, a third of local enforcement agencies report 
that that is the greatest drug threat in their communities. 
Drug abuse is devastating on a personal level and drug 
trafficking poses a serious threat to society because of the 
violence and the hazards that come with it and the terrorist 
organizations that are often funded by it.
    So now is not the time to sound the retreat. Rather we 
should be redoubling our efforts. And DEA will continue 
attacking these threats using tools and techniques that have 
worked so well for us in the past: close relationships with 
federal, state, and local, and international partners; 
information sharing and case coordination; and going after the 
money. Since we started tracking this in 2005, DEA has denied 
drug trafficking organizations a total of $26.8 billion in 
revenue. Just like efforts to eliminate cancer or poverty, the 
fight against drug abuse is a generations long struggle and it 
will not be won overnight. But if we remember how things were 
when we started this fight, if we look at the tremendous 
successes we are having today, there is reason for optimism. By 
taking harmful drugs off the street, by dismantling those major 
drug organizations, seizing their profits, we are making our 
nation a safer place to live and do business. And the support 
of this subcommittee is vital.
    I look forward to working with all of you and to take any 
questions you have. Thank you.
    Mr. Wolf. Thank you very much. Mr. Chairman.

                        PRESCRIPTION DRUG ABUSE

    Mr. Rogers. Thank you, Mr. Chairman, for recognizing me. 
Administrator Leonhart, last year when you came before the 
subcommittee you and the chairman discussed at length DEA's 
efforts to mitigate diversion of Hydrocodone products in the 
U.S. At the time you reiterated your support for up-scheduling 
the Hydrocodone combination products from Schedule III to 
Schedule II, a very vital change for the better. While the U.S. 
makes up only 4.6 percent of the world's population, we consume 
99 percent of the Hydrocodone. ER visits involving Hydrocodone 
rose from 38,000 in 2004 to more than 115,000 in 2010. Clearly 
our country has an insatiable appetite for this drug. And while 
it serves a legitimate medical purpose it also presents an 
incredible public health and safety challenge.
    FDA has finally made this regulatory change, Schedule II, 
after ten years of prodding from DEA. But the very next day, 
after we cheered that result, FDA took this big step backwards 
in my opinion and approved Zohydro. It is a crushable, pure 
Hydrocodone product that packs an incredible punch, I am told 
ten times better than OxyContin. Its own advisory panel voted 
11 to 2 not to allow the drug on the market, especially since 
the company that makes it is on the verge of making a crushable 
pill that would be available I think in six months or so.
    In Kentucky we saw users switch from OxyContin when they 
made it drug use deterrent; they switched from OxyContin to 
Opana in droves. The street price for these abuse resistant 
pills dropped dramatically and quickly from about $2.50 a 
milligram to $.75. And we saw users switch from Opana to Heroin 
when Opana was reformulated to make it abuse resistant. Given 
this I want to ask you, do you have any concerns that Zohydro 
will be abused or divert illicit abuse much the same as 
OxyContin and Opana was?
    Ms. Leonhart. Thank you for that question, Chairman. We 
have grave concerns. Obviously this country is experiencing a 
major prescription drug problem and putting one drug on the 
market that now is ten times more potent than the other 
Hydrocodone combination products frightens us all. We were 
surprised that after all we know about the situation, the 
growing epidemic, the problems that we had with OxyContin years 
back, that this would happen. But it has been approved and I 
learned earlier this week that some of the pharmacies in the 
Midwest have started to receive the product.
    So with that being said, we, DEA, are not sitting still. We 
have been educating our agents out in the field and our 
diversion investigators. We have educated our tactical 
diversion squads and have been around the country talking about 
this with our police chiefs and sheriff partners to prepare for 
this. It is unfortunate that this has happened. And I see, it 
is very interesting, the Governor of Massachusetts just the 
other day announced that he is going to make attempts to ban it 
in his state and especially when we know that all these efforts 
to come up with crushable pills are just around the corner.
    Mr. Rogers. Well you know, the FDA had been very good about 
saying that they would not approve any opioid unless it was not 
crushable, abuse resistant. And then for whatever inexplicable 
reason the next day they said, oh wait a minute, on Zohydro, 
almost ten times more powerful than OxyContin, we think we can 
keep it out of the hands of people who want to abuse it. They 
said the same thing about OxyContin not a very long time ago. 
So it is inexplicable but it is not over. So we have filed a 
bill in Congress to undo that decision.
    Ms. Leonhart. Thank you.
    Mr. Rogers. And I would invite cosponsors on that bill 
because you will be saving lives. DEA seized 45,000 Hydrocodone 
combo pills in 2010. Put this Zohydro approval in perspective 
for us. What impact will this have on DEA's tactical diversion 
squads?
    Ms. Leonhart. Well, unlike Hydrocodone, because it is pure 
Hydrocodone and not a combination product, at least it will be 
scheduled in Schedule II. So the problems that we had over the 
past many years with Hydrocodone being in Schedule III with the 
combination products, we at least will have a little bit of 
control over that. For instance, there will be no refills. And 
we really think that the impact, the biggest impact will be 
that doctors, doctors when Hydrocodone becomes Schedule II we 
think that with Zohydro and Hydrocodone doctors will see that 
it has gone to that Schedule II from Schedule III and are 
becoming more educated about the problems of these opiates and 
will not prescribe. Will look for other methods, Schedule IIIs 
or other available medications.
    I think with Zohydro it is going to be about educating 
people. You asked what will we do with our diversion squads? 
Our diversion squads are prepared to go out and have actually 
started educating people. We have been holding what we call 
PDACs, Pharmacist Diversion Awareness Conferences, one every 
six weeks or so on weekends, where on a Saturday we have all 
these pharmacists come in, on Sunday another group of 
pharmacists come in, and we talk to them about trends and their 
responsibilities. And Zohydro over the last couple of PDACs has 
been part of the presentation that our folks have given to 
them.
    So a lot is being aware of it, educating the public. But it 
is also what you are doing, looking at legislation. It is what 
the states are doing, looking at ways that they have to push 
back on this, that in the end I think is going to be the 
answer. So we continue our efforts. We continue our efforts 
looking at, once this does hit the streets, who is selling it? 
Because there is going to be a market. There is going to be the 
black market out there peddling these on the streets. We will 
see doctor shoppers. People addicted to opiates, when they know 
that there is a new potent medication out there, will be 
seeking this from doctors. So it is a combination of education 
and our enforcement efforts that are going to push back on 
that. But the best thing, what you have just told me about 
looking at legislation, would be a way to help.

                               MARIJUANA

    Mr. Rogers. Here we go again. I mean, this is echoes of 
OxyContin at best. Let me quickly ask you, Mr. Chairman I will 
be brief, about marijuana. The administration looks like it is 
abdicating its responsibility to enforce the Controlled 
Substances Act by refusing to challenge state laws that 
legalize a Schedule I drug. Justice indicated in an August 29 
memo that it would allow legalization of marijuana to proceed 
in Washington and Colorado. And we know according to NIDA that 
more than half of new illicit drug users begin with marijuana. 
That is an accepted fact. And as the agency now charged with 
the enforcement of the Controlled Substances Act, how can you 
reconcile DOJ's decision with your clear statutory requirement 
to keep Schedule I drugs off the streets?
    Ms. Leonhart. Thank you for that question. Obviously that 
is a serious issue for not only my agency but our state and 
local partners. A lot of confusion in that 296 days while they 
were reviewing it and deciding how to proceed. But the 
Department of Justice made a decision. It is a legal decision. 
It does not change what the Drug Enforcement Administration 
does. We go after drug traffickers. We go after those, we have 
never gone after the users. We go after the organizations and 
the individuals who are breaking federal law and are 
distributing marijuana in large quantities.
    Our state and local partners, however, are the ones that 
will still have a responsibility, even though in those two 
states they have legalized small amounts for recreational use 
by adults. It will be very tough, but they will still be 
enforcing state law as to distribution. We have looked at this, 
as you can imagine. It has been a number one issue for us since 
those initiatives passed. But it really does not change for us 
any of our enforcement strategies. If you look at the eight 
factors in the Department of Justice memo of August 29th, our 
cases fall within those eight factors. Such as it talks about 
organizations trafficking, it talks about marijuana going from 
Colorado or Washington to other states, it talks about money 
being funneled to criminal organizations, it talks about 
marijuana being on public lands, and on and on and on, and 
keeping it away from children. So our enforcement strategy does 
not change, it stays the same.
    It is still against federal law. Because it is Schedule I 
it has been found, it is in that schedule because it has got a 
high potential for abuse. There is no currently accepted 
medical use for that in treatment and it lacks safety for use 
under medical supervision. So for the Drug Enforcement 
Administration we will continue to target organizations, 
criminal groups that are violating federal law. The memo of 
August 29th was a memo to the United States Attorneys and 
talked about allocation of resources, because we have to 
prioritize what we do. It put the U.S. Attorneys on notice, not 
just in those two states but any of the states that have even 
passed medical marijuana, that there are implications that 
impact federal interests in those eight areas. And so we can 
still utilize our resources to go after any of the traffickers, 
any of the organizations that fit those eight priorities.
    We continue with our partnership with our state and local 
partners in those states. And actually there has been cries for 
help from states surrounding those states to assist our state 
and local partners for concerns about marijuana going from 
those states to other states that do not have those laws.
    Mr. Rogers. You know for the chief law enforcement of the 
nation, the Attorney General, to tell the world, and especially 
his law enforcement colleagues, not to enforce a law on the 
federal books is a little bit more than selective prosecution. 
It is selective non-prosecution. It is turning a blind eye to 
the law. And I find that very disturbing that the chief law 
enforcement officer has that attitude. Thank you, Mr. Chairman.
    Mr. Wolf. I agree. Thank you. Mr. Fattah.
    Mr. Fattah. I would like to thank the full committee 
chairman for his follow up and follow through on this Oxycodone 
situation because it is not just Kentucky, it is all over the 
country. And I really think that lives have been saved and I 
thank the DEA for your work.
    But I want to go locally. So in Philadelphia and in a 
number of other areas you have been participating in strike 
force activities that have been very successful. So in 
Southwest Philadelphia for instance where we had a very 
challenging situation with violent drug gangs, DEA has been 
very active over a number of years. In fact the chairman was 
helpful in this effort. And we now have a 50-year low in 
homicides in Philadelphia, a 50-year slide. She said it was a 
46-years, politicians tend to embellish, so a 46-year low. But 
it is obviously because of the hard work you have been doing in 
Philadelphia and throughout the country. So if you could talk a 
little bit, not so much about the kingpins but the work you 
have been doing to crack down on these, in some of our toughest 
neighborhoods in our big cities, that would be helpful.

                            DRUG TRAFFICKING

    Ms. Leonhart. Sure. Thank you for the opportunity to 
address that. And actually it does link up with the kingpins. 
Our work, especially with our state and local partners in our 
over 200 offices around the country and about 200 task forces 
have been able to identify the most violent traffickers in a 
community like Philadelphia and really work up the intelligence 
together by the use of our informants, by interviewing 
informants of the police departments and other agencies to 
really be able to paint the picture, be able to identify who is 
responsible, who is bringing the drugs in, who is trafficking 
it, and link those traffickers to the sources of supply. And 
that is very important because that does go to the kingpins.
    The majority of the cocaine on the streets of Philadelphia 
years back we would have said were Colombian traffickers 
distributing to some of the street gangs and individuals 
traffickers. Well that has changed and now a lot of the drugs 
on the streets of Philadelphia are actually brought into this 
country by Mexican cartels or Mexican organizations working for 
the cartels or being supplied by the cartels. So with 
Philadelphia as the example, gathering all of that intelligence 
about who is moving the drugs into your community and working 
with our state and local partners and other federal agencies, 
FBI, ATF, IRS, we can identify the local cell. We can identify 
the regional cell. And then we can identify that international 
cell that is supplying them and come up with a strategy to hit 
them at all the different levels. And that has been successful 
in certain what we call hot spots, like Philadelphia. We have 
done the same thing in Oakland, California. We have done it in 
Chicago. And it is really combining our resources and what we 
know and coming up with a strategic way to hit those 
traffickers at all the different levels.
    Mr. Fattah. Well my question is, since my constituents have 
benefitted from this, do you need more resources to, is it no? 
Or are you sufficiently resourced for these activities?
    Ms. Leonhart. Well of course, we could always do more with 
more money. But this budget does allow us to continue those 
very important domestic operations. It allows us to continue 
our task forces. It allows us to continue with the centers that 
we have set up that have this intelligence that is fused and 
provided to the investigators and the officers. The budget will 
allow us to continue very, very strong domestic enforcement 
while at the same time working on those sources of supply that 
are targeting your communities for these drugs.

                           HUMAN TRAFFICKING

    Mr. Fattah. Now one last question. The committee has some 
interest in human and sex trafficking. And there seems to be 
some crossover into the work that you are engaged in because 
many of the people who are victimized in this process seem to 
be, drugs are used to either entice them or keep them in a 
situation where they are being able to be used and abused in 
this fashion. And again, this is an issue throughout the 
country. But can you tell me where there have been efforts, 
joint efforts with the DEA, that have not just focused on the 
drugs but have also been successful in getting at some of the 
issues around human trafficking?
    Ms. Leonhart. Thank you for the question. Some other 
federal agencies have a responsibility, like ICE, and to some 
extent even the FBI. Years back when we signed an agreement 
with ICE one of the things we put in the agreement was, that we 
have not seen before, we have not done before, not only will 
ICE share all their deconfliction, as we call it, tell us about 
who they are going after and the information regarding any drug 
trafficking aspects. But we also agreed that we would share 
with them any information we had on human smuggling or any of 
the authorities that they have, the crimes that they 
investigate. So there has been better sharing not only with our 
federal partners but also our task force officers a lot of 
times the tip comes in and the tip is about sex trafficking or 
human trafficking. And we are called in to assist because 
there's drugs involved. And we all know, especially on sex 
trafficking, that part of the lure for these young women is the 
drugs. Part of the pimps and the people that are trafficking 
them, often keep them involved in this crime with the drugs, 
get them addicted, we see that quite often. So there is this 
great sharing of intelligence now on the local level and actual 
sharing of informants if need be. And we can look at this for 
our partners to use their authorities to go after the human and 
sex trafficking but us coming in and actually working on the 
drugs and gives additional authority and additional charges 
that can put these folks away.

                          WITNESS INTIMIDATION

    Mr. Fattah. I said that was my last question, but you bring 
on a new question. So I got the CI part of this. But one of the 
problems in cities, and I cannot speak about rural Kentucky, 
but in places like Philadelphia and Baltimore and a number of 
our cities, one of the biggest challenges has been witness 
intimidation. So DEA was brought in to crack down on major, 
very violent drug gangs in Philadelphia and part of the 
challenge was witnesses who were just intimidated and with very 
good reason because a number of witnesses had been murdered. So 
the potential of witnesses offering the ability to provider 
services for them if they come forward is a big issue in 
getting at some of these issues. And would you please speak 
about some of the challenges and what if anything the committee 
might consider in that regard?
    Ms. Leonhart. Sure. Obviously in our cases when there has 
been, or the potential at least, for witness intimidation, we 
work very closely with the United States Marshals Service and 
do what we can as an agency to protect and ensure their 
security. But also, the federal agencies now have victim 
witness coordinators in our offices. So in Philadelphia for 
instance there is a DEA employee, there is an employee at the 
U.S. Attorney's Office, and there is an employee at the FBI, 
all with the responsibility to coordinate if there are victims 
or a potential witness that comes forward and has been 
threatened, or the potential for threats. There are services 
that we can provide. Starting when I was a DEA agent 33 years 
ago, there was no such thing, and there was intimidation going 
on. It has come a long way. And it is an important aspect of 
what each of our field divisions do, and working with the U.S. 
Attorney's victim witness coordinator to make sure that there 
are services available to help. It is not only the witness. It 
is the witness, the witness' family, that sometimes needs to be 
protected. And we also have new investigative techniques and 
ways of doing cases where we do not need to rely so much on 
that actual witness that have been very helpful and successful 
over the years in ensuring that there was safety for those 
witnesses.
    Mr. Fattah. Thank you very much. Thank you, Mr. Chairman. I 
yield back.

                               MARIJUANA

    Mr. Wolf. Thank you, Mr. Fattah. Following up on what 
Chairman Rogers covered, since you testified last year Colorado 
has decriminalized recreational marijuana use. Washington State 
has adopted a similar approach. And the Department of Justice 
has promulgated new enforcement guidance. The Attorney General 
has said that the finance and banking industries should just 
accept marijuana business. And President Obama has compared 
marijuana use with tobacco and suggested that Colorado and 
Washington are experiments that should be allowed to play out.
    It is no wonder then that the polls show public acceptance 
of marijuana legalization is rising and that legalizing is more 
widely viewed as inevitable. And the drumbeat continues with 
many pundits arguing that marijuana is safer or no more harmful 
than alcohol or tobacco and has legitimate and well established 
health benefits for which access should be simplified.
    DEA just published a 31-page document, ``The Dangers and 
Consequences of Marijuana Abuse.'' It includes great detail and 
documentation from multiple authoritative sources of the 
dangers of marijuana and a lack of evidence of its benefits, 
particularly for smoked marijuana. Is this public campaign 
having any effect or is it swimming against the tide?
    Ms. Leonhart. Chairman, we have never had a time in the 
last 30 years where the messages have been so strong, in fact 
the message is going to our children, the mixed message, that 
marijuana is not harmful. We know, our kids are getting 
bombarded with this message and those messages are what have 
caused our kids to believe that there is no risk involved. And 
we know that when the kids feel there is no risk involved, or 
that marijuana is safe to use, that triggers more use. And so 
it is of great concern to us, the messages that we hear on 
television, on the radio in songs, and now my fear, that kids 
are hearing from their own parents. So it is important to have 
the facts about marijuana put out there in way so that kids, 
teens, young adults can look at it, parents can look at it, and 
see that what they have been sold that this is no big deal, is 
not true.
    You know, I look at things like teens entering treatment. 
If you look at the numbers more kids, more teens enter drug 
treatment for marijuana addiction than they do for alcohol and 
all other drugs combined. That is a sign, that is a sign that 
this is a harmful drug. And we have Dr. Volkow here who will 
speak to the science of marijuana later. This is a very 
addictive and dangerous substance. It is a substance that 
especially with early use, if you start smoking marijuana 
early, by age 13, one in six then become addicted to the 
substance, one in nine for everybody else. It has got 
properties in it that have more chemicals and tar than 
cigarettes. Yet we find more kids are, more teens are smoking 
pot now than are smoking cigarettes. And I would say that is 
because of the messages that have been sent.
    Mr. Wolf. More smoking pot than are smoking cigarettes?
    Ms. Leonhart. More teens today smoke pot than smoke 
cigarettes.
    Mr. Wolf. Wow.
    Mr. Rogers. Where is Henry Waxman when we need him?
    Mr. Wolf. I think the Attorney General, and I will cover 
this when he comes up Friday, I think he is going to live to 
regret this. This will be a legacy for Eric Holder that as he 
looks back on it and sees the devastation that this will have 
on our country, he will live to regret it. He will wish he 
could get these years back. Have you seen any demoralization on 
the part of your agents?
    Ms. Leonhart. Our agents are fighting back against those 
messages.
    Mr. Wolf. But discouragement. Discouragement?
    Ms. Leonhart. Actually, it makes us fight harder.
    Mr. Wolf. Have U.S. policy changes affected international 
interdiction efforts or cooperation with foreign partners?
    Ms. Leonhart. From the day the initiatives were passed, our 
partners have taken this very seriously. The United States has 
been a leader in international drug enforcement, and now they 
question us why this is happening. I remind them that it is 
still against federal law. It is not the U.S., it is not the 
country that took these steps, it is two states that took these 
steps. But they question us quite often, they remind us of our 
treaty responsibilities, are quite concerned about the message 
this sends to the world, and they are looking to see what 
happens. And they are, on the drug front, not happy with the 
United States and often we hear the word hypocrite.
    Mr. Wolf. Hypocrite. I have got some quick marijuana 
questions. Is it true that according to a 2011 Drug Abuse 
Warning Network report there was a 48 percent increase in 
marijuana related emergency visits between 2007 and 2011?
    Ms. Leonhart. That is correct.
    Mr. Wolf. And nothing would have changed to change that?
    Ms. Leonhart. No, we anticipate the numbers to go up as we 
see these states moving towards legalization.
    Mr. Wolf. Is it also accurate that marijuana was second 
only to cocaine as the most frequently cited drug necessitating 
an emergency room visit?
    Ms. Leonhart. That is correct.
    Mr. Wolf. Could you inform the committee that according to 
a report published in the proceedings of the National Academy 
of Science, teens who use marijuana showed an average decline 
of IQ of eight points, is that factual? Is that accurate?
    Ms. Leonhart. That is accurate. And I reported on that last 
year. It is a pretty new study. And that again goes towards if 
you start smoking marijuana early, around age 13, that by the 
time you are in your thirties you can experience an eight-point 
drop in IQ.
    Mr. Wolf. Eight points?
    Ms. Leonhart. That is correct.
    Mr. Wolf. The National Highway Traffic Safety 
Administration has found that marijuana significantly impairs 
one's ability to safely operate a motor vehicle. According to a 
study reported in the British medical journal, drivers ``who 
consume cannabis within three hours of driving are nearly twice 
as likely to cause a vehicle collision as non-impaired 
drivers.'' Another study by Columbia University found that 
drivers who get behind the wheel after using marijuana have 
more than twice the risk of getting in an accident. What is the 
impact of the legalization out in Colorado and Washington State 
but with regard to accidents in Colorado and surrounding areas? 
Is there any impact on adjoining states as well as Colorado?
    Ms. Leonhart. Well I can tell you from our law enforcement 
partners that the drugged driving concerns are coming too, it 
is happening. In Colorado and Washington our state and local 
partners see more, and the statistics are showing it, drugged 
driving related to marijuana than they have in the past. Their 
concerns are drugged driving and they are showing that those 
statistics are going up. Children entering the emergency rooms, 
this never used to happen, kids----
    Mr. Wolf. What is your definition of children? Can you tell 
age?
    Ms. Leonhart. Kids. Young kids.
    Mr. Wolf. Kids?
    Ms. Leonhart. Three, four, five, six-years old kids going 
to the emergency room for poisoning because of the products 
that are being distributed in these states and are showing up 
in homes. Cookies, brownies, cakes, lollipops. And especially 
in Colorado, look at the emergency room visits just over the 
past two years for kids and this is definitely related to the 
edibles that are now on the market in that state. Twenty-eight 
percent, another figure, not just for Colorado but to be 
concerned about. As we have seen marijuana use rise, we already 
know from a National Highway Transportation study that in 
fatalities, when they go and they check when there has been 
someone killed in a car crash, that now in 28 percent of the 
deaths from car crashes they find marijuana in a person's 
system. So this connection to drugged driving is very 
concerning to all of us. As are the emergency room admissions 
that have been going up. And especially now, I think it was 
before Colorado had medical marijuana laws, there were no 
emergency room visits for kids for poisoning due to marijuana. 
And now those numbers are on the rise.
    So there are a number of public safety issues that are 
concerning to law enforcement. But there are also concerns for 
the messages that we talked about. There are concerns for teens 
now dropping out of school. So we are very careful, our law 
enforcement partners are looking at those statistics because 
they are already showing some changes. And these are all those 
things that need to be flagged and tracked and will help for 
other states that are thinking about going in that direction. 
See what has already started in those two states. Those stores 
in Colorado, for recreational use, have only been open since 
the first of January.
    Mr. Wolf. I saw Governor Hickenlooper who commented, he was 
here in town at the Governor's Conference, and he urged, and I 
not want to say exactly, but he urged the governors of other 
states not to go this direction. I think he opposed----
    Ms. Leonhart. He did. He did oppose it.
    Mr. Wolf. Yes. But I think he said basically do not do 
anything until you see what the impact is in our states. Are 
there any states ready to have referendums on this this Fall?
    Ms. Leonhart. There are a few. There are about 12 states 
targeted to have these initiatives over the next couple of 
years. But Alaska, I believe, has one they believe will be on 
the ballot this summer. And that is the first one I am aware 
of.
    Mr. Wolf. Was all this information available to the people 
of Colorado when the vote took place? Was there information, or 
was it available? Or was there a major program to explain?
    Ms. Leonhart. What was explained to the voters was how much 
money that they would be raising. What was explained to the 
voters was that this was good for law enforcement because then 
police could go after real crimes. And what was told to the 
voters, was this would collapse the Mexican cartels.
    Mr. Wolf. What does it do to the Mexican cartels?
    Ms. Leonhart. Absolutely nothing. To say that legalizing 
marijuana is going to have any impact on crime groups, or the 
Mexican cartels, they do not understand how these organizations 
operate. We already know from our investigations that key 
traffickers in Mexico and key traffickers working in the United 
States are setting up shop in those two states anticipating a 
black market. Whatever the price will be set in Washington and 
Colorado, criminal organizations are ready to come in and sell 
cheaper. So they know that there is a place for them in that 
black market.
    They also sell and peddle and distribute whatever the 
market calls for. So over the past few years we have seen the 
increases from the Mexican cartels sending loads of heroin into 
the United States, and loads of methamphetamine into the United 
States. So you would almost have to legalize all those drugs to 
have any impact whatsoever on the Mexican cartels and the major 
drug trafficking organizations in our country.
    Mr. Wolf. I am going to go to Mr. Honda. One question. You 
follow this, I guess, closely. Is there any, and I do not know 
Colorado law. And I think the members have to know, this issue 
is coming up on the floor. There is going to be a vote. I can 
almost predict who will offer the amendment and everything 
else. You know, this is an issue that we are going to address. 
This is not just in Colorado or Washington State. It is coming 
to the Congress that we work in. Is there any effort in 
Colorado now to say, hey, maybe we made a mistake? Is there any 
effort, or what are the editorials saying? I mean, are they 
seeing what you are saying? Or is it just like if I am in 
Colorado Springs now I am not quite focusing and it has not 
percolated up yet?
    Ms. Leonhart. I think things have changed over the past six 
to nine months where people are now starting to question if 
that was the right way to go because of the things that they 
are seeing in their community. There was just an article last 
week and it was on pets.
    Mr. Wolf. Pets?
    Ms. Leonhart. It was about the anticipated or unexpected 
consequences of this. And how veterinarians now are seeing dogs 
come in, there are pets coming in, and being treated because 
they have been exposed to marijuana. Again, it goes back to the 
edibles. It goes back to products that are in the household 
that are now made with and from marijuana. And it is impacting 
pets. We made a list of the outcomes we thought that might 
happen in these two states. We never thought about putting pets 
down. But there was an article in USA Today just last week and 
several other articles, especially in Colorado, about those 
increases. Where veterinarians are now taking in pets who have 
ingested and been poisoned by marijuana.

                        MARITIME DRUG SMUGGLING

    Mr. Wolf. Wow. The last question to finish up for my effort 
on this issue, but last month the Washington Post reported, it 
was in the bottom of the story, that Marine General John Kelly, 
the head of SOUTHCOM, told the Senate Armed Services Committee 
that, ``because of asset shortfalls we are unable to get 74 
percent of suspected maritime drug smuggling coming into the 
U.S.'' He added, ``I simply sit and watch it go by.'' General 
Kelly also said that the U.S. only intercepts approximately 20 
percent of narcotics and transit coming into the country. Do 
you agree with General Kelly? And what is the impact of that? 
And then I will go directly to Mr. Honda.
    Ms. Leonhart. I read that article and I have had 
conversations with General Kelly. And actually the whole 
interdiction community, federal agencies that have a 
responsibility for interdiction especially in the transit zone, 
very concerned about it. We are hearing that the Coast Guard 
may be taking about an eight percent cut. General Kelly 
basically said he has no assets. We have seen over the last two 
years actionable intelligence that we have been able to work up 
with our international partners and tried to have actioned 
through JIATF South down in Key West. And there are no assets. 
We know exactly where a go fast boat is, or we know exactly 
where a ship is that has multi-hundred kilos of cocaine, but 
there is no asset to send to interdict it.
    So what is happening is, and our saying is it is better to 
seize a bowling ball than it is to chase the BBs. What we see 
is that is our first line of defense. Those cocaine loads, 
those drug loads, that will end up on our shores. And in fact 
we are seeing a change in Puerto Rico, where cocaine is 
skyrocketing there. And some of the reason is there just are no 
assets to be able to go and action those known movements. So we 
are very concerned.
    Mr. Wolf. Thank you. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. This is a very 
interesting discussion. And thank you, Administrator, for being 
here. Let me just before I go to my question, when you say 
there are not any assets, that is really a nice way to say 
there is not enough money to have the equipment and the other 
special gear, is that correct?
    Ms. Leonhart. I did not hear the first part of your 
question. You have not?
    Mr. Honda. Your words like assets is a nice way of saying 
you do not have the equipment or the wherewithal to interdict 
the way you should be? Yes or no, I mean----
    Ms. Leonhart. Actually we finally have the ability to have 
the intelligence because of a number of----
    Mr. Honda. No, that is not the question. I know the 
intelligence is there, that is why you say you go from a 
bowling ball to----
    Ms. Leonhart. Right.
    Mr. Honda [continuing]. Scattering the BBs. And that is 
another way of, you know, bringing stuff in so that, you know, 
no one is going to come in with a bowling ball if they know 
they are going to get caught. So they are going to spread out 
and have a different strategy. So you need more equipment, you 
need more assets, you need more funds that has not been 
forthwith. So if you had everything that you needed, I would 
imagine it would make, you know, off the record, not off the 
record but just after you leave you can give us some 
information if you had sufficient, what would it be, sufficient 
funds?
    You know, I am a schoolteacher. I can teach better if I had 
more assets, and if the school environment is different--so, 
you know, I am a little concerned about that, too. You know, we 
want to give you the backup, rather than requiring you to do 
something that is going to be impossible.
    I mean prohibition was--you know what prohibition did. And 
I thought that we learned how to deal with that drug and we 
also passed laws that disallowed certain kinds of dope behavior 
with their pets and with their children. I think what you are 
coming up with is good information because it is telling us 
what is not--what people have to be worried about if they pass 
certain laws. You know, I am not saying that we should or 
should not, I am just saying that the information I am hearing 
is very troubling.
    As a schoolteacher, I have trouble without hearing more 
about edibles with youngsters and, you know, what do we do with 
the parents or the adults around that surrounded area. Having 
said that, you mentioned in your testimony how Mexican 
transnational criminal organizations pose the greatest criminal 
drug threat to our country--and it's a big concern for me 
because California still remains the key entry point, at least 
for the trafficking.
    My first question is--let me ask a question and then I will 
let you answer it: In your report you said there are ways that 
the drugs are coming in as if there are certain key traditional 
ways of bringing in drugs, the methamphetamines. The second 
question is, you know, California, we have domestic production 
of methamphetamines. We are probably one of the larger 
producers of that drug and a couple of years ago I think we 
captured about, what, 650 pounds in Gilroy, in part of my 
district, and another 750 pounds----
    Ms. Leonhart. Seven hundred, yes.
    Mr. Honda [continuing]. After that. So that is a lot of 
drugs. So what kinds of assets or backup or resources do you 
need to help work with our different states to address that? 
The first one is the one I am most interested in, too, because 
I understand that there is a certain set portals--that come 
from Mexico, and in Mexico do they produce it? Or does it come 
into ports from other countries? So, if you could answer those 
questions one at a time.
    Ms. Leonhart. Sure. Actually, you are right. I was the 
Special Agent in Charge in San Francisco. I had your area and 
also in Los Angeles and I worked in San Diego. I covered all of 
California during my career, and methamphetamine was seen out 
west before it was seen anyplace else in the country. It was a 
great problem. There were huge superlabs, specially in the 
central valley of California that we successfully, with our 
task forces and working with our state and local partners, were 
able to push back on.
    But the situation has changed with us being successful with 
enforcement, with several laws that were passed, the Combat 
Meth Act, and some state legislation, and controlling 
pseudoephedrine and ephedrine. Those labs were pushed out of, 
for the most part, California, out of our country. There are 
still some labs, but for the most part, the big labs ended up 
in Mexico. So right now, availability is sky-high with 
methamphetamine because the Mexican traffickers have taken over 
the production and have these big megalabs in Mexico.
    And you asked about the transportation, how did they get it 
in? The chemicals to make it are imported, are smuggled into 
Mexico. Mexican cartels and trafficking organizations--not just 
one or two--many of them are involved in producing meth. They 
produce it and then it is brought up into the United States. It 
is often brought up with cocaine loads, marijuana loads, and 
heroin loads. It is transported up into the U.S. via passenger 
vehicle, trunk of a car, tractor trailer, you name it; that is 
how it gets up. And even more recently, we have even seen on 
the west coast, some maritime up into the United States.
    Mr. Honda. So--forgive me for interrupting--but when I was 
on the border, I talked to some of the officers there and they 
said that there are trains that bring in cars that are wrapped 
so that they are protected from dust and everything, but prior 
to wrapping, they fill some of these cars and then put the cars 
on the trains with these drugs.
    Ms. Leonhart. That is another method. That is correct; that 
is a problem.
    Mr. Honda. So it is not so much the porous borders, as much 
as the way people become more innovative or we just don't look 
at certain things. We assume that something is well--is checked 
before it enters our country, and, in fact, it isn't. That 
seems to be a great source of loads of stuff coming in at once.
    Ms. Leonhart. They are very innovative.
    Mr. Honda. So the precursors to methamphetamines is coming 
from other countries, what are some of the major countries?
    Ms. Leonhart. Currently the method that they are using in 
Mexico is phenylacetic acid and most of that will come in from 
China, some from India, smuggled into Central America or 
smuggled directly into Mexico. They use that, rather than the 
method that we all pushed back on, the pseudoephedrine and 
ephedrine method.
    Mr. Honda. So, in terms of assets, rather than trying to 
catch it on the border, so you think we should try another 
tactic and give you some assets that would catch it en route to 
Mexico?
    Ms. Leonhart. Actually, this budget, supporting this budget 
allows us to continue a very good presence in foreign 
countries, our foreign offices. It allows us to have offices in 
Mexico and have agents stationed in Mexico who are now working 
with our Mexican counterparts. And we have prioritized because 
we have helped with training, identification of those labs in 
Mexico. And more recently, the federal police in Mexico have 
been doing a very good job of seizing those laboratories.
    Mr. Honda. I get that part. I am still focused on----
    Ms. Leonhart. Assets.
    Mr. Honda [continuing]. The assets because you said assets 
and I think if we want to prevent these from coming in, I think 
we should be prepared to be where it is most effective, along 
with the work that you did with the Human Resources, the folks 
like yourselves. I would like to know though what that would 
be, not off the top of your head, but we you go back to your 
offices and do some calculations.
    Mr. Wolf. Dr. Harris.
    Mr. Harris. Thank you very much, and as administrator, it 
is good to see you again.
    Ms. Leonhart. Good to see you.
    Mr. Harris. And it is good seeing you in Maryland, and, of 
course, bringing to this part of America exhibit to Maryland 
where--or I agree with the ranking member, you know, cities 
like Baltimore, Philadelphia, have tremendous problems with 
drugs and hopefully that will go part of the way for solving 
some of those problems.

                               MARIJUANA

    Anyway, let me ask you a question because it is quite 
appropriate that we are discussing this today because this week 
the Maryland Legislature is going to vote on the legalization 
of marijuana and despite the evidence, the increasing evidence 
of the adverse effects of marijuana, you know, it may never 
come to--in some states, it may just be a vote in the 
legislature.
    The foot in the door, first, was always medical marijuana. 
I was in the legislature when that bill was proposed many, many 
times. The end point is always legalization. Can you talk a 
little bit about medical marijuana because the position people 
always ask about is are there--can you just clarify as to what 
the FDA's position is on medical marijuana?
    Ms. Leonhart. The FDA has not declared there to be any 
medicinal value in smoked marijuana.
    Mr. Harris. So they don't regulate it in any way, do they?
    Ms. Leonhart. No.
    Mr. Harris. Because it is actually a completely illegal 
drug under the CSA?
    Ms. Leonhart. A dangerous illegal drug.
    Mr. Harris. A dangerous illegal drug.
    And this is fascinating to me, Mr. Chairman, because, you 
know, the FDA is just about to regulate flavored cigars, and 
yet they are not going to regulate brownies with marijuana. I 
mean just think about that for a minute. The Federal Government 
under this Administration is going to say: We are actually 
going to talk about regulating flavored cigars, but, you know, 
those marijuana brownies in Colorado, they can stay on the 
shelves. It is just fascinating to me. Let me just ask, just to 
clarify, the enforcement of the CSA--and as I remind the 
committee, I mean I hold a license that doesn't allow me to 
administer a Class I drug--I mean I can't prescribe marijuana 
because it is a--because of the DEA classification. The 
enforcement of the DEA is left to federal prosecutors and the 
DEA--I am sorry--of the CSA, it is left to the federal 
prosecutors and the DEA, that is basically it. We don't count 
on the states to enforce the CSA, do we?
    Ms. Leonhart. State and local task officers are on our task 
forces and duly sworn and they have the authority to enforce 
federal law with us, so it is us with our partners.
    Mr. Harris. And so, therefore, in states like Colorado 
where you have no state partner, what happens?
    Ms. Leonhart. Well, we actually do have state partners in 
Colorado.
    Mr. Harris. But they are not enforcing the CSA because the 
CSA says possession of marijuana--of a Class I drug is illegal.
    Ms. Leonhart. A federal agent is the only one who can 
enforce federal law.
    Mr. Harris. And just to clarify, you are not enforcing the 
federal law in Colorado?
    Ms. Leonhart. We actually are enforcing the federal law in 
Colorado.
    Mr. Harris. Parts of it, right? I mean you are not 
enforcing--in other words, you are not enforcing the absolute 
possession of marijuana as a violation of the federal law?
    Ms. Leonhart. Because of limited resources, we have never 
gone after the marijuana user. We don't even have the resources 
to go after the low-level trafficker. We go after big 
organizations, the people who are most responsible for the 
trafficking, not the individual user.
    Mr. Harris. Sure, but the CSA, I mean, was meant to provide 
protection to all Americans against a--not just--for instance, 
in the August 29th memo, you know--said, okay, we are going to 
enforce the law and try to keep it away from minors, which, you 
know, I specifically asked the Attorney General last year at 
the hearing--and the Chairman may remember--about the 
enforcement should Colorado pass this law and the Attorney 
General--Oh, no, we are going to make sure it doesn't get in 
the hands of children.
    Madam Administrator, the evidence is quite clear that in 
places that have decriminalization or legalization, the use 
among children goes up; is that right?
    Ms. Leonhart. I would agree with you.
    Mr. Harris. Yeah, I mean the evidence is clear. So what 
strategy do you, exactly, have in Colorado to keep true on the 
Attorney General's promise that we are going to stop this 
getting in the hands of children? Because I can't imagine--I 
mean I can't imagine where, aside from the other things, the 
gangs and cartel activity, where on a daily basis the DEA is 
actually going to prevent this from getting in the hands of 
children because you don't have a state partner that is going 
to enforce the full extent of the law. So how are we going to 
do that? How are we going to keep this from getting in the 
hands of children, so that as that New Zealand study showed, 
that they don't lose eight IQ points between the age of 13 and 
38 with chronic marijuana use?
    Ms. Leonhart. As I understand it, when the Justice 
Department made their decision not to take action, along with 
that decision was the responsibility by those states, so that 
Colorado and Washington would implement very strong regulatory 
systems to control it. It is a good question for the Attorney 
General later this week, but it is my belief that the intention 
was that the states would regulate and control it and have very 
strong regulatory systems, and that is why the door was left 
open.
    The Department of Justice said: For now, we will not take 
action. We are expecting those states to regulate, set up very 
strong--not only set them up, but fund them--set them up, fund 
them, strong regulatory systems to keep it out of the hands of 
kids, to keep it away from those eight federal priorities, and 
they reserve the right to take action if that does not happen.
    Mr. Harris. And you mean takes action--who has the right to 
take action?
    Ms. Leonhart. The Department of Justice would reconsider 
and has left the door open for taking action, should those 
states not do their duty, to set up these regulatory systems 
and prevent what we are all concerned about.
    Mr. Harris. And, again, I just find it hard to believe that 
there is any reason to believe that we will be any more 
successful in those states than the other states that have 
decriminalization or that we will prevent--you know, in 
Maryland, as well as other states, incredibly rigorous 
mechanisms to keep alcohol out of the hands of children--go on 
to the college campus or high school, you know, a late-night 
party and see how well those work.
    And coupled with, you know, the statistic from the Pew 
study that, you know, more than 60 percent of Americans 
consider alcohol more dangerous than marijuana is just--again, 
it is astounding to me because I think the medical figures are 
going to show that when you look at ER visits, you look at 
traffic accidents, you look at the effect on mental 
development, I think that marijuana is going to be found at 
least as, if not more, dangerous than alcohol. So, in the end, 
what can the committee do to help the DEA in their efforts to 
make sure that those states don't allow these drugs to fall 
into the hands of children?
    Ms. Leonhart. You can support the budget which would allow 
us to continue to have very vigorous enforcement in all 50 
states, going after those organizations most responsible. It 
would help support our state and local partners, as well, to 
continue our enforcement efforts, which, in Colorado we had 
one, we actually showed a Colombia organization investing in 
the marijuana business. We recently took down a case in 
California out of Fresno and Bakersfield where a major meth 
trafficker had opened up a dispensary and was using the 
dispensary to launder his funds.
    So supporting the budget gives us enough to continue hiring 
again and getting our agents out into the field divisions. It 
keeps our task forces and that will definitely help us continue 
to do our part because we are enforcing federal law.
    Mr. Harris. One final question is--I know this has appeared 
on the Internet--reports of people mail ordering from Colorado 
because, you know, you can kind of get what you--you get a 
known quantity. Who enforces the provisions that the mails 
can't be used for cross-state transport of troubled substances?
    Ms. Leonhart. United States Postal Service has parcel 
squads and they often find packages that have marijuana. A lot 
of times, they will turn it over to a state or local office to 
have it prosecuted under state law. But we also have 
interdiction squads that do the very same thing.
    Mr. Harris. And have you noted--is this true, these 
Internet reports true, that the trafficking of drugs across the 
borders from Colorado have increased?
    Ms. Leonhart. Actually, it is not just Colorado, they have 
increased around the country, especially from states that have 
passed medical marijuana laws.
    Mr. Harris. Sure, as I imagined. Thank you very much. 
Thanks on behalf of the committee.
    Mr. Wolf. Thank you, Dr. Harris.
    Mr. Serrano.
    Mr. Serrano. Mr. Chairman before I ask my question, I want 
to take a privilege of seniority here just to say that I am 
going to miss you.
    Mr. Wolf. Thank you.
    Mr. Serrano. And I am going to miss the kind of guy that 
you are.
    I started with Chairman Rogers and I have had the privilege 
of being the ranking member on this committee with both of you 
and I remember the days when the minute the President submitted 
his budget, we would sit down, you would have ten things that 
were nonnegotiable, I would have ten things that were 
nonnegotiable, our staffs would sit down to work and--from the 
newer members, we got 390, 395 votes on the board for a bill. 
Those days will never come back; I wish they would. And I think 
so much of it was based on our ability to prove that you could 
be miles apart in disagreement but not be disagreeable and I am 
going to miss you a lot, and you were not on the list of people 
that I was hoping would leave. [Laughter]
    I assure you of that, and I mean that sincerely.
    Mr. Wolf. Thank you.
    Mr. Serrano. And the reason I am doing it now is because, 
you know, before you know it, summer will be here and we will 
take our recess and it is an election year and time runs 
quickly around this place at times and I just want to tell you 
that to me you will always be--you have been a friend and 
living proof that this country is, indeed, a democracy, because 
we can disagree without being disagreeable.

                       CARIBBEAN DRUG TRAFFICKING

    Mr. Wolf. Thank you very much. Thank you.
    Mr. Serrano. Let me bring you to a warmer place, to Puerto 
Rico, which you mentioned and decided to enter my question 
before. One of the issues that we dealt with or had dealt with 
is the fact that if we put more resources on the southern 
border, then there was a question of the third or fourth border 
which is the territories and a lot of people, when they speak 
of the territories--if I could change something in this 
Congress, in this country, starting with the President is that 
we no longer say: The 50 states and the territories. You know, 
that would be part of the language: The 50 states and the 
territories. The--gets in Puerto Rico, the Virgin Islands, it 
is the United States and yet it is seen by many as, well, it is 
there, it is not here yet. No, it is not. If it is in Puerto 
Rico, it is in New York. It is in Florida. Then it gets into 
the Virgin Islands and then it is in Puerto Rico and then in 
New York and maybe it gets into Samoa or the Mariana Islands. 
It travels with people. And so we put in language last year 
allowing for a new initiative and the President was very 
supportive and we were very supportive of, to allow for a 
Caribbean initiative.
    Number one, what can you tell me about that initiative and 
has your agency been involved in setting it up?
    Ms. Leonhart. Thank you, sir.
    We have been very involved because, as I testified a couple 
of times with this subcommittee, we have been concerned about 
our efforts on the southwest border being effective and we 
would see this pushback to the Caribbean. And when I last came 
before you, I actually said we had seen a shift and it was up 
to eight percent of the flow going through the Caribbean route. 
I can tell you that today we are worried because now we see 
about sixteen percent. Last year it was about twelve and now we 
are seeing about sixteen percent of the flow going through the 
Caribbean.
    So there couldn't be a better time for the Government to 
come together to put together this Caribbean border strategy. 
And we are working with all of our counterparts being 
coordinated by ONDCP, taking a page from what we did on the 
southern border and the northern border to come up with what we 
feel would be very helpful to combat this emerging and growing 
problem with Puerto Rico.
    We agree, DEA does agree completely with you about once it 
is in Puerto Rico it is in the United States and that has been 
our fear, that the shift would start sending boats, planes, 
whatever, right into Puerto Rico and that is actually what is 
happening. And it is primarily coke loads, but in Puerto Rico 
we also have a heroin problem.
    Mr. Serrano. Thank you.
    Which brings me to my next question: Those who study 
military history--and I am not one of them--but I have heard 
that it is harder to control an island than it is to simply 
cross a border from another country. Is it the same thing with 
the drug trade, is it more difficult on an island or does 
today's technology and today's airplanes and so on, make it 
just as easy to cross the border from Mexico into Texas or 
vise-versa than it is to go into an island?
    Ms. Leonhart. Well, you bring up a great point. I think the 
problem with Puerto Rico is geographics, that the source 
countries are so close and that things can be flown and things 
can go in by boat. As part of this strategy, we have looked at 
where Puerto Rico might be a little vulnerable and identified 
that airports would be a place where we should do more work. So 
we have kind of formed an informal group and started an 
informal task force to go after while it is coming in on 
commercial planes. So we have to look at every smuggling method 
because that is how they are getting the product into Puerto 
Rico. Once into Puerto Rico there are huge addiction problems, 
so a lot of it is being used right on the island, but it is 
also being transported up to Miami and the southeast and going 
into Philadelphia and New York and we see that as a huge 
problem.
    Mr. Serrano. Well, you have our support--and I know I speak 
for--because your agency has more knowledge of this issue than 
other agencies. They have developed this Caribbean initiative 
which is a huge success for us and we will accept that and get 
that out of the White House itself that they take into 
consideration your experience and if they don't, let us know. 
You know, we will see to it that they do, that they do listen.

                         HONDURAN INVESTIGATION

    Let me bring you, very briefly, to another area. The 
situation that happened in Honduras where some--there was a 
raid or some involvement and some folks were killed who were 
supposedly or allegedly had nothing to do with the drug trade. 
Local authorities have claimed that they were not able to look 
at information that you had or that your agency had or other 
agencies and so it has created a little tension. I represent a 
large Honduran community that have asked that question. What 
can you tell me about that whole situation?
    Ms. Leonhart. I can tell you that the Honduran Government 
approached our agency several years back and asked for help 
because, as you talk about Puerto Rico being bombarded--
Honduras is, Central America is where all of the cocaine that 
is transitting Mexico is landing and they don't have the 
resources; they don't have the training; they don't have the 
helicopters; they don't have anything to combat the steady 
flow, especially air traffic into Honduras.
    So the Government has asked us for help, so we have been 
helping by training their law enforcement teams side by side 
and we were training with them for quite some time. Training is 
one thing, but the best way to train is to go operational. So a 
plan that was developed at the request of the Honduran 
Government, blessed by the U.S. Embassy--in fact, they signed 
off on the operational plan--was to go and take action. Instead 
of watching these planes come in and unload the cocaine, 
actually take action. We ran a very special operation; it was 
run by the Honduran authorities, the police that we had been 
working with. We ran it during a period of time, to go after 
those plane loads that were coming in. The incident that you 
are talking about was May two years ago and there was a 
shooting. In the middle of the night, 2:00 or 3:00 in the 
morning, a load came in. The load got on a boat. As the 
Hondurans, with DEA present, came in to take off that load, it 
was put on a boat and floated down the river in the middle of 
the night. The Honduran police, along with at least one DEA 
agent, went to go rescue that cocaine boat and in the middle of 
the night in the darkness while they were doing that, a boat 
came from the middle of nowhere and rammed their boat and there 
was a shootout and unfortunately people lost their lives.
    Now, there is a question about were these innocent people 
or were these actually traffickers? The investigation was then 
done by the Honduras Government. All of the allegations that 
were being made by some townspeople that this was this innocent 
boat, those were somewhat refuted by an investigation and a 
second investigation was done. But the bottom line is there 
were--it doesn't matter if someone was innocent or not, there 
were lives that were lost and it was a very dangerous situation 
and I thank goodness that there were no Honduran police hurt 
because they could have been.
    It has been fully investigated. It was investigated by the 
Hondurans. Our standard shooting investigation and the one that 
was done following that all concluded it was a tragic accident 
and we have looked at how to make sure that the operations that 
the Hondurans are running are done with more safety in mind and 
more planning involved. And we, for the most part, have done 
what we can to alleviate that from happening----
    Mr. Serrano. The investigation was complete, though?
    Ms. Leonhart. Yes.
    Mr. Serrano. And the Hondurans are satisfied and the 
Government and the police, that everything----
    Ms. Leonhart. Yes. After----
    Mr. Serrano. My next question would be: Has there been any 
reaction from the public, any--or any allegations?
    Ms. Leonhart. We have not heard anything for months after 
some executives from DEA went down and met with the Ambassador 
and actually briefed our shooting investigation and then there 
was a Honduran investigation as well that reported the facts. 
So we have not heard anything for many, many months.
    Mr. Serrano. Okay. Well, please let us know if you do hear 
anything new on that, and back, again, if you run into any 
troubles with the White House on making sure that the Caribbean 
initiative takes off properly, let us know. I know that Mr. 
Wolf would love to call the White House one more time before it 
is over.
    Ms. Leonhart. Well, we are optimistic.
    Mr. Serrano. Thank you.
    Mr. Wolf. Thank you, Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman, and 
thank you again for your service.

                               MARIJUANA

    The DEA has to be one of the most difficult jobs that 
anybody in the Federal Government has to deal with just because 
of the circumstances and because of what they deal with. But 
also I think added to that are some mixed messages that come 
out from whether it is society or from the Administration.
    The fact that you have marijuana that is according to 
federal law as illegal, and yet you have at least the DEA 
looking the other way by different aspects of the Federal 
Government, for example, the Department of Justice. And, I 
think if the states were to pass legislation to allow for 
decriminalization, I would be all up in arms and I think that 
federal law would be enforced--hope that that would be 
enforced. But in this case, there is this kind of ``look the 
other way'' attitude, and yet your folks still are required to 
do a very tough job. So, again, I just don't see how anybody 
could have a more difficult job, with the exception of our 
military, than what DEA agents have. So let me just throw a 
couple of things out there.
    One of them is: Have you all--I mean there seems to be a 
lot of concern. We have heard from other folks in the 
administration that are very concerned about the potential 
effects of marijuana, of the increased use of marijuana, and 
yet there is this kind of attitude of allowing it to happen. 
Has the DEA officially asked the White House, the Department of 
Justice to enforce federal law when it comes to marijuana? If 
so, what response have you gotten? If not, why not, number one.
    If you just kind of handle that briefly, I will then kind 
of go abroad and ask you a couple of questions about the 
situation abroad.
    Ms. Leonhart. Thank you for your question.
    First, DEA continues to enforce federal law. I am a special 
agent. The Deputy Administrator is a special agent. We took an 
oath to uphold the laws of our country and every DEA agent 
continues to enforce federal law. Number two, though, our 
concerns were well known and as an agency, our position was 
heard. We continue to be concerned about marijuana, but, again, 
the Department made a legal decision, not a law enforcement 
decision, but, yes, our concerns were heard.
    Mr. Diaz-Balart. And, again, that is why I mentioned that. 
I think you all have--and you really do, because you are in 
charge and you do so--I mean you do--great risk in that case. 
Again, we ask you--the U.S. asks you to enforce laws and you do 
so at great risk, you do it here, and you do it right, and for 
that, I am so exceedingly grateful, but, again, I think it is 
mixed messages that are coming from other parts of the 
Administration are at least--for all of us.

                         INTERNATIONAL PRESENCE

    Let me take it abroad. For example, in Bolivia where the 
leader there, the person who runs the Government, Mr. Morales, 
claims that his country is better off without the DEA and the 
DEA was thrown out of the country and he claims that they are 
doing better. I just want you to, if you can, just comment on 
that. I have--how do I put it mildly--the source has to be 
greatly questioned.
    And also, for example, with Ecuador, again, a U.S. 
Ambassador was kicked out for a period of time and military 
personnel was kicked out of the air base, Manta air base. And 
those are two countries that are problematic countries and I 
think you have two leaders--there have been many, many even 
press reports about how they are closely associated in many 
ways, directly, with the drug trafficking trade.
    And then also Venezuela where you have relatives of Mr. 
Chavez who were supposedly in the drug trade--directly involved 
in the drug trade. If you want to just comment as to, 
particularly, Ecuador and Bolivia, the situation there, how you 
see it and what can and what should the U.S. do to--try to 
influence and be involved and in essence thrown out of those 
countries and how do you see the situation, is it going to get 
worse? Just kind of your impressions there, just kind of 
general.
    Ms. Leonhart. Interesting questions.
    You know, Bolivia is the very first country that the DEA 
has ever been thrown out of.
    Mr. Diaz-Balart. Officially thrown out.
    Ms. Leonhart. You know, the President of Bolivia, he has 
got his reason for saying what he says about they are better 
off without DEA, but I think the countries surrounding Bolivia 
would question that because they are the ones that are 
suffering from the additional trafficking that is happening out 
of Bolivia.
    As far as Ecuador, we have very good working relationships 
with our partners in Ecuador. For instance, one of the very 
first semisubmersible submarines we actually seized with the 
Ecuadorians sharing intelligence and were able to find it in 
the jungle. Those kinds of collaborations continue to happen in 
Ecuador and we have done very good cases together. We have made 
great seizures together and we continue working day-to-day with 
our partners in Ecuador.
    Venezuela, we are still in Venezuela. We have agents who 
are working there. They have very good working relationships. 
It has actually improved and we are able to do cases. The 
Venezuelans have made some very significant arrests based upon 
our information and our investigations, and so that is, I will 
say, a work in progress, but it continues.
    Mr. Diaz-Balart. Chairman, if I may, just another issue 
which is the Caribbean, frankly, leaders--that want to re-
evaluate whether they should legalize marijuana, the actual 
production of marijuana in the Caribbean. They are saying 
that--among the things that they have said multiple times is 
the fact that the United States is not really taking it 
seriously, and that it would be good for their economy and they 
have actually said that publicly.
    So I am wondering what effect that would have in our 
ability to combat trafficking, drug trafficking, particularly 
with marijuana, if, in fact, the Caribbean nations decide to 
decriminalize production or legalize production of marijuana. 
Again, it is a very dangerous trend that we are seeing. We here 
in the United States, we kind of look the other way, but the 
effects of that, of these mixed messages are felt around the 
world. And, they are felt around the world because their 
attitudes are changing or will change, and if that is the case 
then I think that you are looking at a different country here. 
And, the most dramatic example of that is when the Caribbean 
leaders are saying, maybe we should just legalize--they talk 
about at this stage, legalize, the production of marijuana. 
What effect would that have on our--you know, it is not like 
you have a ton of money left over to do what you are doing, 
right, and you are always going to be on tight budgets. What 
effect would that have on our ability to stop it?
    Ms. Leonhart. Thank you.
    I think some of these countries have serious drug issues 
and not a lot of resources to attack the issue and to have 
something like this happen, that would just be another problem 
for them. I feel first for my law enforcement partners in the 
Caribbean.
    I was recently at a meeting and the chair of their chief 
law enforcement association spoke out regarding Colorado and 
Washington and he completely opposes any of those countries 
moving in that direction. So I think law enforcement in the 
Caribbean clearly sees the public safety problem that that 
would cause. But I do worry because I do think there are a 
number of countries, especially in our western hemisphere, that 
were surprised by what happened in Colorado and Washington and 
are now considering with their leaders what steps they should 
take. Now we only have one country in the world that has 
technically legalized marijuana and that is Uruguay and that 
just happened. And I think a number of these countries are 
going to wait and see what happens with Uruguay as they 
implement their new law.
    Mr. Diaz-Balart. Thank you and, again, thanks for 
addressing it.

                           MEDICAL MARIJUANA

    Chairman, I think Florida has a ballot initiative to do 
medical marijuana as well and it is--to call it medical 
marijuana, regardless of what one's opinion is of the issue is, 
is kind of a little bit of a misnomer. It is basically an open-
ended--so I think this is a growing trend.
    Mr. Wolf. Yeah.
    Mr. Diaz-Balart. And, again, I think a big part of that is 
that we are getting mixed messages from the Federal Governments 
as to whether it is okay. It is just food for thought. Thank 
you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Diaz-Balart.
    I have--I will go to you Mr. Fattah and then I am going to 
try to finish up out of courtesy, since we have a----
    Mr. Fattah. Okay. I need to apologize. I got a press 
conference at twelve noon--Mr. Chairman.
    Mr. Wolf. Sure.
    Mr. Fattah. I have to depart, but it is not out of love and 
affection for you and the work of our committee. But let me 
just try to deal with a couple of things. One is that you said 
that the medical marijuana when it is smoked--so the National 
Cancer Institute and some others have said that you can use 
marijuana for pain killing, but it is not for smoking; is that 
accurate?
    Ms. Leonhart. No, that is not accurate.
    In fact, the American Medical Association and almost every 
other medical association don't recognize----
    Mr. Fattah. So it can't be used----
    Ms. Leonhart [continuing]. Marijuana as a medicine and are 
actually against legalization.
    Mr. Fattah. At a conference in Florida it was alleged 
that--they said that the national institute of cancer had 
made--but we can get back to that, because I don't want to get 
hung up on this.
    There are a number of drugs, alcohol, nicotine, that are 
legal and there are a number that are illegal, right? And the 
country has made some decisions around alcohol and nicotine 
which devastate a lot of people's health and lives and it is 
just kind of like a decision that was made in Pennsylvania 
where you can now ride a motorcycle without a helmet--now, my 
wife won't let me ride my bike without a helmet. It is not a 
great idea. You know, I have a teenager and I wouldn't want my 
teenager to be intoxicated with alcohol or smoking cigarettes 
nor smoking marijuana or any of these other kinds of 
circumstances.
    But there are decisions that are going to be made in this 
society and the country is moving on this question of marijuana 
and it has something to do with where civil society is on this, 
but there is no one who is suggesting that meth, which you 
talked about, or marijuana or these other drugs, you know, have 
gotten in a serious conversation about legalizing them. So you 
are going to have work to do and we want to make sure that you 
have the appropriations that you need to do it.
    It wasn't mentioned here about a former leader of Venezuela 
and whether or not there was some involvement in drug 
trafficking. I just want to make sure because we don't want an 
international incident. That is not the position of the DEA; is 
that right?
    Ms. Leonhart. I guess I don't understand what your question 
is about Venezuela.
    Mr. Fattah. The gentleman from Florida said that he was 
asking about whether or not in Venezuela there was a problem 
with the former leader or his family selling drugs and that is 
not our position, right?
    Ms. Leonhart. Well, I didn't take it that that was a 
question from him, but----
    Mr. Fattah. Now I am asking it as my question.
    Ms. Leonhart. I am not aware of any--no.
    Mr. Fattah. We have had access to Venezuela for the DEA to 
do a tour, right?
    Ms. Leonhart. On and off.
    Mr. Fattah. We were thrown out of Bolivia.
    Ms. Leonhart. On and off, but we are currently in Venezuela 
working.
    Mr. Fattah. And our circumstances there have improved, 
their cooperation with you?
    Ms. Leonhart. That's correct.
    Mr. Fattah. Okay. I just wanted to make sure that the 
record was clear. So I want to thank you for your testimony. We 
are going to work together with the Chairman and make sure you 
have the resources that you need and I particularly want to 
thank you--as the Chairman might recall, because years ago he 
worked with me and we asked for some additional resources 
because of the circumstances and the DEA just did a terrific 
job. We had a 46-year low in homicides and it is to the credit 
of these--of the FBI and the DEA and the additional resources 
working with the federal police departments, so thank you very 
much.
    Ms. Leonhart. Thank you.
    Mr. Fattah. I hate to be so parochial, but all--is local.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Fattah.

                            PERSONNEL ACTION

    I am going to try to go through these fairly fast because 
we have another witness and we are going to have a vote about 
1:30, so we will go up to the vote. But last year you were 
dealing with a situation where several DEA agents were found to 
have engaged in inappropriate activity. This took place in 
April, 2012?
    Ms. Leonhart. Two years ago, April, yes.
    Mr. Wolf. Are they still on the payroll?
    Ms. Leonhart. They are not on the payroll, but because it 
is in litigation, I am not able to talk much more about it.
    Mr. Wolf. So they are not being paid by the taxpayer?
    Ms. Leonhart. They are not being paid by the taxpayer.
    Mr. Wolf. And they are not coming in every day?
    Ms. Leonhart. They are not employees of DEA.
    Mr. Wolf. Okay. Because they were involved in covering up 
the sale--I mean when people see this and then they see the 
Secret Service the other day drunk in the hallway over--I mean 
it just--so I am glad they are gone. There is nothing that I am 
missing, am I?
    Ms. Leonhart. No, I just--it is in litigation, so I can't 
discuss----
    Mr. Wolf. What are they litigating for then? What is the 
litigation? I mean you don't have to take a position, but what 
are they asking--who is litigating against whom?
    Ms. Leonhart. Appeals.
    Mr. Wolf. Appeals. Boy, I tell you then we gotta change--we 
just have to change the process then because for two years--I 
mean maybe the answer is that they ought to be prosecuted. 
Maybe they ought to be--this should be referred to the U.S. 
Attorney.

                         FY 2015 BUDGET REQUEST

    But we can't have that. You agree--I know you do--if you 
don't, tell me, but I know you do. But April, 2012. The flat 
fiscal year 2015 budget assume that you will absorb $75 million 
dollars. You are now backfilling required pay and overhead 
costs. Will the proposal to absorb $75 million dollars prevent 
you from restoring the necessary hiring and operational 
funding?
    Ms. Leonhart. Well, in 2014 with the hiring freeze being 
lifted and the 2014 budget, we started hiring again, so we are 
on track. We are going to have three agent academies this year.
    Mr. Wolf. What would you have if the $75 million dollars 
were restored?
    Ms. Leonhart. Well----
    Mr. Wolf. If you didn't have to absorb the $75 million 
dollars?
    Ms. Leonhart. Well, the $75 million dollars covers----
    Mr. Wolf. Well, if you had a real growth or not, because in 
essence, your budget is being cut. So if you had real growth 
and not being cut?
    Ms. Leonhart. Well, to bring all of the positions on that 
we lost since January 2011, we would need about $173 million 
dollars.
    Mr. Wolf. So what would it be if you did not have to absorb 
the $75 million dollars in additional costs, would that----
    Ms. Leonhart. The 75 million would allow us to do more 
hiring, but we would still need about a hundred million to get 
us back to where we were.
    Mr. Wolf. A hundred thousand or a hundred million?
    Ms. Leonhart. One hundred seventy million to restore 
completely to where we were in January 2011. The cut at $75 
million dollars causes us in 2015 to be able to only hire one 
for every two that we lose.
    Mr. Wolf. So we are really falling behind?
    Ms. Leonhart. Because as we started to hire, we are still 
continuing to lose.
    Mr. Wolf. And in order to catch up, whereby you are not 
losing, what would you need?
    Ms. Leonhart. About a hundred----
    Mr. Wolf. I mean I don't know that we could help. We would 
like to.
    Ms. Leonhart. About $175 million dollars.
    Mr. Wolf. Got that? Yes? [Laughter]

                              AFGHANISTAN

    The staff does a great job and as they are balancing who do 
we take it from? Overseas, we have heard about a great deal 
about your potential consequences for opium and heroin 
production and trafficking in light of our drawdown in 
Afghanistan. What is the current status and is it realistic to 
think that DEA and its partners could keep up with a meaningful 
reinforcement regime if the military leaves?
    Ms. Leonhart. Thank you for bringing up Afghanistan. Of 
course we play a very important role in Afghanistan. We have 
been able to stand up vetted units that, at some point, will be 
able to do drug enforcement on their own. They are not 
completely there yet, but because Afghanistan produces ninety 
percent of the world's opium, that will always be a country 
that DEA will need to have some presence in.
    Mr. Wolf. What if the U.S. forces withdraw?
    Ms. Leonhart. We have a number of different scenarios. If 
they withdraw completely, we obviously would have to look at 
whether we could continue with a complement of 13 agents there, 
if we could continue safely. Right now we have a contingency 
that if there are U.S. forces left there and we can continue to 
do our operations, we would plan to do that.
    If there is no way to stay in that country safely and 
conduct operations, do our mission, that is something that we 
would have to look at and there is a possibility that we 
wouldn't be there.
    Mr. Wolf. And that would have a significant impact on the 
opium around the world and here in the U.S.?
    Ms. Leonhart. That would have an impact not necessarily on 
the U.S.
    Mr. Wolf. Europe more?
    Ms. Leonhart. Europe, Russia, Asia. You know, that opium is 
made into heroin and transported into those countries. But it 
is important to have a DEA presence in Afghanistan looking at 
those kingpins and the organizations most responsible for that 
because at one point in this country, remember, the prime 
source for heroin that hit our streets in the 1970s and the 
1980s was Afghanistan--southwest Asia.
    Mr. Wolf. How many of your people have died in Afghanistan?
    Ms. Leonhart. Thank you for bringing that up. We lost three 
agents in October of 2009. We had another agent that has 
survived; he was shot in the head. He is now blind, but he 
survived.
    Mr. Wolf. I think that is something this Congress fails to 
understand sometimes and we always go through these pay freezes 
and everything else, and yet, you know, when you look at the 
number--and your people are side by side with the military. 
When they go out there in a package, they are out there with 
the military many times--most times.
    Ms. Leonhart. That is our SWAT team.
    Mr. Wolf. Yeah, and so they are side by side. Okay. Last 
year you testified about the long reach of the Mexican cartels. 
I think you covered that. You think the Guzman arrest will--do 
you think they will extradite him to the U.S.? Are you going to 
officially ask that he be extradited to the U.S.?
    Ms. Leonhart. That is being discussed by the State 
Department and the Mexican officials, but I would point out 
that he escaped from prison, so he was in prison on Mexican 
charges to begin with and we will see what the Mexicans plan on 
doing.

                     INTERNATIONAL DRUG TRAFFICKING

    Mr. Wolf. Okay. As your submission notes, DEA reporting 
corroborates the finding of the 9/11 Commission report that 
drug trafficking revenue has always been a major revenue source 
for the Taliban which continues to benefit from opium 
production in Afghanistan. Your summary indicates the links 
between trafficking revenues and Hezbollic groups in West 
Africa, al Qaeda affiliates in West and East Africa and the 
Colombian FARC. How much of the global trade in illicit drugs 
which has been estimated in the range of $400 billion dollars 
is associated with supporting terrorist activities, or at least 
moving through similar channels?
    Ms. Leonhart. Hard to put a full number on it, but let me 
go back to the Taliban. It is estimated that they make about 
$100 million dollars per year with their drug trafficking 
activities.
    Let's talk about the FARC. The FARC really has controlled 
for a long period of time coke production, coke loads going to 
West Africa and then back up to Europe, so they get incredible 
revenue from drug trafficking.
    And we are very concerned about the Lebanese trafficking, 
where we see Hezbollah involvement.
    Mr. Wolf. Now what are they moving, Hezbollah--which has 
impacted--which was involved in the blowing up of the Marine 
barracks where we lost after large number of Marines back in 
the early 1980s, which has been rocketing Israel, which has 
been doing--which was involved in the attack against the 
embassy in which the CIA agent Buckley was killed. So this is a 
bad group, so what are they moving and what are they gaining by 
this?
    Ms. Leonhart. We see their affiliation with major 
trafficking organizations.
    Mr. Wolf. Major trafficking organizations where?
    Ms. Leonhart. Colombia, West Africa, other organizations.
    Mr. Wolf. Is Hezbollah down in South America and Latin 
America?
    Ms. Leonhart. We see Lebanese and Iranian trafficking in 
the Venezuela area, which is of a concern.
    Mr. Wolf. And what are they moving?
    Ms. Leonhart. Those are cocaine loads moving out of 
Venezuela to West Africa and then up to Europe.
    We also did a case, the Lebanese Canadian Bank case that 
showed this connection, this trade-based money laundering 
scheme to launder, at least drug proceeds and who knows what 
else, utilizing cars being moved from the United States sitting 
in parks in West Africa as a way to get money back to Lebanon. 
So our drug trafficking investigations, and some are on-going 
so I can't say much, identify all these links to terrorist 
groups and we have been very concerned about groups in Africa.
    Mr. Wolf. Where in Africa?
    Ms. Leonhart. West Africa. We also see problems along the 
Sahel, connections to Boko Haram.
    Mr. Wolf. Boko Haram which are killing Christians that 
are--we just had some people in Nigeria in my office. Boko 
Haram is involved?
    Ms. Leonhart. Connections with drug trafficking 
organizations. So there is this marriage between drug 
trafficking organizations around the world and these terrorist 
groups, and we have several investigations that are giving us 
very good intelligence about what the situation is.
    Mr. Wolf. Is there any connection at all as we go back to 
the issue of the legalization of marijuana in the west, as to 
the impact that that has on the things that we just dealt with?
    Ms. Leonhart. Connection between----
    Mr. Wolf. Well, connection that we--here we are saying okay 
for marijuana here in Colorado, here, but in essence, it is 
connected to this other taking place--are there any 
connections?
    Ms. Leonhart. We see drug sales, not necessarily----
    Mr. Wolf. Is Hezbollah connected with the Mexican cartels?
    Ms. Leonhart. We don't see direct connections, but we see 
drug organizations and terrorists share some of the same 
facilitators, so your money brokers and your money launderers; 
we see some connections there.
    We are very concerned because all of a sudden with our 
program that we have in Afghanistan, we are seeing calls from 
Mexico. We have Mexican traffickers that have shown up in 
Nigeria and set up meth labs.

                               MARIJUANA

    Mr. Wolf. Right. Could you argue--and I am not saying this, 
I want you to tell me whether it is accurate or not--somebody 
purchasing marijuana in here in the United States, what is that 
impact--we know it is destroying the inner cities and we know 
it is hitting the suburbs and we know it is the impact on 
family, but what is that impact abroad? What is that person who 
is purchasing, what impact does that have in Colombia, in 
Mexico, in wherever? Is there any kind of--or is it just it 
stops at the border and it is not a big deal outside? What are 
the impacts?
    Ms. Leonhart. Well, a lot of the marijuana that is being 
consumed is now grown domestically, but there is still a lot of 
marijuana that is being trafficked across the southwest border 
that belongs to the Mexican cartels. So where people thought 
that this was going to destroy the cartels, actually, cartels 
are involved in some of that commercial growing. They are 
involved in every aspect of marijuana production and 
distribution, so they are buying marijuana and they are sending 
money back to the cartels. Even if they think they are buying 
marijuana out of dispensaries, those dispensaries are supplied 
often by Mexican traffickers.
    Mr. Wolf. So, some of the legal dispensaries in Colorado 
and places are purchasing the supply chain--maybe they don't 
know it--but it inevitably leads to the cartels?
    Ms. Leonhart. I go back to a case where we show Colombian 
investment in Colorado in the marijuana industry. I go back to 
California where the dispensaries, the majority of which are 
operating illegally, the product is coming from growers that 
were controlled by Mexican organizations.
    Mr. Wolf. And--and I know the answer--and why is that a 
problem? Why should somebody be concerned that they are giving 
money to the cartels down in Mexico?
    Ms. Leonhart. That money goes back to the cartels to 
continue to produce their next load to come up to the U.S., to 
corrupt officials, to continue their violent activities, and 
especially that is our neighbor, so the money going back to the 
Mexican cartels is hurting the western hemisphere, North 
America.
    Mr. Wolf. And the last question is: What did they learn in 
the Netherlands, because I understand--I have talked to some 
people over there that there is a re-trenchment, they are 
beginning to say--what did they learn in the Netherlands or 
what has the Netherlands--what are they beginning to do based 
on what has happened there with regard to their relatively open 
drug policy?
    Ms. Leonhart. Well, a lot of people say that we should 
learn from the Netherlands. Yeah, we should have learned from 
the Netherlands. The Netherlands never legalized marijuana. The 
Netherlands set up; it is okay to set up stores or these coffee 
houses in this particular area. When they did that, they saw--
and we have heard from our law enforcement partners--that they 
have all sorts of problems with it, but there were all of these 
tourists that started to come in and they saw a rise in crime--
those unintended consequences. So it made those officials think 
that they needed to make some changes and they have made a 
recent change where you are not going to be able to get into 
these shops or buy in these shops if you are a foreigner 
because of problems that they have seen.
    So the Netherlands is--we should have learned from that and 
never gone forward with what we see in this country. Because 
once you--you can't put it back in the bottle and they have had 
to take steps to try to control that and one recently was to 
stop the tourism.
    Mr. Wolf. Is there marijuana tourism now in Colorado? Are 
people selling tours to go out from wherever to go to Colorado 
and spend a week or is that a----
    Ms. Leonhart. Reports of travel agencies having--
advertising junkets to Colorado. I know over the holidays, all 
I saw were these reports in anticipation of the stores opening 
on January 1st. Flights to Colorado at cheap rates. People who 
started tour groups that would bring people out to show them 
the growing areas and bring them into the dispensaries or the 
stores. There is tourism associated with it and Kansas is a 
state that we are trying----
    Mr. Wolf. What is happening in Kansas?
    Ms. Leonhart. We are trying to help out because you talk 
about the consequences of, you know, having something happen in 
Colorado and what happens to the states next to it or around 
it.
    Mr. Wolf. What are they, are people from Kansas coming in?
    Ms. Leonhart. The Kansas State Highway Patrol is seeing 
this surge since all of this has happened in Colorado--is 
seeing this surge in loads of marijuana coming through Kansas 
and money going back to Colorado. So we are working with the 
Kansas State Highway Patrol and other law enforcement officials 
because they have raised that they are being impacted by that.
    Law enforcement is aware that there are people that are 
coming back from Colorado with having purchased marijuana and 
so they are bracing for having to respond to that tourism or 
people coming back to their state to then distribute it.
    Mr. Wolf. Okay. Well, thank you for your testimony. I think 
we will get--I asked Jeff to get copies of that, your 30-page 
pamphlet. We will send one to every member of the House and the 
Senate and we will send it to the governors and then maybe we 
can have you prepare a short letter just with effects and then 
maybe we will go out to some media out on the Internet and just 
let them access this report. I think until the civic leaders 
speak out and until the church--I have not seen one prominent 
religious faith leader--and I could be wrong because, 
obviously, I don't know who would really speak out. You know, I 
have 16 grandkids. I see things and so I think the political 
leadership of the country may not be up to it. The political 
leadership of the country may be failing and so it may take the 
faith leaders; it may take the civic leaders; it may take the 
educational leaders.
    I am very concerned about how we are falling behind China 
and Singapore in education, so if we are willing to take eight 
points away from the IQ--so I really think the educational 
leaders, the civic leaders are really going to have to speak 
out. I don't think the political leadership will, I don't know 
Governor Hickel, but I want to congratulate him for speaking 
out. But I think it is really going to take people outside of 
the political--particularly when the President of the United 
States says what he says and the Attorney General. I have not 
asked you any questions--certainly you work in the 
Administration and so I am not trying to create a story or a 
rift or anything, but I do appreciate your testimony and I want 
to thank you again and thank all the men and women who work at 
the DEA for the great work that they have done over the years.
    The last question: How many people have died, DEA agents 
have died on the drug issue since the beginning of the DEA, 
which the DEA was established when?
    Ms. Leonhart. 1973.
    Mr. Wolf. And how many have died since 1973?
    Ms. Leonhart. Well, since 1973, 64 men and women of the DEA 
and State and local task forces have given their lives in the 
line of duty, this includes 39 DEA Special Agents. We lost 
another one this year. Terry Watson was killed in Bogota.
    Mr. Wolf. Okay, great. Thank you very much.
    Ms. Leonhart. Thank you.
    Mr. Wolf. The next witness, second witness today, I want to 
welcome, Dr. Nora Volkow. And I appreciate her sitting here for 
the whole time. This is such an important issue, we are going 
to kind of learn and we will be educated.
    While NIDA does not fall under the jurisdiction of the 
subcommittee, it is critical to informing our national policy 
for addressing both the demand and supply side of the drug 
addiction and we understand and share an interest in the 
functioning of the brain and Mr. Fattah, who has really been 
the leader up here in the Congress on the whole issue of brain, 
any thoughts you have with regard to that? Your own research on 
the brain, your observations that it's all about dopamine 
convey some of your approaches to the effects of drugs--
measures.
    I am grateful for you appearing today. We have a policy of 
swearing everybody in, so if you could rise, I would appreciate 
it. Pursuant to the authority granted in Section 191 of Title 2 
of the United States Code and Clause 2M2 of the House Rule 11, 
today's witness will be sworn in.
    [Witness sworn.]
    Dr. Volkow. I do.
    Mr. Wolf. Okay. Let me--the record show that the witness 
said, ``I do.'' And thank you very much for the testimony.
    I have heard only so many positive things about you. It is 
kind of exciting to have you come before the committee to 
testify, but every time your name comes up, people are very, 
very complimentary, but with that, just take your time and tell 
us what you want us to know.
    Dr. Volkow. Well, good afternoon, and I want to thank you 
very much Mr. Chairman for having given me the opportunity to 
speak with you and actually it is the first time that I meet 
you, but I have read about you and I have also been very 
impressed and want to thank you, not just for your efforts with 
respect to drug use, but for your efforts with respect to the 
rights of humans and I think that drugs basically destroy them. 
It is at the essence of one of the reasons why we can't--this 
is an urgent issue for our country.
    I represent the National Institutes on Drug Abuse which is 
part of the National Institute of Health. Our mission is to 
actually scientific, to use research in order to generate 
knowledge to address problems that are of urgency. I cannot 
think of anyone that is most than that of substance abuse 
disorders.
    As the signs have shown us, the traditional view of 
addiction is a bad choice which casts generally a lingering 
stigma that equates addiction with moral failure has been 
changed by the new findings that identify that repeated drug 
use changes neural circuits that are necessary for us to exert 
free will and self-control. And this explains why individuals 
who are addicted to drugs are unable to stop taking them even 
with the threats of incarceration and many times when the drugs 
are no longer pleasurable.
    The drugs have affected the basic sequence that allows them 
to exert control. While it is true that the initial choices 
that we all make of trying one drug or the other are 
voluntarily and for many, many, reasons, curiosity to have a 
good time, to self-medicate, some of us are more vulnerable 
than others in falling into compulsive patterns of intake and 
ultimately in addiction.
    When the changes in the brain occur, these are long-lasting 
and these long-lasting changes have led to the 
conceptualization of addiction as a chronic disease of the 
brain and explain the recurring and relapsing nature of the 
disorder. Just like other chronic diseases like cancer, 
hypertension, we have treatments. We cannot currently cure 
them. With respect to the patterns of drug use in a given 
country, we now know they are determined, of course, by the 
characteristics of the drug, but apart from the characteristics 
of the drug, there are two factors that are very important: 
availability and norms, social norms; such as is the perception 
that the drugs are risky or not; the status of the drug as 
legal or illegal and that is currently dramatically shifting 
for two drugs in our country, and that, in turn, is observed in 
an increase in the consumption, marijuana and prescription 
medications.
    So, I will deal with marijuana first. We all know it is the 
most commonly used illicit drug in our country, and in many 
countries in the world. In the United States, about 12 percent 
of people aged 12 and over reported past year use of marijuana.
    Marijuana acts on the--targets of the endocannabinoid 
system and the endocannabinoid system, which is actually 
regulating many of the functions of our brain and multiple 
organs in our body is crucial for our health. In the brain, for 
example, it is involved--it plays an extremely important role 
in orchestrating the development of the brain as it transitions 
from childhood into adolescence and into adulthood.
    And that has raised a lot of concerns among the scientists 
and technicians that the regular use of marijuana during this 
period of time may be particularly problematic, because it may 
interfere with the ultimate architecture of the brain and might 
at least explain why we are observing the decreases in 
cognitive ability associated with repeated use of marijuana.
    Now, marijuana also--the endocannabinoid systems in our 
brain actually which are basically suppressed or are taken out 
by marijuana are also involving our motor coordination in our 
perception of time, and this is why it explains why people that 
are intoxicated with marijuana are a much greater risk of 
having accidents.
    At the same time, the endocannabinoid, if it were not 
sufficient, are crucial for our ability to memorize. So they 
regulate the hippocampus in our brain which also explain why 
when someone is intoxicated, they will interfere with the 
capacity of learning. Endocannabinoids are not just in the 
brain. As I said, they regulate multiple organs and 
physiological processes such as inflammation, such as neuronal 
excitability, metabolism, and this is why this has generated an 
interest for the potential of the so-called medical--so-called 
medical marijuana for the treatment of diseases like multiple 
sclerosis, pain, nausea.
    As well as the pharmaceutical industry for the development 
of active cannabinoids that can be targeted for these diseases. 
So the cannabinoid system is one of the most interesting ones, 
vis-a-vis, the development of new medications for a wide 
variety of disease conditions.
    Now, the other very worrisome trend in our country is that 
of the abuse of prescription medications, and particular 
concern has been in a lot of attention to pain medications that 
contain opioids. Why? Because they are highly, highly addictive 
and also they are very dangerous in that the relative 
difference on the dose that is required for feeling high versus 
that will produce death from respiratory depression is very 
narrow, and that explains why individuals that are addicted to 
opioids. So even if they are not addicted to opioids, they are 
at great risk of dying, more than with other drugs from 
overdoses.
    We have seen a quadrupling as we have heard of the number 
of people dying from overdoses in our country over a period of 
15 years. And, of course, there has been a lot of interest to 
understand what is driving these increases in deaths from 
overdoses. Well, more people are taking them. And why are more 
people taking them? There is a massive increase in 
prescriptions for opioid medications.
    So, in 2013, there were at least 207 million prescriptions 
in this country for opioid analgesics. Now this is, of course, 
parallel with a significant increase in emergency room 
admissions associated with improper utilization of these 
opioids. Some of the cases of opioids overdoses are actually 
observed in patients that are not necessarily abusing the 
drugs, but have been given very high doses and are vulnerable 
and actually are dying as a result of it.
    The other aspect what I discussed earlier that is a 
relatively recent trend is the abuse of the prescription opioid 
is engendering a transition from those that actually find it 
difficult or very expensive to buy them into the use of heroin. 
And the use of heroin, which had been very stable in our 
country and predominately observed in older--more than 34 years 
old--is now shifting to a younger age. We're seeing increases 
in intravenous heroin abuse among 20-year-olds, and that, in 
turn, is associated not just with that from overdoses but also 
with an increase in the infectious diseases that are 
transmitted by contaminated material like hepatitis C or HIV.
    Opioid medications, just like heroin, act on our endogenous 
opioid system. Just like we have a endocannabinoid system, we 
have an endogenous opioid system. This opioid system is crucial 
for our ability to regulate pain, and for the perception of 
pleasure, and this explains why people can take an opioid 
analgesic, can be very beneficial in controlling pain, and at 
the same time it can be very rewarding and highly, highly 
addictive.
    The opioid, the endogenous opioids also regulate many of 
the normal functions that we are not aware of, like our 
breathing. And this explains why one of the most frequent--the 
most frequent cause of death from opioid overdoses is 
respiratory depressions.
    Opioid medications--and I speak as a physician, when used 
as prescribed are extremely effective for the management of 
severe acute pain, and might be beneficial in the management of 
certain cases of chronic pain. However, if they can have larger 
doses combined with other drugs, or through injection, they can 
be as addictive and as dangerous as heroin.
    So what is it that as an agency we are doing in science to 
help prevent some of these issues that relate to the 
prescription opioids? Number one, we are funding research to 
develop new medications to treat pain that do not rely on 
opioid targets. Number two, we are developing delivery systems 
for the opioid analgesics and lower drug combinations that 
minimize their addiction potential.
    We are also developing--all of this through research--more 
user-friendly delivery systems for Naloxone, which is an 
anecdote against opioid overdoses. Four, we are also developing 
research of new medications for the treatment of opioid 
addiction.
    In parallel, neither actively collaborates with other 
federal agencies to provide up-to-date data on drug abuse 
trends in our country. Implement evidence-based practices for 
the prevention and treatment of opioid addiction, and deploy 
education and outreach programs to healthcare providers and the 
public about the safe use of opioid medications and the risks.
    The landscape of drug use in our country is changing 
dramatically. As a result of recent moves towards legalization 
of marijuana and of the growing trend of prescription drug 
abuse. NIDA is committed to continue to promote research that 
can help develop the knowledge necessary for preventing and 
treating the adverse consequences of this and other abused 
drugs.
    Thank you, again, Mr. Chairman, for inviting me here today. 
I will be pleased to answer any questions you may have.
    Mr. Wolf. Thank you very much for your testimony. The Rand 
Corporation report discussed earlier shows spending on illicit 
drugs has been about $100 billion per year. It also suggests 
that while cocaine use may have fallen, marijuana use has grown 
substantially, and makes suggestions to improve data collection 
and assessment.
    Were you surprised by any of the Rand findings?
    Dr. Volkow. No, I was not surprised. Actually, I was 
expecting it. The number of $100 billion did resonate in my 
brain and I said, ``Oh, my God. That's three times greater than 
the funding for the whole NIH research on life sciences.'' That 
is what my brain did to me.
    But the fact that we are seeing increases in marijuana did 
not surprise me. We know from history. We do not like to 
remember history, but what determines the illegal status of the 
drugs is what determines basically the rate of people using 
them. The number of cases that suffer from--that die or as a 
consequence of drugs, or have morbidity, medical illnesses--the 
greatest numbers are for the legal drugs, not the illegal ones. 
And it is not because the legal ones, alcohol and nicotine are 
more dangerous. No, they are not. They are much less dangerous. 
It is because of the legal nature allows it to be a norm that 
makes people think they are safer, much more likely to try 
them, much more widely available and readily available, and 
that in turn is going to increase the number of people that 
consume them. I advise statistical imperative they are going to 
end up with many more casualties.
    So I am not surprised at all that the numbers are going up 
on marijuana. We have been seeing it.
    And also there are tricky things that do not go even 
further in telling the nature of the problem. One of the things 
that we never discuss for is marijuana. How frequently do you 
use? What particularly concern in adolescent use of marijuana, 
regular use. Do you know how many kids in our school system use 
marijuana regularly? That is basically daily, 6.5 percent.
    Now that is likely to be an underestimation because all of 
the research shows that if you are a regular marijuana user, 
you are much more likely to drop out of school. So you think 
about 6.5 percent of kids in our school system that are 
actually under the effects of a drug that is going to interfere 
with their ability to learn and memorize. You can try to 
understand why this is not something that predicts very good 
outcomes and could explain why those individuals that smoked 
during that period of time end up with lower IQs.
    The other aspect that we are not taking into account, in 
any of these numbers and of the past studies is that the 
content of 99 Delta tetrahydrocannabinol, the active ingredient 
for which people smoke marijuana to get high, that one, has 
been going up and up and up. So, in 2000 it was something like 
five or six percent. Now, in 2013, it is something like 12, 13 
percent. So it has basically doubled. What does that mean? You 
have a much more potent drug in your brain now than ten years 
ago.
    So the research that we have actually most of it pertains 
to the use of marijuana that was much less potent than what we 
currently have. And this in turn is likely to explain the 
significant increases that we are seeing in emergency room 
admissions. In states where the total amount of consumption of 
marijuana has not really increased very much, the potency has 
and therefore the consequences has increased.
    Similarly, there are increases in admissions to treatment 
programs for marijuana addiction has gone up, which is likely 
in part also likely reflected by the fact that if you are 
smoking a more potent drug, you are likely to transition into 
addiction faster than if the marijuana you are smoking has a 
very low content of 9-THC.
    Mr. Wolf. Is it a gateway to other drugs?
    Dr. Volkow. Extremely important question, and I can answer 
it both what the logical data has shown us is that basically a 
very significant number of individuals that are addicted to 
illicit drugs started by smoking marijuana. So in that respect, 
and even when they control, there are being stories that 
control for genetics, because the recent component that initial 
genetically determine that makes us more or less vulnerable to 
addiction.
    So in a study that control they were twins, genetic twins, 
both of them smoking marijuana. But they scored them at the 
time of which they started. One before age 17 and the other 
after age 17. And that study showed a significant very dramatic 
increase in the risk of addiction to a wide variety of drugs in 
those that started before age 17. So yes, the logical data 
provides evidence that is consistent with a concept of 
marijuana as a gateway drug.
    Animal experiments, on the other hand, where you actually 
expose animals to 9-THC very early on and then determine the 
function of their brains, the reward system and their responses 
to drug, have also shown that exposure to marijuana very early 
during development significantly disrupts their response of the 
reward centers of the brain to various types of drugs, again, 
providing evidence that marijuana may be priming our brain 
neuro circuitry to the responses to drugs.
    Having said that, I also must say that nicotine also seems 
to have a parallel trajectory, and many individuals that end up 
smoking marijuana have been smoking cigarettes, nicotine, 
before. So, yeah. And the same thing has been said for alcohol, 
so when one speaks about gateway drugs it is not just 
marijuana. We have the legal ones and obviously one of the 
aspects in these, that in social and of the logical data we 
cannot control this, are they the entry drugs--the alcohol and 
the nicotine--which proceed marijuana there because they are 
legal and so much more available, or are they really because of 
their pharmacological characteristics?
    And based on the pharmacological data, of course, we cannot 
really disentangle all of these factors.
    Mr. Wolf. Now are you seeing much information in Colorado 
as of yet, based on the legalization?
    Dr. Volkow. When the legalization of Colorado and 
Washington came through, we actually identified scientists that 
we were funding to actually give them supplement grants in 
order for them to be able to track down consequences that could 
develop information and data rapidly. School dropouts, car 
accidents, admissions into emergency rooms, criminal activity, 
entering into the criminal justice system. We don't have the 
results yet, so there is nothing that has been published out of 
it.
    But we have funding in that research as with the idea--my 
view is we have an urgency. I mean, this is an abrupt change in 
a social norm. We should be able to get information as fast as 
possible that can be used so that other states that are 
contemplating doing similar moves or other country, have data 
to work with.
    Mr. Wolf. When do you think that data will be available?
    Dr. Volkow. My prediction is based on--I mean, we have 
these big brains in order to predict the future, right, to try 
to predict the future. And we use the past information. We know 
that whenever we legalize a drug the consumption has gone up.
    So my prediction is that we are going to see an increase in 
the prevalence of marijuana used, and we are going to see an 
increase in the number of kids that are going to be dropping 
out. I predict that perhaps that educational activity will go 
down. This is in young people, unless they are very, very good 
at controlling access to marijuana among adolescents. If they 
do, then, of course, this will not be pertinent.
    I also predict that we are going to start to see an 
increase in the number of car accidents. We are going to start 
to see a decrease in productivity as more people go to work 
intoxicated with marijuana.
    Marijuana is a hard drug because, you know, people like 
that whole comparison, I think, which should not be called 
paradise. It is worse than alcohol, marijuana. They are 
different drugs, and it is not about which is worse than 
others. My perspective is can we as a country afford a third 
legal drug? Just look at the consequences of nicotine and 
alcohol. Can we afford a third drug that is legal?
    Now, nicotine, for example, and people say--many people die 
from tobacco. It is the number one preventable death cause. 
Now, but nicotine does not interfere with the function of your 
brain. So if you are an adolescent and you are smoking, you are 
not going to be dumbed down by smoking nicotine. You are going 
to be dumbed down by smoking marijuana.
    If you are drinking alcohol, it is not going to sharpen 
your brain when you are intoxicated. But the effects of alcohol 
are short lasting. Alcohol, you get--if someone actually gets 
drunk, it takes 45 minutes, then 30 minutes later, one hour 
later and they start to come down. Marijuana stays in your body 
very long, so the effects are much longer lasting.
    Marijuana stays in your body very long, so the effects are 
much longer lasting. So if you want to compare, which I am not 
someone that I like to compare, because I am also going to get 
you one of the logical. The floss in the logical people say, 
look how many people are dying from alcohol and nicotine and 
they are all concerned about marijuana. And I said, ``Guys, not 
even when they put the notion about how much more addictive is 
nicotine to marijuana.'' Those numbers are based on 
distinctions between--you are comparing legal to an illegal 
drug of marijuana. Wait until this marijuana has the same 
status, and then you can start to compare in terms of the 
number of people that are doing to be dying.
    If you want to compare, which to me is not a good argument. 
The argument is compare the consequences of a legal versus an 
illegal status of a drug, independent of the fact that illicit 
substances are much more dangerous than the licit ones. 
Certainly something like methamphetamine or cocaine and they 
produce less deaths than alcohol and nicotine, and it is a 
legal status.
    Mr. Wolf. So what, well, you are fascinating. I wish we 
could kind of adjourn the Congress and let you kind of come up 
to the speaker's rostrum and sort of talk to everybody here 
with mandatory attendance.
    What do you then see--and I don't want to get into, and we 
are not trying to take you into places that create a problem 
for you, you know, your job, but what--a state or a country 
that legalizes this at this time and moves ahead, because 
legalization versus nicotine that is, now this becomes, as you 
were saying, what do you see in 20 years? What type of nation, 
state, locality--because it depends. There are going to be some 
states that will never do it, other states that will. Maybe 
this Congress could sometime legalize it for the whole--I mean, 
who--what do you see of a nation, a state, a locality whereby 
marijuana is legalized? What are the impacts on fatalities, on 
education, I mean, what do you see out there? That is a tough 
question to ask you, but if you extrapolate this and see, what 
will the future be? I mean, are there--is the Netherlands a 
good example? I mean, what do you see out there?
    Dr. Volkow. Well, I think that the Netherlands is a place--
I mean, your question was very, very relevant. I mean, we need 
to learn from past mistakes so that we do not repeat them, and 
that is what we want to learn from history. But we do not like 
to learn from history. You know, we forget cocaine was legal in 
the United States at the beginning of the last century, and the 
physicians were endorsing it as this fantastic treatment. And 
it was not until we started to see all of the casualties, then 
in 1914 they make it illegal.
    So is it possible that as we get widespread use of 
marijuana we start to see adverse consequences that actually 
could revert those strands of legalization? That is one 
possibility.
    Mr. Wolf. Well, you just--I do not want to break in but you 
just triggered a thought that I thought of and I was not going 
to ask it, but opium was legal in Europe in--one of my heroes. 
I am a great advocate and admirer of William Wilberforce, who 
was a member of the British Parliament who abolished the slave 
trade. He changed the whole complexion of the world. Lincoln--
he impacted Lincoln. Lincoln read John Quincy Adams, who spoke 
out against slavery--read William Wilberforce. Wilberforce had 
a physical problem and reports are that he used, I believe, 
opium. So opium in England at that time was legal.
    Would you see the potential that we go to marijuana, then 
we go to opium, then we go to, I mean, could you think it could 
go that way?
    Dr. Volkow. I doubt that it would go into the way of 
something like the legalization of opioids. Opioids, their 
death rate is extremely high because of the risk of overdoses. 
And it is almost like infections. When you have an infection 
that is very virulent it kills itself, because it cannot have 
had time to get--to infect someone else.
    So the drugs are very, very dangerous. They can die in and 
of itself, can make people afraid of them. With marijuana we 
have created a shift in the perception that it is a very safe 
drug. Some people have smoked when they were younger and they 
did not have any adverse consequences without realizing that 
they were smoking something that was two percent, as opposed to 
13 or 14 percent that we currently have.
    Mr. Wolf. You know, I am going to interrupt you here. I 
want to do something. I hope it is not controversial. I really 
do. And I do not want to get you in trouble. I really do not. 
Honestly, I do not. And I do not know if you are a Republican 
or Democrat and I do not want to get in that. I am going to 
write a letter to the President of the United States and I am 
going to ask him to take an hour and sit down with you. And we 
can get the staff to do that. We are going to write a letter, 
and you did not coax me, I just--but what you are saying, I 
think, in fairness to the President, I think he has taken some 
criticism. He is a great father. I think when you think of 
President Obama, he is a model father and I think he has a very 
good family. I am going to ask that he take the time to sit 
down with you and let you tell him what you know.
    Have you had the opportunity to sit with the President?
    Dr. Volkow. No, I have not.
    Mr. Wolf. Okay, good. Would you be willing to do it?
    Dr. Volkow. Of course, absolutely.
    Mr. Wolf. Okay, good. Good. And okay, let the record show 
we are going to ask officially. If there is anybody from the 
media, we will get you a letter out saying today I was very 
impressed with the testimony of the Director of NIDA. She said 
X and Y and therefore, Mr. President, I am going to ask you to 
take the time, because this is a critical issue. We are at a 
juncture in the Nation that it is going to go one way or the 
other, and so we are going to officially ask that the President 
meet with you.
    I cut you off.
    Dr. Volkow. No, no, no. And I just think just a thought 
became to me, because you said something that also resonates 
tremendously in my brain, and you were sort of saying do we 
want--and I think of other countries--do we want to think 
ourselves at the disadvantage of eight lower IQ points as a 
country, and I always said we cannot, I mean, we cannot afford 
to have our young people stoned, because that is exactly what 
marijuana does, whether we want it or not. And I am not even 
addressing the consequences in hours.
    So I think that coming back to your specific question, what 
can I foresee 20 years from now? Again, if the consequences we 
can start to observe very negative consequences such as 
increases in school dropouts, which are already quite high in 
the United States. We do not want them lower, or our 
educational achievements going down. I think that will wake up 
the country. That is one of the signals that will wake up the 
country.
    When I came to this job 11 years ago I was looking at these 
very significant increases in opioid addiction among teenagers, 
as my God, this is completely new. And I was sort of thinking 
the entire system was not paying attention, and it was not 
until people started to realize that significant increases in 
overdoses from--death from overdoses of opioids that they 
started to pay attention.
    So unfortunately sometimes you need to get these numbers 
that shake everybody up, and I said, perhaps we should also 
think about what we are doing. And so, it is possible that as 
these numbers emerge, that we will take account.
    I also think that we are going to, as I mentioned it 
before, we are going to see a number of--it is already being 
reported, fatal car accidents as a----
    Mr. Wolf. Fatal deaths.
    Dr. Volkow. Fatal deaths from car accidents associated with 
marijuana. Marijuana interferes with your capacity to perceive 
time. So if I see a car over there moving, you brain 
automatically, you do not, not even conscious know how long it 
is going to take. And that allows you to cross or not or 
accelerate or not. That is disrupted by marijuana, which again 
explains why you are at much greater risk of getting into an 
accident.
    And productivity, that is the other one. In the clinical 
world when you are a medical student they teach you one of the 
consequences of marijuana is that it produces an unmotivational 
syndrome. What is a motivational? It lacks the energy, the 
motivation to finish and do things. This could explain why 
people that smoke marijuana during adolescence are much less 
likely to achieve educational achievement. They are much less 
successful in their work. They are much less satisfied with 
their life.
    And so, here it is not even about IQs. It is about 
something that is actually harder to quantify. The motivation 
and the sustainability to do the effort in order to achieve, 
which is crucial for a wide variety of the activities in our 
society. That is one of the aspects that is disrupted by 
marijuana, as well as other drugs.
    But if we legalize a drug, nicotine does not do that. And 
alcohol, because of its short relative effect, does not have 
this longer lingering affect. So in that respect, marijuana is 
very unique in the way that it influences the function of the 
brain.
    Mr. Wolf. Okay. Well, I think you have--I have some other 
questions. I think we are just going to submit them for the 
record. Let me just ask her one question. Ask discussed 
earlier, there is an increasing awareness that heroin is seeing 
a resurgence in the U.S. In your February on-line report, you 
say research said abusing prescription drugs may in fact open 
the door to heroin. Could you describe those findings in a 
reason such shifting is taking place?
    Dr. Volkow. Well, what happens is that many of the 
adolescents that are starting to abuse and you saw these opioid 
medications, from eighth grade they are starting, tenth grade 
they are still greater. So opioid medications are actually 
quite addictive, but they are expensive. And so when they 
become--the more addictive they become, the more compulsive, 
the higher the quantities. Then they sometimes do not have the 
money to buy an Oxycontin tablet, they go ahead and start using 
heroin. So that is one of, that is a mechanism that is being 
reported for the transition from opioid prescriptions into 
heroin abuse, because it is more widely available, because it 
is less expensive, and so they shift once they become 
addictive.
    And, again, this is a new trend. We have been very 
successful on sustaining very, very low levels of injection of 
heroin among young people, in general in our country and now 
that is being reverted. It is going up.
    Mr. Wolf. And will legalization of marijuana have an impact 
on that?
    Dr. Volkow. Well, it is interesting because we will know 
how the realization of marijuana is going to influence a 
pattern of other drugs and there are people--and again, I like 
to hear different opinions because there multiple brains and 
smart brains around that says, well, what about if you have an 
increase in using marijuana but you have a decrease in the use 
of intoxicating doses of alcohol? Could that have a beneficial 
effect? And he says, well, we really do not know if that is 
possible or not, but what we are seeing though is an increase 
in the use of alcohol with marijuana. And we are also seeing an 
increase in the use of marijuana with other drugs. So the 
combination is becoming very prevalent, and the has been most 
notoriously reported for the case of alcohol.
    The other thing that we are seeing in--and again, among 
psychiatric patients. Psychiatric patients are at greater risk 
of abuse of a wide variety of substances as a means to try to 
also medication themselves and in the psychiatric community 
there is starting with this recognition that they are seeing 
more of the mentally ill patients are using marijuana, which 
actually exasperates and deteriorates their decease. So we are 
starting to see these as a consequence.
    And I, believe it or not, and I always have to say that 
things that I get exposed to, I get emails from all over the 
country from people. I get emails from parents asking me about 
their kids, whose physician has prescribed marijuana for 
because of attention deficit hyperactivity disorder and they 
are concerned about it. So it has opened up a floor of things 
that we have never seen before.
    So we know what the adverse effects of marijuana are on 
people. What we don't know, for example, if you already have a 
vulnerability, and if we are starting to do medical, that so-
called medical marijuana of someone that is sick, how is that 
interaction of the deceased with a growing cell going to affect 
the physiology of the individual?
    So there are many, many unknown questions that we do not 
have, and we are going to start to see some of the responses. 
For example, one of the things that has attracted the medical 
community with--they don't know about it is people taking 
marijuana develop the syndrome of vomiting that they cannot 
control. It is called hyperemesis, and it is contradictory 
because you use marijuana as an anti-nausea and as an anti-
vomiting. But if you reach high doses, they are starting to see 
in the emergency room these patients that are coming with these 
vomiting episodes that nobody had paid attention.
    The same thing with myocardial infarcts. It is rare to 
associate marijuana with cardiac problems or with stroke, but 
as more and more people are taking marijuana, a higher, higher 
content, in the emergency rooms they are starting to appear, 
and the director of these reports associated medical cardiac or 
cerebral vascular consequences of the use of marijuana that we 
did not know, even were appearing. We did not think that 
marijuana was problematic with the cardiovascular or the 
cerebral vascular system, just like we did not know that 
cocaine was harmful at the beginning of the last century. It 
was the widespread use that made the medical community aware of 
all of the consequences that ensued.
    Mr. Wolf. Now, Dr. Collins has done an amazing job when he 
mapped the human gene system and I know people carry different 
genes. Some people carry the BRCA gene, this gene, that gene. 
Were you saying earlier that there is a gene that many people 
could carry? Is that what you were saying earlier?
    Dr. Volkow. What I saying is that our genes actually do 
play a role in our vulnerability to become addicted to drugs, 
and so we all know people, for example, that actually take a 
drug here and there and never become addicted, or drink here 
and there, never become addicted. And then are others that 
start drinking and become addicted very rapidly. And that 
difference is under, when you control for circumstances are 
determined by your genes.
    And similarly, for example, in Europe for many, many years 
there has been research linking the use of marijuana with 
schizophrenia. So there is a higher rate of schizophrenia among 
those that smoke marijuana than those that do not. And now what 
research is finding is that it increases your risk for 
schizophrenia only if you have a specific gene variant. So it 
is a combination of a gene variant with exposure of the drug 
that then can increase your risk for schizophrenia.
    Mr. Wolf. Okay. Well, thank you. If you would do one thing 
for me. We will put your testimony in the Congressional Record 
and if you could summarize it that I could send out to every 
member of the House, and then I would also send a copy to all 
of the governors.
    Were you called to testify in Colorado? Were you called as 
an expert witness by the Colorado----
    Dr. Volkow. No.
    Mr. Wolf. No? I wonder why that they didn't--I mean, if I 
am going to do something, I want to get the best views on both 
sides.
    Well, we will send your statement and if you could condense 
it and put it in laymen's terms, then maybe we will send it out 
to some newspapers, particularly the states that are in the 
process of doing this. I will send you a copy of--Jeff is going 
to give you a copy of the letter we send to the President 
asking him to meet with you, but I appreciate your testimony. 
It is very, very powerful.
    You are a medical doctor, correct?
    Dr. Volkow. Yes, a psychiatrist.
    Mr. Wolf. You are a psychiatrist? Good. Well, I want to 
thank you. You said a lot of troubling things. As I had said, 
you know, my wife and I have 16 grandkids, and I see things 
just changing to the degree--25 years ago, I got elected in 
1980, President Reagan--I grabbed Reagan's coattails. He was 
running by and I grabbed him. I had lost in '76 and in '78 lost 
and won in '80. I think only two states had gambling. No 
Congressman would have been seen with the gambling interest. 
Now they all flood out to Vegas and do their--and so I am 
seeing, man hears what he wants to hear and disregards the 
rest. And I think a guy named Simon and guy named Garfunkel 
sang that song up in Central Park, but I think this bodes 
really very, very troubling.
    But I appreciate your testimony. We will get it out, and 
with that, the hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                             Friday, April 4, 2014.

                         DEPARTMENT OF JUSTICE

                                WITNESS

ATTORNEY GENERAL ERIC HOLDER
    Mr. Wolf. Good morning. The hearing will come to order. 
Attorney General Holder, thank you for appearing before the 
committee this morning. Before we begin, I want to mention that 
our thoughts today are with the families and the victims and 
the survivors of Wednesday's shooting at Ft. Hood. At this 
hearing last year as you may recall, we spent a great deal of 
time discussing the victims of the terrorist attack that 
occurred there 5 years ago. Today our thoughts are certainly 
with the victims and their families in this latest attack as 
well as with the earlier victims for whom this must be a 
painful reminder of the 2009 attack.
    The Justice Department budget request for fiscal year 2015 
is relatively flat at $27.7 billion, a net increase of 1 
percent. While the budget would continue efforts funded by the 
Congress in the fiscal year 2014 omnibus to restart hiring for 
vacant positions, your budget also contains some gimmicks like 
$900 million of unspecified offsets, mostly from the 
Department's law enforcement agencies. Today we will discuss 
the potential impact of these proposed cuts to the Federal law 
enforcement today.
    I want to recognize a few items up front while I appreciate 
the steps you have taken, particularly with regard to improving 
Federal prisons. As you know, the fiscal year 2014 bill created 
the Chuck Colson Task Force on Federal prisons to provide an 
outside assessment and recommendations on how we can learn from 
the States on practices for reforming the Federal prison system 
to reduce recidivism and improve public safety, and I know that 
is important to you.
    I appreciate that the Department has moved quickly on the 
grant solicitation, and I believe an award will be made soon so 
the group can get started. This may be our best opportunity, 
and if this opportunity is missed, it will be terrible, but our 
best opportunity to improve the prison systems nationwide, 
Federal as well as State. Additionally I've written you about 
the urgent need to rebuild Federal Prison Industries so we can 
put more inmates to work and get them valuable job training. 
The Bureau of Prisons has made some positive steps using 
repatriation authority this committee has provided to get more 
inmates working. I hope you will continue to support these 
efforts, even getting all of the Federal agencies to contract 
with the Bureau of Prisons.
    However, I want to address a number of critical issues 
under the jurisdiction of the Justice Department where, 
frankly, I think I have been disappointed in your leadership. 
In certain cases, I believe you have bent the law to allow for 
the expansion of Internet gambling and facilitating marijuana 
suppliers to access the banking system. I am concerned about 
the far-reaching consequences of the Office of Legal Counsel's 
2011 abrupt decision to reverse years of precedent regarding 
the Wire Act, which kicked open the door for widespread 
Internet gambling.
    Although the decision was signed off in September of 2011, 
it was inexplicably withheld from the public for months until 
Friday before Christmas in an apparent effort to bury the 
reversal of policy in a slow news cycle. Anything that comes 
out on a Friday before Christmas you got to wonder if there is 
something not right. To date, no one knows what prompted this 
change, who requested it, and why it was kept hidden for months 
and released just before Christmas Eve. What we do know is this 
decision will open the floodgates to Internet gambling which 
will have devastating sequences if it is not reversed. The 
societal costs of widespread gambling are well-documented, and 
the easy accessibility of gambling on computers, phones and 
tablets 24 hours a day has the potential to create more 
gambling addicts, particularly among the young, than this 
country has ever seen. A college student will now be able to go 
bankrupt in their dorm room gambling on their computer before 
their 8:00 class.
    In addition to gambling, I am also deeply concerned about 
your selective enforcement of the Controlled Substances Act 
with regard to marijuana in States like Colorado and 
Washington. Your relaxation of enforcement as well as your 
efforts to create a legal path for banking for marijuana 
distributors will accelerate the normalization of a drug of 
abuse, a horrible outcome for our youth and our society. Just 
last week, we heard the director of the National Institute on 
Drug Abuse, NIDA, who testified about the many negative 
consequences of relaxing restrictions on marijuana abuse. This 
is the result of detailed research. And she was so impressive, 
would you agree to meet with her, Mr. Attorney General, would 
you agree just to take some time to sit down with her?
    Attorney General Holder. Sure.
    Mr. Wolf. Great. Thank you very much. I believe the failure 
to enforce the Federal law and help marijuana providers access 
to banking systems will result in more drug addiction, as well 
as more car accidents and other drug-related fatalities. I know 
you don't mean for these negative consequences to happen, and I 
suspect you're under a lot of pressure by some to facilitate 
the further legalization of marijuana, but the fact is that 
NIDA and others have testified there is a direct correlation 
between marijuana use and these health and public safety 
aspects.
    In contrast to the flexible approach you have taken on 
marijuana and Internet gambling, in other areas like sex 
trafficking, you've taken the opposite approach and chosen to 
have followed an extremely rigid interpretation of the law 
which prevents significant action from being taken to stop 
Internet facilitation of trafficking of young girls and women 
on Web sites like Backpage.com.
    Last month this subcommittee held a hearing with a number 
of expert witnesses, including a trafficking survivor, and a 
Fairfax County police officer who's working on this. This has 
really hit Northern Virginia and is hitting many areas, perhaps 
most areas of the country. The National Center for Missing and 
Exploited Children, which I know you have great respect for, 
and Cindy McCain, who helped elevate the issue in the media, 
all of our witnesses highlighted just how important it is for 
the government to confront the Internet facilitation of sex 
trafficking if we are truly committed to ending this modern day 
slavery.
    Just 2 weeks ago, we received your report on the issue 
which I have urged you to provide for years that ultimately 
directed in the 2013 omnibus. To the Department's credit, the 
report provided some good information about what statutory and 
regulatory changes need to be made to go after Web sites that 
facilitate sex trafficking. However, I remain disappointed in 
how long it has taken to elevate this issue and give it the 
attention you deserve and it deserves.
    You have an unique ability to really, Mr. Attorney General, 
to really make an impact for the people that are trapped in 
this; and I think it is one that you can feel good about by 
moving on it. Just think of how many young girls and women, 
each someone's daughter, mother or sister, who have been 
victims of trafficking over the last 5 years while the 
Department has hesitated to take bolder action. Today I hope we 
can discuss what steps the Department and the Congress need to 
take now to ensure that more years don't pass before action is 
taken.
    Another concern I have is this administration's choice to 
narrowly interpret its authority under the authorization for 
use of military force so as not to allow military assets to be 
used to track down and kill the terrorists responsible for the 
deadly Benghazi terrorist attacks. In most of the cases, the 
administration takes a broad interpretation of the AUMF to go 
after terrorists in the Middle East and North Africa, and yet 
for some reason, when it comes to the Benghazi suspects, you 
have read the law in the way that prevents the military action 
against the Al Qaeda affiliate terrorists responsible for 
killing our ambassador and three others.
    The refusal to use the AUMF is particularly inexplicable 
considering that the former acting director of the CIA, Michael 
Morell, testified on Wednesday that ``the CIA analysts said 
from the get-go that Al Qaeda was involved in this attack.'' 
Given that the administration has known from the beginning of 
the Al Qaeda connection and the AUMF allows the military to go 
after terrorists connected to Al Qaeda, how can the Department 
defend the reading of the law in the way that it prevents using 
all resources including military assets to track down, detain 
or kill these terrorists? Can you really argue that the AUMF 
allows you to make a drone strike on Awlaki, who is an American 
citizen, but not on a terrorist connected to Al Qaeda that 
killed our ambassador?
    I would also note that to date, not a single terrorist 
responsible for this deadly attack has been captured or killed. 
On the very limited occasions where suspects have been 
detained, your Department has failed to exert pressure on the 
governments of Tunisia and Egypt to allow the FBI to have 
access to the terrorists. These are just a few notable 
exceptions, examples, of the Department's selective enforcement 
of interpretation of the law. As the Nation's top law 
enforcement officer, you have the responsibility to enforce the 
law, whether it's politically expedient or popular. 
Unfortunately, I believe the record falls short.
    Last week we received your report required in the fiscal 
year 2013 appropriation on implementation of new requirements 
to be applied to IT infrastructure procurement, particularly 
for hardware and systems coming from China. Although the 
administration was not initially supportive of this effort to 
restrict purchases of questionable IT hardware, I do appreciate 
that the Justice Department appears to be taking the new 
requirements seriously. In fact, your recent report indicated 
that the new process put in place caught, quote, ``seven IT 
procurements from six vendors that were associated with 
questionable foreign ownership, control or influence, criminal 
activities, financial counterintelligence, or 
counterterrorism,'' end of quote.
    I believe this report demonstrates that the policy that 
this committee directed was both necessary and constructive and 
will help bolster the Department's cyber security, and I 
appreciate the Department moving so quickly on that.
    In addition to the subjects I have mentioned, I expect to 
have some questions regarding prisons, cyber and the growing 
cyber threat both home and abroad and the Department's growing 
involving enforcement workload for our priorities.
    Finally, I want to address the Department's failure to 
comply with the reporting requirements directed in the fiscal 
year 2013 Omnibus Act which was signed into law more than a 
year ago. The fiscal year 2013 bill required the Department to 
provide 66 reports. To date, over a year later, the committee 
has only received a little more than half of these mandatory 
reports. There are still 25 outstanding reports and briefings 
from fiscal year 2013 bill, and that doesn't include any of the 
additional reports directed in the fiscal year 2014 bill which 
was subsequently signed into law earlier this year.
    There are already 18 reports in the 2014 bill that are 
overdue to the committee. With a workforce of more than 100,000 
employees, I know the Department certainly has the capacity to 
provide the directed reports. What is lacking is the will to be 
responsive to the Congress on the part of the Department's 
leadership, and that's what I find disappointing.
    Today I'm announcing a new policy that these overdue 
reports will no longer be tolerated by the Committee when the 
fiscal year 2015 bill is marked up this spring. I intend to 
withhold $1 million for every overdue report from fiscal year 
2013 and 2014. These funds will be provided instead to agencies 
in the bill that comply with the reporting requirements. With 
the current backlog of 43 reports, this could be a significant 
reduction in funds for the Department, but the Department has 
now been given fair warning that these overdue reports will now 
be taken into account when the Subcommittee determines the 
budget.
    For the record I find it extremely unfortunate that we have 
to take this action, but I know of no other way to encourage 
the Department to follow through on its required obligation to 
the Committee.
    At this point, I will yield to Mr. Fattah for any comments, 
and then to Mr. Rogers, the full committee chairman, and Mrs. 
Lowey, the ranking member, and then to Judge Carter for his 
comments. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. And Attorney General 
Holder welcome again to the committee. I sent the President and 
yourself a letter referencing the Toyota settlement which was 
acknowledged, announced a couple weeks ago for $1.2 billion 
suggesting that the settlement could actually usher in a major 
opportunity for us to do something that this administration has 
pointed to and everyone on this committee has supported, which 
is that we need to do something to literally arrest the 
increase in our prison population. We need to do something 
about turning more young people into positive paths in our 
society. And that we are funding, you mentioned with the 
chairman's help each year, we're getting closer to 100 million 
a year, but that we could take a settlement like that and 
similar to what you did in the BP matter and do something 
constructive, which is to support some of the Nation's most 
significant youth mentoring organizations to expand their 
capacity. The White House has indicated that there are millions 
of young people who are not connected to any of these programs, 
like the Boys and Girls Clubs of America, Big Brothers and Big 
Sisters. We could go through the laundry list of great 
organizations. But the point was that, you know, we can't just 
complain about the increase in the prison population. Now it's 
rising to almost $7 billion in this year's budget request, 
which is double what it was, you know, just probably a decade 
or so ago. We have to do something about getting young people 
before they get themselves into circumstances that are 
problematic, getting them headed in the right direction.
    So I will be very interested to hear your view on this. 
Now, I actually have some bipartisan legislation that I've 
introduced that would talk about constructively using 
settlements like this for medical research and justice 
reinvestment activities and so on, but I think that the Toyota 
settlement is an opportunity where as some of my Republican 
friends say, you don't need a law for everything. Some things 
can just, you know, you can take executive action to do.
    So I mentioned this to you. I'll be interested in your 
response this morning. I want to thank you. I know you did a 
department-wide video in which you thanked Chairman Wolf and 
myself and our counterparts in the Senate for helping in the 
2014 bill to be able to lift the hiring freeze to 115,000 or so 
employees in the Department. It's not every day that members 
get thanked for the work they do, and I know it wasn't done for 
that purpose, but I want to acknowledge it.
    You've had a tremendous year, and I know sometimes it's 
hard to follow some of the criticism because most of the time 
what I'm hearing from Members, they're criticizing the 
interpretations of the law that has allowed our government to 
go after terrorists in the most aggressive way ever. And 
countries far and wide using all manners of weapons at our 
disposal, so sometimes when I hear Senator Rand Paul speak, 
he's criticizing you, and the chairman today said, well, you're 
not doing enough. So it's hard to find, I guess, the right 
medium. But this administration has tracked down and delivered 
justice to terrorists, and I think that's been acknowledged. 
And you just had a major success in the criminal courts in New 
York City just in the last 10 days. I want to congratulate you 
on that. But most Americans are not affected day to day by 
terrorist attacks. They're affected by everyday challenges in 
their communities, and I just want to say that for the 11,000 
such fugitives that you've arrested this year for a whole host 
of the activities that you've done in terms of some 3,400 drug 
operations, criminal organizations that you've rounded up, that 
the Department has done for Americans who are facing these 
kinds of day-to-day challenges, that you've been ever present, 
and I want to thank you for the work you've done.
    So we're going to have a hearing today. We're going to talk 
through your budget. What we are going to hear in this budget, 
you know, is that we are going to have to spend billions of 
dollars for national security purposes, and I think there's 
about 4 billion in your budget request for core national 
security operations. You have some 25,000 Federal agents that 
range from the FBI to ATF, DEA. The big number in there is this 
prison number that is ever growing, and you taking action 
inside the Department, the committee and the chairman and I 
have worked together on this, but he deserves the lion's share 
of the credit, have put in this last year's spending bill this 
prison reform effort; and I think that the time has come for 
our country to think anew about, not just in the Federal 
system, but in the State system too. You refer in your written 
testimony that there's a vicious cycle that takes place in many 
communities in which you have intergenerational poverty. And we 
are kind of perpetuating this cycle.
    We got to figure out how to intervene and interrupt it, and 
I'm arguing, and I've done this in private. Me and you have 
boarded all of the top youth mentoring agencies. You took the 
courtesy a year ago to meet with them. We can do so much more 
to get young people headed in the right direction before they 
ever get themselves in any kinds of untoward circumstances, and 
I think that's an investment we should make, and I think that 
you have it within your power to take action that could launch 
the most aggressive effort ever in our Nation to do so. So 
thank you, and we look forward to your testimony today. I thank 
the chairman.
    Mr. Wolf. Thank you, Mr. Fattah. Mr. Rogers, the chairman 
of the full committee.
    Mr. Rogers. Thank you, Mr. Chairman, and, General, welcome 
to the committee. Your request to the Department is 27.7 
billion. That's a slight 1 percent increase over fiscal 2014 
enacted. Understanding the difficult budgetary constraints 
under which you are operating, particularly the rapidly 
escalating costs within our Federal prison system, we look 
forward to hearing from you about the impacts of that flat-
funding level to the operational capabilities of our men and 
women on the front lines in those prisons, where these 
dedicated Federal law enforcement and intelligence officers are 
concerned.
    As members of this committee, we have a special 
responsibility, we think, to ensure we are prioritizing the 
mission and tying funding to results. Candidly, I'm concerned 
about a number of proposals and misplaced priorities which 
undermine the integrity of the request.
    First and probably most importantly, your budget proposes 
to absorb some $937 million in mandatory pay and retirement 
increases, foreign operations expenses, and GSA rent with 
unspecific amorphous ``administrative reductions.'' I believe 
that our colleagues on the Senate side referred to this tactic 
as ``smoke and mirrors.'' We won't stoop to that here. We'll 
just call it a budget gimmick. The reality is that you sent 
your budget over with a $1 billion-size hole that we're going 
to have to find a way to fill. That's not a very responsible 
approach to budgeting, particularly given the Department's 
critical responsibility to support its personnel with the 
tools, training and equipment necessary to carry out the 
security, intelligence and anti-drug missions that keep the 
citizens of the country safe.
    Second, I regret that you will not find much support here 
for the dozen new grant programs proposed in the budget or for 
any of the programs patently rejected by Congress in this 
year's omnibus bill. We absolutely need to support our State 
and local partners, but I fear your request is not placing a 
sufficient priority on the law enforcement or national security 
missions that are the keystones of your agency. Beyond my 
specific concerns about the budget proposal, I would be remiss 
if I did not register my concern that the administration has 
completely abdicated one of its chief responsibilities under 
the Controlled Substances Act. As the chief law enforcement 
officer of the country, Mr. Attorney General, it's incredibly 
disheartening to learn that you are not, in fact, enforcing the 
law. I suspect the committee will discuss at length your 
decision to allow distributors in Washington State and Colorado 
to dispense marijuana and your instruction to U.S. attorneys to 
deemphasize marijuana prosecutions.
    I am sure that you understand that more than contributing 
to a terrible public health and law enforcement crisis, you're 
undermining the rule of law in the country when you pick and 
choose which laws you choose to enforce or not enforce. I hope 
and pray that this does not leave a dark cloud on your legacy 
in this role, particularly given our many constructive 
conversations about drug abuse in the country. In fact, this 
runs completely counter to the Department's incredibly positive 
strides in recent years to beat back on the scores of 
prescription drug abuse that's crippling so many communities in 
our country. And I appreciate that you've lent your voice to 
this cause, engaging the law enforcement and public health 
communities, particularly as we have seen a transition from 
opioid pain killers to heroin in urban and rural areas alike. 
This is an alarming trend. We look forward to hearing from you 
about how DOJ is using the tools at its disposal to root out 
bad actors, whether they're street-level dealers or the variety 
that wears a white coat and a stethoscope.
    So thank for your time, Mr. Attorney General. We look 
forward to hearing from you.
    Mr. Wolf. Thank you, Mr. Chairman. Mrs. Lowey, ranking 
member of the full committee.
    Mrs. Lowey. Welcome, and before I begin I want to take a 
moment to send my condolences to the people at Ft. Hood, to my 
friend, Mr. Carter, who honorably represents, our service 
members and their families stationed at the base. All our 
thoughts are with you.
    To the matter at hand, I thank you, Chairman Wolf, Ranking 
Member Fattah, for holding this hearing. Thank you, Attorney 
General Holder, for coming before the committee this morning.
    You come before us today with a budget request of $27.4 
billion for fiscal year 2015, a 1 percent increase over 2014. 
Increases to the Federal Bureau of Investigations and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives would 
continue investments to investigate and arrest criminals and 
crack down on these who illegally use and traffic firearms. 
This is so critical. The security of our nation depends on 
adequate funding to these agencies. And while the Department 
combats terrorism and drug and weapons traffickers, you must 
also address what you describe as a vicious cycle of poverty, 
criminality and incarceration in which young people who have 
fallen off the right path have entered the juvenile and 
criminal justice systems. I agree with you that we must do a 
better job of focusing on rehabilitation so that those who have 
committed crimes can receive the punishment but also treatment 
and resources to have productive and law abiding lives.
    I thank you for raising the serious need for reform of our 
criminal justice system and note the budget requests 173 
million to support alternatives to detention, the non-violent, 
low-level offenses and invest in reentry programs. It also 
provides 100 million for the DNA initiative and 35 million for 
the new community teams to reduce the sexual assault kit 
backlog program.
    Mr. Chairman, I just have to bring attention, I think, as 
the only woman on this panel. It is shocking to me, I cannot 
understand it. I'd like a detailed response. How there could be 
400,000 rapes, evidence for which are sitting in a box on a 
shelf; 400,000 rapes in this country. Now, many of these, same 
guy could have been out there dozens of times, but you don't 
have enough money or time. This evidence, this DNA evidence, is 
sitting on a shelf? I frankly would like to follow-up on that 
and get a response. It's just astonishing to me. That this is 
not some Third World country. 400,000 rapes have taken place, 
and the evidence is on a box on a shelf.
    Lastly, I would be remiss if I did not mention the work of 
the Department to get guns out of the hands of the most 
dangerous among us. In the year since the horrors in Newtown, 
at least 194 children have been shot to death in America. And 
as we saw tragically at Fort Hood this week, these acts of 
violence continue. There is no reason for these deaths. There's 
no defense for them. I stand with you ready to do whatever is 
possible to end these tragedies and make our communities safer. 
Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mrs. Lowey. I now want to recognize 
Congressman Judge Carter who represents the area of Fort Hood.
    Mr. Carter. Thank you very much, Mr Chairman. Mr. Chairman, 
I am joined today by my colleague, Roger Williams. He also 
represents Fort Hood, and I'm very appreciative that the chair 
has allowed him to sit in on this hearing.
    The incredible Fort Hood family, and I say that because 
they are quite incredible, have endured not one, but two 
horrific, unimaginable shootings. The loss of life no matter 
what the number may be, is more than we can bear and quite 
frankly, more than this or any other community deserves to 
bear. We cannot let the worst of humanity wield a gun in a mad 
rage against their fellow soldiers and defeat the best of 
humanity that is always on display at Fort Hood in central 
Texas.
    Sadly, we are dealing with another tragic shooting at Fort 
Hood, almost in the very same place where 13 Americans lost 
their lives in November of 2009. The death of three soldiers 
this week, which left 16 others wounded is a stark reminder of 
the threat our military members are dealing with on a daily 
basis. But even more than that, each of these shootings strike 
at the soul of the American military. One of the things we 
sometimes forget is that the reason a soldier risked his life 
for his country is he is fighting for the soldier on either 
side of him. They call each other battle buddies. When they go 
to war, they go to war relying upon the fact that the man who 
wears their uniform is there to protect them, and they are 
there to protect him. And the strike both by Hasan and by this 
soldier strike at the very core of what soldiers rely upon. 
Young Americans go to war, 18, 19, 20-year old Americans, 
relying on the fact that if an American uniform is with them, 
that person is protecting them. And when someone in your own 
uniform strikes you or strikes your fellow soldiers, it strikes 
at the very heart of what they call the warrior ethos, that 
they go to battle because they are Americans with Americans, 
and they are fighting for their battle buddies. So these are 
much more important than a lot of us realize as it affects the 
very ability for Americans to fight wars.
    I thank the chairman for letting me make a statement here. 
I'm asking, and have been asking my fellow Texans as well as 
all Americans to please keep Fort Hood families in their 
prayers. You know, soldiers go to war together. Families stay 
home alone. They may really be stronger than the soldier they 
send to war. The coming days will be marked by mourning and a 
resolve to carry on. The community of Fort Hood has proven 
their resilience, and they will carry on to defend this great 
Nation, and we should never forget what they give for us. Mr. 
Chairman, I thank you.
    Mr. Wolf. Thank you, Judge Carter. I see our colleague Mr. 
Williams has arrived. Since 2013 he has represented the 25th 
district of Texas which includes part of Fort Hood and has been 
passionate about supporting our troops. Committee rules and 
longstanding practice stipulate that non-committee members 
cannot participate in committee hearings, but we wanted to 
invite him to hear the testimony of the Attorney General and as 
a matter of courtesy, offer him an opportunity to say a few 
words. So with that I ask unanimous consent that Mr. Williams 
be permitted to make a brief statement to the Subcommittee if 
he wishes and that his remarks be entered into the record. 
Without objection. Mr. Williams.
    Mr. Williams. Thank you, and thank you, Chairman Rogers, 
Ranking Member Lowey, Chairman Wolf, Ranking Member Fattah, 
members of the subcommittee.
    I appreciate you recognizing me and allowing me to give a 
short statement about an issue in my congressional district 
that is very near to my heart. As some of you may know, 
Chairman Carter, as you've heard earlier and I both represent 
Fort Hood, the Army's premier installation to train and deploy 
heavy forces and home for III Corps. Once again, we have seen a 
tragedy at Fort Hood, the great place as we called it back in 
Texas, and once again, we are witnessing the strength and 
resilience of a community of brave men and women who not only 
serve our country overseas in enemy territory, but right here 
at home around military posts around our great Nation.
    The attack yesterday at Fort Hood left three of our service 
members dead and 16 wounded. With the scars of the 2009 attack 
barely healed, we are once again dealing with the horrors of an 
unspeakable tragedy. Our prayers are with the fallen troops, 
those who were injured, and those who are still in recovery and 
the families of all those involved. Our thoughts are with the 
entire Fort Hood community and the great leadership team under 
General Milley as they stand together and push through this 
tough time. We also pray for the excellent medical team 
assisting the injured. The attack yesterday and the 2009 attack 
were not just attacks on our base, they were attacks on our 
troops, on the values and ideas our soldiers have sworn to 
defend.
    In 2009, we lost 14 innocent Americans; 12 military service 
members, one civilian, and one unborn child. Dozens were 
injured, and hundreds of lives were greatly altered forever. 
The Pentagon, with the advice and counsel of the Department of 
Justice, labeled the 2009 attack as workplace violence like a 
disgruntled employee taking out his anger on fellow co-workers, 
but the evidence and the trial proved otherwise. Hasan, in his 
own words, admitted that his intent was to harm and killed U.S. 
soldiers after he switched sides in what he called a U.S. war 
on Islam. He renounced his U.S. citizenship and his military 
oath. He told potential jurors that he supports the Taliban and 
Sharia law. Hasan was waving a red flag to show that his attack 
was a terrorist attack. It was premeditated. It was a planned 
attack presumably years in the making.
    This administration's workplace violence designation 
clearly favors political correctness over truth and justice. 
Nobody in America thinks this was workplace violence. They know 
it was a terrorist attack. By labeling an attack workplace 
violence, the victims of this attack have been denied the 
benefits, the treatments and awards their deployed counterparts 
received when wounded or killed overseas. We should correct 
this injustice by awarding the military victims the Purple 
Heart Medal and the civilian victims the Secretary of Defense 
Medal for the Defense of Freedom. Both awards would provide 
combat-related special compensation and the benefits that have 
been withheld from them. It is my hope that the Department of 
Justice will thoroughly investigate yesterday's attack on Fort 
Hood. We will never forget the victims of these horrific 
attacks, their families and the legacy of service and sacrifice 
they have left behind.
    So may God bless all the Fort Hood community during this 
time of mourning, and may those victims and families receives 
the justice they have earned and deserve. I yield back the 
balance of my time.
    Mr. Wolf. Thank you, Mr. Williams. I appreciate it. 
Pursuant to the authority granted in Section 191 of Title 2 of 
the United States Code in Clause 2(M)2 of the House Rule of 
Evidence, today's witness will be sworn in before testifying.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect that the witness answered 
in the affirmative.
    Mr. Attorney General, the Committee looks forward to 
hearing from you. I ask you to summarize your remarks, but you 
can proceed as you see appropriate. Thank you.
    Attorney General Holder. Good morning, Chairman Wolf, 
Ranking Member Fattah, Chairman Rogers, Ranking Member Lowey, 
Mr. Carter, Mr. Williams, and distinguished members of the 
Subcommittee. I want to thank you for the opportunity to appear 
before you today to discuss the President's fiscal year 2015 
budget for the United States Department of Justice and provide 
an overview of the Department's recent achievements and ongoing 
priorities.
    Despite significant challenges, the past year has been 
characterized by remarkable progress, from expanding civil 
rights for all Americans to holding private corporations 
accountable for wrongdoing. In the financial sector, concerns 
have been raised recently about a practice called high 
frequency trading. This practice, which consists of financial 
brokers and trading firms using advanced computer algorithms 
and ultra high speed data networks to execute trades, has 
rightly received scrutiny from regulators. I can confirm that 
we at the United States Department of Justice are investigating 
this practice to determine whether it violates insider trading 
laws.
    The Department is committed to ensuring the integrity of 
our financial markets, and we are determined to follow this 
investigation wherever the facts and the law may lead. Across 
the board, many of the Department's ongoing activities and 
recent accomplishments are notable, but none have been more 
important than our work to protect the American people from 
terrorism and other threats to our national security.
    I know we're all mindful as we come together this morning 
of Wednesday's mass shooting at Fort Hood. As I indicated 
yesterday, I have directed that the full resources of the 
Department of Justice, as well as the FBI, be made available to 
help conduct a very thorough Federal investigation. As we keep 
striving to achieve justice on behalf of our men and women in 
uniform by working to determine what happened this week and 
bring help and healing to those who need it, my colleagues and 
I will continue to do everything in our power to prevent these 
horrific and far too common tragedies from happening again.
    We will also remain steadfast in our commitment to ensure 
America's national security and to hold accountable those who 
seek to harm our Nation and its people. Last week, as was 
mentioned, the Department achieved a major milestone in this 
regard when we secured the conviction of Sulaiman Abu Ghayth, 
the son-in-law of Osama bin Laden, and a senior member of Al 
Qaeda on terrorism-related charges. We never doubted the 
ability of our Article III court system to administer justice 
swiftly in this case as it has in hundreds of other cases 
involving terrorism defendants, and its outcome vindicates the 
government's approach to securing convictions of the senior Al 
Qaeda leaders. It is my hope that this case will help lay that 
political debate--it's a political debate--to rest.
    The President's budget request would strengthen our 
national security work by investing a total of $4 billion in 
the Department's cutting-edge counterterrorism and national 
security programs, including $15 million in new funding to 
maintain and operate the FBI's new Terrorist Explosive Device 
Analytical Center facility in Alabama. It would also provide 
$173 million to support our efforts to strengthen the Federal 
criminal justice system through the groundbreaking Smart on 
Crime Initiative that I launched last August to make our 
criminal justice system more effective, more efficient, and 
more fair. This, in turn, would enable us to further invest in 
the outstanding work that's performed every day by dedicated 
attorneys and support staff in each of the Department's 
litigating division and United States attorneys offices.
    Thanks to their efforts during the fiscal year ending in 
2013, the Department collected a total of more than $8 billion 
in civil and criminal fines and penalties. This represents more 
than double the approximately $3 billion in direct 
appropriations that paid for our 94 U.S. Attorney's offices and 
main litigating divisions. During fiscal year 2012 and fiscal 
year 2013, the Department collected a combined total of more 
than $21 billion, a record amount for a 2-year span.
    And particularly in recent months, we have obtained a 
series of historic resolutions and taken other significant 
actions to ensure that we're serving as sound stewards of 
taxpayer dollars and protecting American consumers from fraud 
and other financial crimes.
    Last November, the Justice Department secured a $13 billion 
settlement with JPMorgan Chase & Company, the largest 
settlement with a single entity in American history to resolve 
Federal and State civil claims related to the company's 
mortgage securitization process. As a part of our ongoing 
efforts to hold accountable those whose conduct sowed the seeds 
of the mortgage crisis, the Department also filed a lawsuit 
against the rating firm S&P.
    Last month we reached, as has been indicated, a $1.2 
billion agreement with Toyota, the largest criminal penalty 
ever imposed on an automotive company. And just yesterday we 
announced a record $5.15 billion settlement with Kerr-McGee 
Corporation and certain affiliates and their parent, Anadarko 
Petroleum Corporation, including $4.4 billion for environmental 
cleanup and claims. This represents the largest recovery for 
cleanup of environmental contamination in the history of the 
Department of Justice. It holds the company and its 
subsidiaries accountable for decades of significant 
environmental damage and fraudulent attempts to evade 
responsibility for its actions, and it marks another critical 
step in our effort to protect the American people from all 
forms of fraud to combat corporate misconduct and to safeguard 
the environment.
    Now, as we move forward, I'm eager to work with this 
subcommittee and with the entire Congress to secure the timely 
passage of the President's budget, which provides a total of 
$27.4 billion in discretionary resources for the Department of 
Justice, including $25.3 billion for vital federal programs, 
and $2.1 billion for discretionary State, local and tribal 
assistance programs. This support will be essential to ensuring 
that we can continue to protect the American people and 
strengthen our criminal justice system.
    As you know, Mr. Chairman, fiscal year 2014 marks a 
critical year in the implementation of the Prison Rape 
Elimination Act, or PREA, as States will soon be required to 
comply with national standards for curbing sexual assault in 
prisons. The Department is committed to helping State and local 
governments overcome any challenges that they may encounter as 
they work towards implementing the national PREA standards, and 
with funding this committee has provided, has established a 
PREA resource center in order to assist with implementation, 
and we are confident that these standards which were the 
results of extensive public comment are attainable. The problem 
of sexual assault in prisons is too great to settle for 
anything less than an aggressive approach to implementing these 
key reforms.
    I want to thank you all for the opportunity to discuss this 
work with you today, and I especially want to thank Chairman 
Wolf for his exemplary leadership and for his support of the 
Department's work, and particularly our efforts to combat the 
heinous crime of human trafficking over the course of a long 
and distinguished career in the House of Representatives.
    Mr. Chairman, I have come to greatly value your advocacy on 
behalf of the Justice Department's essential mission and your 
high regard for the tireless career employees who make our work 
possible every day. Your expertise and your steadfast support 
of our public safety efforts, sometimes all by yourself or with 
Mr. Fattah, you were our saviors in 2013. You have been 
invaluable to the Department over the years, and upon your 
retirement from the House of Representatives at the end of this 
year, you will be greatly missed.
    So I want to thank you once again for your service and for 
your leadership. I would be happy to answer any questions that 
any members of the committee might have.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Wolf. Thank you very much. Because of the number of 
members, I'm just going to limit my questions to one or two, 
and then we'll get at the end those others. So I'm going to go 
quickly.

                             PRISON REFORM

    One, on the issue of prison reform, the committee, with Mr. 
Fattah, we had the prison reform commission named after Chuck 
Colson. Can you tell us the status of that? Because the quicker 
that thing moves, I think we have an opportunity to bring all 
sides together and really do something really bold and because 
of your support, I think there's an opportunity. So can you 
give us the update on where that is and how quickly we think we 
can get that thing moving?
    Attorney General Holder. Well, I think that the effort that 
is contained in what I call the Colson Initiative, is one that 
makes a great deal of sense. It's one that we certainly 
support. It's an important part of our efforts to improve the 
Federal corrections system. There is a task force that will be 
a nine-person, bipartisan blue ribbon panel that's made up of 
individuals with expertise in justice reinvestment and 
correction reform. So we'll focus on developing really 
practical, data-driven ways in which we can increase public 
safety. We anticipate that this is something that we will be 
able to put in place, I think, relatively soon.
    It is something, as I said, that enjoys my support and the 
support of people in the Department, and to the extent that we 
can work with you to make sure that we keep the work of that 
task force on course and responding and operating in a timely 
way, that is something that I look forward to. This is 
something that is consistent with what we're trying to do in 
our Smart on Crime Initiative, and I think it can have a 
profound impact on how we do our Federal corrections work.

                           HUMAN TRAFFICKING

    Mr. Wolf. Thank you. On the human trafficking, I have a lot 
of questions. Could you describe the Department's work on human 
trafficking and the kinds of cases you are seeing, and could 
you talk a little bit about how we can eliminate, you know, the 
whole issue of Backpage.com has come up at every hearing that 
we have had, and all of the groups that are working on this 
issue all believe that if we can't deal with the issue of 
Backpage.com and groups like that, we won't be able to deal 
with the issue. Can you tell us a little about where the 
Department is and particularly with regard to Backpage.com?
    Attorney General Holder. Sure. The fiscal year 2014 request 
includes $44.9 million for the Department's efforts to combat 
human trafficking. This is, for me, a top priority, for this 
department--a top priority. This is something that we take very 
personally. The Civil Rights Division, our Criminal Division, 
and our U.S. Attorneys' Offices brought 161 forced labor and 
sex trafficking prosecutions in fiscal year 2013. That's a 25 
percent increase over the last fiscal year, and it's the 
highest number of human trafficking cases on record.
    I share the concern that you have about Backpage and about 
other similar publications. There are First Amendment 
considerations that have to be taken into account if there is 
to be a legislative attempt to deal with this problem, but I am 
willing to work with the committee, with members like yourself, 
to try to come up with a way in which we can address this 
situation legislatively, and deal with the First Amendment 
issues that have been raised. It will require some careful 
legislating, but it's not beyond our capacity to do that. And I 
think that when one looks at what appears on those pages and 
others like it, a legislative response, an enforcement 
response, is totally appropriate.

                 COUNCIL ON AMERICAN-ISLAMIC RELATIONS

    Mr. Wolf. Okay. The last question is, and then I'm going to 
go to Mr. Rogers. Last year the Department was directed to 
follow the lead of the FBI to keep distance between government 
officials and individuals or organizations associated with the 
support of terrorist activities, such as the Unindicted Co-
Conspirator Council on American-Islamic Relations. Director 
Comey testified last week that this policy was enforced 
throughout the FBI. Could you confirm to the committee that 
such a policy has been implemented throughout the Department of 
Justice?
    Attorney General Holder. There is not, I don't think, a 
formal policy with regard to our interaction with CAIR in 
particular. We meet with a number of groups in our attempt to 
deal with the problem of home grown violence radicalization. We 
don't have a formal relationship with CAIR. I cannot say 
categorically that we don't have meetings among our various 
U.S. Attorneys' Offices around the country where members of 
that organization might be present, but we don't have any 
formal relationship with CAIR.
    Mr. Wolf. Mr. Fattah.

                            YOUTH MENTORING

    Mr. Fattah. Thank you, Mr. Attorney General, and let me 
congratulate you again on the settlements that you mentioned. I 
want to talk to you about the Toyota settlement. Toyota is a 
big supporter of youth mentoring. The administration is a big 
supporter of youth mentoring. I've sent you a letter on this 
matter, and I would like to have you comment on it.
    Attorney General Holder. Yes. Certainly you have been a 
leader in supporting these vital programs. We have had, as you 
indicated, meetings to talk about this whole question of youth 
mentoring. I share your concerns about how we can keep our 
young people both safe and productive and have them interact 
with very positive role models. Too many of our young people do 
not have positive adult mentors and role models in their lives.
    I know that I have staff that is reviewing your legislative 
proposal, and I've committed to getting back to you with what 
our views are on your legislation. I think that we want to look 
at these fines and settlements that we are bringing in and see 
how we can make best use of them. I think your legislative 
proposal is a very interesting one, so give us a bit of time to 
look at it.
    Mr. Fattah. I appreciate that, but as my Republican 
colleagues always say, you don't need a law for everything. 
Right. So I do have a legislative proposal. It's bipartisan. We 
have got every important organization in the country supporting 
it, and I hope one day that we can pass it in the Congress. But 
in the meantime, when the Department is coming to terms, like 
for instance, in the Toyota matter, there could be, as you did 
in the BP settlement, the fine could be put in place and it 
could be directed. And it would not, as I would understand it, 
require the Congress to act. That is, if you take the 
administration which said at the White House Summit on 
Mentoring that you wanted to expand mentoring programs, that 
there are 6 or more million young people who could use positive 
intervention and are not connected to any of these programs.
    So you have some programs who are expanding. First, TGA is 
a good example, TGA. They've raised over $100 million. They are 
doubling their involvement from 5,600 schools to well over 
11,000 schools this year. Boys and Girls Club have doubled the 
number of clubs around the country. But still we need to do a 
lot more. So what I'm suggesting is rather than--you know, the 
President said that this was going to be a year of action. Here 
is an opportunity in which you don't need to get 218 votes in 
the House or 50 plus 1 in the Senate, that the DOJ itself could 
act to, in concert with fulfilling your responsibilities, but 
also in concert with your other stated goals, which is to 
eliminate this vicious cycle, to stop growing our prison 
population.
    You know, the problem with locking up criminals is you have 
to have victims. You know, so if we could intervene earlier, it 
would make a lot of sense.
    So I appreciate the fact that the legislative proposal is 
going to be reviewed. And I know my colleagues here, and I hope 
one day that we will get a fair hearing, and I think we will, 
on that bill. But I am suggesting that we should act sooner 
than that.
    Attorney General Holder. Yes. What I would say is that we 
will look and see what degree of discretion we have. But I 
would note that when it came to the distribution of BP money 
that was directed at the cleanup, that was pursuant to a 
legislative enactment that Senator Landrieu was especially 
instrumental in getting passed.
    Mr. Fattah. And I will leave it there, you know, because we 
do have other Members.
    But there are numerous circumstances where settlements take 
place. So if you take the Toyota settlement, those dollars are 
not being directed in any particular direction. There is no 
restitution or purpose to them; they are just going to go in a 
hole and they are going to--you know, so they weren't 
appropriated dollars, they are not taxpayers' dollars, they 
weren't expected. They come out of the hard work of your 
department and a sense among the leadership of Toyota to settle 
the matter, right.
    So what I am saying is here is an opportunity for us to 
impact the lives of millions of young people, and it can be 
done in a way in which we don't have to go through the normal 
process in which the White House tries to get an initiative 
passed through the Congress.
    So thank you, and I hope you would fully examine it.
    Attorney General Holder. Sure, we will examine it. And I 
look forward to working with you. There is no question that the 
desire that you have is one that I share, that we share. And we 
will try to work together on what the mechanism might be.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Attorney General, I want to talk to you about 
prescription drug abuse, both of our favorite subject, it 
seems.

                      FDA DRUG SCHEDULING DECISION

    We have had some real changes in that war, if you will, in 
the last few days, when the FDA, after 10 years of pushing by 
DEA and Attorney General and me and others, finally upscheduled 
Vicodin and Lortab, hydrocodone opioid medicines, from Schedule 
III to Schedule II, which is significant because a Schedule II 
drug requires a written prescription, can't be called in, there 
is no automatic refill, harsher penalties for trafficking, and 
so forth.
    So it was a big-time victory for the fight against 
prescription drug abuse, which the Centers for Disease Control 
calls a national epidemic and which you recently said is an 
urgent public health crisis, with which I agree with you.
    But the day after FDA upscheduled these hydrocodone drugs, 
like OxyContin, the next day, inexplicably, the FDA Director 
allowed the sale of Zohydro, a new, extremely potent, 10 times 
OxyContin's strength, is to be released with no abuse-deterrent 
characteristics.
    You know, when we had a problem with OxyContin, finally 
Purdue Pharma, the manufacturer, agreed to make it under a new 
formulation that is sort of like a gel or a gummy substance, 
can't be shot up or crushed or misused, like it had been, 
killing thousands.
    People then switched illicit use to Opana until it was 
reformulated. And now they are switching to heroin because it 
is cheaper and all of that and you can't get a high, you can't 
use Opana and OxyContin like you used to for a high by crushing 
the 12-hour release into a single explosive use.
    But Zohydro--hydrocodone, opioid, 10 times more powerful 
than OxyContin--will be available in its regular form, which 
can be crushed and shot up and kill.
    The FDA's advisory committee on this question, should we or 
not, voted 11 to 2, no. They said, we are worried about the 
impact of this drug on people who don't know its power or its 
addictability and, consequently, they die from an overdose.
    Can you help me out? Am I missing something? Why did the 
FDA do this? And what can we do about it? And what do you 
think?
    Attorney General Holder. Let me first say that, as I have 
indicated previously and have talked about more recently, the 
concern I have and that I share with you about opioids and 
where they are ultimately leading our country, their abuse, in 
and of themselves, has had a devastating impact on our country. 
And the chain that we see developing between the use of 
opioids, misuse of opioids, and the now-growing heroin problem 
is one that I think we cannot ignore.
    I am only familiar with the decision of the FDA on the 
basis of what I read in the newspapers, and I need to 
understand it a little more. I am a little baffled, given the 
progress, as you have indicated, with regard to the 
reformulations of other substances that had been abused and 
were changed, such that crushing them caused them to no longer 
be used in the way that they had been when people were becoming 
addicted.
    It is something I have to examine a little more and get a 
little more understanding of what the decision was. But if it 
is inconsistent with the efforts that we have painstakingly put 
in place, that is something that would give me great concern.
    As I said, I need more information to understand what 
happened, but I have to say that I do at least share your 
concerns about that decision.
    Mr. Rogers. Well, I appreciate that.
    The pattern that we have seen so far in opioid abuse, first 
OxyContin, which exploded in my district, I think probably 
ground zero for the country, 10, 12 years ago, finally we were 
able to bring it under control, OxyContin, by the reformulation 
of the medicine. And then, as I have said before, Opana took 
over, and then it was reformulated.
    And now Zohydro, which FDA says, oh, well, we will put 
labeling on the bottles to where it won't be abused, we will 
have instructions to doctors and so on, and it will be very 
restricted in who can use it and so forth. That was said about 
OxyContin 12 years ago. And then I started going to emergency 
rooms and seeing kids die.
    And I fear that this Zohydro in straight pill form--you can 
crush it and shoot it up, chew it, whatever--will be abused 
just like OxyContin was, and we are going to see more young 
people die.
    And so I urge you to put this on your front burner. I know 
it is already. You have been very helpful. In fact, you and I 
have talked many times about the efforts that you and others 
made in south Florida, in Broward County, Florida, in shutting 
down the pill mills, which was furnishing 90 percent of the 
Nation's illicit OxyContin. And you stepped in and did a whale 
of a job, along with the U.S. Attorney and the State Attorney 
General down there and the Governor, in putting an end to it.
    But this one could be another OxyContin, except this one is 
10 times more powerful.
    Attorney General Holder. Yes, again, Mr. Chairman, I guess 
I want to get some better understanding of what was behind the 
decision, but I think the concerns that you have raised are 
legitimate ones, and especially given the progress that we have 
made. I would not want to see us take a step backwards.
    And so we will be checking with the FDA to see if we can 
better understand what the basis for that decision was or if 
there is some understanding or misunderstanding that I have 
about why they did what they did.
    Mr. Rogers. I hope you can do more than just check with 
them. Could you tell us that you will get back to us with a 
report on where we stand with it and what we can do about it?
    Attorney General Holder. I will interact with the FDA and 
will then report on that interaction back to you, Chairman Wolf 
and the ranking members.
    [The information follows:]

                     Report to Congress on Zohydro

    Since this issue concerns national drug policy, and not just FDA, 
the Department of Justice contacted the Office of National Drug Control 
Policy (ONDCP) with regard to the approving of the drug Zohydro. ONDCP 
has indicated that it will monitor Zohydro prescribing and any 
diversion activity.

    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. I am going to go to Mrs. Lowey, but I agree with 
the chairman. And, boy, you moved quickly. About 2 years ago, 
you were down in south Florida and you did a great job, you 
really did. And if you could do the same thing here, you get an 
A-plus, and that would be very good.
    Mrs. Lowey.
    Attorney General Holder. We had a significant hearing with 
Mr. Rogers----
    Mr. Wolf. Yes, you did.
    Attorney General Holder [continuing]. That spurred that 
action.
    Mr. Fattah. That is an understatement.
    Mrs. Lowey. Well, Mr. Attorney General, I would like to 
give you an A-plus, too.
    Mr. Rogers. Will the gentlelady yield briefly?
    Mrs. Lowey. Of course.
    Mr. Rogers. You know, at that hearing, we were hollering 
about Broward County, Florida, being the place where most of 
the pills were coming from, OxyContin, and we asked the 
Attorney General in a modest way to investigate and see if he 
could put a stop to it. And we kept referring to Broward 
County, and I said finally, ``Do you want me to spell `Broward 
County' ? ''
    Well, I got a note from the Attorney General maybe 6 or 8 
months later after they had gone in there and really cleaned up 
the mess, and he was describing what they had done down there, 
and he put a handwritten P.S. Note at the end saying, ``P.S. I 
learned how to spell `Broward County,' Florida.''
    Mrs. Lowey. Thank you.

                            RAPE KIT BACKLOG

    Mr. Attorney General, I want to give you an A-plus, too, 
following up on the issue I referenced before. As I mentioned, 
there are an estimated 400,000 rape kits sitting in police 
department evidence rooms which have gone untested. With the 
cost starting at $500 and many substantially higher, many 
communities are months, if not years, and in some cases, 
decades, behind on testing the rape kits. In the meantime, 
violent criminals are free. Victims remain fearful that their 
assailant might never be found. This is truly outrageous.
    I think you probably are aware that New York City 
eliminated its backlog in 2003. They had 17,000 untested kits. 
The arrest rate for the rapists went from 40 percent to 70 
percent.
    Now, the budget request includes funding both for the DNA 
initiative as well as a new grant program designed to help 
communities identify the obstacles they face in handling 
evidence of rapes and testing rape kits.
    Can you tell us, how will the newly proposed grant program 
address these needs? What makes it different from the DNA 
initiative which is already up and running?
    Attorney General Holder. Well, first, let me say that the 
whole question of dealing with sexual assaults is one that is a 
priority for this department and for this administration. We 
are dealing with the issue in a variety of contexts; on 
campuses, for instance--we have a task force that is dealing 
with the issue there.
    And this question of reducing the backlog on rape kits is 
something that is extremely critical. This is, in some ways, 
the best evidence that we have. This is state-of-the-art 
evidence that exists. It is DNA evidence.
    And so the budget request that we have made is in an 
attempt to really speed up the process by which we look at this 
backlog that exists in a variety of jurisdictions and give 
assistance to those jurisdictions so that they can do the 
necessary analysis, make the necessary hits that I inevitably 
flow from them, and be more successful in the prosecution.
    The statistics that you mentioned are not surprising. If 
you have better evidence, if you have DNA evidence, which is 
the gold standard when it comes to evidence, I expect that you 
would see conviction rates start to rise. So this is money that 
we want to have as part of the DOJ budget. It is money that we 
want to push out.
    We also know that rapists tend to commit rapes more than 
once. And so we are looking at the possibility of solving more 
than one case. We have within our hands the ability to have a 
real impact on the crime rate with regard to rape. It is not 
only a question of solving crimes that have already occurred; 
we can also prevent further crimes from occurring.
    Mrs. Lowey. Thank you.

                  BACKGROUND CHECKS FOR GUN PURCHASES

    One other question. I am a strong supporter of universal 
background checks. And in addition to making the background 
check system a requirement for purchases, the system itself has 
to work and it has to rely on the best information available.
    Secretary Hagel recently announced that the deadly Navy 
Yard shooting could have been averted if information about the 
gunman had been made available. The report stated that 
superiors decide not to inform the government of the gunman's, 
quote, ``emotional, mental, or personality condition,'' even 
after they received concerns that he could harm others.
    Secretary Hagel's review found that the gunman would have 
lost access to his position and the secure area. But it still 
leaves the problem that he walked into a store after these 
demons were known, purchased a deadly firearm, now 12 people 
are dead.
    And while it is too early to draw any conclusions, the 
commander of Fort Hood has said that the shooter had behavioral 
and mental health issues and was receiving treatment, though he 
was recently able to purchase a firearm.
    Could you share with us, what tools or authority does the 
NICS system need in order for it to represent in realtime the 
most accurate information and mental health histories for those 
seeking to purchase a firearm?
    Attorney General Holder. Let me start by saying that, more 
generally, I think that, as a Nation, we should support the 
commonsense proposals that the administration made after the 
Sandy Hook tragedy and come up with ways in which we might 
support these commonsense gun safety measures.
    When it comes to dealing with the whole question of mental 
health issues and the acquisition of firearms, we have recently 
proposed a regulation that seeks to clarify who, due to mental 
health reasons, is prohibited from receiving, possessing, 
shipping, or transporting firearms.
    The revised definition that we have proposed clarifies that 
the statutory term ``adjudicated as a mental defective and 
committed to a mental institution'' would include a broader 
range of people so that people who suffer from mental health 
issues--and there are at least preliminary indications that 
might be the case with regard to the most recent shooter at 
Fort Hood--don't have the ability, or the capacity to acquire 
these weapons. And so that regulation that we have proposed, we 
think, will go a long way to dealing with that issue.
    But I also think that it is something that we as a society 
have to ask ourselves, again, the more general questions and 
then the more specific one with regard to how do we deal with 
the whole question of mental health and the Second Amendment 
rights that we all enjoy as United States citizens.
    Mrs. Lowey. Yeah, and just following up, what are the next 
steps that Congress should take to open up the NICS system so 
that those who pose a risk to others are more quickly entered 
into the system?
    Attorney General Holder. The way in which I think we can do 
this--we have $182 million in our budget in our ``Now is the 
Time'' initiative to ensure that those who are not eligible to 
purchase or possess guns are prevented from doing so.
    Our budget proposal includes $35 million to sustain 
critical investments in 2014, $13 million for the FBI's 
national criminal background check system, NICS, and $22 
million for ATF's firearms program. The passage of our budget 
will give us great capacity for the NICS system to take in more 
information, to process it faster, and to make those kinds of 
on-the-spot determinations of who should and who should not be 
allowed to obtain a weapon.
    The passage of our budget will bolster our ability, enhance 
our ability, and make the NICS system much more robust.
    Mrs. Lowey. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.

                    MENTALLY ILL OFFENDER TREATMENT

    I am going to go to Dr. Harris, but I just want to note 
that the Mentally Ill Offender Treatment and Crime Reduction 
Act was a bipartisan approach to better addressing mental 
illness in the criminal justice system. It has been around for 
10 years. It gets little support, quite frankly, from the 
administration.
    And, unfortunately, the administration's budget proposes 
that funding for the Mentally Ill Offender Treatment and Crime 
Reduction Act be eliminated and instead combined into a drug 
and mental health courts program, which would effectively 
exclude 60 percent of the key elements of the program.
    So I think the administration has taken a wrong position, 
really, to propose the consolidation, and I would ask you to 
kind of think about that as we work through this budget.
    Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary, for being here with us today.

                 CONTROLLED SUBSTANCES ACT ENFORCEMENT

    Let me follow up a little bit on what the chairmen of the 
subcommittee and committee both mentioned, basically controlled 
substance abuse, and particularly about the enforcement of the 
Controlled Substances Act.
    Obviously, a decision was made in the Department of Justice 
not to enforce the Controlled Substances Act broadly in States 
that have legalized recreational marijuana. So I am just going 
to ask, where was the medical expertise that you used in making 
that decision?
    I mean, I assume you didn't spread that decision to other 
Schedule I drugs--you know, Quaalude, mescaline, ecstasy, 
heroin. So was there a medical decision-making process in 
selecting that drug for selective enforcement, that Schedule I 
drug?
    Attorney General Holder. Well, what I would say is, first, 
that we still enforce the Controlled Substances Act. What we 
made was a law enforcement decision.
    Mr. Harris. Right. That is right. So making that law 
enforcement decision to pick out one Schedule I drug as opposed 
to the other ones, was there medical input into that? It is 
just a simple question. Did you have medical input within the 
Department?
    Attorney General Holder. What we made was a law enforcement 
decision as to how we were going to use the limited resources 
that we have----
    Mr. Harris. Well, then--thank you. I am going to urge that 
you take up the chairman of the subcommittee's offer to sit 
down and meet.
    You know, Dr. Volkow, testifying in front of this 
subcommittee, you know, the Director of the National Institute 
on Drug Abuse, calls marijuana part of a complex and evolving 
public health threat.
    I don't know, Mr. Secretary, if you are aware, but if you 
talk about teenagers, 15.6 percent, 1 in 6 teenagers has used 
marijuana in the last month. Only 9.6 have used tobacco. If you 
look at 12th-graders, 6.5 percent use marijuana every day. Only 
2.2 percent use alcohol every day. Wow, that is a public health 
threat. And, you know, the importance of signals can't be 
underestimated.
    So I am going to ask you, do you agree with the President 
that marijuana is less dangerous than alcohol?
    Attorney General Holder. Well, I think the President's 
remarks in that regard are taken a little out of context. You 
have to read the entirety of what----
    Mr. Harris. Sure. Let me read the rest of it. He said, 
``Marijuana is less dangerous than alcohol in terms of its 
input on the individual consumer.''
    Do you agree with that?
    Attorney General Holder. Well, as I said, you have to keep 
reading what the President said, and he----
    Mr. Harris. That is what he said, Mr. Secretary. I am 
quoting what he said.
    Mr. Fattah. Excuse me. Can we let the witness answer the 
question, Dr. Harris?
    Mr. Harris. If you want to yield me some of your time, I 
would be more than----
    Mr. Fattah. I will gladly yield you time for any of your 
questions. Just allow him to answer.
    Mr. Harris. Then I will take you up on that offer later to 
yield me the time to finish my questions. Thank you.
    Mr. Secretary, go ahead, because I thought I read it in the 
context in which he said it.
    Attorney General Holder. There were further remarks, which 
I don't have in front of me, that were a part of that same 
interaction, I guess he had with a TV reporter--I am not sure 
exactly who it----
    Mr. Harris. New Yorker.
    Attorney General Holder. He talked about how the use of 
marijuana was not a good thing. It was something that he was 
not advocating. So, in that regard, you know, I think the 
President had it right.
    We look at the limited Federal enforcement resources that 
we have; we try to make determinations about how we can most 
effectively deal with them. We set out a series of eight 
factors that indicated how we would look at our marijuana 
enforcement efforts around the country, and we focus on things 
like preventing the distribution of marijuana to minors. That 
is one of the eight factors that we take into----
    Mr. Harris. Thank you. And, you know, the Administrator of 
the DEA testified that there were those eight factors.
    I will just ask you again: Do you agree with the 
President--or do you agree with the Director of the National 
Institute on Drug Abuse that marijuana is, quote, ``part of a 
complex and evolving public health threat''? Do you just agree 
with that statement? It is not a complicated question. Do you 
agree that it is part of a complex and evolving public health 
threat?
    Attorney General Holder. I think what we have done and are 
doing--the way in which we are looking at those laws in 
Washington and in Colorado, and the enforcement priorities that 
we have set out--makes a great deal of sense and is a good use 
of the enforcement resources that we have. And I think it is 
consistent with the general approach that we have taken with 
regard to our narcotics enforcement efforts.
    Mr. Harris. Okay. So I take it you won't answer the 
question. I can't blame you, because, you know, it would be all 
over the press tomorrow, you know, what the Attorney General's 
opinion is on the danger of marijuana.

                         GUN SAFETY TECHNOLOGY

    Let me just talk very briefly about two other issues, very 
briefly. The $182 million in the initiative to reduce gun 
violence. In your testimony, you say there are grants to, 
quote, ``encourage development of innovative gun safety 
technology.''
    Is that part of that pot of $182 million?
    Attorney General Holder. I believe it is.
    Mr. Harris. Okay.
    It also says, other parts of your testimony, the budget 
requests $147 million to help State and local governments 
continue to implement the administration's proposals for 
increasing firearm safety.
    That is separate, I take it.
    Attorney General Holder. I am not sure exactly how it is 
constructed, but----
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harris. If you could get back to me about that.
    So those grants to encourage the development of innovative 
gun safety technology, where do they come from, where do they 
go to?
    Attorney General Holder. Where do the grants----
    Mr. Harris. Where do they come from? Which part of the 
Department of Justice? And where do they go to? Is it a 
competitive proposal process? Is it, you know, worked out with 
the NIH, with CDC? Is it mechanical issue studies? I don't 
understand what the money is spent for.
    Attorney General Holder. I think that is one of the things 
that we learned when we were trying to get passed those 
commonsense reforms last year. Vice President Biden and I had a 
meeting with a group of technology people and talked about how 
guns can be made more safe, either through fingerprint 
identification, or the gun talks to a bracelet or something 
that you might wear, or how guns could be used only by the 
person who is lawfully in possession of the weapon.
    It is those kinds of things that I think we want to try to 
explore so that we can make sure that people have the ability 
to enjoy their Second Amendment rights while, at the same time, 
decreasing the misuse of weapons that lead to the kinds of 
things that we see on a daily basis, you know, where people, 
kids especially, are struck down by----
    Mr. Harris. Sure. No one wants that to occur. And, you 
know, we looked at that in the State of Maryland well over 10 
years ago.
    And I just would like--and I will submit a question for the 
record--to actually separate out how much you intend to spend 
on those grants for gun safety technology.

                    LOUISIANA SCHOOL VOUCHER PROGRAM

    Mr. Harris. Just finally, one very brief question. You ask 
for an increase in the Federal civil rights enforcement 
division. I am going to assume, and maybe I am incorrect, is 
that the division that actually was in court against the 
voucher program in Louisiana, school voucher program? Was that 
out of the Civil Rights Division?
    Attorney General Holder. You buy into a premise that is not 
correct. That was not the division that was doing anything of 
that nature in Louisiana. We were seeking to get from the State 
of Louisiana information about their voucher program. We never, 
ever took the position that we were against vouchers----
    Mr. Harris. Is it that the division that went into court in 
Louisiana to ask for that information? These are not 
complicated questions, Mr. Secretary.
    Attorney General Holder. No, and they are answers that I 
would----
    Mr. Harris. I meant Mr. Attorney General.
    Attorney General Holder. What I was saying is that we never 
sought to do anything with the voucher program as much as to 
get information----
    Mr. Harris. Okay. Is----
    Attorney General Holder [continuing]. And which a Federal 
judge ultimately agreed with us, and we had worked out 
something with the State.
    It is a talking point that Governor Jindal and others, I 
guess you, think makes good political fodder, but it is totally 
inconsistent with the facts----
    Mr. Harris. Mr. Attorney General----
    Attorney General Holder [continuing]. Inconsistent with the 
facts.
    Mr. Harris. Mr. Attorney General, I am going to take issue 
with that.
    Attorney General Holder. Well, as I have----
    Mr. Harris. I actually care about the education of 
children, as Governor Jindal does. And to suggest that we use 
talking points any more than you use talking points is 
personally something I think should be above the level, to just 
have suggested that I am actually using a talking point.
    Mr. Attorney General, you used Federal money to go into a 
State court to try to hinder, hamper, disable a school voucher 
program, the majority of which goes to minority students. So I 
am going to just take issue with your characterization of a 
talking point, because we should use children, especially 
minority children--you can shake your head all you want. Maybe 
you disagree that we shouldn't use minority children as wedges.
    I just can't tell you how frustrated I am that you think 
that minority children in Louisiana getting an education in a 
charter school are talking points.
    I yield back the balance of my time.
    Attorney General Holder. First off, it was in a Federal 
court, not a State court. The judge, the Federal judge, agreed 
with us that we were entitled to the information that we 
sought.
    And we were clear in the interaction that we had with the 
State that we took no position with regard to the voucher 
program; we only sought information about how the program was 
being run and how it affected a longstanding statewide anti-
discrimination settlement that had been in place for years. 
Simply that. Simply that.
    Mr. Wolf. Mr. Schiff?
    Mr. Schiff. Thank you, Mr. Chairman.
    Thank you, Mr. Attorney General, for being here. Many of us 
greatly appreciate your willingness to come and your testimony 
and regret when Members don't give you a chance to answer the 
questions that they purportedly want to hear the answers to.
    I wanted to follow up on my colleague Ms. Lowey's comments 
on the DNA rape-kit backlogs. And thank you; the Justice 
Department, along with this committee, was very helpful in Los 
Angeles when we had a rape-kit backlog problem at LAPD and the 
L.A. Sheriff's office, with more than, I think, 10,000 rape 
kits. And, with your help, we were able to clear that backlog.
    More than that, I know when you took office there was a 
tremendous backlog in offender DNA. And through introduction of 
new technologies and investment of resources, you have been 
able to essentially eliminate the offender DNA backlog. And 
that is critical also in rape cases. If you go ahead and you 
test the rape kits, they are only going to be as effective as 
the offenders that match them in the database. So eliminating 
that Federal backlog was very important, and we greatly value 
your efforts to eliminate the backlog in the States, as well.

                            METADATA REFORM

    I wanted to ask you about the metadata reform. And I know 
you have been spearheading the effort to find a new model for 
how we could get the information we need to protect the country 
but make sure we maintain our privacy protections. And I think 
the plan the President announced a week or so is exactly the 
right direction to go in.
    The one difference, I think, substantial difference, 
between what the President has proposed and now a bipartisan 
proposal of the Intelligence Committee is that the 
administration's proposal would have the court review a request 
to query the telephone companies on a suspect number before the 
search is done, in the absence of an emergency or exigent 
circumstances. I think that is the right approach.
    There is a bill from the committee now that would allow the 
government to go to the providers before getting court 
approval. But, as I understand it, the administration has 
already put into practice the prior court approval, and we have 
had now the benefit of some weeks of experience with that.
    And I wanted to ask you, have you noticed any problems with 
that? Have there been any difficulties? And if not, does it 
make any sense to move backward to a model where you can search 
without getting prior court approval?
    Attorney General Holder. Well, I think that the new 
processes that we are using have proved to be effective. We go 
to the court first with the ``reasonable, articulable 
suspicion'' standard, and get the information that we need. We 
only use two hops now, instead of three. I have not heard any 
negative reports.
    Though I have to say that I agree with the legislative 
proposal that you have made. It is consistent with what the 
President talked about, about our need to have that emergency 
capability, for the ability as we have now in a variety of 
other FISA circumstances, to get information on an emergency 
basis with, perhaps, some subsequent court approval and review, 
just to ensure that we can have all the tools that we need to 
keep the American people safe and to deal with those emergency 
situations where they might arise.
    Mr. Schiff. Thank you, Mr. Attorney General.
    Mr. Chairman, do I have time for another question?
    Mr. Wolf. I have never used the gavel, but we are trying to 
make it through----
    Mr. Schiff. Oh, then, Mr. Chairman, I will yield back.
    Mr. Wolf. And I just wanted to--there is going to be a 
vote. I am going to stay. I am going to miss the vote.

                            CHARTER SCHOOLS

    But I want to defend Dr. Harris. I think the charter 
schools' tuition, the voucher is really important. I have been 
in some of the schools in the District of Columbia; it is 
making a difference. In my old neighborhood in Philadelphia, 
where Mr. Fattah knows well--I mean, that is an opportunity for 
kids in the inner city to get an education. I was the first in 
my family to go to college, and education gave me--so I think 
Dr. Harris is passionate about that.
    And so, in defending Dr. Harris, I think that is what he 
was concerned about. We don't have to go into it, but----
    Attorney General Holder. Let me just make clear----
    Mr. Wolf. Yeah.
    Attorney General Holder [continuing]. My only point was 
that what happened in the court case in Louisiana was not about 
charter schools, not our view of charter schools.
    Mr. Wolf. Okay.
    Attorney General Holder. We can certainly debate about 
charter schools, support them, whatever. That is not of any 
consequence to me or to the Department of Justice. We were 
seeking information about charter schools that dealt with a 
court order, a longstanding discrimination court order.
    Mr. Wolf. Okay. I just wanted to defend Dr.----
    Mr. Fattah. Mr. Chairman? I just think there probably would 
not be a need for your action if there could be just a normal 
question and an answer. And I think the fact that the rush, 
kind of, increased the heat unnecessarily, because I think that 
the answer would have been sufficient to Dr. Harris' question.
    And I appreciate Dr. Harris, and I have told him privately 
he has been one of the most committed members of the 
subcommittee. He has----
    Mr. Wolf. I agree.
    Mr. Fattah [continuing]. Been at every hearing. But when we 
ask the witness a question, the witness has to have a chance to 
answer the question. And then we can have, you know----
    Mr. Wolf. Well, I agree with that. But I know he has been 
one of the better Members we have had, and I know he is 
passionate on the issue. And I think we all, frankly, we want a 
Congress full of people who care, not just people who want to 
get here to do nothing, and he cares. And so I wanted to defend 
Dr. Harris, that I disagree.
    Attorney General Holder. Sure.
    Mr. Wolf. With that, I am going to stay. There is a vote 
on, but it is the previous question, and out of respect for the 
Attorney General. But Dr. Carter and then--Judge Carter--we 
will kind of go and--but I am going to stay, so we can 
continue. That way, you won't have to----
    Mr. Carter. Thank you, Mr. Chairman. I was going to ask you 
if we were going to take a break for the vote or not.
    Mr. Wolf. Well, I can catch you as you come back. You won't 
miss your time. So you can do what you think is appropriate.
    Mr. Carter. Well, I have pretty extensive questions here, 
and I would hate to miss the vote.
    Mr. Wolf. Okay.
    Mr. Carter. So I would like to step out and vote and come 
back.
    Mr. Wolf. Sure. Absolutely.
    If anyone on your side would like to--Mr. Schiff, do you 
want to ask your question now? You can do it, because I think 
there are still 6 minutes left.
    Mr. Fattah. There is time for your final question.
    Mr. Schiff. I would defer to Mr. Honda.
    Mr. Wolf. Okay.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chair. And I appreciate the 
candid discussion we had here just a while ago.
    And welcome, Mr. Attorney General. Appreciate your work 
also.

                       IMMIGRATION COURT BACKLOG

    The question I have was around immigration. And, in your 
testimony, you referenced your work on addressing the 
immigration backlog. And you are applying some money toward it 
because the cases that we have right now pending adjudication 
grew by about 40, 42 percent between 2009 and 2012, but the 
number of immigration judges grew only by 11 percent. So I 
understand that you want to use some of the money to upgrade 
and increase the number of immigration judges. And I understand 
that, even if we upgrade them today, there are so many who are 
in line to retire.
    So my question is, you know, how many judges are we looking 
at? How will it reduce the backlog? And is there a plan to, you 
know, backfill the ones that are in line for retirement?
    Attorney General Holder. Yes. EOIR certainly needs more 
immigration judges to deal with the pending caseload. If you 
look at the number of pending cases, it has continued to 
increase to 358,000. That is an increase of 56 percent since 
2009. Our highest-priority cases deals with people who are 
detained who have criminal convictions.
    Now, our proposal, the President's budget request, would 
allow us to add 35 new immigration judge teams. That is $17 
million in order to do that. Those immigration teams would be 
able to adjudicate between 20,000 and 39,000 more cases 
annually.
    And so we are looking at an increase of 35. And that would 
be the number that we would want to maintain, which would also 
mean that, to the extent that people are retiring or leaving 
the bench, we would want to replace those, as well, so that we 
have a net increase of 35 and try to get at that backlog.
    So the increase in the cases and the subsequent backlogs, 
is that as a result of us paying more attention to the lower 
part of the Morton memorandum, where we say we want to go after 
folks who are, you know, not law-abiding and leave alone the 
rest of the folks, you know, on that Morton memo?
    Attorney General Holder. Well, I am not sure that I can say 
what exactly has generated the backlog other than to say that 
it is there. It is extremely real. 358,000 is an unacceptably 
high number. It leads----
    Mr. Honda. Sure.
    Attorney General Holder [continuing]. To resolutions that 
occur way too far from the time that we would like to have them 
occur. Asylum cases take significantly longer to resolve than 
cases in which removal is not requested, and so those are very 
time-consuming kinds of matters. But it is clear that we simply 
need more bodies.
    And when I say immigration judges, we are actually talking 
about immigration teams--the judges and all the people who 
support them.
    Mr. Honda. So when we talk about immigration judges and 
cases, we are talking about not only criminal but we are also 
talking about asylum issues and deportation?
    Attorney General Holder. Right, we are looking at the full 
panoply of the things that immigration judges have to deal 
with.
    Mr. Honda. Because many deportation cases that I have heard 
about do not go through a court process. It sounds like and it 
feels like that they are denied that process, in terms of being 
adjudicated before you decide whether you are going to deport 
them or not, whether they fit some of the Executive orders that 
we say we can keep some folks here or not or----
    Attorney General Holder. Yes.
    Mr. Honda [continuing]. Whether some of the folks are 
youngsters and their parents are being deported and whether we 
want to put them through the adjudication process to see 
whether they should stay or not.
    Is that all part of the caseload, or is that separate?
    Attorney General Holder. The caseload is varied. As I said, 
there are asylum cases. There are cases involving detained 
aliens who have criminal convictions. There are unaccompanied 
minors that you have to deal with. We have a program that we 
are trying to put in place so that they get adequate 
representation.
    There are a whole variety of cases that immigration judges 
have to deal with. And the issue, at base, is simply we need 
more immigration judges, and that is why that request is in the 
budget.
    Mr. Honda. Okay.
    In that process, do we provide any kind of training or 
assistance to those who are not citizens, in terms of having 
them understand the process of our judicial system so that they 
are properly handled? And do we have language considerations 
when they are being worked with or they are going through this 
process so that they understand their rights and the things 
that are going on?
    Attorney General Holder. I know that we have tried to make 
efforts to deal with the language issues that exist for people 
who find themselves in our immigration system. It is something 
that we have tried to focus attention to and resources on. You 
cannot have a meaningful process unless somebody understands 
what it is they are in the middle of.
    And so we have tried to increase our language capability. 
And that is also something that is costly, because we are 
dealing with, predominantly maybe one or two languages, but the 
reality is----
    Mr. Honda. Sure.
    Attorney General Holder [continuing]. We deal with a 
variety of language capabilities that we have to have.
    Mr. Honda. Well, my sense about your stance on due process 
is that you want to do the best that you can, and that is 
costly. And I am not sure that you get all the resources you 
need. Perhaps we can talk more about that later.

                           RAPE KIT BACKLOGS

    On the rape kits, I understand there is about 400,000 to 
500,000 kits sitting in the evidence room waiting to be 
processed. We have some funding that has been set aside so that 
we can ask the FBI to be able to consider training local law 
enforcement agencies so that they can proceed and move on the 
backlog. And I understand that there is a constriction there, 
where the FBI requires all these tests to be certified, I think 
it is called, through CODIS.
    Attorney General Holder. Yes.
    Mr. Honda. Isn't there a way that we can fund a process 
where local law enforcement can be trained and then the kits 
can be uploaded to CODIS and then be certified there so that we 
can, one, adjust the backlog, two, be more efficient, so that 
arrestees and victims can have their day in court?
    Attorney General Holder. Yes, we want to make sure that the 
tests are done in an appropriate way so that we can feel 
certain and secure that the information that is ultimately put 
into the national system is, in fact, good, that we can run 
hits or see if we have hits against the information that is 
contained in the national system.
    The FBI certainly helps with training. The FBI has 
virtually eliminated, if not totally eliminated--the backlog 
that we had on the Federal side. There still is a backlog when 
it comes to our State and local partners that we have to try to 
address.
    And we want to do it in such a way that we get good, 
scientifically reliable tests that are done so that once they 
become a part of the larger database we feel confident that the 
tests that are run against it will stand up, for instance, in 
court and so that people are identified appropriately, cases 
can be won, convictions can be sustained on appeal.
    Mr. Honda. Because it seems to me that, without that 
evidence through the FBI, you can't do your job or the DA 
cannot do the job to prosecute. And then so it seems like at 
least we should have some sort of pilot program in this country 
where we can promote some way to make it more efficient and 
spread that responsibility out. It doesn't seem to me that the 
application of the rape kit is going to be that complicated. In 
certifying it, there may be some training, but it doesn't seem 
to me that would be that complicated either.
    And so I would like to see if we can't work together on a 
pilot program that we put into the process and see whether we 
can address this very important aspect of the backlog. It is 
about speedy trials and making sure that the evidence doesn't 
get stale on the way. So, hopefully, we can work together and 
move this forward. And I believe that the chairman is also very 
interested in this kind of efficiency.
    Attorney General Holder. We look forward to working with 
you in the creation of such an effort, because I think there 
have to be ways in which we can be efficient, be creative, and 
at the same time be rigorous in making sure that the tests that 
are done are scientifically secure and will be evidentially 
sound. And there have to be ways in which we can do that.
    And so, as we look at this backlog, we will try to make 
available the resources of the Federal Government to assist our 
State and local partners. And maybe through some pilot program, 
as you have suggested, we can do that.
    Mr. Honda. Yeah.
    Mr. Chairman, the last comment would be, if we are 
successful in this and we move forward, I suspect that you are 
going to need more help in terms of prosecution. Because the 
other half is--once it is determined, then the other half is 
going to be expensive, too. So I am just saying that we may 
have to think about how we cover that cost.
    Attorney General Holder. Well, you raise a good point, sir. 
And that is one thing that we always try to think about as we 
make our budget proposals. We have to look at this 
comprehensively.
    Because the possibility exists that we could create 
substantial numbers of new cases if we were to be successful in 
reducing the backlog, which is a good thing. But we want to 
have the capacity to process these cases, to try these cases, 
which, at this point, are going to be mainly at the State and 
local level. And so that means that we want to probably have 
the ability, through our grant-making perhaps, to support those 
efforts.
    But we have to view this comprehensively. We can't simply 
fix one part of the system, because it will have an impact on 
other parts of the system.
    Mr. Honda. Yeah.
    Thank you, Mr. Chairman.
    Mr. Wolf. You could take some of the settlement money that 
was discussed and use it. And I think Mr. Honda has a good 
point.
    Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman.

                  DISCRIMINATION AGAINST RESORT CITIES

    General, I represent most of Nevada that does not include 
Las Vegas. And I want to sensitize you to a thing that has been 
going on in the Department of Justice since the Bush 
administration, and that is what I call discrimination against 
resort cities.
    There is presently----
    Attorney General Holder. I am sorry, I didn't hear you.
    Mr. Amodei. Discrimination against resort cities.
    Attorney General Holder. Okay.
    Mr. Amodei. There is presently in DOJ administrative 
guidance, not a regulation, not a statute, stay away from 
places like--and it names a few places in my state and other 
states--for conferences, trainings, meetings, stuff like that.
    Now, I understand with other agencies the sensitivity over 
the last few years when people go to places and pay for dance 
lessons and exorbitant food costs and all that other sort of 
stuff, which is a bad thing. But I also know that, for 
instance--and I am sure this plays out in other areas--that one 
of the primary factors in deciding where to have a training or 
a conference or a meeting should be value to the taxpayer.
    You have testified here today talking about scarce Federal 
resources. And I want to sensitize you to some instances--
because there are a couple of organizations that are actually 
in Reno: National Judicial College, DOJ is involved with 
funding for training for judges in various areas; National 
Council of Family and Juvenile Court Judges. Both happen to be 
located in Reno, Nevada; have been for a long time. Don't know 
why they picked there, but it was a long time ago, before you 
or I were hanging out here on a regular basis. That have 
experienced, since the Bush administration, guidance in DOJ 
admin policies that says you must avoid these locations. And, 
as recently as 2 weeks ago, I got a call from somebody who is 
in the resort industry who said, we can't hold our meeting or 
our conference or our training in your facility because it 
happens to have a casino attached.
    And so my sensitivity lesson here, if I could, is I sit 
here and look at this stuff, and it is like, listen, I expect 
that when we talk about, especially in an appropriations 
context, scarce Federal resources, Department of Justice doing 
more with less, all that, that one of the primary drivers would 
be: How much does it cost to go there?
    Because, in many cases where these things have been 
canceled--and a lot of them have been DOJ cancellations, small. 
This is not the American Legion convention; it is 70, 100 
folks. They have been canceled within a couple weeks, so you 
have the airline costs. They have been moved to a venue where 
rooms are triple the cost. And, also, I am not a convention 
person, but, you know, the price of a gallon of coffee and all 
that stuff? Where it is like, under the guise of avoiding an 
appearance of, ``We did it in a casino, oh, my God,'' that the 
cost went up triple. To what?
    Now, when you tell me you have great managers and employees 
at DOJ, you know what? I believe you. I think they are capable 
of not using taxpayer money to gamble. I think they can figure 
out that they don't need to be paying for dance lessons or 
whatever the heck. They ought to be capable of being able to 
make a decision based on what is the best value for the 
taxpayer.
    Because I don't see DOJ guidance that says--and I don't 
expect to see it, and I hope I wouldn't see it--that says, hey, 
by the way, we are not doing any more meetings, conferences, or 
trainings in States that have legalized marijuana. What does 
that have to do with value to the taxpayer? Or States where, 
you know, some Members have talked about, you know, 
unacceptable civil rights backlog or whatever, where it is 
like, we are not coming to your town because we don't like 
the--whatever.
    Hopefully, we can get to a point where it is like, those 
decisions are made on the best value to the taxpayer. And if it 
happens to be a place in Nevada or Oklahoma or wherever, that 
if somebody says, how come you are there, you can say, it is 
because guess what? Rooms are 80 bucks a night, they got the 
best deal, it was the best price, and, by the way, we are not 
using taxpayer money to go--you know, I mean, anywhere you go 
has a bar in it. I mean, are we going to be talking about we 
can't go to your venue because there is--you kind of get the 
gist.
    So, in sensitizing that to you, I would like to be able to 
provide you the guidance that has been in DOJ since before you 
arrived and have a point of contact to work to say, listen, I 
don't want to make your management decisions for you, but when 
I see a discrimination that has been pretty ongoing in the 30 
months I have been here, numerous cancellations--and not just 
DOJ, but you guys are the ones who have it in writing--that I 
would like the opportunity to work you.
    It is not a regulation or a statute, I don't think we need 
a law, but to sensitize somebody in DOJ to, listen, if you can 
defend it on the best value to the taxpayer and you are not 
giving out rolls of nickels for the slot machine, then let them 
compete with everybody else.
    Just off the top of your head, would that be something that 
we could work on?
    Attorney General Holder. Sure.
    You might have seen cancellations of DOJ conferences, as 
they probably happened around the country, because of 
sequestration over the last year or so. But we don't forbid the 
use of any location. We do counsel components to pick cost-
effective locations.
    But we have held DOJ events in Nevada. You are right about 
the Judicial College and the judges training facility that 
exists in Reno. So we don't have any, at least as I understand 
it, any prohibitions that exist with regard to Nevada.
    And so, to the extent that you have those concerns, I will 
be more than glad to talk to you about those.
    Mr. Amodei. We will provide you with the guidance that we 
have with whoever the appropriate point of contact is, just to 
say, listen, not asking for any favors----
    Attorney General Holder. Sure.
    Mr. Amodei  [continuing]. Just want to compete straight-up 
on a cost-benefit-value basis.
    Attorney General Holder. That is fine.
    Mr. Amodei. Thank you.
    I yield back, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Amodei.
    There are a number of issues I will just submit for the 
record on the marijuana issue.

                          MARIJUANA BUSINESSES

    Mr. Wolf. But in February, the Treasury and Justice 
Department issued guidelines for financial institutions to 
allow them to provide services to marijuana businesses. At this 
point, many in the banking industry seem unwilling to accept 
such business. And given they would be providing services to 
those previously classified as felons and would have to be sure 
customers were within the law, it is easy to understand their 
reluctance to stick their necks out.
    I do appreciate you agreeing to meet with the head of NIDA. 
We will be in touch with her, her office. Could you give me a 
call after you sit down with her?
    Attorney General Holder. Sure.
    Mr. Wolf. It was one of the most impressive testimonies on 
this issue. And it deals with particularly young people. It 
deals with the impact on--well, you are going to meet with her, 
and we can----
    Attorney General Holder. Sure. I will give you a call 
afterwards.
    Mr. Wolf. Great. Thanks so much.

                      PERSONAL USE OF DOJ AIRCRAFT

    Aircraft, personal aircraft. Last year, we discussed a GAO 
report on personal use of Justice Department aircraft. One 
aspect of this issue is that some of the flights have not been 
documented or reported, since the General Services 
Administration, GSA, the agency responsible for documenting 
such use of government assets, was excluding non-mission 
flights by senior officials on security grounds.
    A recent report released by GAO recommended that GSA change 
this procedure and identify when any such grounds are listed as 
justification for such use. GSA has agreed to the 
recommendation.
    While changes in reporting have yet to be implemented, are 
you ensuring that all such flights by DOJ will be reported to 
the GSA?
    Attorney General Holder. Yes. My staff keeps telling me to 
take it easy, you know, but this is one that gets me,--so 
sorry, guys.
    Mr. Wolf. That is okay. You can--I mean, we want to hear 
from you. I mean, show some emotion. That is okay. Go ahead.
    Attorney General Holder. All right.
    My air travel is really well-documented. Former Director 
Mueller, same thing. I answered five different FOIAs in the 
past 2 years. Everything that I have has been released to GAO 
and to Senator Grassley as well.
    There is this notion that we have taken, I think it was 
described as hundreds of personal trips. That was wrong. GAO 
counted flights, not round trips. And we looked at it and 
figured out, from the time period that they were looking, we 
took not hundreds, but 27 personal, 4 combined, official and 
nonpersonal trips.
    And none of the trips that I took or that the Director took 
ever had an impact on the mission capability of those 
airplanes.
    So we didn't have a reporting requirement that existed 
before. If they want to change those rules, we would be more 
than glad to make sure that we share that information with the 
appropriate organization. But this is something that is really 
wide open. As I said, we have responded to FOIAs and Senator 
Grassley. This is information that we would be more than glad 
to get out there just so that people understand that we are 
making appropriate use of DOJ aircraft.
    A lot of the stuff was described as mission and non-
mission. And the way in which that was defined was not 
necessarily correct, because a non-mission trip--for instance, 
the trip that I took to New Town to visit the school after the 
shooting was described as a non-mission trip. Now, I don't see 
how anything could be more mission-centered than having the 
Attorney General of the United States----
    Mr. Wolf. No, I agree.
    Attorney General Holder [continuing]. Deal with the first 
responders at New Town.
    So I got it off my chest.
    Mr. Wolf. You got it off your chest? You feel better now?
    Attorney General Holder. I feel better.
    Mr. Wolf. Good. I am glad. And it will make your weekend 
better.
    Attorney General Holder. It will, sir.
    Mr. Wolf. And so you will be ensuring that all flights will 
be reported to the GSA?
    Attorney General Holder. Yes. We will do that. Yes.

                             CYBER ATTACKS

    Mr. Wolf. On February 24th, you asked Congress to create a 
strong national standard for quickly alerting consumers whose 
information may be compromised by cyber attacks, such as the 
recent attacks on Target and Neiman Marcus. What specific 
recommendations do the administration and the Department of 
Justice propose?
    Attorney General Holder. Well, I think, first, with regard 
to reporting of breaches, that we should have a uniform 
standard so that businesses understand when they have an 
obligation to report to the appropriate authorities when there 
have been data breaches and so that the public is aware of 
these breaches.
    And, also, it would mean that I think businesses would 
understand what category of things they need to report and what 
category of things they need not be concerned with, some 
greater degree of uniformity so that the American people could 
understand both the nature and the extent of the problem and 
whether or not they are personally affected by a breach.
    And so we think a national standard, working with Congress, 
would be something that would be appropriate.
    Mr. Wolf. Is there any legislation coming up?
    Attorney General Holder. I think we are going to try to 
work on a proposal, and we would like to work with Congress in 
dealing with that. It is something I talked about in a speech I 
recently gave, or maybe it was one of the tapes that I did, my 
weekly tapes. But we are prepared to come forward with a 
proposal----
    Mr. Wolf. Have you been out to the FBI center where they 
list all the companies and individuals and everything who have 
been hit by the Chinese? Have you seen that?
    Attorney General Holder. I have seen those reports.
    Mr. Wolf. But have you been out to the center?
    Attorney General Holder. Have I?
    Yes.
    Mr. Wolf. You might want to go again it is pretty 
impressive. But this is, as former FBI Director Mueller and 
Director Comey have said, this is the Chinese, Russians, 
organized crime. And you might want to go out again and take a 
look at it, because it is so comprehensive that I think it is--
if the American people could see that list, they would be 
shocked.

                            IT PROCUREMENTS

    Last week, you sent the Committee the report required by 
Section 516 of the fiscal year 2013 omnibus on implementation 
of new procurement practices for technology hardware and 
software to be used in agency IT systems. It appears this 
implementation has been adopted and procurement offices are up 
to speed in helping ensure U.S. Government systems are not 
vulnerable to sabotage or cyber espionage.
    Your report indicated that seven IT procurements were 
canceled as a result of the risk assessments of the Committee. 
Could you characterize the nature of the threat we are facing 
and the impact these standards are having?
    Attorney General Holder. Well, I think that the standards 
that were put in place have been useful to us, and we have 
tried to follow them. As you indicated, there were steps that 
we took to cancel, things that had previously been contracted 
for. This concern that we have about cyber intrusions and cyber 
threats is something that has to be a primary concern for any 
Attorney General, I think for any agency head. We factor those 
kinds of concerns into our procurement of technology. We work 
closely with the FBI, and I think our standards are pretty 
high.
    We have sent out procurement guidance to the field, so we 
can comply with the provision in the omnibus, and we want to 
work with you and the committee going forward so that we can 
figure out how we can best protect against these risks.

                        NOTIFICATION REQUIREMENT

    Mr. Wolf. Do you think it would be helpful to have, going 
back to the previous question, it would be helpful for 
targeting even markets, would it be helpful for the government 
to notify the Congress, notify one committee, as to what 
agencies have been subject to cyber attacks so that there is 
one place where we can see the intensity of what the Chinese 
and et cetera are doing?
    Attorney General Holder. I think that, as I've said, with 
the private sector there needs to be a reporting requirement. I 
would put in that same concern or that same scheme, government 
agencies as well so that to the extent that there are breaches, 
those are shared, and we can work out where those would go. 
But, yes, a place, a repository where consumers, Members of 
Congress, have the ability to see exactly what the targets are, 
what kind of information might have been compromised. I think 
we will do a much better job of understanding what the nature 
of the threat is and taking countermeasures if we have a place, 
a repository, for all this information.
    Mr. Wolf. Right. Maybe the committee can carry the language 
to direct that every time an agency is hit, they report it to 
the FBI. I think the Bureau is probably more involved than 
anybody else. That way I think the privacy, if necessary, can 
be taken care of, but it would at least give every other agency 
some understanding, so if we can maybe carry that.

                      PRISON IN THOMPSON, ILLINOIS

    On prisons, as you know in fiscal year 2012, the committee 
rejected a proposal to reprogram $165 million to acquire the 
prison in Thomson, Illinois. The Department proceeded with the 
acquisition despite that it's an extraordinary breach of 
longstanding traditions of comity and respect between the 
branches, although I understand politics. As I pointed out last 
year, the 165 million that could have been used instead for 
departmental operations in the wake of the sequester. Your 
request for BOP proposed a non-specified $158 million offset. 
Given the tight funding, the need to move ahead on other two 
sites in Mississippi and West Virginia and the need to maintain 
staffing and to maintain services, how do you fit Thomson in 
with this? And what activities will you see being cut to pay 
for the $158 million?
    Attorney General Holder. Well, in terms of Thomson, we 
acquired it at the end of fiscal year 2012 due to the shortage 
we have of high-security beds. We are presently, at 52 percent 
above our rated capacity. I think the way we described Thomson 
is we have gotten twice the prison at half the price, and we 
have an appropriation of $44 million to begin the activation of 
Thomson. That's reflected in the spend plan. The $44 million is 
retained in our fiscal year 2015 for activation costs, and I 
think what we're looking at is a slow ramp-up of Thomson. We 
hope to hire a warden in May. That is the plan. Followed by the 
hiring of a unit manager, food service and medical staff, 
ultimately hiring up to 290 staff and to begin bringing in the 
first camp inmates in the July-August time frame. We think that 
that was a very good expenditure, a good acquisition, where we 
got a facility that's going to help us with those high security 
needs that we have and do it in a cost-effective way.
    Mr. Wolf. Were you a Boy Scout?
    Attorney General Holder. Yes.
    Mr. Wolf. Do you take your Boy Scout pledge that you will 
make sure that how this thing plays out, there are going to be 
differences that there will never be anybody from Guantanamo 
Bay there?
    Attorney General Holder. I promise. Three fingers. That's 
Boy Scouts.
    Mr. Wolf. We're going to go to Dr. Carter--we're going to 
go to Mr. Fattah, and then we're going to go to Mr. Carter.

                         INTELLECTUAL PROPERTY

    Mr. Fattah. Thank you, Mr. Chairman. Let me congratulate 
the administration on the 49th consecutive month of job growth, 
averaging around 200,000 a month and close to 9 million new 
jobs over this stretch of time. One of the questions before 
your Department is how to protect American jobs in terms of 
intellectual property. You've been doing a great deal of work 
in this regard, but obviously there's more work to do. When we 
have--in the world economic forum, they said that the U.S. 
economy is an innovation--is an innovation-based economy, that 
the essence of how we have created the wealthiest country in 
the world is through innovation and new ideas. And so 
protecting the intellectual property of American inventors and 
companies is critically important. The chairman has been 
focused a little, you know, aggressively on this question of 
cyber security, not in the sense of the NSA, but in the sense 
of entities going into American companies, particularly law 
firms now that work in patent-related areas and so on trying to 
steal secrets to give our economic competitors an advantage, 
not through their hard work, but through utilizing the smarts 
of our own engineers and scientists.
    So if you could talk about this work in terms of 
intellectual property vis--vis the appropriations request, that 
would be appreciated.
    Attorney General Holder. Sure. This is something that is, 
again, a priority for us. Our budget request provides for a 
total of $42.1 million for intellectual property enforcement 
spread among our Criminal Division, the FBI, our Office of 
Justice Programs and U.S. Attorneys' Offices. This represents a 
7.7 percent increase over fiscal year 2013 levels. We really 
increased our enforcement efforts, not only to safeguard the 
economic growth and well-being of our country, but also to 
protect public health and safety, which is also something I 
think people have to understand, that this intellectual 
property theft and the distribution of substandard parts or 
medicines has the ability to have a negative impact on public 
health and safety. We have an intellectual property task force 
in the Department that's chaired by the Deputy Attorney General 
where we try to come up with a coordinated high-level approach 
to figure out how we investigate and prosecute these IP crimes.
    We also work with the White House Office of Intellectual 
Property Enforcement coordinator, and there is a government-
wide strategy that was published in February of 2013. We have 
made the investigation and prosecution of trade secrets really 
a top priority. So we want to work with Congress to ensure that 
our criminal IP laws keep pace with the new technological and 
emerging trends that we see. These are laws that have to be 
looked at, periodically given the rapid pace of change that we 
have, given the new threats that we are confronting. And we 
would hope to be able to not only have not only our budget 
requests met, but also look forward to working with Members of 
Congress to make sure that our laws are kept up to date as 
well.

                        SUPPLYING NAMES TO NICS

    Mr. Fattah. After Sandy Hook, there was a push for more 
states to supply data that they had not yet supplied in terms 
of people who are already prohibited from purchasing firearms, 
that is, people who meet one of the circumstances that would 
prevent them. I know in my own State that hundreds of thousands 
of names that had not been supplied were then supplied after 
Sandy Hook. Can you tell us the status of where the national--
in terms of State compliance with the submission of names?
    Attorney General Holder. That's something, just to be 
accurate, I may want to respond to you in writing after I've 
had a chance to look at what we think the compliance rates are. 
I think that one of the things that was certainly of concern 
after Sandy Hook was where we stood with regard to the number 
of, the amount of information that we were getting from the 
states. And so I think just, as I said, to be accurate, I'd 
want to make sure that I have an ability to look at and just 
make sure that we're giving you accurate information. We have 
certainly done what we could with regard to the grants that we 
have made available to enable States to have the financial 
capacity to make this information available to the NICS system, 
but I'd want to, as I said, have an ability to look at where we 
actually stand in that regard.
    [The information follows:]

          National and State Compliance on Purchasing Firearms

    During a background check, the Criminal Justice Information 
Services Division's National Instant Criminal Background Check System 
(NCIS) searches three databases maintained by the FBI: the National 
Crime Information Center (NCIC); the Interstate Identification Index 
(III); and the NICS Index,a database created for the NICS that 
maintains disqualifying records which are not available through the 
NCIC or the III. Prior to the passage of the NICS Improvement 
Amendments Act of 2007 (NIAA), state and local agencies voluntarily 
contributed records to the NICS. The NIAA, through a series of 
financial incentives, encourages the states to improve the quality and 
quantity of information made available to the NICS. The NIAA does not 
mandate the states to provide the Brady Handgun Violence Preventioin 
Act of 1993 prohibiting information to the NICS; however, the NIAA 
imposes penalties on those states that do not progress toward the 
NIAA's record-completeness goals, which are monitored and assessed by 
the Department of Justice's Bureau of Justice Statistics. As of April 
30, 2014, a total of 11,551,350 records were maintained in the NICS 
Index. Of these, a total of 4,509,996 records had been submitted by the 
states. From December 31, 2012 to April 30, 2014, the States and 
Territories submissions increased 61.22%.

    Mr. Fattah. Well, I went out to the Joint Terrorism Centers 
in Virginia, and it is amazing to see many of your agencies 
already there working together in terms of the effort, the 
national security effort. One of the things that we know that 
have been a challenge around whether someone on some of their 
lists could be prevented from the purchase of firearms given 
our laws. And I know there even was in one of the Al Qaeda 
training videos the notion that, you know, one could just walk 
into a gun store and make a purchase here in America.
    So reconciling the rights of Americans to purchase firearms 
and your responsibilities to protect Americans from harm, I 
know you face a lot of challenges. Is there any progress on 
this particular question of whether or not someone whose name 
may appear on, for instance, the no-fly list or some other 
subset of lists, could be, in any way, lawfully precluded?
    Attorney General Holder. Yes, that's something that we are 
still in the process of working through. There are 
investigative reasons, or at least investigative arguments, 
made as to why you don't want to have those lists necessarily 
merged. There are different views within the various agencies, 
so that's something that we are still trying to work our way 
through. With regard to that first question, I can at least 
share some information with regard to the numbers that we have. 
The reference contained in the NICS index system has more than 
doubled from about 5.2 million records as of early 2008 to 
about 11.4 million records as of the end of March of 2014. The 
number of records provided by Federal agencies has increased 
over 70 percent, from about 4.1 million to nearly 7 million 
records, and the States have posted an increase of 302 percent 
in the number of records submitted, from just over 1.1 in 2008 
to 4.4 in 2014.
    State agencies submission of records of persons prohibited 
from possessing a firearm for mental health reasons has 
increased by 678 percent from about 410,000 records in 2008 to 
nearly 3.2 million records as of March 31, 2014. So substantial 
progress has been made with regard to the acquisition of that 
information that is now a part of the NICS system.
    Mr. Fattah. Well, thank you. I think it obviously doesn't 
even need to be stated. It is unfortunate that we need to have 
a Sandy Hook circumstance for States to supply this 
information. My own State had not supplied this information, 
but then, after the incident, did. But these are people under 
our laws that should be prohibited from the purchase or 
ownership of firearms, but they can't be unless their names are 
in the database, so I'm very pleased that the State of 
Pennsylvania, and obviously based on those numbers, a lot of 
other States, have complied. This shows the public that even 
though there's still a lot of work to be done, some progress is 
being made in this front.

                            YOUTH MENTORING

    I was looking over the actual budget request in the 
President's budget submission, and you have about 2.1 billion 
for support for State and local and tribal governments, which 
is obviously critically important, because a lot of the actual 
work done on these issues are done at the State and local 
level, and I did want to mention that I see that there's a 
proposed $58 million in the budget, which would be a reduction 
of 30 million in the youth mentoring line.
    Now, the subcommittee obviously will disagree with the 
administration. And this is an area, that I think it's the only 
area that's seen an increase in each of the last 4 years. This 
is something we are very focused on. But we are going to work 
through your appropriations request, and we want to support the 
great work that's being done by the Department. I yield back, 
Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Fattah. Judge Carter.

                          FORT HOOD SHOOTINGS

    Mr. Carter. Thank you, Mr. Chairman, and Attorney General 
Holder, welcome. Before I start, General, you and I are both 
lawyers. You're the top lawyer in America. You're the number 
one lawyer in the Federal system, and I was just a poor little 
small town district judge. But we both have been involved in 
seeking evidence from witnesses, and I'm sure you already 
realize there's a whole lot of difference between the way we 
seek evidence here and the way we would have an opportunity to 
seek evidence in the courtroom. Here, after answer one 
question, the witness can go into a soliloquy, and there will 
never be another question asked.
    So I'm going to ask you a long question with a series of 
questions contained therein, which would probably be 
objectionable in a court of law, but unfortunately that's the 
way it works here.
    I've got questions about Fort Hood. If you were listening 
or watching, you saw that the reporters were continually asking 
when will the FBI be here. We had a report from Dallas that FBI 
agents were on the way. I'm sure there were FBI agents on the 
way from Austin. So the FBI was coming. In the most recent 
shooting, who, in your opinion, will take the lead in the 
investigation of the 2014 shooting? The FBI or the CID? When 
will that decision be made as to which one will do that, and 
who makes that call? You? The President? How is that decision 
made in 2009? Who makes that call? Were DOJ and its resources 
pulled from the first Fort Hood shooting based upon a political 
decision to classify that shooting as workforce violence? Who 
made the call to treat the 2009 shooting as a workplace 
violence as opposed to an act of terror?
    I'm sure you are very familiar, with the definition of 
terrorism under 18 U.S.C. 2331, 2332 A and B. Did the DOJ 
discuss with the DOD the classification of the event in 2009 as 
to whether or not it was going to be an act of terrorism? It 
seems implausible that two of our top agencies would not have a 
conversation about that. I know that ultimately you made a 
statement that this was a DOD classification. I'm asking you, 
though, as the chief law enforcement officer of the United 
States, would you classify the 2009 Fort Hood shooting as a 
terrorist act or terrorism as defined in 18 U.S.C.? Had the 
2009 shooting occurred at DOJ headquarters, and therefore fully 
under your jurisdiction, would you have categorized that as a 
workplace violence event? And finally how have the 
jurisdictional lines between the FBI, CID, and other law 
enforcement agencies been defined when criminal acts were 
taking place on a military post? And in light of the recent 
base shootings, should we clarify investigating these 
responsibilities? Lots of questions. Sorry.
    Attorney General Holder. All right. The White House 
confirmed on Wednesday night that the Department of Defense was 
in the lead with regard to the investigation. That doesn't 
mean, however, that the FBI will not try to assist in any way 
that we can with regard to our forensic capabilities and 
agents. We will assist in that regard. With regard to that 
workplace violence designation, that was based on a DOD 
assessment. I understand your concerns, but I would refer you 
to the Department of Defense for questions.
    I think interestingly, Chairman Wolf and Ranking Member 
Fattah appropriately raised these questions back with DOD in a 
May 2013 letter which acknowledged, and I quote, that ``The 
Department of Defense and Army have designated the attack by 
Major Nidal Hasan as `workplace violence.' '' It was something 
that that determination was made by DOD as opposed to DOJ.
    Mr. Carter. Would you mind answering my question that I 
asked you? Had it happened at your headquarters, how would you 
have classified it?
    Attorney General Holder. Well, again, you have to look at 
the totality of the circumstances, and understand----
    Mr. Carter. Well, for the sake of the question, assume the 
exact scenario that happened at Fort Hood in 2009. You have a 
person of Islamic decent screaming Allah Akbar. He was a member 
of your staff, and he starts shooting, and he wounds some 30 
people and he kills 13 or 14 of them. Would you still take the 
position that it was a workforce violence act and, therefore, 
not under our terrorism statutes?
    Attorney General Holder. Well, again, it would depend. 
These are fact-specific things. And so, it would depend on what 
the person's motivation was, was the person a follower of 
Awlaki as Hasan was? Was the motive for the shooting an attempt 
to follow the teachings of Awlaki, as opposed to some kind of 
workplace problems you had with your colleagues? I can see how 
that would be classified as a terrorist incident if it had 
happened at the Justice Department.
    Again, it depends on the facts of the situation. I don't 
know all the factors that went into the DOD designation. That 
was not one that we made. It was one that they made. I'm not 
familiar with all that they did.
    Mr. Carter. I agree with you that facts are important. 
That's what I'm finding out about. I just happen to have a copy 
of the code here. You don't have to be involved with the 
Islamic situation at all to commit terrorism in the United 
States, do you?
    Attorney General Holder. No.
    Mr. Carter. It's a defined statutory thing. It's pretty 
simple. Involves acts dangerous to human life that violate 
Federal or State law, appear intended to, one, intimidate or 
coerce a civilian population; two, influence the policy of a 
government by intimidation or coercion; or, three, to affect 
the conduct of government by mass destruction, assassination or 
kidnapping. It doesn't say anything about relationships--now 
international terrorism does have a definition of somebody 
outside the country being involved, but I just first asked you, 
would you consider it a terrorist act if it happened in your 
office?
    Attorney General Holder. Again, I don't know--I'm not as 
familiar with what happened at Fort Hood the first time as the 
people at DOD were, and I'm a little hesitant to in essence 
second guess the assessment that they made.
    Mr. Carter. I'm not asking you to second guess their 
assessment. I didn't read all of the U.S. Code. But if somebody 
started shooting people in your office, multiple people 
screaming out some kind of political comment--I don't care what 
it is--would you have automatically said, well, this 
unfortunately is a civil workforce violence problem we have got 
here?
    Attorney General Holder. I wouldn't say that at all. It 
certainly could be a terrorist act. It would depend again on 
the facts. Those are the kinds of determinations that we would 
have to make.
    Mr. Carter. The term workforce violence has consequences at 
the DOD. And that's the real issue I have been concerned about 
since day one. A simple declaration by the administration or 
the Army, public or private, that says it is a workforce 
violent act takes two dozen people, and puts them in a category 
where they don't get certain benefits from the Federal 
Government as a result of them serving their country and being 
shot and killed or injured.
    That's why I'm asking you this question, because I think we 
ought to at least acknowledge that there's a clear definition 
under Federal law, and by the way, Texas has one under State 
law that says, I think clearly that the act was terrorism. 
Whether international or not is up for dispute, but the act was 
terrorism. And so that's why I ask you for your help. I 
understand you don't want to answer the question, and that's 
fine, but I ask you for your help. I think I've probably used 
my time.
    Mr. Fattah. If the judge would just yield for a moment.
    Mr. Carter. I don't have any time to yield.
    Mr. Fattah. I'll join with you in your legislative effort 
in this regard, and I agree that clearly this was a terrorist 
act. I think the point is that it was determined, the first 
determination was made by the Department of Defense. As the 
Congress, we can change that and we should, because as was the 
case when people lost their lives on 9/11 or at the Pentagon, 
you know, this was an act by the statement of the perpetrator 
himself.
    Mr. Carter. That's right.
    Mr. Fattah. So there's no ambiguity.
    Mr. Carter. And I agree with Mr. Fattah. We're looking for 
reinforcement from the top lawyer of the United States. Thank 
you, Mr. Chairman. I appreciate it.
    Mr. Wolf. Thank you, Judge Carter. And following up on what 
Judge Carter said, I agree with him, and you were here last 
year. In fact, as I remember, you stayed around and you spoke 
to some of the individuals. Boy, they've really gone through a 
tough time. I just saw an article today, and I listened to it 
going home last night. Kimberly Munley was shot three times 
taking down Nidal Hasan, and she got laid off. Yet she never 
stopped fighting for the victims of the military betrayed in 
that shooting. And I think what Judge Carter is saying, 
probably you have a better relationship with the President than 
most of the cabinet members.
    Well, you do, you know, you're not denying it. Why don't 
you take this back there. It was not workplace violence. The 
people have been hurt. They still contact my office, some of 
them. One of the women has moved to the northern Virginia area. 
Also, our government is partially responsible, and I think what 
Judge Carter is saying, the Bureau missed some of it. There was 
communications from Awlaki to the major. I spoke to a 
psychiatrist down in Fort Hood who said that Awlaki was telling 
returnees from Afghanistan that they should basically say that 
they were war criminals.
    So the government missed it, and so if I would ask you on 
behalf of Judge Carter, if you would take it back, I think we 
can't change what took place in 2009. I mean, we wish we could. 
It's kind of like when you see something you say, oh, if only. 
But I think you could go a long way to healing this, and so 
by--and we did do a letter, and we're not banking, we're not 
going to dock you a million dollars for this letter, but we 
sent a letter on March 15, 2013 signed by Mr. McCaul, Mr. 
Carter and myself, with a lot of questions on this, and we 
never got an answer.
    I would ask you on behalf of Judge Carter, but more so, and 
I think Judge Carter would agree, on behalf of those who were 
wounded and the loved ones who lost, would you go back and 
speak with the President to ask and also Secretary Hagel, who 
lives out in my congressional district, that they would look to 
redo this in such a way now because the case is over, whereby 
these individuals who were wounded and the family members could 
be treated in a much more appropriate way? Could you take that 
up with the President?
    Attorney General Holder. Again, let me----
    Mr. Wolf. It's a general question, sir. I'm not asking you 
specific or what we're going to call it. We have to close this 
chapter. We have to do it for the people, and it says in the 
Bible do unto others; Jesus said do unto others as you have 
them do unto you. If you and I were in that circumstance, we 
would feel the sense of injustice, and I think what Judge 
Carter is trying to do is to represent them, and I think you 
would have the ability. I'm not asking you to define it, what 
it would be called, but to see what could be done to heal this 
wound. If you could just say I'll look at it. I'll talk to the 
President and get back, but it would go, it would enhance your 
credibility as you leave this department. It would be the right 
thing to do. And now that there has been a conviction, all the 
arguments that have been answered before, so if you would do 
that, I would appreciate it.
    Attorney General Holder. What I'll do, again this was a DOD 
assessment, and so I think it's more appropriate for me to talk 
to Secretary Hagel. I'll do that.
    Mr. Wolf. Okay. Would you tell him his Member of Congress 
asked you to do it, too.
    Attorney General Holder. I'll indicate to him exactly why.
    Mr. Wolf. I think he infers he votes for me, too, so if you 
would do that, I would appreciate it. I'll go to Mr. Serrano. 
And, Mr. Attorney General, thank you very much on behalf of the 
families.

                         HIGH FREQUENCY TRADING

    Mr. Serrano. Thank you, Mr. Chairman, and welcome, Mr. 
Attorney General. In another capacity, Mr. Attorney General, I 
serve as the ranking member on the Appropriations Subcommittee 
with oversight over the Securities and Exchange Commission. And 
at a hearing earlier this week SEC Chair Mary Jo White 
confirmed that the SEC is investigating high frequency trading 
as well as the New York Attorney General is also looking at 
this. Can you describe the potential concerns with the high 
frequency trading in terms of violations of the law?
    Attorney General Holder. As I indicated in my opening 
statement, I have confirmed that the Department of Justice is 
looking at this matter, this subject area, as well. The concern 
is that people are getting an inappropriate advantage, 
information advantage, competitive advantage, over others 
because of the way in which the system works; and apparently as 
I understand it, even milliseconds can matter. So we're looking 
at this to try to determine if any Federal laws have been 
broken, any Federal criminal laws have been broken. This is 
also obviously something that U.S. Attorney, head of the SEC, 
Mary Jo White, would be looking at as well. So we'll be 
working.
    Mr. Serrano. You will be working together on it?
    Attorney General Holder. There are barriers that we can't 
cross, but we will make sure that these parallel investigations 
are done in such a way that we don't have negative impacts on 
either.
    Mr. Serrano. Now, this new crime, if you will, if it is a 
crime at the end of the day, is all a direct result of the new 
technologies available for people to do this in a second. 
Right?
    Attorney General Holder. Again, I am really getting up to 
speed on this.
    Mr. Serrano. We all are.
    Attorney General Holder. It is all about technology and how 
things get routed, and if you learn something 5, 6, 7, 8, 10 
milliseconds before, you can do things that others who don't 
have that capacity can't. So again, we have to determine 
whether or not it's a violation of Federal criminal law, and at 
least this Attorney General has to better understand the facts 
of these kinds of things.

      INNOVATION IDEAS AT EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

    Mr. Serrano. Right. Thank you. Mr. Attorney General, I'm 
interested in discussing the innovation ideas initiative within 
the Executive Office for Immigration Review that this Committee 
funded last year, and for which you are now requesting 
additional dollars. I think this is an important idea. It is 
extremely troubling to think that we are forcing people to go 
through removal proceedings with little to no understanding of 
the system. How is the Department using the money appropriated 
last year, and what sort of impact do you expect it to have? 
And one of the reasons that a question like this becomes I 
think a little more important than a year or so ago was that 
there was a sense, and certainly the President wants it to 
happen, that we would have immigration reform in place by now, 
and now we're not sure that's going to happen. So then these 
other associated issues, if you will, side issues, become just 
as important as an immigration reform or almost as important. 
And so I'd like to hear your thoughts on it.
    Attorney General Holder. There are a variety of things that 
we are trying to implement. We are, for instance, dealing with 
the whole problem of unaccompanied minors and how they are 
dealt with in the system. We have a program that we have put in 
place that we are trying to staff up in such a way so that 
young people can navigate the system in a way that they have 
not had the ability to do in the past.
    There is a juvenile docket that we have established 
throughout the country that hopefully will facilitate 
consistency and do the kinds of things that have to be done in 
the system in a more child-friendly way. So that's at least one 
of the ways in which we are dealing with this issue, this whole 
question of unaccompanied minors. But I think more generally, 
we are looking at the system and trying to come up with ways in 
which we deal with people who have mental health issues and a 
whole variety of things so that we have a system that is 
consistent with our notions of due process, so that people feel 
that they are being treated fairly, and so that we get 
appropriate results. If we follow the due process way in which 
we try to conduct our judicial proceedings, you get better 
results. You get more just results. And so these are the kinds 
of things that we are trying to make a part of that effort.
    Mr. Serrano. Okay. And I know that there are limitations as 
to counsel for people in a deportation situation, but without 
asking you to go around the law or inside and outside the law, 
is there more we could be doing to provide some sort of legal 
counsel, and I'm searching for a better word, so that these 
cases are better handled? Because as you know, and as you just 
mentioned, the issue is not just for deportation itself. It's 
the separation of families, and that has become now a major 
issue in the country, where most of the people agree that the 
separation or breakup of families is not what they intended to 
talk about when they talked about fixing our broken system.
    Attorney General Holder. Yes. What we want to try to do is 
come up with a way in which we have a system that is efficient 
and that resolves the backlog that I was talking about before 
as best we can, but at the same time, have a system that is 
perceived as and actually is fair. And, the involvement of 
lawyers is something that always helps in that regard. The 
ability to speak to somebody who is conversant with the law, is 
familiar with the way in which the system operates so that you 
understand what your options are, all of that breeds respect 
for the system, which is important, but also has a very 
substantive impact as well. It gives us the ability to come up 
with determinations that will stand not only the test of time, 
but make sure that in terms of further proceedings, those are 
minimized, which ultimately leads to greater efficiencies and 
smaller costs than are expended.
    Mr. Serrano. Do I have time for one more question, Mr. 
Chairman?
    Mr. Wolf. Yes.

                         PUERTO RICO PLEBISCITE

    Mr. Serrano. Last year the administration was good enough 
to present for the first time ever language referring to a 
referendum in Puerto Rico on its political status, and Chairman 
Wolf and Ranking Member Fattah were excellent in making sure 
that that language stayed in because as you can imagine some 
folks wanted that language to disappear. Now it's become law 
and everybody is aware of it. What is the next step in terms of 
what has to happen? Is it something that you prod them along, 
the Commonwealth to accomplish or something they have to do on 
their own at the local legislature without your prodding? I 
must say that I was very much taken, surprised, pleasantly 
surprised by the fact that the language clearly states that you 
will have final say as to what the ballot looks like and what 
information is on the ballot and that it meets constitutional 
requirements and public laws in this country. And I don't know 
if you're aware of this, you must be aware of it, it's the 
first time the Federal government has played this role. Puerto 
Ricans have spoken on this issue before, but they've done it 
amongst themselves. This time the Federal Government is saying 
here's an opportunity. Say something. So what's the next step 
now?
    Attorney General Holder. You are correct the appropriation 
for fiscal year 2014 included. It was a one-time $2.5 million 
for the carveout under the Byrne Grant program for objective, 
non-partisan voter education about a plebiscite that would 
resolve the political status in Puerto Rico. Now, the funds are 
to be provided to the State Elections Commission of Puerto Rico 
which has the responsibility of drafting the voter education 
materials in the plebiscite ballot.
    The Department's role is limited to reviewing those 
documents and then making the determination about whether they 
are compatible with the Constitution, the laws and policies of 
the United States. But it is the Department's role, the 
Department's obligation, to make such a determination.
    Mr. Serrano. Right. And I must say, in closing, that to me 
there were two points in that language that were crucial, and 
as you know because you have become some sort of an expert on 
it, whenever the issue of Puerto Rico comes up, there are 4 
million people, and there are about 5 million analysts on the 
island who analyze what it was the Federal Government said. And 
it's going on right now, and I assure you, once news gets out 
that I asked you this question, there will be another 6 million 
analysts throughout the States and the Commonwealth analyzing 
what you said and what I asked and what I said. But there were 
two key words to me. One was to resolve, and I hope that that 
continues to be the thought because resolve means exactly that, 
resolve. It can't mean, in my opinion, more of the same.
    And, lastly, that it meets within constitutional 
requirements, and in my opinion, without getting deeper into 
the subject, there was one possible presentation of an option 
that wouldn't meet the constitutional requirements. All the 
others do. So I'm looking forward to what they come up with and 
what your response is, and I must say that you deal with a lot 
of issues every day, but with this being a territory sitting 
around for 116 years, this may not be one of the biggest issues 
on your plate. In fact, I know it isn't. But I can assure you 
that to us, to the New York community and Chicago and all of 
Latin America, this is something we watch very closely.
    Attorney General Holder. No. This is obviously a very 
serious matter, and Puerto Rico is a subject or a place that 
generates, justifiably generates, a lot of involvement by the 
Justice Department, not only with regard to this. I was in 
Puerto Rico a few months ago, working with the Governor on some 
issues. Our U.S. Attorney down there is doing a good job in 
trying to help the local authorities there with the violence 
problem that exists on the island. It's a subject matter that 
justifiably takes up a fair amount of not only my attention, 
but people in the Justice Department as well. So you need not 
apologize for that or think that this is something that's 
inappropriate. This is something that I think appropriately is 
of concern to us in the Department.
    Mr. Serrano. Well, I would hope that we would continue to 
work on it because my personal political-having been born in 
Puerto Rico and raised in the Puerto Rican capital of the 
world, in New York City, in the Bronx, statement is that 116 
years is a long time. It's good for Puerto Rico, but it's also 
good for our democracy to be able to resolve this issue once 
and for all, so I thank you for your involvement.
    Attorney General Holder. For the record, I was born in 
Hunts Point.
    Mr. Serrano. In the 15th congressional district, 
represented by me, Mr. Chairman.
    Mr. Wolf. Thank you. Mr. Diaz-Balart.

                         MARIJUANA ENFORCEMENT

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. By the 
way, a lot of the issues I was going to bring up to you, Mr. 
Attorney General, were already brought up; so I will just go 
back to another one that we have already spoken a little bit 
about, which is the issue of marijuana and the enforcement of 
marijuana. Obviously as we have already talked about, marijuana 
is illegal according to Federal law. It's classified as a 
Schedule 1 controlled substance under the Controlled Substance 
Act; and this label implies that the drug has a high potential 
for abuse and no currently accepted medical use in treatment.
    Now, I'm not an expert on that, but that's what current 
Federal law is. So, again, according to Federal law, it is not 
a minor, benign substance. It is the same, according to Federal 
law, as other Schedule 1 controlled substances. Now, Attorney 
General, you've talked about why the Department of Justice is 
dealing with it the way you're dealing with it. I don't want to 
relitigate that, but I know that you're aware, and it's a sad 
reality that a lot of folks in the country believe that this 
administration selectively enforces the law. I don't want to 
relitigate that either, but there's a perception out there, and 
that's something that we have to deal with.
    So here's the question. Again, you've talked about how it 
is because of law enforcement that that Schedule 1 substance is 
being treated different than other Schedule 1 substances. So to 
my point, would it not make sense that your Department or 
somebody in the administration would bring to Congress a 
proposal to, as opposed to just kind of selectively, and I'm 
not trying to say this in a negative sense, I'm just saying 
your Department is dealing with that one differently than other 
Schedule 1 drugs as far as the enforcement. You've explained 
why. But would it not make sense to then change, or at least 
change, that you would at least recommend changes to Federal 
law as to the illegality of marijuana or at least changes to 
the Schedule 1 drugs so that the American people would be 
certain that you are actually enforcing the law, which 
obviously you say that you are, as opposed to selectively 
enforcing the law for whatever good reasons it may be.
    So wouldn't it make sense to come to Congress with some 
recommendations, with some changes, just if nothing else, to 
give certainty and consistency, and the American people would 
understand that the law is applied with certainty and 
consistency?
    Attorney General Holder. I don't want to be argumentative, 
but I would just take issue, and I'll leave it at that, with 
the notion that we are selectively enforcing the law. I'll 
leave that there. But with regard to the whole question of the 
scheduling of marijuana, I would be more than glad to work with 
Congress if there is a desire to look at and re-examine how the 
drug is scheduled.
    As I said, there is a great deal of expertise that exists 
in Congress. That is something ultimately Congress would have 
to change, and I think the administration, would be glad to 
work with Congress if such a proposal were made.
    Mr. Diaz-Balart. But, Mr. Holder, the question is, 
obviously Congress can do what it may, but Congress is not the 
one who has decided to allow or to not go after folks in a 
couple of States who now are, in essence, selling marijuana. 
That's not Congress's decision. That has been a unilateral 
decision by your Department. So that's, again, my question. If 
that's the decision of your Department, which is what things 
like that are seen, rightfully or wrongfully, because this is 
not the moment to obviously litigate that, as selective 
enforcement, Congress hasn't made that decision. As far as 
Congress is concerned, marijuana is illegal in Federal law. 
That has not changed, and your role is supposed to be, among 
the roles, is to enforce that Federal law. And not only is it 
illegal but, again, it is a Schedule 1 controlled substance. 
You have made, I guess, it's a prosecutorial discretion to 
allow to not go after certain individuals, certain entities in 
Colorado and Washington for that violation of Federal law.
    So, again, it's not Congress because we haven't changed 
anything. What has changed is the policy of this administration 
versus previous administrations as to how to enforce that 
Federal law. So based on the changes that you have all made, 
shouldn't that come to Congress and say, look, we believe that 
the law is wrong. This is how we are enforcing it now and we 
believe this is why, and we think that the law should reflect 
the enforcements.
    Attorney General Holder. Well, I'd say that, at the end of 
the day, if you look at the kind of marijuana cases that we 
will bring, or that we are bringing, and what was brought by 
the Justice Department previously, I'm not sure that you're 
going to see a huge difference. Priorities that we talk about, 
preventing the distribution of marijuana to minors, preventing 
cartels from being involved, preventing violence, and the use 
of firearms; a lot of the marijuana enforcement happens at the 
State and local level with regard to possessory offenses. The 
kinds of cases that have been brought previously by the Justice 
Department and that we would bring now, again, looking at these 
eight enforcement priorities, I'm not sure that you're going to 
see a substantial difference. And to the extent that the 
scheduling issue is one that the Congress wants to engage in, I 
think the administration would be prepared to do that. But as I 
said, the responsibility for this resides in Congress.
    Mr. Diaz-Balart. Mr. Chairman, I don't know if I have time 
for one last question?
    Mr. Wolf. Sure.

          IMPACT OF MARIJUANA LAWS ON PUBLIC SAFETY AND HEALTH

    Mr. Diaz-Balart. And, again, this may not be specifically 
to your environment, but let me just throw it out there 
anyways. Again, we know that some States legalized marijuana 
and other States have legalized medical marijuana, and the 
State of Florida has a ballot initiative coming up on the same 
issue, and who knows what will happen there. Is there a process 
or will there be a process involved in the part that you deal 
with to analyze what, if any, effect these changes in the 
different States are going to have on, again the part that you 
deal with. You don't deal with the health issues I understand, 
but you do deal with potential issues of crime, of organized 
crime or whatever it may be. Is there going to be an organized, 
established, bureau, a process, a commission, and if not, is 
that something that you all should be looking at to make sure 
that whatever impact, and we don't know what they're going to 
be, if any, whatever impact there may be, that, you know, we 
don't all of a sudden 10 years down the road we don't then say, 
oh, we didn't realize this was happening and it's too bad, but 
now it's too late. Is that something that formally is taking 
place within your agencies?
    Attorney General Holder. That's actually a very good 
question, and what I've told the Governors of both Washington 
and Colorado is that we retain the ability to file Federal 
lawsuits if we feel that the regulatory schemes that they have 
put in place are contrary to or are not operating consistent 
with what they say in terms of not having an impact on public 
safety, and if there are public health concerns that are 
generated by these new regulations. What I've told them is that 
we will not hesitate to come in and file lawsuits, and we will, 
within the Department, come up with ways in which we can 
objectively monitor these situations so that we can make the 
determinations about whether or not further Federal action 
would be appropriate beyond the promulgation of the eight 
enforcement priorities that we have and the letters that the 
Deputy Attorney General sent to the field.
    Mr. Diaz-Balart. Lastly, for example those, which I'm glad 
to hear, is that process going to be something that you will be 
willing or be able to share with Congress so that we can also 
see the information that you're getting? I'm sure Congress will 
look at it other ways too. I think it would be helpful that we 
all try to be on the same page, so we at least have the same 
information. In many cases, I think that would be helpful.
    Attorney General Holder. My guess would be that the way 
this would happen is that we will get research proposals from a 
variety of places. Our Office of Justice Programs would make 
determinations as to which ones to fund. Research is done. The 
reports are prepared, and then they are publicly available. 
Obviously we would share them with Congress. And on the basis 
of those determinations, the basis of that research, make 
determinations about what further action, if any, by the 
Justice Department is warranted.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    Mr. Wolf. I'm going to go to Mr. Culberson. But following 
up, I think we have reached the threshold. I think the 
administration, quite frankly, is failing. I just saw the 
article the other day. ``First reported death linked to 
marijuana in Colorado since legalization.'' In the first 
reported death linked to marijuana in Colorado since it was 
legalized, the Denver medical examiner's office Wednesday said 
an exchange student fell to his death after eating a pot 
cookie. Levi Thamba, an exchange student from the Republic of 
Congo, died while visiting Denver after falling from the 
balcony of a hotel in March, according to The Denver Post. The 
autopsy report and Denver's Fox Channel 13 reveal ruled the 
death an accident saying his death was due ``to multiple 
injuries due to a fall from balcony after consuming marijuana 
cookie and marijuana intoxication.''
    According to the report 7.2 nanograms of active THC per 
millimeter, per millimeter of blood in his system, the legal 
limit to drive. We're seeing reports. I think we're going to 
see reports, you know, and you're a moral leader here, too, and 
the President is. I know the President must wish he could take 
those statements back that he made. But as we see accidents, as 
we see car accidents, imagine a mom and dad out with their 
three kids and all of a sudden automobile accident takes place 
and the guy is high on marijuana.
    I think you're all failing the Nation, and I think Mr. 
Diaz-Balart is right. You ought to quickly call a time out on 
this and bring together some of the very best minds on the 
health issues, on law enforcement is telling me on a local 
level they're having a very difficult time monitoring is a 
person high on this. With alcohol, the content is a certain 
time. I took working with, frankly breaking with my leadership 
at that time, I pushed .08. If my memory serves me we carried 
.08 in this bill. And the alcohol people, I don't take alcohol 
money. They were angry. The restaurant people were angry. But 
we saved a lot of lives. I can remember former Congressman Mike 
Barnes on the 21-year drinking age. I think the door is wide 
open now, and so unless you all do something fairly dramatic, 
that's why I did a letter to the President yesterday asking him 
to meet with the head of NIDA on research, not on what are your 
personal opinions and how do you really feel, on research and 
hopefully the President is a good father.
    I mean, I disagree with the President on a lot of issues, 
but nobody could say he's not a good father. But both of you 
have a unique responsibility at this time, and I do predict 
that if the President, you do not do something, the door will 
be wide open, and 10 years from now, 20 years from now when 
you're sitting on your rocking chair, you're going to say, I 
regret when I see what is taking place to this country on 
safety, I regret that when I had the opportunity--there is 
nothing more ex than an ex-attorney general. When you're gone 
you will not be able to do anything. I urge you to follow 
through with what Mr. Diaz-Balart said. But I think after you 
sit down with NIDA, you're going to have a better opportunity. 
You can provide that moral leadership to kind of deal with it.
    And I remember when Governor Hickenlooper was here for the 
Governor's Conference,--you probably met with him 2, 3, 4 weeks 
ago--he urged the other Governors to move carefully here. Be 
very slow, he said, because this thing could have ramifications 
for the Nation. We all love this country, whether Republicans 
or Democrats. If you want to say something, and then I'm going 
to go to Mr. Culberson.
    Attorney General Holder. First, I hope that 10 years from 
now I won't be in a rocking chair.
    Mr. Wolf. It's okay to sit in a rocking chair. You may want 
to sit there and just get up and do something. But the point is 
when you leave here, when you leave here--President Kennedy was 
in his 40s sat in a rocking chair. I love a rocking chair. But 
the point is, you've been given a great, great opportunity to 
serve the country you will never again have. If you're a lawyer 
at Covington & Burling billing $800 an hour, you're not going 
to have the impact that you can have now, and now you can have 
it, and I urge you to please do it on behalf of the children of 
America.
    Attorney General Holder. More seriously, as I was 
discussing with Congressman Diaz-Balart, the enforcement 
priorities, if you look at the sixth enforcement priority that 
would, in fact, warrant Federal intervention, Federal 
investigative and prosecutive activity, it is--let me just read 
it to you, preventing drugged driving and the exacerbation of 
other adverse public health consequences associated with 
marijuana use.
    So that we are saying, in essence, that with regard to 
drugged driving but beyond that, picking up on the incident 
that you talked about and that he spoke about more generally, 
if there are adverse public health consequences that we deem 
associated with marijuana use, this is an enforcement priority 
for this administration, for this Justice Department, and that 
would warrant our intervention.
    Mr. Wolf. Well, we have already seen it. The pain and 
suffering and the agony of this family back in the Republic of 
Congo, they will never again have their son with them, and I 
think the threshold has been met. Mr. Culberson.

                        PROSECUTORIAL DISCRETION

    Mr. Culberson. Thank you, Mr. Chairman. Thank you, Mr. 
Attorney General, for being with us today. I wanted to ask if I 
could to talk about initially prosecutorial discretion and the 
responsibilities of the President and you as the chief law 
enforcement officer of the United States, there aren't many 
responsibilities set out in the Constitution for the President. 
He's, of course, the chief executive officer. He's got 
responsibilities as commander in chief, make treaties, nominate 
ambassadors, other public ministers an consuls, judges, other 
offices appointed, created by the Congress, fill vacancies, and 
give Congress information on the State of the union.
    And then the one I really wanted to zero in on, as chief 
executive officer is to take care that the laws of the United 
States are faithfully executed. Could you talk to us about, 
case law and precedent. What is the scope of your prosecutorial 
discretion when it comes to criminal cases in particular? 
What's the scope of prosecutorial discretion.
    Attorney General Holder. Interesting question. It's a hard 
thing to define, maybe to quantify, but understanding that when 
the Federal Government moves to investigate somebody, prosecute 
somebody----
    Mr. Culberson. In a criminal case?
    Attorney General Holder. Right. Or even bringing a civil 
case, that has broad ramifications obviously for the 
individual. It sends a message out to the broader community 
about what the priorities are that we have, and so discretion, 
from my perspective, is the wise use of the power that we have 
to do and react in a way that's consistent with our values. 
It's perceived as being fair and brings respect for the system 
and actually is fair and does do things in a way that's 
consistent with our Constitution, and----
    Mr. Culberson. Yes, sir.
    Attorney General Holder [continuing]. The precepts that led 
to the formation of this country.
    Mr. Culberson. But each one, as you said to Judge Carter 
earlier, is highly fact-specific. It depends on the case, the 
individual case.
    Attorney General Holder. Well, it depends on the individual 
case but, with an umbrella of understanding about how 
prosecutors should generally conduct themselves.
    Mr. Culberson. As a general rule, particularly in criminal 
cases, you want to look at those individually. Talk to us about 
the authority of the administration, the Department of Justice, 
the President, to just with a broad brush, sweep aside an 
entire category of cases on policy grounds, just not going to 
pursue them under prosecutorial discretion. When and where does 
that happen and what is legal justification, for example, for 
refusing to prosecute a whole range of cases as has been 
mentioned with the Controlled Substances Act, or whether it 
also be with individuals that have crossed into the United 
States unlawfully in violation of criminal statutes?
    Attorney General Holder. Again, it's a question of how, as 
I said with regard to the marijuana matter, we still enforce 
the Controlled Substances Act and enforce it when it comes to 
the marijuana issue. The question is, what are our priorities 
going to be? How are we going to use the limited resources that 
we have? What are we going to focus on in that enforcement 
effort, and those eight priorities I think define, I think 
pretty well, what is a reasonable use of or prosecutorial 
discretion?
    Mr. Culberson. Yes, sir. And in some cases, for example, 
looking at the border of the United States, entering the United 
States illegally, entering the United States unlawfully, 
carries criminal penalties. In the Laredo sector, in the Rio 
Grande Valley sector, I understand from talking to Members of 
Congress in that area, and I'm sorry my good friend Henry 
Cuellar is not here, but Henry tells me that there is a limit 
set in place that you're not going to prosecute folks that 
bring in less than 100 pounds of marijuana. In the Tucson 
sector, I know from my own experience going there several years 
ago, nobody was going to be prosecuted if they brought in less 
than 500 pounds, so every load--the smugglers figured out 
immediately--every load came in just below it.
    Are there any other examples, to your knowledge, any legal 
precedent, any other examples you can point to us in other 
administrations where there have been policy decisions made to 
just not prosecute a whole category of folks, for example, 
whether it be smuggling or in the case of individuals who are 
under a certain age who cross the border without permission as 
has been done with the administration's policy not to prosecute 
kids under a certain age, regardless of the merits of the 
policy, as the chief legal advisor of the President, what's the 
legal authority for that? To set aside and just not prosecute a 
whole category of folks? When has that been done in the past, 
and what's the legal authority?
    Attorney General Holder. I don't have any specifics in 
mind, but I can tell you----
    Mr. Culberson. No specific legal authority in mind?
    Attorney General Holder. No, no, I was going to talk about 
something else.
    Mr. Culberson. Oh, I'm sorry. I want to just talk about 
those two cases in particular. And set aside the policy matter 
because it's absolutely legitimate debate about whether or not 
you're going to prosecute. Obviously you want police officers 
to use their good heart and their good sense when they're 
making a stop, for example, nobody wants to throw little kids 
in jail. Set that aside. Could you talk to us just in general 
about any legal authority, previous cases, previous 
administrations that have made a policy decision not to 
prosecute a particular category of individuals?
    Attorney General Holder. I think what you just said is a 
good example. You want police officers to act in a sensible 
way. I'm not sure exactly----
    Mr. Culberson. Sure. Good common sense and good heart.
    Attorney General Holder. You want your prosecutors to do 
the same thing, and the notion that somehow or other this 
administration has turned a blind eye to border enforcement is 
certainly belied by the statistics, and frankly the criticism 
that I think the President has unfairly received over the 
recent past about the border efforts that we have been engaged 
in. And you talk about those limits. If, in fact, there are 
limits, and I don't know whether they exist or not, but of 200 
pounds per person carrying in and everybody comes in at 199; a 
good U.S. Attorney, assistant U.S. attorney is going to say, 
well, guess what, we're going to start prosecuting 199 pound 
cases.
    Mr. Culberson. Yes, sir. I'm not talking about individual 
cases. I mean, just the policy. I'm not aware of, and I've 
searched. I have been searching, for examples, of where, and I 
understand in individual cases, prosecutorial discretion, you 
want police officers and law enforcement officers to use their 
good hearts and their good judgment and their common sense. 
Every case is different. Obviously that's within the bounds of 
prosecutorial discretion on an individual basis.
    My question is, can you point to us any other 
administration, legal precedent, case law, where an 
administration has just decided as a matter of policy to set 
aside a whole category of cases that would, are eligible for 
prosecution but in a broad sweep? This whole category, we're 
just not going to look at those or prosecute them. When has 
that been done before?
    Attorney General Holder. I can't give you specific 
instances, but give me a little time. I'm sure I can come up 
with examples. Administrations make these determinations all 
the time. When I decide that we're going to prosecute Category 
A, we're going to prioritize those, and I have, I don't know, 
8,000, 10,000 prosecutors, that necessarily means I'm probably 
going to have less capacity to do other kinds of cases.
    Mr. Culberson. Certainly.
    Attorney General Holder. And Attorneys General, former 
Justice Department folks who head up Criminal Divisions, other 
enforcement divisions, have made those determinations all the 
time.
    Mr. Culberson. For broad categories of individuals that fit 
a broad definition of characteristics, because I'm talking 
about broad policy matters. I understand individual, but what 
I'm trying to drive at, it sounds like--you said you can't 
think of specifics. It sounds like the administration may be 
blazing a new trail here.
    Attorney General Holder. No, not at all.
    Mr. Culberson. Has it been done before?
    Attorney General Holder. What I'm saying is that what the 
administration is doing in its exercise of its prosecutorial 
discretion is totally consistent with the way in which former, 
other Attorneys General, other Justice Departments have 
conducted themselves.
    I've been in the Department of Justice since 1976. I've 
been through Priority A, Priority B. We're doing this. We're 
not doing that. I've been through these kinds of appropriate 
determinations by the political leadership of the Department, 
looking at the situations that they confront, the needs of the 
Nation at that time to make appropriate determinations as to 
how the limited resources of the Department would be employed.
    Mr. Culberson. In individual cases?
    Attorney General Holder. No.
    Mr. Carter. Will the gentlemen yield?
    Mr. Culberson. Sure. Because it's an interesting question. 
Judge Carter.
    Mr. Carter. I want to have a dispute with you just a little 
bit. You just described what we call selective prosecution, and 
district attorneys everywhere in the world decide which cases 
they're going to ask to go before court as a priority. And to 
call that prosecutorial discretion, I think I disagree with 
that definition. When judges and prosecutors get accused of 
refusal to prosecute certain categories of crime, they get 
accused of abuse of discretion, judges get brought before 
certain internal governing bodies on the issue of abuse of 
discretion, and prosecutors do, too.
    So there is quite a difference between the individual 
category of prosecutorial discretion. Let me look at my case 
against that person. Is this case a case that I should be 
bringing to court or before a grand jury, that's prosecutorial 
discretion.
    Mr. Culberson. Exactly.
    Mr. Carter. But to say as a broad category, I'm not going 
to prosecute any drug cases in my county, which there have been 
judges and prosecutors that have done, and they have been 
sanctioned and sometimes removed from office for using that 
very, very situation. And that is a difference----
    Mr. Fattah. If the judge would yield for a second.
    Mr. Carter. And that's really what I'm driving at.
    Mr. Fattah. If the gentleman would yield for a second.
    Mr. Culberson. Certainly.
    Mr. Fattah. I think that a little bit, the truth of the 
matter is that the Federal Government doesn't go around 
prosecuting people for, you know, what might be called and I'm 
sure not in any place you've ever been, but places I've been, a 
nickel bag of marijuana. U.S. attorneys, FBI agents are not 
coming on the street corner locking up some kid for a small 
bag. It's for--possession of marijuana has not been something 
that we focused on, and the truth of the matter is that there 
are a whole host of crimes, broad categories of which, right, 
that the Federal Government doesn't take--we kind of leave that 
to State and local governments to do.
    So when President Reagan gave amnesty to 3 million people, 
right, that was a use of the discretion by the administration. 
There are times, because I think if I asked the Attorney 
General, how much would we have to appropriate to enforce every 
law in every State on every person, it would not be a sum that 
we could afford. So by virtue of that, there is some decision-
making process that has to take place.
    Mr. Culberson. If my friend from Philadelphia.
    Mr. Fattah. I'll be glad to yield.
    Mr. Culberson. This is a debate really, that's what I'm 
driving at. Forget the specifics of the law. I'm just talking 
about in general. As Judge Carter just mentioned, really hit 
it. I'm not talking about a specific law to set aside the--I'm 
talking about the drug laws in general or immigration. I 
understand it is a fact-specific situation, but if you could 
answer really looking at Judge Carter's question, when you've 
got a prosecutor that just decides to set aside or judge, a 
whole category of individuals, right Judge?
    Mr. Carter. Yes.
    Mr. Culberson. That has led to, I know in State, and you've 
seen it. How many years were you a judge in Williamson County?
    Mr. Carter. Twenty years.
    Mr. Culberson. Twenty years a judge in Williamson County. 
You're aware of instances where if a prosecutor just said as a 
general rule we're not going to prosecute this entire category 
of people, and the law is real clear----
    Mr. Carter. Sanctions are taken.
    Mr. Fattah. Before you yield, let me just say this.
    Mr. Culberson. Certainly.
    Mr. Fattah. I come from a place called----
    Mr. Culberson. Let's talk about specific----
    Mr. Fattah [continuing]. Philadelphia. The Philadelphia 
district attorney 3 years ago announced he wasn't prosecuting 
possession of marijuana, period. And he has brought no cases 
there on that issue for these period of years. Right?
    Mr. Culberson. And no one has sought sanctions against him?
    Mr. Fattah. No one. In fact----
    Mr. Culberson. It depends on the state.
    Mr. Fattah. It depends on--the prosecutors have that 
discretion. He is an elected official, elected by the people of 
the city of Philadelphia. And we might not notice this, but the 
country's changing its view on marijuana, the same way that 
happened with alcohol. We had a prohibition, we had a major law 
enforcement effort. It obviously didn't work to stop people 
from drinking alcohol, and so the country made a different 
decision. No, it is not great for people to do it, it is 
definitely not good for them to drive on the highways while 
they do it.
    Mr. Culberson. Right.
    Mr. Fattah. It can impair their situation with their 
family.
    Mr. Culberson. Sure.
    Mr. Fattah. But we are going to let Americans make that 
decision----
    Mr. Culberson. But in the----
    Mr. Fattah [continuing]. But if they sell it to a minor, we 
will prosecute it.
    Mr. Schiff. Will my friend yield to my friend that just 
yielded?
    Mr. Fattah. Right? But we made some decisions.
    Mr. Schiff. Can I just make one quick point?
    Mr. Culberson. Sure.
    Mr. Schiff. And I thank you. You have been so kind to yield 
to all of us.
    Mr. Culberson. Of course. It is a helpful debate.
    Mr. Fattah. He is a very kind person.
    Mr. Schiff. He is a very kind person. And I just want to 
give an example. In the Federal system, when I started in the 
U.S. Attorney's Office back in the late 1980s, there was than a 
Justice Department policy at least as far as L.A. was 
concerned, we wouldn't prosecute cocaine cases of less than 1 
kilo. We just didn't have the resources.
    Mr. Culberson. Sure. You left it with the State.
    Mr. Schiff. And then few years later--yeah, we left it to 
the State. A few years later, we wouldn't prosecute cocaine 
cases unless they were over 5 kilos, and I think it may have 
gone up to 25 kilos.
    Mr. Culberson. Because they were left to the State to 
prosecute.
    Mr. Schiff. Well, because the State has dual jurisdiction--
--
    Mr. Culberson. Right.
    Mr. Schiff [continuing]. But it was a question of the 
Federal Government prioritizing its resources and deciding----
    Mr. Culberson. Absolutely.
    Mr. Schiff [continuing]. Where it best used its 
prosecutorial discretion, but those were whole categories of 
cases.
    Mr. Culberson. Exactly. Prosecuted by the State.
    Mr. Schiff. Well----
    Mr. Culberson. That was the--the Federal attorney said, I 
only got so many resources. These are typically State cases. 
And what I am driving at, of course, in the instance Mr. Fattah 
mentioned were the 3 million folks that were granted amnesty 
under President Reagan, that was a congressional decision, 
statute, following the statute that Congress has enacted. And 
the----
    Mr. Fattah. You know, what? If we ever get a vote in the 
House, we are going to do it, too.
    Mr. Culberson. But, again, that was Congress enacted a 
statute. And my friend, Mr. Schiff, who truly is, we are 
friends, and I--what you are referring to is the Federal 
prosecutors left those cases to the State.
    Mr. Carter. And that is why I wanted to ask. When you 
refuse to prosecute 5 pounds or 10 pounds of coke, then the 
Federal case always takes priority over the State case. I am 
fairly certain it is illegal to have 5 pounds or 10 pounds of 
coke in the State of California. Did those cases then get 
turned over to the State courts to be prosecuted?
    Mr. Schiff. Yes. The State district attorneys usually 
picked those up, but of course the State district attorneys 
have their own limitations on resources and they set their own 
priorities that we will go after certain cases and we will not 
be able to prosecute others because we simply don't have the 
resources to do everything. So this is a State practice as well 
as a Federal practice.
    Mr. Culberson. Absolutely. And one that I don't disagree 
with, because you have got to leave some to the State 
authorities and others when Congress has changed the law or the 
people have changed the law in election or, for example, in 
Philadelphia, if the prosecutor in Philadelphia--you know, I am 
a big Tenth Amendment guy. Frankly, I think almost all these 
criminal cases ought to be handled by State authorities, so 
that I understand.
    The distinction, what I am driving at, Mr. Attorney 
General, is as Judge Carter has pointed out and my colleagues 
have pointed out, I think you can distinguish what they are 
talking about. And what other administrations, what is the 
precedent for just--for other administrations, what is the 
legal precedent for just not even prosecuting whole categories 
of cases? When has that been done? You have been in the 
Department of Justice since 1976.
    Attorney General Holder. Well, you----
    Mr. Culberson. Could you cite us some specific examples? 
You said you couldn't really think of any. I am trying to 
establish, are you blazing a new trail here or what?
    Attorney General Holder. No, we are not blazing a new 
trail. We have heard Congressman Schiff talk about how 
priorities are set with regard to amounts that will determine--
--
    Mr. Culberson. But the State picks those up.
    Attorney General Holder. Yes. And that would be true of the 
marijuana cases as well, in the sense that if we make a 
determination that for whatever reason, we are not doing these 
cases unless these eight enforcement priorities are met, that 
doesn't mean that those cases will not be prosecuted. The State 
has the capacity to bring those cases.
    Mr. Culberson. Right.
    Attorney General Holder. We talk about selective 
enforcement. That is----
    Mr. Fattah. If the gentleman would yield for one minute, I 
will give you an example. There was a date in our history of 
the Nation in which the President of the United States pardoned 
all draft dodgers, hundreds of thousands of people who had 
avoided--violated the law by avoiding the draft.
    Mr. Culberson. But he has got that authority under the 
Constitution.
    Mr. Fattah. Not by congressional action, but by decision.
    Mr. Culberson. But he has got that authority under the 
constitution.
    Mr. Fattah. But here is the deal, right?
    Mr. Culberson. Right.
    Mr. Fattah. There was an election. This administration was 
elected. This attorney general was appointed and confirmed by 
the Senate and is acting and serving at the pleasure of the 
President. And the President said, Smoking marijuana's not a 
good thing. He is not advising that people do it. What he is 
saying, however, is that the country is moving. So, yesterday, 
the Pew poll came out, said that, forget marijuana, 67 percent 
of the American public thinks that rather than criminalize drug 
use, cocaine and heroin, we should go to treatment. Now, I am 
not advocating that, but we live in a democracy in which the 
public gets a vote----
    Mr. Culberson. Yes, sir.
    Mr. Fattah [continuing]. On these issues.
    Mr. Culberson. And we as their Representatives enact laws 
to reflect the opinions of our constituents. And the power of 
pardon is vested in the President by the Constitution. Chairman 
Wolf is----
    Mr. Fattah. I don't want you to think, though, that no 
President has ever taken an action like not prosecute a large 
group of people.
    Mr. Culberson. What category?
    Attorney General Holder. Well, Congressman, let me----
    Mr. Culberson. That is what I am driving at.
    Attorney General Holder. Let me ask you a question. Would 
you have the Federal Government, the Justice Department, 
prosecute every conceivable case we have the ability to 
prosecute?
    Mr. Culberson. Well, no. You can't, but that is an 
individual----
    Attorney General Holder. Exactly. We can't.
    Mr. Culberson [continuing]. Case-by-case decision. That is 
what I am driving at. That is what Judge Carter is driving at.
    Mr. Carter. Can I?
    Mr. Culberson. Please.
    Mr. Carter. Would you yield?
    Mr. Culberson. Yes.
    Mr. Carter. Mr. Holder, did you ever plead anybody out?
    Attorney General Holder. Did I ever do what?
    Mr. Carter. Does the Justice Department ever, ever plead 
anybody out?
    Attorney General Holder. We do that.
    Mr. Carter. About 90 percent of your cases, right?
    Attorney General Holder. Yes.
    Mr. Fattah. Ninety-seven percent of the cases.
    Mr. Carter. So you couldn't plead out a 5-pound deal? I 
mean, you decide you are too busy to prosecute a 5-pound deal; 
5 pounds is a hell of a lot of cocaine, okay, when you measure 
it by the gram. My God.
    Attorney General Holder. Well, we are talking about cocaine 
now. I----
    Mr. Carter. Well, no. That one was pointed as an example: 5 
pounds of cocaine was the cutoff. We are not prosecuting 
anything that is not 5 pounds or more. Now it is 10 pounds.
    Mr. Fattah. It was 5 kilos. I am sorry.
    Mr. Carter. I am sorry. Kilos.
    Mr. Fattah. Wrong side of the weight.
    Mr. Carter. That is even worse. That is even worse. That is 
10.2--that is 11 pounds.
    Mr. Culberson. He has prosecuted one or two.
    Mr. Carter. But the facts are, you plead out those cases. 
To say you don't have the people to do it--you plead out 90 
percent of your cases.
    Attorney General Holder. Well, no, no, that is not----
    Mr. Carter. But that is not really the example----
    Mr. Schiff. If the gentleman would yield----
    Mr. Carter [continuing]. We are talking about here. Let's 
switch examples.
    Mr. Schiff. It is still required--even in plea bargain 
cases, you have still got to investigate the case. You don't 
get a plea just because you ask for one. You have got to have 
your trial lined up, the defense----
    Mr. Carter. You don't get any plea if you have got a policy 
of not prosecuting 5 kilos. They are not going to plead to 
anything.
    Mr. Schiff. Well, if you take all the 5 kilos cases, that 
may mean you can't do all the 10 kilo cases. I mean----
    Mr. Carter. But you plead them out.
    Mr. Culberson. Well, it is handed over to the State, if 
they are prosecuted.
    Mr. Carter. Let's get away from them the stuff that is 
clearly illegal.

                           BORDER ENFORCEMENT

    And the big debate, where the State has no jurisdiction, is 
immigration. You have refused to prosecute immigration cases. 
Stated as a public policy that you would not go forward on 
anything but major criminal violations. Not violations of the 
immigration code but violations of the criminal code. Now, that 
is the policy that you have established.
    And right now, 60,000 unaccompanied minors are coming 
across in the Rio Grande Valley this year. All of which, if 
they were American citizens, would go before our Child 
Protective Services and probably be taken away from their 
parents rather than turned over to a criminal organization. And 
nobody crosses the Texas border from Mexico without the 
assistance of the cartel. Nobody.
    Now, how in the world haven't you created a very dangerous 
situation by saying, ``I am not going to prosecute anybody that 
is living and working here. They are safe.'' Has that not 
encouraged people to make this kind of decision for their 
children? This is atrocious.
    Attorney General Holder. Well, Judge, I will match the 
enforcement record of this administration against the 
enforcement record on the border of any other administration, 
any other one.
    Mr. Carter. You are talking about deportations?
    Attorney General Holder. Any other administration, any 
other one.
    Mr. Carter. And I will agree with your figures when you 
eliminate the pass-backs.
    Attorney General Holder. Let's look----
    Mr. Carter. Okay?
    Attorney General Holder. Let's look at the record.
    Mr. Culberson. The turn-backs.
    Mr. Carter. The turn-backs.
    Mr. Culberson. The Border Patrol----
    Mr. Carter. We turn back Mexican--Mexican nationals every 
day.
    Attorney General Holder. Let's look at the record and let's 
see what this administration has done, what this President has 
done, what our border enforcement efforts have been like, and 
they are the equal of and better than what any other 
administration has done, and which I suspect you probably were 
not as critical of.
    Mr. Culberson. I have to tell you----
    Mr. Carter. Thank you.
    Mr. Culberson [continuing]. This--Chairman Wolf is--this is 
one of the reasons I love this subcommittee so much, is how 
generous and gracious you are, Chairman Wolf, with our time and 
the thoughtfulness of the discussion, and it is a heartfelt, 
earnest discussion.

                        PROSECUTORIAL DISCRETION

    And set aside the individual, whatever the specific law 
that you are dealing with, there is--in your mind, you are not 
aware of any other previous instance in which an entire 
category of individuals the Department of Justice has refused 
to prosecute?
    Attorney General Holder. But you see, the premise of your 
question is that is what we are doing now, and I am not saying 
that we are.
    Mr. Culberson. It is being done with--he is chairman of 
Homeland Security, and I am with him, and I guarantee it is 
being--forgive me for interrupting. I apologize. But it is 
being done with immigration.
    Attorney General Holder. We are, again, using our resources 
in appropriate ways. We are not saying the categories of 
people, categories of kinds of cases are not going to be 
prosecuted. Individualized determinations are always made. 
There are exceptions to rules that we come up with. We have 
these eight categories here. You know, Al Capone. Right? The 
classic case. Couldn't get him on any of the stuff that he 
really did, so they brought a tax case.
    Mr. Culberson. That is an individual case. I am talking 
about categories.
    Thank you, Mr. Chairman, for being so generous.
    Attorney General Holder. Individualized determinations----
    Mr. Culberson. Chairman Carter is wrestling with this right 
now. We have got vast numbers of abandoned kids being handed 
over to the cartels coming across the border. It is just 
heartbreaking. And it is a terrible message to send not to 
prosecute a whole category of people, because you have got 
these poor kids just literally being abandoned, Judge.
    You just--it is a heartbreaking situation.
    Attorney General Holder. For the record, and just so that 
my position is clear, I categorically disagree with your saying 
that we are not prosecuting vast categories of cases in a way 
that is inconsistent with the way things have been done by 
prior Justice Departments. We just disagree about that.
    Mr. Culberson. I suspect Judge Carter will have a follow 
up.
    Mr. Carter. If the gentleman would yield. And I thank very 
much the chairman for being patient.
    I can tell you that in my subcommittee on Homeland 
Security, we have sat and heard the conversation from all the 
Departments that it is the policy of the government to only go 
after criminal aliens.
    Mr. Culberson. Department of Justice policy.
    Mr. Carter. That is the Department of Justice policy to 
only go after criminal aliens. It has been given to us as a 
reason for resources, a reason for moving the resources around 
the border, yada, yada, yada. It just goes on and on and on. We 
have heard it since the Democrats were in charge. This is when 
we decided that the people we would go after were criminal 
aliens, and all other people that cross the border, we were not 
going to pursue anything in court. Now----
    Mr. Fattah. Mr. Chairman----
    Mr. Carter [continuing]. I don't know where--I don't know 
why for 8 years, 6 years, people have been telling us the 
story, but that is what they tell us.
    Mr. Fattah. If the gentleman would yield. Judge Carter is 
in majority in the House. So let's try to put this in some 
perspective. The Senate in a strong bipartisan vote has passed 
an immigration reform bill that has an enormous amount of 
resources to be provided for border security, tens of billions 
of dollars sitting there. The President of the United States 
says he supports this or would support a House alternative.
    The House majority has yet to bring a bill to the floor on 
immigration reform that would include border security. They 
have refused to bring a bill to the floor just on border 
security.
    Mr. Carter. And I thank the gentleman for reminding me of 
that.
    Mr. Fattah. Excuse me. I just want to make sure. So when 
you hear the passion emanating from the other team about how 
concerned they are about these issues related to the border, 
the first question is, when are they going to bring within 
their own authority a piece of legislation to the floor of the 
House so that the House could act on this critical issue? If 
tens of thousands of unaccompanied minors are coming across the 
border, right, if all this is going on, if the administration 
is somehow dearth in its responsibility, then the Congress 
should act. So the only instrument of the United States 
Government that has not acted on this matter is the House, 
which is in the control of the majority. So you have to 
question this passion relative to the inaction.
    Mr. Culberson. That is not the law yet, and that is all I 
was driving at. And Chairman Wolf----
    Mr. Carter. That is a great way to avoid the question, and 
I thank you for the----
    Mr. Fattah. I am just trying to help your understanding of 
the law----
    Mr. Culberson. That is not the law yet.
    Mr. Fattah [continuing]. As we go forward.
    Mr. Culberson. Chairman Wolf, thank you for your generosity 
with the time.
    Mr. Wolf. Thank you. We are going to go to some questions. 
We are going to Mr. Fattah and back. We are going to have votes 
soon.
    Mr. Serrano. Mr. Chairman, should the rest of us get a law 
degree just for sitting in on this debate?
    Mr. Wolf. You can audit the course for credit.
    Mr. Serrano. Thank you.
    Attorney General Holder. You could audit the course.
    Mr. Wolf. Thank you.
    Mr. Fattah. Thank you, Mr. Chairman.

                           OPPORTUNITY COSTS

    Mr. Attorney General, we all have to make choices. And to 
be fair, I think the greatest thing about the life that God 
allows us to lead is we get a chance to make choices, you know. 
So when you choose to focus on one area, there is--in the 
economics, there is something called the opportunity costs. If 
you choose to focus on one area, you can't focus on something 
else. Right? So these are choices that have to get made. And we 
have said as a Nation that the core responsibilities of the 
United States Government is to protect the American people from 
another terrorist attack. You have some core national security 
responsibility. We turned the whole FBI, like an aircraft 
carrier, we turned it around to focus not on finding people 
after a crime has been committed, but on preventing, you know, 
another attack. Right? So there is a difference in some of the 
priorities of the Department of Justice today than the 
Department of Justice pre-9/11. Right? Both under your 
leadership and under past attorneys general, you have had to 
focus on this threat from Al Qaeda and others who seek to do 
the American public harm. Right?
    So there is a difference on what we might do about a whole 
range of these other items that more traditionally might have 
gotten more attention, because you have got to focus some of 
your attention on people who are not trying to, you know, kind 
of violate some criminal law here in our country but really 
trying to kill us. So there is a difference in your 
responsibilities. And so I want you to talk a little bit about 
the work on this national security front, right, because I 
think that there was a hearing a long time ago where we had 
former Speaker Gingrich, and he was saying, Well, you know, we 
have got to do this, we have got to do that. I asked the 
question about, you know, there was a time under a former 
American President who would criticize China for arresting 
people without due process, without charges, with secret 
evidence that was never made public and so on, and Bush, 
Senior, the President, complained about this process in China. 
And I asked former Speaker Gingrich, I said, Well, what does 
this mean in the war on terrorism now? You know, how are we 
going to reconcile being a nation of laws and, you know, 
protecting ourselves. Right? And he admitted in this, hearing 
that, that we are in a different place. And this has been seen 
as part of the rub, part of the controversy that you have had 
to confront in terms of reconciling our laws and our 
constitution with the fact that we are in a situation in which 
the Geneva Conventions and other normal constraints don't 
exist, at least for those who are our adversaries. So if you 
would talk a little bit about how you have tried to reconcile 
these issues in your role, that would be helpful.

                           NATIONAL SECURITY

    Attorney General Holder. What I have often said is that 
there is not a tension between our keeping the American people 
safe and our national security responsibilities and an 
adherence to our values. We can do both. In fact, if we are 
doing it in the way in which we should, we should be doing 
both, keeping the American people safe, but doing so in a way 
that is consistent with our values.
    We have in our budget request for what in essence is a new 
Justice Department, new in the sense that it is different, as 
you say, from the Justice Department that existed before 9/11. 
You are absolutely correct that the FBI is a fundamentally 
different agency than it once was. The Justice Department is 
fundamentally different. We have a National Security Division 
that never existed before. When I was the Deputy Attorney 
General in a pre-9/11 Justice Department, I didn't start my day 
by going to 8:30 briefings where I would get the raw threat 
stream for the previous 24 hours, as I do now, along with the 
Deputy Attorney General. We are much more a national security 
agency than we once were. I sit on the National Security 
Council. I spend huge amounts of time in the Situation Room 
trying to determine what the national security response of the 
United States is going to be in a whole variety of contexts.
    So this Department needs the budgetary request that we have 
put forward to support this relatively new mission. We are 
talking about something that is over a decade old at this 
point, but we are constantly trying to refine our national 
security efforts so that we can be more effective, more 
efficient but, at the same time, adhere to those values.
    Mr. Fattah. I told you I visited the Joint Terrorism Center 
when it opened in Virginia. The chairman lets me go to Virginia 
every once in a while. And I was there to--and you have this 
whole range of entities, many from DOJ, working together trying 
to, you know, find a needle in the haystack, if you would. Post 
9/11, there was always concern about, you know, not connecting 
the dots. Right? So what is your sense now in terms of DOJ as 
it interacts with the other intelligence apparatuses? Do you 
think that there is appropriate interaction, or are there still 
challenges?
    Attorney General Holder. No. I think we are in a much 
better place than we were. I think we are even in a better 
place now. As this administration, there were certain concerns 
that were raised after the Abdulmutallab incident in Detroit, 
where I don't think we saw the kinds of communication between 
the national security agencies that we needed to have, and this 
was of great concern to the President. So I think we are doing 
better in that regard. I think we can always do better to make 
sure that institutional barriers, turf consciousness is not 
something that gets in the way of information sharing and 
policy development, but I can tell you that when it comes to a 
whole range of national security issues, I look at the people 
who I normally meet with--and these are members of the 
intelligence community, the Defense Department, the Justice 
Department, representatives from the White House, the national 
security staff--these are the kinds of things that we take a 
whole-of-government approach to. It doesn't mean we are 
perfect, but I think we are also sensitive to the fact that we 
need to try to become as perfect, as we can. So we are always 
trying to fine tune the efforts that we are engaged in.
    Mr. Fattah. Thank you. Thank you, Mr. Chairman.

                      PRISON RAPE ELIMINATION ACT

    Mr. Wolf. PREA, Prison Rape Elimination Act, the budget 
request proposed cutting PREA grants by 16 percent. What is 
your rationale for that?
    Attorney General Holder. I am sorry, Mr. Chairman. I----
    Mr. Wolf. PREA. Your budget is cutting PREA grants, Prison 
Rape Elimination Act, by 16 percent. What is your rationale for 
that cut?
    Attorney General Holder. Dealing with this whole problem of 
sexual violence is something that is obviously extremely 
important to us. We are making changes here.
    Mr. Wolf. But it is a cut.
    Attorney General Holder. We are phasing out, for instance, 
the Prison Rape Review Panel.
    Mr. Wolf. But these are grants.
    Attorney General Holder. Yes. There are ways in which we 
have to make determinations about how we are going to use the 
money that we have. We have a budget that is good, not as great 
as we would want it to be, and so we have had to make some 
tough determinations about how we spend the money that we have. 
And to the extent that there were cuts there, we think that 
they were ones that were difficult to make but, nevertheless, 
will leave us with the ability to enforce PREA in the way that 
it was intended.
    Mr. Wolf. I doubt that you really support cutting the 
grants by 16 percent.

                       FEDERAL PRISON INDUSTRIES

    UNICOR is beginning to use the authority the committee 
provided to allow them to repatriate jobs back to the U.S., 
increase range of products, as you know, so that--understanding 
so men and women who are in prison have the dignity to work, to 
learn, so they can be rehabilitated to come out, including new 
offers like LED lighting, battery chargers and baseball caps.
    Are you aggressively working with the other Departments to 
ask them, when they can, to use UNICOR?
    Attorney General Holder. Yes. We are working----
    Mr. Wolf. I mean, have you done--excuse me. Have you done a 
letter to all the other Cabinet officials? Like the Park 
Service, you go into a national park, you buy a baseball cap; 
it is made in China. You buy a T-shirt; it is made in China. 
There is only one or two American baseball manufacturers in the 
United States. Are you working with them? Using UNICOR, you 
could. So could you--have you been in touch with the other 
agencies?
    Attorney General Holder. I think that is actually a good 
idea, the notion of a letter that would go to the other agency 
heads to try to encourage them to make greater use of Federal 
Prison Industries products. We have certainly reached out to 
presently about 200 companies regarding potential 
opportunities. We have 34 currently approved repatriation 
projects, 450 inmates employed, which is double the number from 
6 months ago. And it is still, from my perspective, not enough.
    This is an area where I think that we can have a dramatic 
impact on the lives of people who are presently incarcerated, 
increase their chances for being successful outside of the 
prison context, reduce recidivism. If we spend the money 
upfront and dedicate the resources upfront, we can knock down 
the crime rate on the other side and also decrease the amount 
of money that we spend in the system for people who come back 
into it.
    Mr. Wolf. If you could do a letter, then, to all the 
agencies--
    Attorney General Holder. We can do that.
    Mr. Wolf [continuing]. Park Service, Department of 
Interior, all of them.
    Attorney General Holder. I think that is----

                        DOMESTIC RADICALIZATION

    Mr. Wolf. The committee has appropriated $12 million over 
the past 3 years for research on domestic radicalization. How 
is this research being used to inform the Department's response 
to the domestic radicalization phenomenon and to refine its 
counterterrorism mission, because you have had 50-some 
Americans leave the United States and go to Syria?
    Attorney General Holder. Yes. We have had Americans leave 
and go to Syria, leave and go to Somalia. And we are also 
concerned about people who don't leave and who get radicalized 
in a variety of ways. This is something that is a priority for 
the President. It is one that he asks the national security 
team about and expects reports on, at least on a monthly basis. 
And so we use that money to try to understand how do people get 
radicalized, what drives otherwise seemingly normal people to 
take these radical courses and then to come up with ways in 
which we interact with groups of people, individuals, various 
communities and so that there is a counternarrative to people 
who would go on the Internet and be convinced that there are 
certain ways of life that they should follow. Our U.S. 
attorneys have been very involved in this action. It is one of 
the charges that I have given to them, to get out into the 
communities and to interact with communities that are at risk 
so that we reduce the possibility of these potential domestic 
violence adherents.
    Mr. Wolf. It was amazing to hear Michael Morell, former 
deputy and acting head of the CIA, yesterday say, or 2 days 
ago, that he removed the word ``Islamic'' because he didn't 
want to offend anybody when they were doing the briefing on the 
attack on Benghazi. I mean, that is political correctness gone 
awry. When the CIA is worried and removes the word ``Islamic'' 
on a report where we lose four American citizens, I think this 
administration is adrift and if it has reached the CIA.

                           HUMAN TRAFFICKING

    Your request on human trafficking to strike language 
carried the past several years requiring each U.S. attorney to 
lead or participate in human trafficking task force, why would 
you ask that? I mean, Neil MacBride, Neil has done probably 
better than any other U.S. attorney. Now you want to take that 
language away. Why would you want to do that?
    Attorney General Holder. I am not sure I am familiar with 
that.
    Mr. Wolf. Yeah. Is he going to give you the brief? Yeah, it 
says to strike.
    Attorney General Holder. This whole question of human----
    Mr. Wolf. You don't want us to strike it, then, I assume, 
because you would----
    Attorney General Holder. I am just not familiar with what 
you are discussing.
    Mr. Wolf. Okay. Good. So you are opposed. Okay. Good. That 
is what we wanted to hear you say.
    The FBI director, when we had Director Comey up the other 
day, agreed that the FBI's National Gang Intelligence Center 
would be a logical place to assemble and analyze intelligence 
on human trafficking, because many times gangs are involved, 
MS-13. Would you agree that that would make sense?
    Attorney General Holder. I think that would be a good 
place, but as long as we don't think that human trafficking is 
only done by gangs.
    Mr. Wolf. Oh, no. No, no. But it would be--because in 
Northern Virginia, part of it was gangs. We see around it--
but--so that would be--okay. Good.
    Backpage.com, I am not going to--we are running out of 
time, and--but I really--until the law and regulation can be 
alined with our duty to protect our children, I would hope that 
you would maybe send a team up to sit down with us, and there 
is language moving through the House, to perfect it in such a 
way, sir, that it is not a paper--passes something, people feel 
good and doesn't have any impact. So if you could have your 
team contact the staff, and we can sit down with people who are 
working on it to make sure whatever is brought up is 
constitutional and does really deal with the issue.
    Attorney General Holder. Yes. As I indicated in my remarks, 
and I think as we have said to you in a letter, we would like 
to interact with you in terms of legislation that will be 
effective and that will pass First Amendment constitutional 
muster.
    Mr. Wolf. If you could have somebody come up next week, 
that would be helpful----
    Attorney General Holder. That is fine.
    Mr. Wolf [continuing]. Because this thing is going to move.
    Almost a year ago, on human trafficking, in McLean, 
Virginia, in my district, there was a case of a Saudi diplomat 
who allegedly kept a domestic worker in slavery. Recently in 
New York, we saw the case of an Indian diplomat who was charged 
with visa fraud who was underpaying a housekeeper.
    What challenges are you facing confronting human 
trafficking in the diplomatic community?
    Attorney General Holder. It is an issue that has become 
apparent in at least a couple of cases. There are others that 
we are looking at and trying to deal with. It is something that 
there is an increased awareness of by various U.S. Attorneys, 
not only in New York and in Washington, but in other parts of 
the country as well.
    Mr. Wolf. Was that Saudi diplomat prosecuted?
    Attorney General Holder. I don't recall.
    Mr. Wolf. Could you check and let us----
    Attorney General Holder. Yes, we can do that.
    [The information follows:]

                    Was a Saudi Diplomat Prosecuted?

    We investigate allegation of abuse and exploitation of domestic 
workers, including the employees of diplomats, to the extent authorized 
by law. We cannot comment on the statuts of any pending investigations. 
There has been no prosecution to date of the McLean, VA Saudi diplomat 
matter you reference.

    Mr. Wolf [continuing]. Let us know?

                             HONOR VIOLENCE

    Honor violence. I am concerned that the Department is not 
taking seriously the problem of honor violence in the United 
States. We saw the case in Arizona, a 19-year-old Arizonan, 
after she was seen talking to a boy, her father put a knife to 
her throat and threatened to kill her, while her mother and 
sister tied her to a bed and taped her mouth shut and beat her. 
And in Arizona, another person was killed by her father for 
refusing to participate in a forced marriage.
    In the fiscal year 2014 omnibus, the committee included 
$250,000 for the Bureau of Justice Statistics to collect 
statistics on honor violence and to examine whether data 
series, such as the Uniform Crime Reporting series, the 
National Crime Victimization Survey, should include data on 
honor violence. Can you provide us with an update on these 
efforts?
    Attorney General Holder. Yes. The BJS, Bureau of Justice 
Statistics, has been charged with examining whether Uniform 
Crime Reports, the National Crime Victimization Survey, and 
other relevant data series should collect report data on honor 
violence. And BJS has obtained initial information from the 
Office on Violence Against Women and NIJ's project assessing 
some parts of the issue. This includes a review of the current 
literature from OVW and a project funded by NIJ that addresses 
forced marriages.
    This is a topic that really tugs at me. I am the father of 
two daughters, and the notion that these kinds of activities 
would occur in our country is simply something that is 
unacceptable, and so we are working to deal with this issue in 
the ways that I have described.
    Mr. Wolf. Okay. I appreciate that. If you could, again, 
have your people keep up with the subcommittee to let us know 
as we mark up the bill to see if there is something else that 
we should be doing.

                              THE WIRE ACT

    I am going to ask you one last issue that hasn't been 
covered very much. For 50 years, the Wire Act served as a 
barrier to gambling operations via communications services. 
Then, in 2011, the Office of Legal Counsel ruled the Wire Act 
applied only to sports betting. Could you describe why and how 
the legal ruling was made with no consultation with Congress?
    Attorney General Holder. The Deputy Attorney General sent a 
letter that the Wire Act only covered sports betting. The 
Office of Legal Counsel looked at this matter and issued an 
opinion in September of 2011. I will be honest with you. I 
don't remember what the circumstances were that precipitated 
the examination by OLC.
    Mr. Wolf. Can you find out and tell us?
    Attorney General Holder. Yes. I have something that I 
vaguely remember, but I don't want to say something that is not 
consistent----
    [The information follows:]

    What Circumstances Precipitated an OLC Opinion on the Wire Act.

    As the opinion stated, Illinois and New York proposed to use the 
Internet and out-of-state transaction processors to sell lottery 
tickets to in-state adults. In view of these proposals, the Criminal 
Division asked the Office of Legal Counsel to resolve whether the Wire 
Act and the Unlawful Internet Gambling Enforcement Act prohibit a state 
lottery from using the Internet to sell tickets to in-state adults 
where the transmission using the Internet crosses state lines, and 
whether these statutes prohibit a state lottery from transmitting 
lottery data associated with in-state ticket sales to an out-of-state 
transaction processor either during or after the purchasing process.

    Mr. Wolf. Sure.
    Attorney General Holder [continuing]. With what the facts 
were, but I do remember that that was an issue that was of 
note. There was a precipitating event that made OLC examine 
that question and issue that opinion in September 2011 that 
then precipitated the letter that the Deputy Attorney General 
sent out, and we can find out exactly what that event was and 
share that with you.
    Mr. Wolf. If you could. To release something on a Friday 
before Christmas, you just know there is something wrong. And I 
was the author of the National Commission on Gambling a number 
of years ago, and there is a difference on the impact, 
particularly for young, what they call destination gambling and 
convenience gambling. Destination gambling, you are going to go 
out far away, you take so much, and that is it. Convenience 
gambling around the corner is--the ultimate convenience 
gambling is to go be able to go online in your bathroom in your 
dorm at Penn State, and so, you know, I would like to find out.
    And also, Mr. Chaffetz and Senator Graham have introduced 
H.R. 4301 to restore the Wire Act. Will you provide the 
technical and policy expertise to help craft a strong and clear 
statute that restores the sensible prohibition on online 
gambling?
    Attorney General Holder. We will look at the statute. I 
don't know what the administration's policy or policy 
determination would be with regard to that question, but we 
will certainly look at the statute and provide the technical 
assistance that might be required.
    Mr. Wolf. Okay. Thank you. I am going to kind of--if 
anybody on either side wants one last--yeah.
    Mr. Schiff, yeah.
    Mr. Schiff. Thank you, Mr. Chairman.

                     CRIMINAL JUSTICE SYSTEM REFORM

    Mr. Attorney General, you have been very outspoken about 
your concerns about the broader issues in the criminal justice 
system and, in particular, inequities which fall 
disproportionately on many minority communities. And the 
committee is well aware we have the dubious distinction of some 
of the highest incarceration rates of anywhere in the world.
    I appreciate that this budget reflects a balanced and 
evidence-based take on criminal justice and on reforming the 
system to be smarter, fairer and cheaper. It reminds me of 
something Churchill once said: ``Now that we are broke, we have 
to be smart.'' And we feel that quite overwhelmingly in 
California with our prison budgets bankrupting the State.
    When we step back and look at the justice system in the 
U.S. And our rate of incarceration, racial disparities, the 
degree to which our prisons are housing thousands of Americans 
with substance abuse issues and mental illnesses, there just 
has to be a better way, and I think the efforts you have made 
to change that way are going to be among the proudest 
achievements of your tenure as Attorney General.
    I want to just compliment you on the funding for the Honest 
Opportunity Probation Enforcement courts as well as the justice 
reinvestment programs. Seventeen States have implemented 
justice reinvestment in some form. Regrettably, my own State of 
California, which has among the worst problems, has not. And I 
look forward to working with you on it. And I wonder if there 
were any thoughts you wanted to share on the overall direction 
of the criminal justice system.
    Attorney General Holder. I look forward to working with you 
and other members of the Committee in that regard. I think what 
we have tried to do in the Smart on Crime initiative is to look 
at the world as it exists and look at the criminal justice 
system as it exists, and also examine what some States have 
done. Very interesting experiments have been done in States, in 
red States, Texas, Kansas, Kentucky, where by emphasizing 
prevention, emphasizing rehabilitation, emphasizing reentry 
programs, States are spending less on prisons. They are having 
a positive impact on their crime rates. So that it is something 
that I think people don't necessarily equate, but it is 
possible. You can spend less and keep people even safer if you 
are smart in the way in which you structure your criminal 
justice efforts, and that is what we are trying to do in the 
Federal system with the program I announced, last August. We 
have money in our budget request to support these efforts. I am 
actually optimistic that there is also legislation that is 
pending that has been set up by Senator Durbin and Senator Lee 
that we are supportive of and hopefully will be passed by the 
Senate and hopefully passed by the House so that we can 
institutionalize some of the changes that I have made with 
regard to how Justice Department prosecutors are supposed to be 
conducting themselves. But we can't----
    Mr. Fattah. If the gentleman would yield for just one 
question. I mean, not question; comment on this. This is a very 
important effort that the committee has supported on justice 
reinvestment. And, you know, we just had a veteran in an 
overheated cell in a prison somewhere in America. I can name 
the place, but I am not trying to denigrate the location. I 
want to denigrate the circumstances that he would die in a cell 
in 100-degree plus heat. We want to have more veterans courts, 
more drug courts. We want to be more focused on this. And I say 
``focused,'' because my legislation that I talked to you about 
earlier would in part fund more justice reinvestment programs 
using some of these settlements, so I want to make that point.
    Attorney General Holder. All right.
    Mr. Schiff. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wolf. Thank you.
    Judge Carter.
    Mr. Carter. Thank you. Thank you, Mr. Chairman. And I will 
try to make this a little short, anyway.

                           IMMIGRATION REFORM

    Mr. Attorney General, I am going back to a subject matter 
we were just discussing, but only briefly. My colleague has 
raised the issue of immigration reform. My friend to my left 
here, Mr. Diaz-Balart, and I worked on what started out as the 
Gang of 20 and reduced itself down to the Gang of 7 over a 5-
year period of time that met every week and worked on drafting 
a bill on immigration reform. So I think I have fairly 
reasonable credentials to say that I have worked hard to try to 
come up with a solution on immigration reform. There are laws 
on the books today that would fix immigration reform, but they 
are not being enforced. So how can I feel confident after 5 
years of work and then the battering we are going to take when 
we ultimately do an immigration reform, that, not maybe you as 
Attorney General, or the next Attorney General, or the 
President who has said, ``I will enforce the laws I want to 
enforce and I won't enforce the laws that I won't,'' how can I 
be sure that all that work won't be for nil? That is the real 
issue. And that is the question that is asked by people all 
over this country that are just simple folks who say, Look, 
don't tell me they are enforcing the law. Don't tell me that. 
Don't tell me 60,000 kids come across the border, and they are 
enforcing the law. I mean, why aren't they doing something 
about the parents that pay these coyotes to bring innocent 
children across the border?
    I had a girl walk up to me at South By Southwest in Austin. 
She was a dreamer, and she said, Can I tell you my story?
    Yes.
    I was picked up when I was 13 years old in Guatemala. The 
cartel made me work my way across Mexico.
    I didn't ask her how she was working, how she worked her 
way across Mexico in a criminal gang.
    And ultimately, they had me working in a motel room which I 
thought was in Mexico, but they left me alone for a minute, and 
I went out the window and discovered, praise God, I was in 
Brownsville, Texas. I am now a college student. You need to 
hear my story.
    That is the exact child--a 13-year-old girl is still a 
child, that is the exact child we ought to be talking about 
here.
    I am for immigration reform, and folks in my district know 
it. And I deal with that issue, but I am not for writing a 
bunch of laws that an individual can choose not to enforce or a 
group of individuals can choose not to enforce. I come from a 
world where the law is the law. If you need more prosecutors, I 
am willing to give them to you so you can enforce the law. If 
you need staff, I am willing to give them to you, because I 
believe the law should be enforced. And if that is what you 
need, please tell us.
    Do we need to write into the law that those things you are 
just not capable of doing because you are overwhelmed by the 
caseload that you have? Then maybe it will automatically revert 
to the State and you will waive any priority that the Federal 
Government has so the State can go forward and prosecute the 
case. Maybe that is the solution. Maybe we ought to write that 
into our immigration laws and our drug laws. But at some point 
in time, not enforcing the law becomes a crisis in a place 
where we say the rule of law is the glue that holds our society 
together.
    So if you would like to comment on that, I would appreciate 
it.
    Mr. Culberson. And that is what I was driving at, too.
    Mr. Wolf. We are running out of time.
    Mr. Carter. That is it.
    Attorney General Holder. Okay. All right. Again, I would 
take issue with the notion that we are not enforcing the law, 
but I would say that the Administration remains firmly 
committed to commonsense immigration reform and doing so in 
this year. Our immigration system is, no question, broken. 
There is a bill that was passed in the Senate that talks about 
an earned path to citizenship, further strengthens border 
security, holds employers accountable, brings our immigration 
system into the 21st century. I think that is the path that we 
could follow.
    This is something that the Department will certainly work 
with Congress on. The Administration really has called for and 
has been supportive of immigration reform. And as I said, the 
bill that had passed the Senate, is an appropriate way to 
proceed.
    Mr. Carter. And I disagree on the Senate bill, as does most 
of the Republican Members of Congress and quite a few 
Republican Members of the Senate. There will be alternative 
bills drafted, and ultimately, we will let this process do it 
the way it is supposed to do under regular orders, and come up 
with a solution for this. But if the argument is that I have 
got to take the Senate bill, then it is a bad bill, and I am 
not going to vote for it.
    Attorney General Holder. Well, there are----
    Mr. Fattah. Judge, let me--if the gentleman would yield. 
What the President said is he could support the Senate bill, 
but he would be willing to look at whatever the House would act 
on. So the issue for the House, as you say, most Members don't 
support the Senate bill, is just that we should actually have a 
debate then a vote on the floor.
    Mr. Carter. And you know what?
    Mr. Fattah. It is the people's house.
    Mr. Carter. I just said I support that.
    Mr. Fattah. Right.
    Mr. Carter. Right.
    Mr. Fattah. Because if you come out with what you have, 
that might pass, and then there would be a conference on it----
    Mr. Carter. And hang on.
    Mr. Fattah [continuing]. And then we would be in regular 
order, we would get an actual bill.
    Mr. Carter. The year goes all the way until January--until 
December next year.
    Mr. Fattah. I am going to stick with you.
    Mr. Carter. You may see something yet.
    Mr. Fattah. I am going to walk this path with you.
    Mr. Wolf. I think, and I wasn't going to get involved, but 
I think the problem with our side and many people in America is 
there is a lack of trust in the administration.
    Mr. Fattah. I know some people don't think he was born in 
America, but we still have to----
    Mr. Wolf. I am not----
    Mr. Fattah [continuing]. Run the most important country in 
the world whether we agree with who got elected President.
    Mr. Wolf. No, no. But I think, though, I----
    Mr. Carter. Thank you, Mr. Chairman. I yield back.
    Mr. Wolf. When I see enforcement issues, there is, and I 
think, you know, we have reached----
    Mr. Culberson. Yeah. We need to wrap up. And it really goes 
to the heart of what is in the constitutional duties of the 
President, to take care that the laws be faithfully executed. 
That is what we are driving at.
    Mr. Diaz-Balart. Mr. Chair?

                        ADMINISTRATION'S ACTIONS

    Attorney General Holder. All I am saying is that this 
Administration has acted in a way that is consistent with the 
provision that you just read. I am proud of what this 
Administration has done generally. I am proud of what this 
Justice Department has done specifically. We have acted 
consistent with our obligations. We have been fair. We have 
done things appropriately. Where we have made mistakes, we have 
admitted them, and we have tried to correct them. The notion 
that we have somehow been derelict in our duties for, I don't 
know, political, policy reasons is just inconsistent with the 
facts.
    Mr. Wolf. Okay.
    Mr. Honda, before----
    Mr. Honda. Thank you, Mr. Chairman.
    And, again, interesting discussion, but I think sometimes 
if we don't take it into context of history, then it becomes a 
circle of discussions and arguments.

                         MINOR SEX TRAFFICKING

    On the issue of minor sex trafficking, the subject of human 
trafficking and how we can safeguard the most vulnerable 
members of our society, our youngsters, we know that one of the 
best opportunities for identifying and intervening in cases of 
domestic minor sex trafficking is when these victims, these 
youngsters appear in juvenile court. And I was just wondering 
whether the county, State and tribal judges would need training 
on how to identify these victims appropriately and place them 
in situations where they can be safe, rescued and helped.
    And I was just wondering whether just any kind of training 
from your division and what the Department is doing to ensure 
that the county, State and tribal courts are well trained and 
well resourced to recognize these child victims of sex 
trafficking so that these youngsters can gain access to the 
appropriate services and intervention in the pendency of courts 
as opposed to being treated as criminals in delinquency courts. 
I was just wondering what kind of training--are you doing that? 
Are you monitoring it, and how much funding do you plan to 
focus on this?
    Attorney General Holder. The determinations that are made 
are largely made by State courts, local courts, and so the 
Justice Department role in that is really supportive, not 
necessarily of primary concern. We have done an awful lot with 
regard to tribal lands, where we have spent huge amounts of 
time as well as dedicated specific resources to dealing with 
the issues that are unique to native lands, to Indian country. 
We also try to encourage training of judges and of prosecutors 
who are involved in these matters.
    These are issues, again, that are largely the 
responsibility of our State and local counterparts, and the 
role that we have to play is to support them, help train them, 
as you indicate. And there are requests in our budget for the 
training of judges and also making funds available to States 
that make requests of us in a whole variety of contexts, so 
that I think our budget would--our grants budget in particular 
would put us in a good position, if enacted, to be of 
assistance in the way that you have described.
    Mr. Wolf. If I can just--and Mr. Honda is right, though. 
And I am going to give you this video before you leave. There 
needs to be, and I think we need a conference this year to 
bring everyone together, because there is apprehension, but it 
is what do you do when you find a young person in need of care, 
and you just cannot allow that person back out, and so he is 
exactly right. We have the ``Joe Gibbs Home, Youth for 
Tomorrow,'' here. But I think he is exactly right. There are 
three legs to these stools, and if you don't deal with the 
rehabilitation and what do you do afterwards, it really doesn't 
help that much.
    In closing, we are going to follow up with your staff. I am 
sure Mike has been writing down every promise you made, and if 
you will do the same thing to us. And I appreciate your 
testimony.
    With that, the hearing is adjourned.
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                          Thursday, April 10, 2014.

                           BUREAU OF PRISONS

                                WITNESS

CHARLES E. SAMUELS, JR., DIRECTOR, FEDERAL BUREAU OF PRISONS

                            Opening Remarks

    Mr. Wolf. Director Samuels, thank you for appearing. The 
hearing will come to order today to testify fiscal year 2015 
Federal Bureau of Prisons budget request.
    The Bureau of Prisons accounts for a third of the Justice 
Department budget and has held onto a staffing better than its 
sister agencies in the department over the past several years 
where attrition and sequestration have taken a toll, so it 
deserves a careful look as we consider how to fund the 
department in 2015, but the size has not protected the Bureau 
from pressures on staff and facilities.
    The Federal prison population has grown tremendously. Over 
800 percent from 1980 until 2011 while the number of facilities 
tripled in that time. This growth after four decades of 
relatively stable population has not been accompanied by an 
increase in staff and space. The Bureau now has to manage a 
vast national infrastructure and logistical network. It is 
overcrowded and faces daunting security tasks of rising food 
and medical costs.
    Last year was a tough year. BOP survived in part because 
the Justice Department, with approval from this committee that 
pushed and pushed and pushed and pushed, transferred hundreds 
of millions of dollars to BOP to prevent furloughs and sustain 
operations. The system was at risk and we had to pay the bill, 
and that was at the expense of other Justice Department efforts 
and programs.
    Enactment of a full fiscal year 2014 spending bill provided 
some relief, but the disruption was a strong illustration of 
sequestration consequences. For fiscal year 2015 you requested 
6.96 billion in new budget authority, 0.5 percent above fiscal 
year 2014, but this is actually a cut for the 193 million and 
base increases are offset by 158 million in unspecified 
administrative reductions.
    This budgetary slight of hand is difficult to understand in 
this instance since BOP has significant and growing base 
operating costs. We would probe further into the impact of 
these budget assumptions.
    A development that may benefit BOP and reduce cost stems 
from a bipartisan movement to reform our Nation's complex 
correctional systems with renewed focus on reentry, integration 
into society, and a reduction of recidivism. BOP's new reentry 
services division was created to rationalize sentencing and 
explore justice reinvestment initiatives.
    We want to hear today how such approach can mitigate or 
offset the inflow of new prisoners and reduce overcrowding and 
safety challenges.
    BOP staff has had to cope with chronic overcrowding made 
more serious by the violent profile of medium and high security 
inmates, many of whom are in gangs. Last year we shared your 
grief for the two BOP officers who were killed while on duty. 
The dedicated men and women of BOP know the risk they face and 
I think there is risk of growing much more today than it is 
ever, ever has been, and I think that will continue to be the 
case. But our job is to keep them as safe as possible, so we 
want to hear progress in that area.
    Your budget proposed no significant new construction but 
assumes annualization of the cost of existing sites. We want to 
learn the status of the current projects.
    Finally I am pleased to note the progress by the Federal 
Prison Industry and UNICOR and its commercial representative in 
promoting FPI services and manufacturing capability not only to 
other federal agencies but to other government and private 
customers. They are taking steps to repatriate manufacturing 
jobs that were going overseas.
    The FPI has an important mission to train and help prepare 
inmates for a successful transition into society, and a growing 
FPI business is a good way to achieve the outcome for more 
federal prisoners and also helps with regard to the deficit.
    Before you testify let me recognize my colleague, Mr. 
Fattah for his comments.
    Mr. Fattah. Well, thank you, Mr. Chairman.
    Let me first state that as best as we know at the moment 
this is the last hearing of the CJS subcommittee prior to our 
mark up and could be the last subcommittee hearing in all 
likelihood for our chairman, and I want to just say that after 
some 34 years of service in the House and as the leader of this 
committee he has done an extraordinary job and has accommodated 
the witnesses and the committees workload in a way in which we 
can do our oversight and understand how we can proceed. He has 
always been extraordinary cognizant of making sure that the 
minority has ample input in the committee's work. So I want to 
thank him.
    I want to welcome you again before the committee. It is 
true as the chairman said that for some 40 years this 
population was very stable and under 30,000--well under 30,000 
and now 216,000 inmates. You know, you have a number of 
factors, you know, obviously that has led to this explosive 
growth, but it is a challenge and it is eating away at the 
budget of DOJ, you know, in terms of the other work that has to 
be done in terms of national security and the like.
    So, you know, you have, you know, done some work in looking 
at, you know, the dual responsibilities of the Bureau of 
Prisons, which is both imprisonment and reentry and you have to 
have a dual competence. There are some 45,000 inmates from the 
federal prison system that will each year reenter our 
communities throughout this country, and the questions is are 
those communities safer upon their time with you or are they--
those communities more endangered based on these inmates' time 
with you? And it has to do with whether or not we are smart 
about this.
    So as we take away services inside the prison, whether 
education or job training or conflict or anger management or 
drug treatment, then that just means that these 45,000 a year 
inmates who are going to be--who have reentered our communities 
are less able to cope in a civilized society and they may 
revisit one of your facilities, but only after victimizing 
other people on their way.
    So it costs our society and we are very interested in the 
work that you are doing, look forward to your testimony.
    Thank you.
    Mr. Wolf. Thank you, Mr. Fattah, and I appreciate you 
comments. We've had a good working relationship over the years 
and so I am very, very grateful.

                              SWEARING-IN

    Pursuant to the authority granted in Section 191 of Title 
II of the United States Code in clause 2(m)(2) of House Rule 11 
today's witnesses will be sworn in before testifying. Please 
rise and raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect the witness answered in 
the affirmative. Thank you very much.
    Mr. Rogers, the full committee chairman, is coming and I 
know he has a lot of interest, so at that time we can pause and 
let him make a statement, but why don't you proceed as 
appropriate.

                           Opening Statement

    Mr. Samuels. Good morning Chairman Wolf, Ranking Member 
Fattah, thank you for the opportunity to appear before you 
today to discuss the President's 2015 budget request for the 
Bureau of Prisons.
    Through the support of this committee and the American 
people the Bureau continues to be a leader in corrections. 
Investments in our workforce and operations have been critical 
to maintaining safe and secure prisons.
    Our staff are dedicated public servants who work diligently 
24 hours a day, 365 days a year, weekends, and holidays to 
provide care and programs to give inmates the best chance for a 
successful return to their communities.
    Our mission is to protect society by confining offenders in 
a controlled environment of prisons and community-based 
facilities that are safe, humane, cost efficient, and 
appropriately secure, and that provide work and other self-
improvement opportunities to assist offenders in becoming law-
abiding citizens.
    I firmly stand behind our mission and so do the other 
39,000 dedicated men and women who successfully carry out our 
mission each and every day.
    As you know, the Bureau suffered tragic losses in 2013 with 
the murders of Officer Eric Williams and Lieutenant Osvaldo 
Albarati. These losses underscore the many challenges the staff 
face daily.
    We are grateful for additional authorities this 
subcommittee provided to expand Federal Prison Industries, 
programming such as repatriation, and we are enthusiastically 
pursuing many different products and working with many 
potential partners.
    Currently there are more than 450 inmates involved in 
repatriation projects. In the last six months, the number of 
inmates participating in these projects has more than doubled. 
FPI's board of directors has approved 34 categories of 
repatriation projects.
    Chairman Wolf, the President's budget request for 2015 is 
$6.8 billion for the BOP's salaries and expenses account and 
$90 million for the buildings and facilities account. These 
funding levels will allow the Bureau to fulfill its mission.
    The requested resources will allow us to continue the 
activation of recently constructed and acquired facilities, 
preserve funding provided in the 2014 budget to continue the 
reentry programs, and maintain staffing at the 2014 level.
    The Bureau is the Nation's largest corrections system with 
responsibility for over 216,000 inmates. We confine almost 
174,000 inmates in 119 federal prisons that have a total rated 
capacity of nearly 132,000 beds. The remaining 42,000 inmates 
are in privately operated prisons and in residential reentry 
centers, local jails, or on home confinement.
    Systemwide the Bureau is operating at 32 percent over its 
rated capacity. Crowding is of special concern at our higher 
security facilities with 53 percent crowding at our high 
security institutions and 43 percent at our medium security 
prisons.
    The safety of staff, inmates, and the public are our 
highest priorities. We have undertaken several recent changes 
to our operations to enhance safety and security.
    In May 2012, the Bureau began an evaluation to access the 
effectiveness of pepper spray for use in emergency situations 
at several high security prisons. Last year we decided to 
expand the evaluation to all high security prisons, detention 
centers, and jails, and the preliminary findings are very 
positive. At high security institutions we added a correctional 
officer to each housing unit during evenings and weekend 
shifts.
    In August 2013, the PREA audit process was implemented. To 
date 15 federal prisons have been audited and there are no 
major compliance issues.
    I want to thank the subcommittee for approving the creation 
of the Reentry Services Division within the Bureau. This was a 
critical step taken by the department and the agency to enhance 
our focus on the reentry portion of our mission. The Reentry 
Services Division is solely responsible for the oversight and 
coordination of the many reentry programs, services, and 
functions that we perform on behalf of all inmates, but 
particularly the more than 45,000 that will return to U.S. 
communities each year.
    I am certain this new structure will allow us to have an 
even greater impact on our inmate population and to work more 
effectively with our partners in the community.
    Finally, in April 2013, we expanded the medical criteria 
for inmates seeking reduction in sentence based on 
extraordinary and compelling circumstances. Last summer the 
Attorney General announced additional revisions to the criteria 
to include other categories of inmates such as elderly inmates 
and certain inmates who are the only possible caregiver for 
dependents.
    Again, I want to thank you, Chairman Wolf, for your 
leadership and many years of support to the Bureau of Prisons. 
I also want to thank you, Chairman Rogers and Mr. Fattah, and 
the entire subcommittee for your support of the Bureau of 
Prisons.
    I would be pleased to answer any questions the subcommittee 
may have.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Wolf. Thank you, Mr. Samuels.
    Let me recognize the chairman, Mr. Rogers, for a statement, 
and Mr. Chairman, if you have any questions why don't you just 
proceed.

                      Statement of Chairman Rogers

    Mr. Rogers. Thank you, Mr. Chairman, I appreciate the 
courtesy here.
    Mr. Director, welcome to the subcommittee. This 
subcommittee over Chairman Wolf's tenure and then before that 
my own tenure here.
    BOP I think has faired very well. We have tried to take 
care of your crying needs, understand your problems, and try to 
help. And I have told numerous people in and out of the 
government that in my opinion BOP is the best run federal 
agency that I have run across, and I have run across I guess 
most of them. So congratulations to you and your staff, you do 
a good job under very difficult circumstances.
    And I first want to recognize the fine service of the men 
and women you are here representing. In my congressional 
district where the Bureau has a very significant footprint.
    I have had the pleasure of speaking with hundreds of these 
dedicated public servants over the years who work day and 
night, 365 days a year at USP McCreary, USP Big Sandy, FCI 
Manchester, and FCI Ashland. Their jobs are difficult but they 
are important. And as you know they tragically lost two of 
their friends and colleagues in 2013.
    We owe it to all of these men and women to insure that when 
they leave their homes and their families every morning they 
are leaving for a workplace that is safe and secure. I tip my 
hat to them for their hard work.
    Your budget request for 2015 totals 6.8 billion for 
salaries and expenses, 90 million for buildings and facilities 
account that essentially is flat funding, but I am concerned 
that across the Department of Justice agencies have included 
unspecified quote administrative reductions in their budget 
justifications. BOP unfortunately is no exception and this is a 
$158 million hole that the committee will have to fill. Because 
of the unique nature of BOP's mission these dollars are 
especially important.
    As the inmate population continues to rise, 216,000 I am 
told now, our prisons get more and more crowded every day. At 
the end of fiscal 2013 a quarter of our medium security inmates 
and 85 percent of our low security inmates were triple bunked. 
Considering that eight out of every ten medium security inmates 
has a history of violence this creates some very serious 
questions about the safety of BOP staff and other inmates.
    So, Mr. Director, putting aside the politically charged 
rhetoric about federal sentencing guidelines the facility at 
Thompson and the like, I need to see more leadership from DOJ 
and the Bureau on that issue.
    Despite the fact that contemporary prison design affords 
greater efficiency and staffing and permits staff to safely 
oversee more inmates your long-term budget projects no increase 
in facilities. In the next five years we expect prison 
population to increase by another eight percent to over 
234,000. So I am looking forward to hearing from you on your 
strategy for meeting that need. It is real and it is here and 
now because of the lag time that it takes to appropriate, plan, 
and build and so on. We have got to get with it pretty quick.
    I am also hoping that you can discuss BOP's priorities with 
respect to prison reentry. As the co-chairman of the 
congressional caucus on prescription drug abuse I have long 
advocated for a multi-pronged approach to combating this unique 
public health and law enforcement challenge.
    Opioid independent individuals leaving jails and prisons 
have over 129 times greater risk for a fatal overdose whether 
they are struggling with addiction to prescription painkillers 
or to heroin. Certainly mechanisms like drug courts and prison 
reentry programs are important in helping these individuals 
begin the recovery process such that the justice system can 
provide both incentives and sanctions as well as the 
supervision and monitoring that is often needed.
    With over 40 deaths a day attributable to these drugs every 
effort must be made to reverse the current trends, and I look 
forward to hearing from you on that issue especially.
    Mr. Chairman, regrettably I have another commitment that 
precludes me from staying for the entirety of today's hearing 
unfortunately, but I do thank you for your time, Mr. Director, 
and Mr. Chairman thank you so much for working me in here.
    Mr. Wolf. Thank you, Mr. Chairman, thank you for that, I 
appreciate it.

                              PEPPER SPRAY

    I have a series of questions and you just triggered one 
thing. On the pepper spray. Did the pepper spray come from the 
meeting that we asked you to set up or did it come--how did 
that come about? I want to be able to tell Congressman Morgan 
Griffith who was interested. Were you guys going to do it any 
way or did it come because of us? I don't know the answer and I 
want you to just tell so I can tell Morgan.
    Mr. Samuels. Yes, Mr. Chairman.
    Mr. Wolf. Congressman Griffith.
    Mr. Samuels. We immediately evaluated the various concerns 
regarding the assault issues within the Bureau relative to 
staff and inmates, and shortly after I was appointed I decided 
to move forward with a pilot, and the pilot was implemented in 
August of 2012. We started out with providing the staff the 
opportunity to use the pepper spray in our high security 
institutions, which we identified seven, and as the pilot 
progressed and we were able to review data regarding how it was 
being deployed and the efficiency. I went a little further and 
expanded it to all high security facilities to include our 
detention facilities and jails, and that is currently how we 
are operating right now. Until we can complete the entire 
review process as well as look at the rules language ultimately 
being adopted and approved that will determine if we go 
further.
    Mr. Wolf. But did our meeting have any bearing? That is 
what I was trying to find out. I am going to talk to 
Congressman Griffith and say, was that just an interesting side 
bar that even if it hadn't happened you were going to do it or 
did it have an impact? I want to be----
    Mr. Samuels. Mr. Chairman, the concerns of Congress 
obviously were part of the review, and so it did have some 
impact on us moving forward.
    Mr. Wolf. Okay. I just want to be able to tell him that.

                             BUDGET REQUEST

    Your request included funding to sustain operating costs, 
increases in pay, and benefit adjustments but no programmatic 
funding, at the same time as with the reference of the 158 
million will the current request that you have, including 
training and development for normal attrition, how will you 
deal with a 158 million hole?
    Mr. Samuels. What we are planning to do once we receive the 
funding through appropriations is work with the Department to 
identify the programs and administrative areas where we would 
need to make some adjustments.

                          FAITH BASED PRISONS

    Mr. Wolf. Okay. I have been reading some studies lately on 
the faith-based aspect. There is some faith-based prisons down 
in Texas and some other places. Have you ever been through any 
of the faith-based prisons?
    Mr. Samuels. Yes, sir.
    Mr. Wolf. Yes. What is your feeling about faith-based? 
Because it seems to me that when an individual joins a group, 
joins a Bible study if participating you get a change in 
character. What are your reactions? I know the federal 
government runs away from anything dealing with faith, but what 
are your personal reactions with regard to faith-based 
programs?
    Mr. Samuels. Mr. Chairman, I'm very supportive of faith-
based programs, and I also want to thank you because I know 
over the years you have been very, very supportive and you have 
helped the Bureau move further in that direction in offering 
the faith-based programs, which includes, the life connections 
program. I know you are very familiar with these programs, and 
I would confirm that inmates who participate in these programs 
are more likely to not recidivate and they are the best inmates 
as far as managing them in our institutions. We do everything 
possible to try to encourage more inmates to participate in our 
faith-based programs.
    Mr. Wolf. Roughly how many of your population are 
participating?
    Mr. Samuels. I have that information and I can provide it 
before the end of the testimony, but I know that there are 
several----
    [The information follows:]

             Inmates Participating in Faith Based Programs

    As of April 2014, there were 407 Life Connection and 990 threshold 
participants, for a total of 1,397 inmates participating in national 
faith based programs.

                        CHUCK COLSON TASK FORCE

    Mr. Wolf. Just get it to the staff so I can see it.
    The fiscal year 2014 appropriation provided one million to 
initiate the Colson Task Force named after former inmate Chuck 
Colson who has since passed away. It is tasked with finding 
ways to provide safety conditions in prisons, relieve 
overcrowding, and take a comprehensive fresh look at sentencing 
and incarceration.
    Among other things the task force should address how we 
prepare inmates for reentry and reintegration into society. To 
do this more successful will require money but also fresh 
ideas.
    A couple points. How will BOP engage with a task force, 
with a dedicated liaison and providing ongoing support? What 
areas would you suggest receive priority attention? And then 
lastly, and Mr. Fattah has been very, very supportive, we 
haven't had any differences, I think this is like a football 
thing where the hole opens up and there is an opportunity and a 
running back runs through but then it shuts. This door will 
shut and so I think there seems to be kind of a bipartisan 
consensus, there seems to be a consensus out in the country 
both republicans and democrats on the issue of reforming 
prisons. Sometimes you know at the beach when the wave comes in 
you miss the wave sometimes another wave doesn't come for a 
long time. There is a wave.
    What are your thoughts with regard to the Colson Task 
Force, your ideas, and how do we take advantage of this wave to 
bring about the reform that we think we need?
    Mr. Samuels. Thank you, Mr. Chairman. First and foremost I 
want to thank you because I know it was based on your 
leadership and other members of Congress to recommend for the 
adoption of the Chuck Colson task force on federal corrections.
    Mr. Wolf. It was Mr. Fattah. I mean it was totally 
bipartisan.
    Mr. Samuels. I welcome it, and I do believe when the task 
force is ultimately identified and moves forward we will be 
able to benefit from the findings and recommendations they will 
make in regards to reducing crowding costs and recidivism in 
the federal prison system. So I believe that this is all going 
to be very beneficial not just to the Bureau of Prisons but to 
my state colleagues and local officials as well.
    Mr. Wolf. Are you going to have a liaison, someone on your 
staff that liaisons with them? Because you all have a lot of 
resources.
    Mr. Samuels. Yes, we have a lot of resources, and what we 
are planning to do, under the direction of the Office of 
Justice programs who submitted the solicitation for the 
applications for this process, is to continue to work with OJP 
and ultimately the task force to ensure that we are working 
closely and providing all of the data that they will need when 
they are looking internally at our operating procedures and 
policies to ensure that those best practices can be identified 
and applicable to the federal system. We are doing everything 
possible to work towards that goal.
    I am very, very hopeful with this initiative and looking 
forward to the findings as well as reviewing the final report, 
which I know they will be responsible for providing to the 
Attorney General and to Congress.
    Mr. Wolf. Do you know where they are in that? How soon that 
will be set up? Do you know the status of that?
    Mr. Samuels. I know the process is moving forward. They are 
in the process of reviewing and identifying who the entity will 
be as far as the contract being awarded.
    Mr. Wolf. I hope they don't take too long, because if you 
miss this opportunity, and I think your problems are going to 
get more difficult as we go, the very failure of both Congress 
and the Administration to deal with a deficit you are going to 
find the entitlements eating up and all the domestic 
discretionary, you are domestic discretionary, are going to be 
taken down, down, down. So I really expect the next couple of 
years are going to be more difficult. There is not a lot of 
additional resources that are going to be coming.

                       FEDERAL PRISON INDUSTRIES

    One subject, then I am going to go to Mr. Fattah, is 
federal prison industries. As in recent years FPI in fiscal 
year 2013 again experienced declining sales although factory 
earnings rose in part through inventory and capacity 
management. How much of the decline is the consequences of 
FPI's loss of its mandatory source status for DoD and other 
agencies, and how are BOP and FPI working to expand businesses 
with non-DoD agencies, including components of the Justice 
Department?
    Now the other day when the Attorney General was here I 
asked him would he send a letter to every cabinet agency asking 
that they look at whatever park service, t-shirt, baseball 
caps, Bureau of Land Management, every agency, Department of 
Defense to see what contracts they have out and as they expire, 
as they end to then go to you, because in the baseball cap 
category, and the baseball cap category is not the solution to 
the problem so I want to make that clear, but it does help, I 
think there is only one or two domestic baseball cap 
manufacturers left, most are being made in China now and 
Honduras and places like that, so--and the park service tells 
me whether they have signed agreements, but as they come up 
they can renegotiate.
    Would you ask him or let the committee know, and we are 
going to do the same thing with them, how important it is that 
he get on that, sign those letters quickly, and if you know any 
target rich opportunities for him to sort of aggressively move?
    So I would like to see if we can by mid-summer have major, 
we check when all the contracts are coming to an end, when is 
the Park Service contract coming to an end? Look to see what 
products are being used by the federal government and not in 
competition with the private sector. We want to make that 
clear, we don't want to create a problem for the FPI, but in 
competition with what's being done abroad.
    And so if you can talk to him and tell him that you and I 
chatted here at the hearing to make sure one, the letters go 
out quickly and that the letters be detailed in the sense that 
they look at their contracts as they come to an end that they 
can then say, okay, we are going to begin to work all the X, 
Y's, and Z's whatever it is the different agencies want to use 
you for.
    But can you sort of tell us how BOP and FPI are working to 
expand business with non-DOD agencies?
    Mr. Samuels. Yes, sir. And again I want to thank you 
Chairman and Ranking Member Fattah for your support relative to 
FPI and our initiatives.
    What we have done is reach out to well over 200 companies 
to have discussions regarding what we can do with our focus 
being on repatriating network to come back into the country. 
And as you have indicated we are not looking for any work that 
takes any jobs away from American citizens but putting a focus 
on what niche we could have to provide these work opportunities 
to give skills for inmates. And as you know, FPI is our largest 
recidivism reduction program with no cost to the taxpayer and 
is self-sufficient.
    We have created a business group within FPI and they have 
visited trade shows and we are seeing a benefit and it is 
starting to pay off. As I mentioned in my opening statement, we 
have been able to double the number of inmates participating in 
our repatriation efforts by more than 100 percent.
    We are also looking at the possibility of having the 
facility that we just recently activated at FCI Aliceville, 
which is a female institution, work with more than 200 inmates 
completely on work that we are repatriating back from China.
    So we see the opportunities as an area where we will 
continue to grow and we will do our best to capitalize on the 
authorities that have been given to us to grow the work for 
repatriation efforts.
    Now I would also mention, Mr. Chairman, that due to the 
difficulty and the challenges that we have had over the years 
even with the repatriation efforts, when we have been able 
successfully to convince the companies to bring work back and 
provide these opportunities for inmates who ultimately will be 
released back into our communities we are still seeing some 
challenges regarding that approach.
    Mr. Wolf. What are the challenges?
    Mr. Samuels. Well the concern is even when the work is 
being brought back, despite the fact that the work was moved 
overseas, American citizens could still do the work. We are 
devoting a significant amount of time and resources trying to 
convince many of these companies to give us the opportunity, 
and while we have been successful there has still been some 
criticism regarding the work being brought back.
    Mr. Wolf. You know, I won't mention the company but there 
is a very prominent company that is selling plastic flowers 
that are made by slave labor in China. Slave labor, gulags. 
And, you know, I think, you know, if we can have an American, 
one help to balance the trade and all this, but if we can have 
an American man or woman who is eventually going to come out of 
society I think companies who participate you can even bring in 
a private company, X, Y, Z company into the plant, let them 
kind of run the operation, if you will, it helps them, it also 
helps the guy who drives the truck in with a clothe or with a 
wire. So I mean, so I mean it really is a broadening thing. 
Have you talked to Wal-Mart?
    Mr. Samuels. We have had discussions with making an effort 
to try to have conversations with Wal-Mart; however, their 
current practice is that they do not utilize inmate labor.
    Mr. Wolf. Is there a reason why they don't? I mean they are 
a good company.
    Mr. Samuels. It is corporate policy, and so this is another 
area where we will try to work with them.
    Mr. Wolf. Well let us know if we can help with regard to 
that.
    Also if you would call the Secretary of Commerce, we had 
the Secretary of Commerce up, Secretary Pritzker yesterday and 
she is putting on with the cooperation of the committee a 
repatriation conference whereby American companies are urging, 
and I think you should have a participant, not necessarily on 
the program, but there and also to see the companies that she 
is inviting back, because we are all part of the same 
government, if you will. So this is a repatriation conference 
of American companies urging them to return home and so they 
may very well return home and they can have a cooperative 
arrangement with FPIs.
    None of these jobs will take a job away from an American 
citizen. All these jobs will give an American citizen, i.e., 
people who are in prison, a job, and also help as they get at a 
job--as they get out of prisons to transfer into those jobs. 
So----
    Mr. Samuels. And, Mr. Chairman, I would also add that for 
the companies we have been able to partner with, they have been 
very, very pleased with the service we provide and the work 
labor, and I know they are also very appreciative of the fact 
that they are assisting with our reentry efforts. We do 
everything that we can to ensure that money spent on raw 
materials is buying from local businesses. We are returning all 
of the money back into the communities, which we know also 
helps society and the economy as well.
    So our goal is always just to ensure that we are providing 
the opportunities for the inmates, but being good stewards to 
ensure that we are not taking advantage.
    Mr. Wolf. Right.
    Mr. Samuels. We do what we can for inmates ultimately being 
released and also in providing all of the funds appropriately 
back into the community.
    Mr. Wolf. And as I go to Mr. Fattah, also the inmate gets 
training so that when he or she leaves they have a place to go. 
You can't put a person in prison for 15 years and give them no 
work. If they had that training and skill it is less likely 
that they will return to prison, that saves the taxpayer money, 
it also may--keep a crime from being committed. They also have 
the opportunity to put some of the money that they earn into 
where they send to their families also for restitution.
    So I mean what I would like you to do is put together the 
most powerful two or three page thing and what I am going to do 
is drop something in the Congressional Record explaining that 
maybe you all can then take and go out to American companies--
and I am a conservative republican, my dad was a Philadelphia 
policeman, I mean I am tough on crime--but on the other hand I 
think this is a very positive thing. So if you can give that to 
me we will put it in the Record and then you all can take it as 
an opportunity to go out, and then if you will call Secretary 
Pritzker to have a person to participate to see if that 
repatriation conference can help you. I think this is a unique 
opportunity.
    We invented the color television set, black and white color 
television set. There are no televisions made in the United 
States. I remember when I had Lorton Reformatory, we were 
trying to bring Emerson in and then all of a sudden the thing 
kind of fell. So we don't make any television sets.
    If we could repatriate back some things like this, not just 
baseball caps, but things like the television sets and radios, 
and I think it could be a rejuvenating--it is not going to 
solve the problems but it is going to help.
    And lastly I think we owe it to the individuals the dignity 
to give them work. You know, work is important.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.

                          SOLITARY CONFINEMENT

    Let me ask you a question, let me start with solitary 
confinement. To what degree is this utilized, how prevalent, 
and what are the concerns and what are you looking at in terms 
of the continued use of it inside the federal prison system?
    Mr. Samuels. Thank you. When I entered the position of 
director in December of 2011, we had well over 13,000 inmates 
in some form of restrictive housing. We have since looked at 
ourselves very, very closely to ensure that inmates removed 
from the general population and placed in restrictive housing 
have appropriate reasons for the placement. First and foremost 
to ensure the safety of staff, inmates, and the public. And as 
a result of our internal assessment, we have since reduced the 
number specifically for our special housing unit to a little 
less than 9,000 inmates.
    The majority of our inmates are placed in restrictive 
housing for administrative segregation purposes which could be 
for a number of factors; classification reasons, their safety, 
or an investigation. I have stressed to staff repeatedly, as 
well as my predecessors, that we should again only use the form 
of restrictive housing for the appropriate reasons and we 
should be just as concerned to get the inmates out of 
restrictive housing just as much as we are to put them in, 
providing there is no ongoing threat to society.
    Mr. Fattah. Well just so that the record is clear, why is 
that a concern? Why isn't solitary confinement a great idea for 
the inmate?
    Mr. Samuels. If inmates are placed there for long periods 
of time, there is a concern relative to their mental health. We 
have to ensure as an agency that we are providing adequate 
resources for these individuals to have access to our mental 
health care providers, and that is part of our policy.
    Mr. Fattah. So it is clear, right, the mental health 
experts you know with a certainty long-term solitary 
confinement is not going to benefit the inmate's mental health, 
right? We do know this from experience.
    Mr. Samuels. I would say based on the literature and the 
subject matter experts----
    Mr. Fattah. Right.
    Mr. Samuels [continuing]. We have to ensure that there is 
some form of access. But congressman, I would also offer if we 
have individuals within our population who pose a significant 
threat to the safety of inmates and staff we have to ensure----
    Mr. Fattah. So there would be no circumstances in our 
system then where someone who doesn't pose a safety threat to 
our staff or other inmates would be put in solitary confinement 
then.
    Mr. Samuels. You are correct.

                              PEPPER SPRAY

    Mr. Fattah. Okay. Now I am in favor of the use of pepper 
spray, and for one reason is that, you know, one of the big 
challenges inside of prisons is mental health and therefore 
injuries to one's head is not a great way to help improve the 
mental health of inmates, right? So utilizing non-physical 
force I think is very useful, and also we lost Eric Williams in 
Pennsylvania and we know that there is a, you know, real life 
concern for prison guards in your staff in these--in these 
facilities.

                           INMATE STATISTICS

    So you have 119 facilities and 216,000 inmates, what can 
you tell us about this population? What's their educational 
attainment level? What's their, you know, what do you know 
about--what could you tell the committee about these 216,000 
people? A significant part of them are non-American citizens, 
some number of them, right?
    Mr. Samuels. Yes, sir.
    Mr. Fattah. What percentage is that?
    Mr. Samuels. It is approximately 54,000 plus inmates that 
are non-U.S. citizens.
    Mr. Fattah. Okay. So the American citizens, anything that 
tell the committee about who these individuals are generally 
speaking?
    Mr. Samuels. Yes.
    Mr. Fattah. Let us start with the educational attainment 
level.
    Mr. Samuels. Many of the inmates who come into the federal 
prison system are lacking in areas of education. Our 
educational programs are offering these individuals the adult 
continuing education courses as well as English as a second 
language and doing everything we can to ensure that they are 
working towards obtaining a GED.
    Mr. Fattah. So the majority of these inmates have access to 
educational programs?
    Mr. Samuels. Yes, sir.
    Mr. Fattah. And is this online, is this in the facility 
with actual instructors, how is this?
    Mr. Samuels. Actual instructors inside our facilities, our 
teachers.
    Mr. Fattah. Okay. So when you say education, you mean GED 
programs.
    Mr. Samuels. Yes, sir.
    Mr. Fattah. So the majority of these inmates don't have a 
high school diploma?
    Mr. Samuels. Correct.
    Mr. Fattah. Okay. And could you characterize to any degree 
their reading levels?
    Mr. Samuels. I would have to provide the specifics to the 
various levels.
    [The information follows:]

                             Reading Level

    The average reading level for U.S. citizen inmates without a GED is 
6th grade.

    Mr. Fattah. Okay. Well, I really would like to get the 
specifics. Mr. Chairman, if you would be so kind I would like 
to put some language in that would require us to have this 
information so that we could act intelligently ourselves about 
what it is that we are doing, right?
    Mr. Samuels. We can provide that information.
    Mr. Fattah. We can know more about who--because 45,000 are 
being released each year, right? So in my community, in the 
chairman's neighborhood, all across the country almost 50,000 
inmates are coming out each year, another 50,000 are going in, 
a little more than 50,000 are going in because the numbers are 
going up, right? So the question of whether or not they are in 
a better position to navigate their way through society is a 
very important question not just for the returning inmate but 
for the--everybody that we represent, right?
    So while we have them and we have their attention and they 
are a--you know, it would seem to me that if there is any 
possibility of improving their life chances as the chairman as 
said whether for job skills, vocational training, that is in 
the country's interest to do everything possible so that when 
they walk out of the door they are in a better position to not 
have to victimize me or you or our families or our communities, 
and if they can make a decent living and be able to read and 
write and everything else somehow got missed along the way, 
right?
    So now the other thing is that in the statistics it seems 
as though somewhere the children of these inmates the stats 
suggest are the most likely future inmates in your system. That 
is to say that the children are people who are in prison have a 
very difficult time and many of them end up in prison. And so I 
would be interested in this data if you could tell us about the 
family composition and whether there are children and what our 
program is to allow inmates to continue to have contact with 
their children and if anything we can learn from the federal 
system.
    Now the state systems have a, you know, two million 
inmates, it is a big challenge, but it seems to me that if 
there is a way to solve any of these problems it is through you 
being the--you know, I have never heard the chairman commend an 
agency the way that your agency was commended, so people know 
that you are doing a good job, but the question is you are 
doing a good job in a very tough environment with a very tough 
problem and you are still not going in the right direction. We 
are adding inmates, and you know, we haven't been able to 
concur the recidivism issue, and the mental health issues 
inside the prisons seem to be extraordinary, and many of your 
policies may actually add to the problem whether than subtract 
from it.
    So I am interested in trying to find a way where we can 
make even more headway here.
    Mr. Samuels. Congressman, I can give you the percentage. It 
is 23 percent that are non-U.S. citizens.
    Mr. Fattah. Twenty-three percent are non-U.S., okay.
    Mr. Samuels. In regards to children of incarcerated 
inmates, this is something that I strongly believe, as an 
agency, we have a duty and obligation to work with inmates to 
ensure that there is a relationship with their child because 
that also helps with our re-entry efforts to have that 
relationship intact. We have very good parenting programs 
throughout the Bureau of Prisons, in all of our institutions.
    In December of last year, for the first time ever, we had a 
universal children's day devoted towards the effort of having 
the inmate and child spend time together and facilitate it by 
our staff. We had over 4,000 inmates participate and 
approximately 8,000 children, not including the caregivers who 
were also there to participate. This is a commitment that I 
have given for the agency to ensure that it is not just 
something that is done day. To highlight this very important 
area, we will continue to do agency-wide, throughout the year, 
as we continue to move forward.
    And as I mentioned, we have always had parenting programs, 
but we are just trying to ensure that the effort is there and 
that we are doing everything possible to assist these children, 
as well as the parents, so that we don't have this cycle of 
children not having the support and/or being mentored by their 
parents who are incarcerated.
    Mr. Fattah. Two more questions and maybe they can--you 
know, you can supply it--we are going to put it in the language 
with the chairman's permission.
    I am interested in what percentage of these 216,000 people 
are first-time offenders and non-violent offenders in both 
categories and where they double index, that is they are both 
their in and non-violent.
    And the last thing, since this is an appropriations, 
hearing, if you could give the committee, now or in the future, 
your sense of what the average cost is to house an inmate?
    Mr. Samuels. The average cost, agency-wide, is 
approximately $29,000 a year.
    Mr. Fattah. Okay. And what is the average cost of a new 
cell construction?
    Mr. Samuels. The average cost for a new cell construction, 
depending on the security level--if we were to look at a high-
security facility, we are talking in excess of $400 million.
    Mr. Fattah. Not per cell?
    Mr. Samuels. Not per cell, the total construction.
    Mr. Fattah. I am talking about per cell construction. So, 
you are saying $400 million for a facility, right?
    Mr. Samuels. Yes.
    Mr. Fattah. But do you have a per-cell average for new 
construction?
    Mr. Samuels. Not per cell.
    Mr. Fattah. Okay.
    Mr. Samuels. We can give you a formula for that.
    Mr. Fattah. Right. If we are going to have a growth in 
population, we are going to have to add facilities, I am just 
trying to understand what the cost is to house--I got the--
because you are saying that $29,000 is the annual cost----
    Mr. Samuels. Yes.
    Mr. Fattah [continuing]. And that doesn't include the 
infrastructure, so I am trying to figure out in terms of 
building a facility or adding a bed--or may be it is a per bed 
number for construction?
    Mr. Samuels. We will get it for you.
    [The information follows:]

                      New Cell Construction Costs

    The cost of constructing a prison varies by the security level and 
the region of the country in which it is built. On average, 
constructing a medium security prison costs approximately $330 million, 
with a life span of 50 years. A newly constructed prison can house up 
to 1,900 inmates, resulting in a per bed cost of nearly $174,000.

    Mr. Fattah. Thank you, Mr. Chairman.

                       FEDERAL PRISON INDUSTRIES

    Mr. Wolf. I am going to go to Mr. Culberson.
    But as you are gathering data, too, we can all think back 
to the Unicor thing. Try to get some of the products like 
television sets, radios, different electronics kind of higher-
level, if you will, that are all made outside of the United 
States. For instance, there are no televisions made in the U.S.
    If we can see, we can kind of get a list that goes up to 
the next level that takes it from baseball caps and T-shirts to 
that--if you can kind of get somebody to do that and report 
back to the committee.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    Director Samuels, we have had a very successful prison 
industry program in Texas, Mr. Chairman. It is worked very, 
very well. I served for a number of years in the corrections 
committee in the Texas House and they made all the furniture 
for the Texas State Government.
    Are our inmates in the Federal prison system still making 
furniture for the Federal Government?
    Mr. Samuels. Yes.
    Mr. Wolf. If the gentleman would yield.
    In defense of them, we, in the Congress, have hurt them. We 
literally have made it very tough. We don't want them to 
compete with the private sector, but so much has been done and 
the number of prison industries who are working--what was the 
high level?
    Mr. Samuels. Twenty-four thousand.
    Mr. Wolf. And what is it now?
    Mr. Samuels. Thirteen thousand.
    Mr. Wolf. And it is not their fault; it is the fault of----
    Mr. Culberson. Congress changed the law and restricted 
their ability to compete with the private sector. It is 
something I strongly support the chairman in and I would be 
happy to help you and make sure that we get that changed 
because it doesn't make sense----
    Mr. Samuels. Thank you.
    Mr. Culberson [continuing]. Especially when you are 
importing products, as the chairman quite correctly points out, 
slave labor camps in China; it is appalling.

                            PRIVATE PRISONS

    I want to ask about your use of private facilities. We have 
also had great success in Texas using private contractors to 
build and operate private facilities that--whether they are at 
the local level or the state level operate at a significant 
savings to taxpayers and provide, frankly, better facilities, 
better food, better healthcare, and the private sector will do 
everything from transportation to food to healthcare and they 
will also assume any liability problems.
    To what extent is the Federal prison system using private 
contractors to build and operate facilities?
    Mr. Samuels. Thank you, Congressman.
    We have approximately 29,100 inmates in 14 private prisons 
and they serve a role for the Bureau of Prisons by housing our 
low-security criminal aliens.
    Mr. Culberson. Do you have the ability to expand that 
number, is there any kind of limit or restriction, other than, 
of course, the financial restrictions? What restrictions are 
there on your ability to expand that 29,100 bed utilization?
    Mr. Samuels. Well, to move forward with expanding, we have 
to look at competing resource interests, operationally, within 
the Bureau, if we were to use funding to move forward with 
adding additional beds. At this point, right now with our 
population, the 14 facilities are currently serving our needs.
    Mr. Culberson. However, your population growth from fiscal 
year 2006 through 2011, exceeded a seven percent increase in 
your rated capacity. My staff tells me that in 2011 crowding 
was 55 percent over your rated capacity in the maximum security 
facilities. You have obviously got a crowding problem. What can 
this committee do to help you expand your utilization of 
private facilities?
    Mr. Samuels. Well, very good question, and first and 
foremost, for us to expand, it would require additional funding 
to operate those contracts. As you have mentioned, at our high-
security facilities, we are currently at 53 percent over rated 
capacity and 43 percent over rated capacity for our mediums.
    In our low-security facilities, which is the targeted 
population that we use to place under contract with the 
privates, we are in a triple bunking situation. When we look at 
the rated capacity for the Federal system, we have identified 
for our minimum security, low-security facilities, we are 
comfortable with double bunking those facilities, but we are in 
a situation where we are triple bunking. So the crowding 
concerns are significant and we do our best to manage with, as 
I mentioned, 14 private facilities to include our overall 
management for the low-security inmates that we have placed 
within our institutions.
    Also we have approximately 5,200 low-security criminal 
aliens in BOP low-security facilities.
    Mr. Culberson. We also use them for the low-to-medium 
security in Texas, as well, so I agree with you in that, sir, 
and I hope that the subcommittee can do whatever we can, Mr. 
Chairman, to help them expand the use of private facilities.
    Thank you, and I will yield back.

                       FEDERAL PRISON INDUSTRIES

    Mr. Wolf. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    Actually, a lot of the things I was thinking about have 
already been asked. When I was listening to Mr. Culberson, I 
also recalled back to my State legislative years, and in some 
cases, the work system--I am sure it is called pride--was 
working really, really well. I am going back now a number of 
years, and my memory may fail me, but I also recall that there 
were some cases where there was no improvements over those that 
were involved in the work system and those were not, as far as 
recidivism rates.
    Do we have those studies that show and is there a 
noticeable difference?
    Mr. Samuels. Yes, Congressman.
    I will use Federal Prison Industries as an example.
    Mr. Diaz-Balart. Right.
    Mr. Samuels. Those inmates who participate, compared to 
those who don't, are 16 percent less likely to recidivate. That 
is a significant public safety issue and that is why it is so 
important that we continue to do everything we can to keep our 
Federal Prison Industries program active.
    Mr. Diaz-Balart. And that 16 percent--and we are talking 
about apples to apples, the same kind of inmates and the same 
kind of--any idea of how much we are saving by not having those 
folks come back? I mean what does that 16 percent mean in 
actually just dollars; it is got to be significant as well.
    Mr. Samuels. For every inmate, based on our overall 
average, you are looking at $29,000 per inmate with the average 
cost to incarcerate an inmate within our system.
    Mr. Diaz-Balart. But I wonder what the--you know, that 16 
percent, I mean I don't know how many inmates that would be. I 
wonder if--I mean if that would be--because that has got to be 
substantial. There has to be a pretty substantial savings 
because of that 16 percent, I would imagine. I don't know how 
many folks are involved, but it would seem to me that it would 
be a pretty substantial savings, right?
    Mr. Fattah. If the gentleman would yield for a second.
    Mr. Diaz-Balart. Sure.
    Mr. Fattah. There are numbers--the committee has been 
funding a number of these efforts that are called justice 
reinvestment strategies, right? And the basic idea is that you 
are saving money on the back end----
    Mr. Samuels. Right.
    Mr. Fattah [continuing]. By intervening in a more 
constructive way. And there are a host of them, including some 
600 second-chance or re-entry related programs, and we would be 
glad to get you some more information about this.
    Mr. Samuels. And Federal Prison Industries' overall impact 
on recidivism is 24 percent.
    Mr. Diaz-Balart. And I am glad to hear that, and obviously, 
as we know with every program and any program, there are some 
that work better than others, but those that do work, I mean 
when you are talking about cost per inmate, that is real money. 
I mean you are talking about real money here.
    I would love, if that is readily available, I would love to 
see some of those numbers, and remember that you have to give 
it to us in a way that we can digest, all right.
    Thank you, Mr. Chairman. I yield back.
    [The information follows:]

                          FPI Recidivism Rate

    Based on BOP research, the FPI program reduces recidivism by 24 
percent. For each inmate that does not return to federal prison, BOP 
avoids approximately $11,000 per year in cost. Though an exact cost 
avoidance figure for the FPI program isn't available, the Washington 
State Institute for Public Policy analyzed similar programs at the 
state level and found benefits of $4.74 per dollar spent on adult 
correctional industries programs.

    Mr. Culberson. Mr. Schiff.

                          SOLITARY CONFINEMENT

    Mr. Schiff. Thank you, Mr. Chairman. Director, I just 
wanted to follow-up on some comments that Mr. Fattah made 
earlier on the issue of solitary confinement. This is an issue 
that I raised my concern about in the past when you came before 
our committee. Certainly correctional officers have very 
dangerous jobs and their safety has to be paramount.
    But there is a large body of evidence suggesting that 
solitary confinement is profoundly and irreparably damaging to 
mental health. I want to call your attention to a news story in 
the Chicago Sun Times over the weekend that reported that our 
former colleague, Jessie Jackson, Jr., who was sentenced to 2.5 
years in a minimum-security facility in North Carolina was 
placed in solitary for four days in retaliation for informing 
other inmates about their rights. This is disturbing to me on 
multiple levels. First, I can't imagine a situation in which it 
would be appropriate to place an inmate in solitary 
confinement, let alone for multiple days, because of what he 
said to other inmates. Second, is public knowledge that Mr. 
Jackson has struggled with mental illness, and the damaging 
effects of solitary are magnified for people with mental 
illness.
    And if this happens to high-profile prisoners, I have to 
imagine that it happens to a lot of prisoners that are less the 
subject of public attention. So I wonder if you could share 
with me what kind of criteria are being used for solitary; how 
much progress we are making on the issue that goes beyond 
solitary, but in dealing with the mental health problems of 
those who are confined.
    Mr. Samuels. Thank you, Congressman.
    As I mentioned earlier, we have made significant strides in 
reducing our restrictive housing population--and not being able 
to get into the specifics regarding the example that you have 
given-- any time there is the possibility of a threat against 
an individual, whether high-profile or not, we have a duty and 
obligation to assess the threat and ensure that the individual 
is protected, and the only way of ensuring or to be able to 
carry that out, is to have the individual removed from general 
population. We will do everything possible to ensure when we 
are assessing the concerns and the possible threat, the 
individual is not in that status for a significant period of 
time and do everything to move them out.
    This policy is agency-wide, and with the system having more 
than 170,000 inmates we manage, an additional 40-plus thousand 
in our contractual prisons, that we have to monitor as well. So 
we are very, very large, and when you look at the number of 
individuals who are placed in restrictive housing for 
discipline purposes, that number is less than 2,000.
    Generally, the discipline for placement in disciplinary 
segregation is for a specific period of time, which once they 
serve it, and it is to correct the behavior, to ensure that we 
are managing safe, secure prisons, to hold individuals 
accountable--no different than when laws are broken and 
individuals are sent to prison, we have an order within the 
prison environment to ensure the protection of staff, inmates, 
as well as the public.
    For individuals who are placed in the administrative 
segregation portion of restrictive housing, as I have stated, 
we will do everything and we will continue to do all we can to 
ensure that we are closely monitoring these cases to get these 
individuals back out. I will agree that it is easier for us to 
manage inmates when they are in general population, and that is 
the preferred status for all inmates in our system, but we have 
to ensure that we are protecting staff and inmates and 
appropriately using restrictive housing.
    Mr. Schiff. Do I understand, though, that there are then a 
couple of criteria for solitary confinement; one is that they 
pose--an inmate poses danger to staff or to other inmates or 
themselves, and the second broad category is for discipline, 
that is unrelated to a safety concern; is that correct?
    Mr. Samuels. Yes.
    Mr. Schiff. So in that second category, has the BOP done 
any research to figure out whether, in fact, putting people in 
solitary as a method of discipline, ensuring discipline 
actually works? I mean have we done any research to find out if 
people who are put in solitary tend to do less--become less of 
a disciplinary problem or they are put in solitary and they 
tend to become more of a disciplinary problem or, in fact, it 
has no impact at all; have we done that research?
    Mr. Samuels. We are currently being evaluated, via 
independent assessment by CNA Analysis Solutions and towards 
the end of the year they will be providing their findings and 
recommendations regarding best practices based on our operating 
procedures for restrictive housing. This is another assessment 
that I am looking forward to reviewing based on their 
recommendations, to identify if there are any significant 
concerns within the Federal system that we need to consider.
    This would be comparable to them looking at the corrections 
profession--not just within the Bureau, but what some of the 
other practices are doing out there.
    Mr. Schiff. Do we know whether that analysis will include a 
study of whether it, in fact, achieves its desired end?
    Mr. Samuels. I don't believe that the study would be able 
to make that assessment because that would be something 
relative to research that would require a targeted time frame 
for researchers to look at. We are welcome to that type of 
research and to have that done, but it would be something that 
would take a couple of years to assess that.
    Mr. Schiff. I would encourage us to do it. I think it would 
be valuable for the federal system, as well as for the states 
to know if, in fact, this only makes the problem worse, in 
terms of discipline; otherwise, we are playing blind and maybe 
doing things that are counterproductive.

                        DRUG TREATMENT PROGRAMS

    Let me turn to one other question. You know, I see there is 
an increase, proposed increase for RDAP. Are we at the point 
yet where any inmate who has a substance abuse problem who 
wants treatment can get that treatment in BOP?
    Mr. Samuels. Yes. In fiscal year 2013, we added an 
additional 18 residential drug abuse programs and currently we 
have 87 programs at 77 locations. All inmates who have met our 
eligibility criteria were given the opportunity to participate.
    Mr. Schiff. But is that criteria defined in such a way that 
there still inmates who have a need for it, want it, and can't 
get it either because they have language barriers or for other 
reasons don't meet the criteria?
    Mr. Samuels. No, we are providing it for all inmates. As 
part of the expansion, we have added two Spanish residential 
drug abuse programs, one male and one female, to ensure that we 
are addressing that specific issue.
    Mr. Schiff. Well, if I recall correctly, part of the 
criteria, doesn't it depend on how far they are away from 
release?
    Mr. Samuels. Yes.
    Mr. Schiff. And does that mean, as a practical matter, that 
if you are too close to release or too far away from release, 
you may not get the treatment that you need?
    Mr. Samuels. No, every inmate will be given an ample 
opportunity to participate. We do, as you mentioned, focus on 
those inmates who are closer to release to ensure that they are 
given the opportunity to participate. We have a waiting list 
for inmates who have a release date that is further out.
    Mr. Schiff. Okay. Thank you, Mr. Chairman.
    I yield back.

                             OFFICER SAFETY

    Mr. Wolf. Across to safety, how many attacks occurred--
occur each year and how many officers are hospitalized or 
injured each year on an average?
    Mr. Samuels. I would have to provide you the specifics for 
that.
    [The information follows:]

                       Attacks Each Year/Injured

    In FY 2013, 1,557 assaults took place on staff, resulting in 42 
injuries.

    Mr. Wolf. A couple of years, do you have any anecdotal that 
you can think of now?
    Mr. Samuels. To give you accurate information, we can 
provide that for the record.
    Mr. Wolf. How many officers have been killed in the last 
five years?
    Mr. Samuels. In the last five years we have had two.
    Mr. Wolf. Two.
    We have a pepper spray question, which I think you already 
may have covered. Well, let me kind of--mace could protect 
officers working alone in facilities that are overcrowded. This 
was a circumstance that faced Officer Eric Williams when he was 
murdered in 2013, as well as a Correctional Officer Jose 
Rivera, who died in Atwater Penitentiary in California.
    How many attacks occur when an officer is isolated by 
himself?
    Mr. Samuels. If you look at the specifics for housing 
units, we typically have one officer working with approximately 
130 inmates, but that was up until recently towards the end of 
last year. As I mentioned in our high-security facilities, 
using existing resources, we have added an additional officer 
for the evening and weekend coverage to offset the balance.
    But even with that, sir, we are still looking at 130 
inmates who outnumber two staff.
    Mr. Wolf. So wouldn't it make sense or would it make sense 
for every officer to be able to carry the mace? Is that a 
discouraging factor?

                              PEPPER SPRAY

    Mr. Samuels. What we have done and we continue to do with 
the pilot is we have looked at historically the trends on where 
assaults typically occur and we have identified our housing 
units, recreation area, special housing units. These are areas 
where we have given authorization under the pilot for our staff 
to carry pepper spray to include the compound areas where we 
have staff who work the posts.
    We are being very, very careful with our assessment because 
we want to ensure if this is being utilized as a tool which 
benefits staff and inmates, we don't want to move too fast and 
let inmates have access, unnecessarily with having the pepper 
spray which could also jeopardize our staff.
    With the pilot, we haven't seen that to be a concern and/or 
issue, but we have to evaluate and continue to make the 
assessments as we move along.

                            ATTACK ON GUARDS

    Mr. Wolf. Of the attacks on guards, how many--what 
percentage are in the maximum, minimum--where do they all come 
from?
    Mr. Samuels. The majority of the attacks are occurring in 
our high-security facilities and these are the inmates within 
our population who are more prone to violence.

                         GUANTANAMO BAY INMATES

    Mr. Wolf. Now, if you were to bring back--which I am 
opposed, I am opposed to closing down Guantanamo and bringing 
them back--but if you were to quickly close down Guantanamo Bay 
and bring those prisoners into the Bureau of Prisons, what 
would that do to the Bureau of Prisons at this time?
    Mr. Samuels. If that were a scenario that would happen, we 
would be able to integrate those inmates in our institutions.
    Mr. Wolf. Would that put a great burden on the Bureau of 
Prisons?
    Mr. Samuels. No. Right now we have inmates who are 
comparable to these individuals, as far as disruptive behavior 
or any other attributes, that we would need to monitor in our 
high-security facilities and we would be able to do it 
relatively easily with no significant concerns.
    Mr. Wolf. Have you been involved with Guantanamo--if I 
recall, I think when I was down there, they had told me they 
had checked everything out with you all; is that accurate, in 
how to operate the prison, different procedures?
    Mr. Samuels. They reached out to the Bureau and we have had 
discussions on a number of different occasions.
    Mr. Wolf. Have you had people go down there and people look 
at the system and look at--have you had anyone from the Bureau 
of Prisons visit Guantanamo?
    Mr. Samuels. Yes.
    Mr. Wolf. Yes, you have.
    And make recommendations?
    Mr. Samuels. We have provided insight in operating 
procedures for the Bureau.

                            ATTACK ON GUARDS

    Mr. Wolf. Okay. Back to the original--of the attacks, 
breaking that in category percentage, most are from the high-
security?
    Mr. Samuels. Yes.
    Mr. Wolf. As you get down, is it almost non-existant in the 
low-security?
    Mr. Samuels. We have assaults that occur in our low-
security facilities.
    Mr. Wolf. Against guards or against other----
    Mr. Samuels. Correctional staff and inmates.
    Mr. Wolf. Now, let's just talk about staff.
    A hundred percent of the attacks, what percentage come in 
high-security, medium-security, and low?
    Mr. Samuels. We can provide you the information for the 
record.
    [The information follows:]

                  Attacks From Various Security Levels

    In FY 2013, 1,557 assaults took place on staff, of which 51 percent 
occurred in High Security facilities, 18 percent in Medium Security 
facilities, 18 percent in Low Security facilities, 12 percent in 
Administrative facilities, and 1 percent in Minimum Security 
Facilities.

    Mr. Wolf. Okay, good.

                         INMATE TO STAFF RATIO

    Last week, the Inspector General testified that inmate and 
staff ratios are higher in federal facilities which average ten 
inmates per officer than in states where the average is 6.1; do 
you agree with those observations?
    Mr. Samuels. Yes.
    Mr. Wolf. And so how are the attacks in state and local 
prisons compare with attacks in federal prisons, in comparable 
populations, not numbers, so much, but in the type of crimes.
    Mr. Samuels. If you were to look at the larger-state 
correctional systems----
    Mr. Wolf. What one is that, is that California?
    Mr. Samuels. It would be California, Texas.
    Mr. Wolf. Sure.
    Mr. Samuels. In the Bureau of Prisons, all of our staff who 
work in the field are considered correctional workers. An 
example I would give, in many state systems, if a teacher is 
responsible for teaching in a classroom, more often you would 
have a correctional officer assigned to the area with the 
teacher.
    In the Bureau, the teacher is responsible for being the 
educator, as well as the correctional worker, serving in the 
role as the correctional officer would be. We are not able to 
provide the additional security that we would need for the 
large number of inmates that we have in our system. The overall 
inmate-to-staff ratio for the Bureau is a little under 5:1.
    When you look at the larger state systems, the ratio is 
3:1, so we are significantly outnumbered and have been for 
many, many years. As our population continues to grow, we have 
not been able to keep pace with our staffing levels to be 
comparable.
    Mr. Wolf. How does your staffing level, per inmate and per 
guard, compare to, say, California, Texas, and New York?
    Mr. Samuels. As I mentioned, we are right at 5:1 when you 
look at our overall staffing, and I believe with California, if 
you were to look at theirs, it would be slightly closer to 3:1.

                         POPULATION PROJECTION

    Mr. Wolf. In the long-term, crowding can be reduced by 
reducing the intake of prisoners, which is uncontrolled, having 
more space, which takes a long time and money. Moving people 
out to prison and sentencing; however, your most optimistic 
projection shows that the slight in overcrowding will be 
reversed and climb to 41 percent by 2019.
    Your request indicates this estimate is based on 
projections from the Courts, the U.S. Marshal, and other DOJ 
information. It also seems you add another 7,000 new spaces 
between now and the end of fiscal year 2016, but no new 
capacity thereafter.
    Is this your most optimistic projection based on full 
funding of your request?
    Mr. Samuels. Yes.
    Mr. Wolf. Yes, it is.
    Mr. Samuels. I would offer, sir, we are very, very hopeful 
that the Attorney General's initiative for Smart on Crime will 
help reduce our population. We are also hoping that the U.S. 
Sentencing Commission, looking at the possibility of offering 
an approach to have sentencing reform will be considered, to 
include the Congressional Initiatives. It will help us in the 
out years with our growing population.
    As was mentioned earlier by Congressman Fattah, when you 
look at the growth over the years, in 1940, we had 
approximately 26,000 inmates, and from 1940 to 1980, you are 
looking at 40 years when the population was pretty flat and 
steady.
    Mr. Wolf. Why?
    Mr. Samuels. Well, when you look at the law enforcement 
initiatives from 1980 to include the legislation with the 
Citizenship Reform Act and other legislative measures, the 
growth, and you mentioned earlier, we grew over 800 percent 
with our population, and our staffing has not kept pace.

                                 GANGS

    When you have more inmates than what the facility was 
designed to house, you have the propensity for violence to 
increase, and the growth alone I am not going to say is the 
contributing factor to violence, but we have a significant gang 
issue within the Bureau of Prisons. More than nine percent of 
our population is comprised of gang members, well over 20,000 
gang members and we are doing our best to try and mitigate the 
gang problem by having a strategic approach in how we manage 
these individuals.
    Many of these gangs are very, very violent, as you are 
aware, and we have many of these gang members within our 
facilities to include the gang leaders.
    Mr. Wolf. That is what I was going to ask you about--I am 
going to go to Mr. Fattah--but let me just ask you on the gang 
issue: You say nine percent?
    Mr. Samuels. Yes, sir.
    Mr. Wolf. And is it--what was it, say, ten years ago? Is it 
growing, stable, declining?
    Mr. Samuels. It has grown, obviously, due to the increase 
of our population.
    Mr. Wolf. Percentage-wise?
    Mr. Samuels. I would have to give you the percentage for 
the record.
    [The information follows:]

                              Gang Percent

    Currently, 20,024 inmates (9 percent) are affiliated with a 
Security Threat Group (gangs). Ten years ago, 17,990 inmates (10 
percent) were affiliated with gangs.

    Mr. Wolf. Violence-wise?
    Mr. Samuels. Violence-wise.
    Mr. Wolf. In the 1930s and the 1940s and the 1950s in the 
Bureau of Prisons, was it as--I know individuals--but did you 
have the violent gangs then? Was it different types of gangs? 
What has changed that put more of a stress on----
    Mr. Samuels. One of the things I will mention, as far as a 
change, we are seeing more younger aggressive individuals come 
into the prison system involved in the gangs and it is an area 
of concern. We are dealing with large numbers of these 
individuals who are also serving very, very long sentences.
    We have done our best to counter and have measures in place 
to deal with the population by utilizing cognitive behavioral 
therapy, which we have established programs to target these 
specific individuals to ensure that they are participating. We 
also know that as an inmate, using this as an example, as they 
continue to move towards completing their sentence over a 
period of time, as they become older, and some might say wiser, 
they are less likely to be involved in disruptive behavior 
within the facility.

                               INMATE AGE

    Mr. Wolf. So my last question, and then Mr. Fattah: On the 
age, the average age now is what compared to what it was in 
1950? Because the violence--the studies show that the younger 
are more, so does it show the age is dropping fairly 
dramatically or is it going from 46 to 45 or----
    Mr. Samuels. Well, the average age for our population now 
is 40.
    Mr. Wolf. Forty, okay.
    And what was it 20, 30, 40 years ago?
    Mr. Samuels. I would need to provide that for the record, 
which we can.
    [The information follows:]

                             Age of Inmates

    The average age of BOP's population is currently 40 years old. 
Twenty years ago (1994), the average age was 37 years old.

    Mr. Wolf. But is there a dramatic drop? I mean you said 
they are getting younger, but are they getting very much so 
or----
    Mr. Samuels. Just significant numbers coming in, but we 
will provide the specifics regarding the age and the time 
frame.

                      CHANGES TO THE PRISON SYSTEM

    Mr. Wolf. Okay. Mr. Fattah.
    Mr. Fattah. You know, I agree with the chairman. Let me 
just say--because we need to conclude--at least in terms of 
being able to go vote--is that we need a prison system that can 
house people who need to be--society needs to be protected 
from, right? We don't need a prison system in which people who 
don't need to be in prison are in prison, right? And their 
circumstances and their life choices altered in a way in which 
they can lead less productive lives, right?
    So, you know, we have to figure out how to make the changes 
that need to be made. It is not really your burden. It is just 
that we are the lawmakers, we are the policymakers in this, but 
we need more information, right? So the Attorney General's 
efforts on Smart on Crime; the chairman's leadership that led 
to this prison reform task force, the Colson Task Force; the 
work of people who have very different political viewpoints 
that range from Rand Paul to Dick Durbin and others who have 
some legislation over in the Senate on this issue, right, we 
can work together.
    And I think the chairman's point is that there is a window 
here in which something important could be done on behalf of 
the country because when we have dangerous people on the street 
harming people and a threat to society, we need to have prisons 
available for them, but we can't--you know, we can't be in a 
situation where we are taking a bad-check writer and putting 
him in jail and we don't have room for murderers, rapists, 
kidnappers. I mean it just doesn't make sense at the end of the 
day and we got to figure this out, and there is nobody else to 
figure it out, we have to do it on our watch, so thank you very 
much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Fattah.
    I just have two or three more last questions. The age 
issue, I want to get before I leave, because as it gets 
younger, you are saying it gets more violent, but as it gets 
older, less violence, but as it gets older, more medical costs, 
so it sort a----

                          GANGS AND TERRORISTS

    Mr. Samuels. You are correct.
    Mr. Wolf. Our concern with prison gangs is the potential to 
contribute to indoctrination or radicalization of inmates, 
including making them susceptible to potential exploitation by 
terrorists or other violent groups.
    Can you describe how BOP works with the interagency 
community to monitor and report on developments related to gang 
organizations and potential connections with terrorism to 
include working with joint terrorist task force and other 
national safety, security, or intelligence agencies?
    Mr. Samuels. Yes, we are very active with our law 
enforcement partners relative to gang-related specific issues 
to include international and domestic terrorism, and we have 
staff within the Bureau of Prisons who are assigned to the 
various JTTFs throughout the country, and we monitor very, very 
closely all of the issues regarding the concerns within the 
prison system to ensure not only that we are doing everything 
we can to detect and disrupt any inappropriate activity within 
the Bureau, but we are also working closely and sharing 
information with the law enforcement community for any 
potential threat that can carry over into the communities. It 
has been working very, very well, and I know, of course, it's 
with your leadership and involvement and oversight, as well.
    A couple of years ago, I sat in on one of the briefings 
provided to you with the law enforcement community on the 
various initiatives that we were working with. We are ensuring 
that we are providing the intelligence and ensuring that if 
there are any requests submitted to the Bureau, we are working 
closely to immediately provide that information to ensure that 
any potential threats are eradicated.

                       RADICALIZATION OF INMATES

    Mr. Wolf. Now, before your time, years ago we looked at 
some of that literature was being sent in on radicalization. It 
was very dangerous. Can you pretty assure us that you have 
stopped the radicalization literature that was coming in by 
certain elements?
    Mr. Samuels. Yes, I can give assurances to the 
subcommittee. It is a very, very extremely high priority for 
the Bureau. We review all material communications to do 
everything possible to prevent any form of radicalization 
internally within the Bureau, and to also prevent any dangerous 
material and/or issues from being communicated or used.

                              CELL PHONES

    Mr. Wolf. And efforts to block cell phones in prison, can 
you tell us a little bit about that?
    Mr. Samuels. Yes, sir. We are exploring technology. The 
most recent technology that is being used, some state systems 
have it in place, is managed access. We are undergoing the 
review process of having two pilots within the bureau utilizing 
the technology.
    One of the areas we still have to work out is the legal 
requirements regarding the contracting issues and access for 
delivery of the services. We want to make sure, since the use 
of managed access is very expensive, that before we move 
further with obligating any taxpayer dollars towards this 
science we are very, very comfortable with what it can offer.

                        AGING INMATE POPULATION

    Mr. Wolf. I am going to ask this last question and then go 
to Mr. Culberson and Mr. Fattah.
    But I think we covered it briefly, but I think we need it 
for the record because it deals with a lot of the issues. We 
are dealing with the cost, but also on how you treat elderly 
versus the other.
    And the inspector general testified last week that BOP's 
inmate population is aging which seems to run a little counter 
with what you had earlier said, a 31 percent increase since 
2010 the population of inmates over the age of 65 and a 
corresponding decrease in the population under 30. That is why 
I was a little confused what you were saying. This has real 
cost implications.
    How has this demographic change affected the medical cost 
for the Bureau of Prisons?
    And then, secondly, your budget indicates that medical 
costs have grown 71 percent since 2005 from $350 million to 
$600 million.
    Last week, the inspector general testified the cost was 
higher than $977 million. So 2005, $350 million; 2011, $977 
million.
    So what is your estimate for the total cost of providing 
for inmate health? How has it risen and what will your estimate 
be for 2015?
    Mr. Samuels. I want to clarify, my comments regarding the 
younger offenders coming into the system is something that has 
happened. But then at the same time, because of the number of 
the individuals who are serving long sentences and will 
continue to do so under the current structure, we will always 
be faced with the aging and growing population.
    Obviously, as you mentioned, a great concern for the Bureau 
of Prisons because the medical costs are significant. We are 
currently spending in excess, for overall healthcare for our 
population, a billion dollars.
    Mr. Wolf. A billion?
    Mr. Samuels. A billion. And I would offer again, if you 
were to look at the size of our population, you can compare us 
to the larger correctional state systems. A billion dollars, I 
know, is a lot of money, but with the efficiencies we have in 
place, such as consolidating contracts, we are still managing 
the overall cost for medical care appropriately. But if our 
population continues to grow, the costs will continue to go up.
    Mr. Wolf. So a billion for healthcare. What is your total 
budget?
    Mr. Samuels. Well, for the fiscal year 2015 request, we are 
looking at $6.8 billion.
    Mr. Wolf. So, boy. Mr. Culberson and we will end with you.

                              HEALTH CARE

    Mr. Culberson. Thank you, Mr. Chairman.
    The healthcare costs don't include optional or cosmetic 
type surgery, do they? I mean, you really focus on the 
essentials?
    Mr. Samuels. These are the essentials. Under our policy, we 
do not offer routine cosmetic surgery.
    Mr. Wolf. Nor should you.
    Mr. Culberson. Nor should you. You bet. We actually ran 
into that, Mr. Chairman. The Texas Corrections Committee found 
a guy that wanted the State to pay for a sex change operation.
    That does not happen in the federal prison system with 
federal tax dollars, does it?
    Mr. Samuels. Currently we have not done it. It would be 
something where, if it were to occur relative to a legal issue, 
if we are engaged in that type of discussion, if we are told 
that we would have to do it.
    Mr. Culberson. It is not currently prohibited by federal 
law or federal, for example, restrictions on appropriations?
    It lit up the Texas legislature, Mr. Chairman and Mr. 
Fattah, as you can imagine.
    Mr. Samuels. Yes. I would want to provide for the record a 
legal----
    Mr. Culberson. I really wasn't even going to bring it up 
till you mentioned this, but----
    Mr. Wolf. Maybe we should carry some language for 
prohibiting this particularly because, you know, we want to 
support the system and do everything we can for rehabilitation 
and correction. And so if you start entering things like this--
--
    Mr. Fattah. I think what he said is that they don't do it.
    Mr. Wolf. No. I know and I----
    Mr. Fattah. But if he was ordered by a court of law in our 
country----
    Mr. Wolf. But I want to make sure that----
    Mr. Fattah [continuing]. He would have to.
    Mr. Wolf [continuing]. You don't do it on your own because 
then I think you are going to find--I think we are at a unique 
time. I mean, Mr. Fattah and I work closely together and I know 
you look outside. Some of the groups that come by, they are 
conservative and they are liberal.
    And we don't want to hurt that consensus that appears to be 
whereby we can do some fairly significant things in prisons. 
There seems to be a coming together.
    Mr. Samuels. Yes.
    Mr. Wolf. So if we interject something like that, you could 
just take that away. And so, you know, I just don't think you 
should ever do that. I can't stop what a court tells you. I 
mean, we are not--but on your own, do not ever do that.
    Mr. Samuels. Yes. And with all due respect, as Congressman 
Fattah mentioned, I do want to make an agency confirmation as 
far as a statement because it would require, if we were looking 
at any potential issue like that, a legal review. And I just 
offer that to the subcommittee.
    Mr. Culberson. Sure. And I wasn't even going to bring it up 
until you started about the healthcare because I can tell you 
the entire Texas legislature, it lit us up. It caused a bad 
problem.
    There is a way, as Chairman Wolf said, of agreement. And 
Mr. Fattah has been wonderful. This subcommittee works together 
beautifully. And I think you should, as the chairman suggested, 
take advantage of that wave of support and unanimity on so many 
issues when it comes to rehabilitation and preventing 
radicalization in the prison system which is what I really 
wanted to ask about just to follow-up on some of the chairman's 
questions, in particular the process for vetting chaplains.

                           VETTING CHAPLAINS

    Have you changed the process for vetting chaplains? How are 
you vetting them particularly in light of the findings by the 
Homeland Security Committee?
    Mr. Samuels. Yes. Our procedures stand where we vet 
chaplains coming into any employment situation with the Federal 
Government to ensure that there are no concerns and, if so, we 
deal with those.
    Mr. Culberson. No concerns such as?
    Mr. Samuels. Any issues that would pose concerns with their 
employment, within the agency.
    Mr. Culberson. Such as?
    Mr. Samuels. I mean, we----
    Mr. Culberson. What would cause a concern?
    Mr. Samuels. If someone was seeking employment within the 
bureau and their agenda is not in line with our policies and 
procedures and ultimately, what we would be responsible for 
carrying out under the law.
    If there were any issues raised that would cause concern 
relative to safety and security within our facilities, then we 
would have great concern with that and we would not be moving 
forward with an offer of employment.
    Mr. Culberson. And I may need your help with this, Mr. 
Chairman, because you are a lot more knowledgeable about this 
than I am.

                    COMMUNICATION WITH RADICAL SECTS

    What about communication and affiliation with some of these 
radical sects in the Islamic world?
    Mr. Samuels. And this would be----
    Mr. Culberson. How do you flesh that out?
    Mr. Samuels. And that would be part of, again, working with 
our partners and if something is brought to our attention that 
raises that level of concern, it would be something that we 
would really have to look at very, very closely.

                      RADICAL SAUDI FUNDED MOSQUE

    Mr. Culberson. I always remember Chairman Wolf had a--what 
was it? It was a--Mr. Chairman, the school of Virginia was a 
Saudi funded mosque? What was it that you had in northern 
Virginia that was a----
    Mr. Wolf. It still operates. The Saudi Academy.
    Mr. Culberson. Saudi Academy.
    Mr. Wolf. And the head of the Saudi Academy is the Saudi 
ambassador. And they found anti-Semitic and anti-Christian 
material in the textbooks.
    And also, I want to supply this for the record, so we have 
it exactly right, the valedictorian one of the years, I think 
has been sentenced. He is in your prison system now.
    Do you recall that case? Does anybody recall that?
    Mr. Samuels. I do not recall the specifics of the case.
    Mr. Wolf. Well, we will give you all the details because it 
was, and I want to clarify it, I think for an attempt, planning 
an attempt on the assassination of the President and it was a 
graduate of. And so we will, for the record, we will submit 
something in so you have it.
    With that----
    Mr. Culberson. That is a real concern. I certainly 
understand your perspective should be to make sure that you are 
not allowing chaplains in that could potentially violate prison 
policy, et cetera.
    But this is a little amorphous. We want to make sure that 
you are keeping chaplains out that have any involvement with, 
connection to some of these really violent, dangerous, anti-
Semitic sects in the Islamic world.
    Mr. Samuels. Yes. And I would offer, Congressman----
    Mr. Culberson. Or, frankly, anybody.
    Mr. Samuels. Yes. We have----
    Mr. Culberson. Don't want to single them out.

                             BOP CHAPLAINS

    Mr. Samuels [continuing]. Very, very good, dedicated 
chaplains working with the Bureau of Prisons who provide 
services for a number of religious faiths. If at any time we 
are informed or if there is any intelligence, and no different 
for any employee working within the bureau, if there is a 
concern we will immediately deal with that issue and take care 
of it as well as with the vetting process for anyone seeking 
employment within the bureau.
    Mr. Culberson. If someone is employed, allowed access to 
the prison system, you have got the ability to check into their 
communications or their affiliations, et cetera. They are to a 
certain extent coming in to work in a prison system. You waive 
a certain amount of your privacy rights it would seem to me.
    Mr. Samuels. Yes.
    Mr. Culberson. And you do so voluntarily. You know that you 
are going into a very dangerous, controlled environment and you 
would, particularly as an employee or a chaplain, subject 
yourself to heightened scrutiny.
    Mr. Samuels. Yes, all staff.
    Mr. Culberson. So what do you do to protect against 
potentially radical chaplains influencing inmates? I mean, what 
are you doing to make sure that you keep tabs on these guys so 
they are not, for example, affiliating themselves with or 
communicating with some of these radical nut jobs out there?
    Mr. Samuels. Well, any program services delivered within 
our institution, as you mentioned, there is no privacy in 
regards to carrying out your work and interactions with----
    Mr. Culberson. And people understand that----
    Mr. Samuels [continuing]. The inmate population.
    Mr. Culberson [continuing]. When they come in.
    Mr. Samuels. Staff also have to understand that. Many of 
the services provided for the inmate population are monitored 
and recorded. We do not have any large scale concerns 
throughout the agency where something is occurring.
    If we are informed through intelligence gathering that 
there is a specific issue relative to any specific staff 
member, we will appropriately address those concerns and 
investigate properly.
    Mr. Culberson. Sure. And I won't drag it out, but I just 
want to close with saying, you know, we are not talking about 
just communication with inmates. I am talking about these guys 
communicating outside of the prison system with some of these 
radical elements is just a real concern.
    Mr. Samuels. Yes. I stated earlier, we work very, very 
closely with the law enforcement community. If it is brought to 
our attention, whether it is a chaplain or any employee within 
in the bureau, and there is a concern that something is 
inappropriate, we will ensure that those issues are properly 
investigated and handled.
    Mr. Culberson. Has NSA ever brought anybody to your 
attention? Have you ever had one of the intelligence agencies 
of the United States point out you have got a guy coming into 
the prison system as a chaplain or whatever and this guy has 
been communicating with someone who is a real problem? Has that 
ever happened?
    Mr. Samuels. Congressman, I would state for the record, we 
work with the entire law enforcement community. And when we are 
engaged with any specifics for a specific agency, we address 
the concerns.
    Mr. Culberson. Okay. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Fattah, do you have anything?

                           Closing Statement

    Mr. Fattah. No, thank you, Mr. Chairman.
    I think that we have had a good hearing. And it is your 
last hearing potentially in this capacity and it has been a joy 
working with you through this process. You are the only 
committee chairman in the history of the House that does not 
use a clock of any sort at any time through these proceedings 
and allow every Member of the committee to ask whatever 
questions they want.
    And I actually think that you should be publicly commended 
for that because oftentimes Members particularly in junior 
positions in the committee have not had the same opportunity to 
ask questions.
    So thank you, and I yield back.
    Mr. Wolf. Okay. Well, thank you, Mr. Fattah, for your 
comments.
    Mr. Culberson. I want to second that truly, Mr. Chairman. I 
mean, really. You really let everybody have a chance to talk. I 
mean, you have done a great service to the country and the 
people of Virginia.
    Mr. Wolf. Thank you, Mr. Culberson.
    Mr. Samuels, I want to thank you. If you take it back, 
thank all of your staff, all the guards and the people that 
don't get the opportunity to come to Washington. We are very, 
very grateful for what they do.
    And with that, the hearing is adjourned. Thank you.
    Mr. Samuels. Thank you, sir.
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                          W I T N E S S E S

                              ----------                              
                                                                   Page
Comey, J. B......................................................    37
Hoffman, B. R....................................................    37
Holder, Attorney General Eric....................................   185
Leonhart, M. M...................................................   113
McCain, Cindy....................................................     1
Meese, Edwin, III................................................    37
Roemer, T. J.....................................................    37
Ryan, J. D.......................................................     1
Samuels, C. E., Jr...............................................   317
Volkow, N. D.....................................................   113
Vu, Stephanie....................................................     1
Woolf, William...................................................     1

                                  [all]
</pre></body></html>
